<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2015</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




              DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2015

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS

                              SECOND SESSION

                                ________

                         SUBCOMMITTEE ON DEFENSE

              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman

  JACK KINGSTON, Georgia           PETER J. VISCLOSKY, Indiana
  KAY GRANGER, Texas               JAMES P. MORAN, Virginia
  ANDER CRENSHAW, Florida          BETTY McCOLLUM, Minnesota
  KEN CALVERT, California          TIM RYAN, Ohio
  TOM COLE, Oklahoma               WILLIAM L. OWENS, New York
  STEVE WOMACK, Arkansas           MARCY KAPTUR, Ohio
  ROBERT B. ADERHOLT, Alabama
  JOHN R. CARTER, Texas

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

        Tom McLemore, Jennifer Miller, Paul Terry, Walter Hearne,
          Maureen Holohan, Tim Prince, Brooke Boyer, B G Wright,
               Adrienne Ramsay, and Megan Milam Rosenbusch,
                             Staff Assistants

                   Sherry L. Young, Administrative Aide
                                ________

                                  PART 2

                                                                   Page
Defense Health Program.......................................         1
FY 2015 National Guard and Army Reserve......................       135
Testimony of Members of Congress.............................       261
U.S. Pacific Command / U.S. Forces Korea.....................       333
Missile Defense Agency.......................................       381
U.S. Africa Command..........................................       439
Overseas Contingency Operations Funding......................       457
Public Witness Testimony.....................................       467
                                ________

          Printed for the use of the Committee on Appropriations





















              DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2015

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED THIRTEENTH CONGRESS

                              SECOND SESSION

                                ________

                         SUBCOMMITTEE ON DEFENSE

              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman
JACK KINGSTON, Georgia           PETER J. VISCLOSKY, Indiana
  KAY GRANGER, Texas               JAMES P. MORAN, Virginia
  ANDER CRENSHAW, Florida          BETTY McCOLLUM, Minnesota
  KEN CALVERT, California          TIM RYAN, Ohio
  TOM COLE, Oklahoma               WILLIAM L. OWENS, New York
  STEVE WOMACK, Arkansas           MARCY KAPTUR, Ohio
  ROBERT B. ADERHOLT, Alabama
  JOHN R. CARTER, Texas

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

        Tom McLemore, Jennifer Miller, Paul Terry, Walter Hearne,
          Maureen Holohan, Tim Prince, Brooke Boyer, B G Wright,
               Adrienne Ramsay, and Megan Milam Rosenbusch,
                             Staff Assistants

                   Sherry L. Young, Administrative Aide
                                ________

                                  PART 2

                                                                    Page
Defense Health Program.......................................         1
FY 2015 National Guard and Army Reserve......................       135
Testimony of Members of Congress.............................       261
U.S. Pacific Command / U.S. Forces Korea.....................       333
Missile Defense Agency.......................................       381
U.S. Africa Command..........................................       439
Overseas Contingency Operations Funding......................       457
Public Witness Testimony.....................................       467
                                ________
 
                    U.S. GOVERNMENT PUBLISHING OFFICE

  92-984               WASHINGTON : 2015



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman

 FRANK R. WOLF, Virginia                 NITA M. LOWEY, New York
  JACK KINGSTON, Georgia                 MARCY KAPTUR, Ohio
  RODNEY P. FRELINGHUYSEN, New Jersey    PETER J. VISCLOSKY, Indiana    
  TOM LATHAM, Iowa                       JOSE E. SERRANO, New York
  ROBERT B. ADERHOLT, Alabama            ROSA L. DeLAURO, Connecticut
  KAY GRANGER, Texas                     JAMES P. MORAN, Virginia 
  MICHAEL K. SIMPSON, Idaho              ED PASTOR, Arizona   
  JOHN ABNEY CULBERSON, Texas            DAVID E. PRICE, North Carolina   
  ANDER CRENSHAW, Florida                LUCILLE ROYBAL-ALLARD, California  
  JOHN R. CARTER, Texas                  SAM FARR, California  
  KEN CALVERT, California                CHAKA FATTAH, Pennsylvania  
  TOM COLE, Oklahoma                     SANFORD D. BISHOP, Jr., Georgia 
  MARIO DIAZ-BALART, Florida             BARBARA LEE, California     
  CHARLES W. DENT, Pennsylvania          ADAM B. SCHIFF, California        
  TOM GRAVES, Georgia                    MICHAEL M. HONDA, California    
  KEVIN YODER, Kansas                    BETTY McCOLLUM, Minnesota           
  STEVE WOMACK, Arkansas                 TIM RYAN, Ohio     
  ALAN NUNNELEE, Mississippi             DEBBIE WASSERMAN SCHULTZ, Florida           
  JEFF FORTENBERRY, Nebraska             HENRY CUELLAR, Texas 
  THOMAS J. ROONEY, Florida              CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee      MIKE QUIGLEY, Illinois        
  JAIME HERRERA BEUTLER, Washington      WILLIAM L. OWENS, New York        
  DAVID P. JOYCE, Ohio                          
  DAVID G. VALADAO, California                
  ANDY HARRIS, Maryland                     
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah

              William E. Smith, Clerk and Staff Director

                                   (ii)

 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2015

                              ________

                                          Wednesday, April 2, 2014.

                         DEFENSE HEALTH PROGRAM

                               WITNESSES

LIEUTENANT GENERAL PATRICIA D. HOROHO, SURGEON GENERAL, UNITED STATES 
    ARMY
VICE ADMIRAL MATTHEW L. NATHAN, SURGEON GENERAL, UNITED STATES NAVY
LIEUTENANT GENERAL THOMAS W. TRAVIS, SURGEON GENERAL, UNITED STATES AIR 
    FORCE
JONATHAN WOODSON, ASSISTANT SECRETARY OF DEFENSE, HEALTH AFFAIRS

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Good afternoon, the subcommittee will 
come to order.
    This afternoon, the subcommittee holds an open hearing on 
the fiscal year 2015 budget request for the Defense Health 
program. I would like to welcome Dr. Jonathan Woodson, 
Assistant Secretary of Defense for Health Affairs; Surgeon 
General of the Army, Lieutenant General Patricia Horoho.
    I always mispronounce that. I apologize.
    The Surgeon General of the Navy, Vice Admiral Matthew 
Nathan; and the Surgeon General of the Air Force, Lieutenant 
General Thomas Travis.
    Let me say particularly to Vice Admiral Nathan, thank you 
for your special work with our friend and colleague, the late 
Congressman Bill Young. You and your team did some remarkable 
things, and I just want the record to show that on behalf of 
all of us, we are very grateful. And all of you who were 
interested and involved in it, let me thank all of you for the 
high level of interest.
    I thank all of you for your service and welcome you back to 
the committee. As always, the committee remains committed to 
providing the very best in medical care to our service men and 
women, all volunteers as they put their lives on the line for 
us each and every day. Whether at home or abroad, they deserve 
the best physicians, nurses, healthcare professionals, 
equipment and technology available to treat whatever wounds 
they sustain, whether it be physical or mental. And that is for 
the long term, whether they remain in the military, or whether 
they become--they immediately become veterans.
    For example, more than 1,600 personnel now bear 
amputations. I have seen estimates that up to 400,000 
individuals are suffering from post-traumatic stress disorder, 
or syndrome, and of course, there are many cases of TBI, 
traumatic brain injury. Many of you saw the front page 
Washington Post story on Sunday, ``A Legacy of Pain and 
Pride.'' The piece reports that more than half of the 2.6 
million personnel deployed to Iraq and Afghanistan struggle 
with physical and mental health problems stemming from their 
service. They feel disconnected from civilian life and believe 
the government is failing to meet the needs of this 
generation's veterans.
    Retired Army Staff Sergeant Christopher Steavens 
crystallized the mission of this committee and the Department 
of Defense. He said, and I quote, ``I raised my right hand and 
said, I will support and defend the Constitution of the United 
States of America. I gave them everything I could. I would 
expect the same in return,'' end of quotation marks.
    And he should expect the same in return. We recognize that 
the Veterans Administration bears responsibility here, too. But 
as far as the active, Guard and Reserve personnel are 
concerned, your Department and this committee commits ourselves 
to giving our soldiers, sailors, Marines, and airmen everything 
they need. We are keenly aware that the Department of Defense 
faces a tremendous challenge with the growing cost and long-
term sustainability of the military healthcare system, a system 
with about 10 million beneficiaries. Military healthcare costs 
have risen from $19 billion in fiscal year 2001 to 
approximately $47.4 billion in fiscal year 2015 in your budget 
request.
    This budget request assumes savings associated with several 
controversial TRICARE benefit cost-saving proposals. I would 
note that these recommendations must be ultimately approved by 
Congress, and they have been rejected in the past. The 
committee is interested in hearing more about them today.
    Additionally, the committee remains distressed about the 
unacceptably high rate of suicide and sexual assault and the 
ability of the Department to provide mental health counseling 
for servicemembers. It is imperative that the Department get to 
the heart of these two critical issues.
    We also remain concerned after years of substantial 
investment over the continued lack of an electronic health 
record that will help our servicemembers seamlessly--we have 
been using that term for quite a long time--transition their 
care from the Department of Defense to the Department of 
Veterans Affairs. This is an issue with real world day-to-day 
implications for our troops and our veterans.
    The initial mandate for an integrative record was included 
in the fiscal year 2008 National Defense Authorization Act. 
Now, 7 years later, we have yet to see working interoperable 
records between the two Departments. This is unacceptable. And 
the committee needs to know that progress is occurring and that 
this challenge will soon have a solution.
    So welcome back. We welcome your testimony.
    And at this time, I would like to turn to my ranking 
member, Mr. Visclosky, for any comments or statement he would 
like to make.
    Mr. Visclosky. Thank you very much, Mr. Chairman.
    Mr. Chairman, I thank you for holding this hearing as you 
address questions as to how we care for our servicemembers and 
their families. I also do want to thank our witnesses for their 
testimony. Your remarks and frank answers to our questions are 
essential to our deliberations on the fiscal year 2015 budget 
request.
    In order to preserve the readiness of our U.S. forces and 
our ability to provide world class care, this year's request 
proposes to control the growth of personnel and healthcare 
costs that consume an increasing share of the Defense budget. I 
recognize the need to address these problems, problems that 
have proven to be some of the most difficult to resolve in 
light of unsuccessful attempts in the past with plenty of, if 
you would, responsibility resting in the Congress as well as 
the current and past administrations.
    As we proceed, I believe that all of us want to also 
ensure, however, that these changes are equitable in their 
impact. With that, I thank you for your service and your 
testimony today.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky.
    Mr. Secretary, the floor is yours. Your entire printed 
statement will be put in the record, and we are glad you are 
back. Thank you.

                        Testimony of Dr. Woodson

    Dr. Woodson. Well, thank you very much, Chairman 
Frelinghuysen, Ranking Member Visclosky, and members of the 
subcommittee. Thank you for the opportunity to present the 
Department of Defense request for fiscal year 2015 health 
program funding.
    Our national security and defense strategies must be 
supported by a strong, relevant, agile, and forward-leaning 
Military Health System. Our servicemembers deserve and the 
American people expect excellent care delivered reliably, 
effectively, efficiently, and compassionately anywhere our 
servicemembers are stationed or deployed. Our fiscal year 2015 
budget supports these efforts and supports our quadruple aim of 
increased readiness, better health, better care at lower cost. 
We are committed to sustaining the medical readiness of our 
forces, the clinical skills of our medical forces, and the 
world class treatment and rehabilitation for those who fight 
battles today, yesterday, and tomorrow.
    This budget also sustains our long-term medical research 
and development portfolio, allowing us to continually improve 
the care for the warfighter. The Military Health System has 
performed well in 13 years of war, achieving historic outcomes 
in our ability to reduce the rate of disease and nonbattle 
injury in the combat theater and to increase the rate of 
survival of war wounds.
    We are proud of these outcomes, but in order to meet our 
mission in the face of changing threats and limited resources 
and working closely with the Surgeons General, I have outlined 
six lines of effort for the Military Health System in support 
of the Secretary's priorities. These include modernizing the 
Military Health System's management with an enterprise focus, 
define and resource the medical capabilities and manpower 
needed in the 21st century, invest in and expand strategic 
partnerships, assess the balance of our medical force 
structure, modernize the TRICARE health program, and define the 
Military Health System's global health engagement requirements.
    For this hearing, I would like to focus on two of these 
efforts that directly relate to our budget request for this 
year. The Defense Health Agency, a designated combat support 
agency, is an important first step in modernizing our common 
business and clinical practices with accountability for 
performances both to the Assistant Secretary of Defense for 
Health Affairs and the Chairman of the Joint Chiefs of Staff. 
We have incorporated 7 of the 10 shared services into the 
Defense Health Agency and we have made substantial progress in 
achieving savings earlier than projected, as we consolidated 
functions and we reduced redundancy and variation.
    Our proposal for fiscal year 2015 budget also includes 
efforts to modernize the TRICARE program. This proposal will 
simplify and modernize the existing TRICARE program in ways 
that provide incentives for wellness, decrease over-utilization 
and allow beneficiaries to choose their providers. This 
proposal includes modest increases in beneficiary out-of-pocket 
costs. I fully recognize that any increase in out-of-pocket 
costs for our beneficiaries introduces concern from those we 
serve, the organizations that represent them, but I want to 
make clear that the TRICARE benefit will remain one of the most 
comprehensive benefits in this country, and it will modernize 
the program for the first time in many years.
    Mr. Chairman, we understand that the Department of Defense 
must do its part in addressing the Nation's budget concerns and 
that it must be done in a responsible and judicious manner. I 
believe this proposed budget meets the test, and I am hopeful 
that working collaboratively with Congress and our military 
servicemember and the veterans organizations we can reach an 
agreement on the budget proposals.
    I thank you for the opportunity to speak here today, and I 
look forward to your questions.
    Mr. Frelinghuysen. Thank you, Mr. Secretary.
    [The statement of Dr. Woodson follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                        Testimony of LTG Horoho

    Mr. Frelinghuysen. Surgeon General Horoho, the floor is 
yours. Thank you for being with us.
    General Horoho. Chairman Frelinghuysen, Ranking Member 
Visclosky, and distinguished members of the subcommittee, I 
thank you for this opportunity to tell the Army medicine story.
    On behalf of the dedicated soldiers and civilians that make 
up Army medicine, I appreciate the support that Congress has 
provided. I want to start by acknowledging America's sons and 
daughters who are still in harm's way today. We have 32,000 
soldiers committed to operations in Afghanistan and an 
additional 120,000 soldiers forward stationed or deployed in 
nearly 150 countries doing the work of freedom.
    Since 1775, the Army's medical personnel have served with 
our fighting troops and received them when they returned home. 
We do this by focusing our efforts across four priorities: 
combat casualty care; the readiness and the health of the 
force; a ready and deployable medical force; and the health of 
our families and retirees.
    Just as the health of the Nation and the health of our Army 
are not separate entities, the health and the readiness of our 
Army are inseparable because health is a critical enabler to 
readiness.
    Today, I am proud to report that we are beginning to see 
results in readiness, in health, in cost savings. To our 
service lines and standardization of processes across the 
medical command, we have synchronized our policy, programs, and 
resources, and we are starting to see some very strong results. 
Our medical and dental readiness is at its highest level since 
2001. Our performance triad of healthy sleep, activity, and 
nutrition is spreading across our Army and Army family. Since 
embedding behavior health capabilities in the brigade 
footprint, soldiers used outpatient behavior health care more 
frequently, had fewer acute crises, and required approximately 
25,000 fewer inpatient psychiatric bed days in 2013 compared to 
2012. This brought a cost avoidance of approximately $28 
million.
    The Army wellness centers are seeing early indicators in 
improved health. For the 2,400 individuals who were followed, 
62 percent saw a 4 percent decrease in their body mass index 
and a 15 percent increase in cardiovascular fitness and oxygen 
consumption. Our patient-centered medical home led to a 6 
percent reduction in over-utilization of emergency room visits, 
which equates to a $16.3 million cost avoidance and a decrease 
in polypharmacy of almost 50 percent.
    I believe this is only the beginning as we continue towards 
a system of health. Army medicine ensures that the Army 
maintains a medically ready force and a ready medical force. 
Our health care providers require professional and operational 
development, which begins in our military hospitals. The Army 
medicine operating force provided 70 percent of combat casualty 
care in Iraq and Afghanistan. This valuable experience 
permeates into our education and our training base of the 
Uniform Service University, Army Medical Department (AMEDD) 
Center and School and our Joint Medical Education and Training 
Center at Fort Sam Houston. Our programs are outlined further 
in the written testimony. So I want to take a moment to 
acknowledge what is not in my written testimony.
    And that is, this is a time of hard conversations and very 
tough choices. For the first time, we are decreasing the size 
of our Army before the longest war in our Nation's history has 
ended. We are poised to transition to the interwar years, and 
we must work aggressively to sustain our combat care skills, 
nurture an environment of dignity and respect, and maintain 
trust with the American people.
    As a leader, I get asked what keeps me up at night. I worry 
about the long-term repercussions of these wars on our 
veterans. I worry about sexual assault and sexual harassment 
occurring across our Nation and Department of Defense. I worry 
about losing momentum towards building the health, resiliency, 
and readiness of our armed force. I worry about the loss of 
science and technology that has accelerated medical advances 
that give the American public confidence to allow their sons 
and daughters to serve.
    Our Nation has the best military medical team in the world, 
and there is no true equivalent within the civilian sector. We 
are a combat multiplier. We are drivers of medical innovation. 
What our men and women in military medicine do every day on 
deployments and in garrison is what makes military medicine 
unique, and it is what makes me very, very proud. This is both 
a time of challenge and a time of opportunity. The nature of 
war will always have medical threats. Our job is to be ready, 
whenever, and wherever. Anything less will cost lives, and this 
is not going to happen on my watch.
    Though we live in uncertain times, one thing is certain: A 
healthy, resilient, and ready Army will be, as it always has 
been, the strength of our Nation.
    I want to thank my partners in the Department of Defense 
and the VA, my colleagues here today on the panel, Congress, 
for your continued support. The Army medicine team is serving 
proudly; honored to serve. Thank you.
    Mr. Frelinghuysen. Thank you, General.
    [The statement of Lieutenant General Horoho follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                        Testimony of VADM Nathan

    Mr. Frelinghuysen. Admiral Nathan, welcome.
    Admiral Nathan. Thank you, sir.
    Chairman Frelinghuysen, Ranking Member Visclosky, 
distinguished members of the subcommittee, I am grateful for 
the opportunity to appear before you today on behalf of the 
dedicated men and women of Navy Medicine. We want to thank the 
committee for your outstanding support and your confidence. I 
can report to you that Navy Medicine and our team is mission-
ready in delivering world class care anywhere any time.
    Navy Medicine OPTEMPO remains high, protecting, promoting, 
and restoring the health of Sailors and Marines deployed around 
the world, ashore, and afloat in all warfare domains above the 
sea, on the sea, under the sea, and on the land. We exist to 
support the operational missions of both the Navy and the 
Marine Corps. These responsibilities require us to be an agile, 
expeditionary medical force capable of meeting the demands of 
crisis response and global maritime security.
    Within Navy medicine, our planning efforts must always be 
synchronized with the Navy and Marine Corps. Our way forward 
reflects purpose and commitment to build on the work and 
investments we made last year. Our strategic goals remain as 
they did, readiness first, value and jointness. The goals are 
critical to sustaining our readiness mission, remaining 
flexible in the face of changing operational requirements and 
fiscal challenges as well as effectively managing our 
resources. They also leverage the use of technology and 
telehealth, help standardize clinical and business processes 
and improve alignment.
    Throughout Navy Medicine, our leaders are achieving 
measurable progress on these goals, and I am encouraged that 
these priorities are taking hold throughout our enterprise. By 
leveraging the capabilities of our patient-centered medical 
home, Medical Home Port, and initiating our CONUS hospital 
optimization plan, we are moving more workload into our MTFs. 
We are growing our enrollment and we are rebalancing staff and 
reducing overall purchase care expenditures. Just as 
importantly, we are ensuring that our graduate medical 
education programs remain second to none and that our provider 
teams sustain the clinical currency to always be battlefield 
ready.
    The establishment of the Defense Health Agency is an 
important milestone for the Military Health System and our 
collective efforts to realize potential efficiencies and 
savings. Navy Medicine is working with the DHA in conjunction 
with our partners in the Army and Air Force, to ensure that 
rigorous business case analysis is conducted and validated for 
the shared services while we continue to focus on improved 
integration of health care, benefits, and services in the six 
enhanced multiservice markets.
    Strategically, I am convinced that we are stronger as a 
result of our work with the other Services, our interagency 
partners, leading academic and private research institutions, 
as well as other civilian experts. These collaborations are 
essential. They are important as we leverage efficiencies and 
best practices in clinical care, research, education, global 
health engagement, and supporting our wounded servicemembers in 
their recovery and ultimately in their transition.
    Psychological health is an important component of overall 
force health protection. We recognize that prolonged 
operational stress can have significant and potentially 
debilitating consequences. We continue to embed mental health 
capabilities in operational units and primary care settings in 
order to identify and manage issues before they manifest to 
psychological problems. This priority extends to suicide 
prevention efforts where we train Sailors, Marines, and their 
families to recognize operational stress and use tools to 
manage and reduce its effects.
    As leaders, we have renewed our emphasis on ensuring that 
we focus on every Sailor every day, particularly those in 
transition, who may be facing personal and professional 
adversity. We know that an increasing sense of community and 
purpose is an important protective factor in preventing 
suicide. We must remain ready and accessible to those who need 
our help. These are transformational times in military 
medicine. There is much work ahead as we navigate the important 
challenges and seize the opportunities to keep our Sailors and 
Marines healthy and maximize the value for all of our patients 
and leverage our joint opportunities.
    I am encouraged with the progress we have made, but I am 
not satisfied. We continue to look for ways to improve and 
remain on the forefront of delivering world class health care 
anywhere, any time. Again, thank you, sir, and I look forward 
to your questions.
    Mr. Frelinghuysen. Thank you, Admiral Nathan.
    [The statement of Vice Admiral Nathan follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                       Testimony of LT GEN Travis

    Mr. Frelinghuysen. General Dr. Travis, thank you for being 
with us again.
    General Travis. Yes, sir. Thank you.
    Mr. Chairman, Ranking Member Visclosky, distinguished 
members of the subcommittee, thanks for inviting me to appear 
before you today.
    Our military forces in this Nation have benefited from the 
vast achievements Army, Navy, and Air Force medics have jointly 
made in deployed and en route care since the beginning of the 
current war. With this war winding down, and it is not done, 
even with our fiscal challenges, we now have a clear 
responsibility to make sure military medics are well trained 
and well prepared for whatever contingency the future brings to 
include combat operations, stability operations, humanitarian 
assistance, or disaster relief.
    To enhance our core competency in the ground expeditionary 
mission or, in our case, the Air Evac mission, we must ensure 
that our providers continue to have robust opportunities to 
practice their skills and that we continue to pursue critical 
research and modernization initiatives for the future. We have 
very successfully leveraged civilian partnerships to maintain 
trauma skills readiness, and as this war subsides, I am 
convinced we will rely even more strongly on these 
relationships to help us train and conduct research.
    As the way we fight wars evolves, the way we provide 
medical support for operators must also evolve. Airmen who are 
manning systems, such as distributed common ground stations, 
space and cyber operations, or remotely piloted aircraft, and 
those who operate outside the wire, such as security forces, 
Special Ops, and explosive ordnance disposal specialists, just 
as an example, all face distinct challenges. These types of 
injuries or stressors, both visible and invisible, to members 
and their families are also changing.
    We must provide medical support in different ways than we 
have in the past to address what we describe as an expanding 
definition of operator and step up to our role as human 
performance practitioners. Not only will access and care be 
more customized for the mission, but so will prevention. For 
example, we have embedded mental health providers with the 
right level of security clearance in several remote warfare 
units to be readily available at the duty location to provide 
early intervention and care for those experiencing occupational 
stress that could affect their performance. These important 
operators may not otherwise have sought care.
    The Air Force is committed to the Department's plan for 
reorganization of the Military Health System to include the 
establishment of the Defense Health Agency. There are many 
changes in the works for how we will operate, and you have 
heard some from my partners. We are excited to be fully engaged 
with our partners in this very tough work, and it is tough 
work, as we continually focus on providing trusted care and 
maintaining a fit, healthy, and ready fighting force.
    Personally, I have been in the Air Force for 37 years, 
first as a fighter pilot, and now for many years as a 
physician. In my career, I have never seen a time when it is 
more evident how important military medicine is to the 
operational capability of this Nation. We have learned much, 
and our medics have performed magnificently. Even in the face 
of budget challenges, we have to be as ready at the beginning 
of the next war as we are now with the end of the current war. 
I think our Nation expects that.
    Your continued support of Air Force medicine, military 
medicine, and our mission is greatly appreciated. Thank you for 
that support and for having me here today.
    [The statement of Lieutenant General (Dr.) Travis follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. Okay, thank you on all of our behalf. 
Before I yield to Ms. Granger, we pay tribute to the joint work 
that you have done in Afghanistan, but we still have 33,000 
plus, actually, soldiers and Marines and Seamen, and you name 
it, Air Force personnel, over there. And if the public only 
knew what happens on the battlefield and the fact that those 
medics are right there to provide immediate transport within 
the golden hour to the incredible trauma hospital that does 
amazing things, the genius and the courage of the people who do 
that airlift, and then to land still where, you know, often 
parents are there wringing their hands and worrying from home, 
and then they are transported back to the Continental United 
States, is an incredible achievement. And statistics are human. 
The lives that have been saved, so I know on all of our behalf, 
we feel very strongly about the work you have done, and it is 
not over. We don't know exactly what our exit strategy is out 
of Afghanistan, but that in some ways makes it even more 
dangerous to be there. So it is good to know that you have 
personnel on the ground that do some remarkable things in the 
face of huge adversity.
    Ms. Granger.

                EXPERIMENTAL TREATMENTS FOR TBI AND PTSD

    Ms. Granger. Thank you.
    Thank you all for being here.
    Dr. Woodson, I have a question. I had the opportunity to 
talk with Navy Seal Marcus Luttrell of all of the treatments he 
has received for traumatic brain injury and post-traumatic 
stress disorder. He told me the only treatment that worked for 
him he received at the Carrick Brain Centers, and last week, he 
told me, he said that was the first time he had been able to 
sleep all night since he was injured.
    I went to visit Carrick and to see the treatment firsthand, 
and the results were just amazing. Carrick is a 
multidisciplinary brain rehabilitation center, and they combine 
evidence-based diagnostics with leading-edge technology and 
treatment to help people suffering from brain injuries due to 
physical or emotional trauma, and they use a very innovative 
approach that they explained to me retrains the healthy part of 
the brain to take over the functions of the part of the brain 
that has been damaged.
    My question, when we identify successful treatments like 
that, I think it is important that all of our servicemembers 
have an opportunity to benefit from them. But unfortunately, 
these treatments are labeled experimental, so TRICARE won't 
cover any of the cost. My question is, what needs to be done so 
that we can have those innovative treatments or treatments 
outside of the military to be available to all of the military? 
I think we are missing huge opportunities.
    Dr. Woodson. Thanks very much for that question, and I 
agree with your sentiments wholeheartedly.
    Let me provide two brief answers to the question. Number 
one, I do think we need to develop a more flexible approach to 
bring evolving treatments and strategies more rapidly into the 
TRICARE plan, if you will. And in fact, we have been discussing 
this recently because of other issues that have come up 
relative to new approaches to diagnostics.
    One of the issues for TRICARE to deal with is that it is a 
defined benefit that kind of looks like an insurance product, 
and then so we are sort of limited sometimes by the Code of 
Federal Regulation in terms of this business of proof.
    Having said that, I think the issue is it is time to work 
out a system where we can go ahead and provisionally cover 
these evolving practices and create more flexibility in the 
program, so I agree with you.
    The second piece I would just say is that I agree with the 
treatment strategy that you have outlined, and through the 
National Intrepid Center of Excellence and additional sites 
that have been generously funded by the Fisher Foundation, we 
are incorporating just those same practices and making them 
available throughout the military for servicemembers with brain 
injuries.
    Ms. Granger. Good. I think it is just very, very important. 
And I would say to anybody else that isn't familiar with it, I 
certainly was not familiar with it, but to visit that would be 
certainly worth your time. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Ms. Granger.
    Mr. Moran.

                       RISE IN HEALTH CARE COSTS

    Mr. Moran. Thanks very much, Mr. Chairman.
    Dr. Woodson, as you know, the costs--I have a little cold, 
so excuse me--the cost of military healthcare has more than 
doubled over a little more than a decade now from less than $20 
billion, to almost $50 billion. Now, the fees for TRICARE 
beneficiaries were set almost 20 years ago, and they haven't 
changed, even as the cost of health care has increased 
dramatically over time.
    Over the last decade, CBO reports that DoD healthcare 
funding is far outpacing inflation, and costs are going to rise 
even further in the coming years. So what we see now is 
something that is beginning to squeeze our defense budget, is 
going to become ever more pronounced in the years ahead as we 
have more and more uniformed personnel returning from combat 
and the like.
    You have proposed changes to TRICARE that are intended to 
incentivize a more effective and efficient form of using health 
care. Now, it is my understanding that the Department has 
substantial data that show that it is actually a fairly small 
percentage of TRICARE users that are termed super users of the 
system. They have much higher costs because they tend to use 
the most expensive forms of health care and do it far more 
frequently. For example, instead of seeing a nurse when their 
child has a cold, they go to the emergency room. That is done 
in civilian life, and it is done with DoD hospitals as well.
    Now, could you share some of this data with the committee 
so that it may be possible to gain a better grasp of what is 
driving this dramatic increase in healthcare costs?
    Dr. Woodson. Sir, thank you very much for the question, and 
you have outlined a lot of very pertinent issues nicely. So, in 
1990, the early 1990s, the Defense Health Program budget was 
about 4 percent of the base budget of the Department of 
Defense. And as you have outlined, since the year 2000, 2001, 
we have more than doubled from $19 billion to a height of about 
$54 billion in 2012. We have made some management changes and 
some program changes to save about $3 billion per year, and our 
current budget that we are proposing of $47.5 billion is about 
4 percent below what the height was, basically, so we have made 
changes. But the issue is that we have still grown from about 
9.5 or so percent of base budget, to just about 10 percent of 
base budget. So we are pedalling harder, but we are not 
catching up. And the reason is that over the course of TRICARE, 
of course, the fees have not gone up. Some fees have actually 
gone down, so the catastrophic cap which was $7,000 when 
CHAMPUS was originally instituted when TRICARE came on board is 
now $1,000, and there have been adjustments in other fees. And 
if you take it in real 2014 dollars, they have actually gone 
down.
    So we are doing, I think what we should be doing in terms 
of management to make it as efficient as possible, but we do 
need to readjust the program to provide the incentives for the 
right utilization of care. Right now, particularly in the 
retiree, the working-age retirees who are in our TRICARE Prime 
program, they actually consume more resources, health care than 
sort of age-matched folks who have a civilian HMO program. So 
we do have substantial data that we need to revise the system 
to incentivize the right utilization of care but provide the 
access. It is really important that we bring a lot of these in 
line.
    The other thing I would say is that as it relates to 
TRICARE, I think all of the stakeholders have tried to provide 
a very robust product for the beneficiaries, and they deserve 
it. But these have added costs, so TRICARE for Life, for 
example, was introduced and probably represents about 30 to 33 
percent of the increasing cost over the early decade of the 
2000, is a robust product but carries with it no cost share and 
no enrollment fee. And so what we have tried to do is not bring 
in draconian changes that produce a lot of out-of-pocket costs, 
but bring in modest costs that in fact will help produce a more 
enduring and efficient program.

                     WORKING AGE MILITARY RETIREES

    Mr. Moran. I appreciate that Dr. Woodson, but in Medicare, 
for example, we find that less than 20 percent of the 
beneficiary population incurs more than 80 percent of the 
costs. And I was just wondering if that doesn't apply to 
TRICARE as well.
    But I have a followup question on this. I wonder if you 
have considered alternatives that increase the cost sharing for 
working-age military retirees because when I look at what you 
are doing, it is not going to relieve the pressure on the rest 
of the budget. It is going to affect force personnel and any 
number of other priorities. But often working-age military 
retirees will retire from the military but very quickly find 
work in the private sector, which is what we expect them to do. 
But they hold on to their TRICARE health plans because they are 
so much cheaper than any civilian health plan. So you have to 
wonder, wouldn't it make sense to have a tiered approach to 
cost sharing so as to protect the more vulnerable and younger 
less established beneficiaries?
    Dr. Woodson. Sir, that is a very good question and 
proposal, and you know, in years past, we have offered up 
tiered approaches to the cost share. And, you know, we 
certainly can look at that. I think what we have offered up 
this year is a proposal that modernizes the product, but also 
provides a better cost share. You know, when the program 
originally went into place, there was about a 27 percent cost 
share for working-age retirees. That now has fallen to about 
9.3 percent.
    Mr. Moran. So it has dropped from 27 percent to 9 percent?
    Dr. Woodson. Yes, 9.3, yeah. And under our proposal, we 
readjust the fees so that they have about an 11 percent cost 
share. So we have moved in the right direction, and I 
appreciate the CBO report that you have mentioned in your 
statement, but we have tried tiered approaches before. We think 
that the proposal this time around gives the beneficiary 
something as we are asking them to pay a little bit more, which 
is a modern approach with fewer encumbrances. So the proposal 
this year removes this authorization of referrals, which has 
been a major dissatisfier for folks using the program. So they 
get something, even as we are asking them to pay a little bit 
more.
    Mr. Moran. I have used up my time.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. He needs an answer, I think a better 
answer to his question. If there are super users, is it a 
family with multiple issues? I think we need a better handle on 
that. But you will provide that information for us, or will 
follow up with some questions.
    Mr. Kingston.

                 INCENTIVES IN HEALTH CARE UTILIZATION

    Mr. Kingston. Thank you, Mr. Chairman.
    Dr. Woodson, I wanted to continue along these lines that 
Mr. Moran brought up. I am wondering, and maybe you have done 
this, but have you ever looked at the testimony of, say, your 
predecessors as far back as 10 years ago to see what they did, 
what they said, because I don't say this critically because we 
are all a little bit guilty, but it is always this forward 
thinking, if we are going to do it robust, we are going to have 
the best quality healthcare. We are going to do this and that. 
And you know, I mean, your testimonies could have been written 
by Madison County ad people, and I just say that, again, not 
trying to be critical, but that is what we would have been 
hearing 10 years ago, regardless of who the administration is.
    And I am wondering if there were some lessons that you can 
have somebody reach back and say, well, what is it they did? 
Because one of the things you said to Mr. Moran is that you are 
looking for ways to incentivize inside the VA. Why hasn't that 
been done? We have been hearing that, and as I understand, 
there is now legislation that allows people who have been less 
than performing to be fired. There is nothing revolutionary 
about that. But apparently, it takes legislation on it. And 
last year, this committee put on an amendment, and it passed 
the full floor of the House, that said if the VA did not clean 
up its backlog, there would be a 25 percent reduction in salary 
on the administration level.
    So we are all, you know, united together to find that magic 
incentive, but I am just wondering what are the--what is 
keeping it from happening? And again, I am not directing this 
towards you, but towards all of us who have sat in these chairs 
over the years.
    Dr. Woodson. I don't know that I can speak for the Veterans 
Administration, but I do--would respond by saying that we have 
looked at all of the incentives and where the industry goes to 
try and promote wellness and modify behavior and trying to 
encourage the right use of health care. And those are 
incorporated in the proposal that we have put forward.
    Mr. Kingston. And along that line, have you sat down with 
the VSOs, because I know that, in terms of the health care in 
the VA, it is still the same kind of issues that we are facing, 
but have you sat down with the VSOs to discuss this, and can 
you get their buy-in?
    Dr. Woodson. Well, we have engaged repetitively with the 
VSOs, and we know that they are not happy about increasing 
fees.
    I will say that over the last few years as we have talked 
to them, one of the things that they have repetitively told us 
is that we needed to produce a more efficient administration to 
wring costs and inefficiency out of that. And I think we have 
responded to that with the establishment of the Defense Health 
Agency, which I think is historic, in trying to make sure that 
we have the most efficient, most effective, lowest-cost 
administrative organization as possible. So I think we have 
responded to it.
    Mr. Kingston. And would you say that, say, 2 years from 
now, 3 years from now, there will be a difference that you can 
say, I did that, I have bent that cost curve, which Mr. Moran 
has mentioned? And again, it is astounding that since 2000, 
military personnel has decreased 10 percent, but the costs have 
doubled. And so I think that is why we are all frustrated about 
it. Because we all share the same goal. We want the quality, 
the best healthcare. It is extremely important to take care of 
our military personnel, but also this cost issue is just----
    Dr. Woodson. So in answer, direct answer to that question, 
yes, I can say that in the future, and actually now, we have 
started bending the cost curve. As I mentioned before, we are 
saving about $3 billion a year, so we have Federal ceiling 
pricing. We have prospective payment system, readjusted 
programs to save millions, if not billions, of dollars. The 
pharmacy changes alone have yielded $7 billion in the last 4 to 
5 years. So we are working very hard, and that is why I 
mentioned before we are pedalling pretty hard, but even when we 
are doing that, because the top line of the Department of 
Defense is coming down, we become a greater percentage of the 
cost, and we compete in terms of training, manning equipment, 
and modernizing the force.
    Mr. Kingston. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Kingston.
    Ms. McCollum.

                     MALARIA AND TROPICAL DISEASES

    Ms. McCollum. Thank you, Mr. Chair, I am going to switch 
the topic here a little bit. You work with so much, you cover 
so much, but one of the things that I have been interested in, 
and I mentioned with you my father had malaria, so kind of 
paying attention to those kinds of long-term diseases, and the 
effects that they have on people not only when they are serving 
but when they come home can be pretty impactful.
    So what is going on with the tropical diseases is what I 
would like to focus on a little bit? U.S. service men and women 
are often deployed to tropical disease epidemic regions. We 
have, with the extension of AFRICOM now, the look to the 
Pacific, with some of the islands and where we are going to 
find our service men and women. I think this becomes very 
impactful.
    In 2003, malaria impacted Marines deployed to Liberia, and 
it affected 80 out of 220 Marines. The number of days lost 
among U.S. military personnel due to malaria, just malaria, 
during every military campaign fought in malaria epidemic 
regions during the 21st century, is alarming. Humanitarian 
missions are often in some of these regions, too, that place 
Americans at risk of infectious diseases, evidenced by several 
Americans contracting malaria while supporting the Haiti and 
Philippine efforts.
    So reducing the risk of malaria is one thing in which, you 
know, you have a proud history of working on, but there are 
many, many other diseases that are being presented to service 
men and women. And it is critical in your mission to succeed in 
finding ways to either prevent, or to treat.
    So, you know, I can't stress enough our role, your role, 
the government's role in what we have done on diseases in the 
past. So we know we have problems with drugs and prophylactics 
used to keep our men and women safe from these tropical disease 
regions, and sometimes they are not reliable. Sometimes they 
don't exist, and sometimes the side effects are such that it is 
very hard to get people to comply with correct usage and 
dosage.
    So I am going to ask you a couple of questions here, but 
for folks here, Dengue fever is something that is spreading 
throughout. It is just not in Asia anymore. It is in Africa. It 
is in Central America, not too far from our doorsteps, and 
maybe possibly in Texas and in Florida, with climate change. I 
am not going to say this right, but I am going to give it a 
shot, chikungunya.
    Admiral Nathan. Chikungunya.
    Ms. McCollum. All right, you guys got it. But it is 
another, as Dengue fever, it is another mosquito, and you know, 
you look at the charts. It is all over in Africa. It is in 
India, and it is all over in Asia. It seems to somehow as of 
yet have missed Australia, but, you know, they are probably 
paying attention to what is going on, too.
    So in what you were talking about with, you know, getting 
right sized, making the decisions on how to make sure that 
medical costs are given in a way that is strategic, that treats 
the illness, that treats the disease, but isn't overtaxing the 
taxpayer, with our world change and with our climate changing, 
you are still confronted with a lot of these tropical diseases.
    So what are you doing to, you know, continue to prioritize 
the R&D for the tools to combat these neglected and tropical 
diseases to ensure that we are prepared, that our service men 
and women are prepared? I mean, you cannot lose that many 
people down with--when you have Dengue fever, you don't move, 
and there is no treatment for it at all. And if it was to have 
an outbreak on a military ship or some Marines or some Army 
folks in AFRICOM deployed, you know, what are we going to do 
about it? So what do we need to know about what you have to 
continue moving forward in your R&D on these diseases?
    Dr. Woodson. Let me make one comment and then I am going to 
turn it over to the Surgeons General who can really speak to 
this. We do have a robust program in infectious disease to 
include all of those diseases that you mentioned, and we have a 
network of overseas labs. But I think the Surgeons General 
really can speak to this effect.
    General Horoho. Okay, thank you, ma'am, for the question.
    I just recently returned from Thailand looking at one of 
our labs that really has tremendous focus in the area of 
malaria, and disease preventions within the Asia area. And 
right now, we are in Phase 3 clinical trials for a vaccine 
prevention for malaria, which is looking very, very promising. 
We are spending and focusing our efforts on not just prevention 
but also looking at the oral prevention and trying to find 
other alternative medications that have less side effects than 
some of the ones that are there today and so I know we are 
working very collaboratively with the Navy where they have got 
research and I will allow Matt to comment.
    Admiral Nathan. Yes, ma'am, your point is very well taken 
because we are putting people on ventilators in the United 
States that started from an infection in poultry in Southeast 
Asia. And so this is a worldwide threat. Regarding globally 
emerging infections, and we are front and center on the 
readiness aspect of it, of the deleterious effects to our 
troops. We quiz medical students, and we ask them what is the 
deadliest animal in the world? And they come up with snake, or 
bear, or tiger. However, it is the mosquito. It kills more 
people per year than any other animal on the planet. As General 
Horoho said, there are amazing strides being made in vaccines. 
Hopefully, within the next few years, we will have a viable 
vaccine for malaria, especially as drug-resistant malaria is 
now starting to emerge in Southeast Asia, which has no known 
treatment.
    The bird flu avian influenza, the H1N1s and the H5N5s are 
starting to emerge. We are on scene with the Army in this 
research. I just got back from Singapore, Cambodia, and 
Vietnam, where we have very robust epicenters of study going on 
collaboratively. These not only proffer global health 
engagement and partnerships and diplomacy, but we are also 
creating world class science that perhaps can nip these in the 
bud.
    The Navy has the only military base in South America. It is 
a Navy research center in Lima, Peru. We also operate in Cairo, 
Egypt, which has been running uninterrupted for the last 50 
years. We are in Singapore, Cambodia, and Southeast Asia. The 
Army also has a very robust research in Thailand.
    To answer your question, I think we are leaning forward on 
this issue. We recognize the threat not only to our personnel 
but to the world citizenry at large, and we are very interested 
in trying to make headway on this and gain partnerships and 
trust of other nations as we do it.
    Mr. Frelinghuysen. Thank you, Ms. McCollum.
    Mr. Crenshaw.

                            MALARIA VACCINE

    Mr. Crenshaw. Thank you, Mr. Chairman.
    Just following up on that, when you mentioned you are doing 
research for vaccines, and I know you have been working on 
that, but you mentioned in a couple of years. Do you have any 
idea, I mean, more specifically when you think you might have a 
vaccine? Because I know it is being tested. Is that a year or 2 
years, or what?
    Admiral Nathan. Well, we have just recently come up with a 
vaccine that provides for the first time 100 percent immunity. 
The challenge is that malaria, somewhat like viruses, can morph 
and there are four distinct types. Finding one that that will 
reach the necessary titers and the efficacy and field testing 
it. We have already used it on human subjects, and it has been 
proven to be effective in our human lab subjects. We will see 
what happens as they expand now to the more native areas.
    To answer your question, sir, I am told by our research 
experts--and Patty, correct me if I am wrong--but they really 
think they are within a few years of finding one that may be 
commercially----
    Mr. Crenshaw. We are talking about healthcare costs and how 
that is a big part of our personnel and how the personnel costs 
are kind of impacting readiness. It is an important 
conversation to have. I think you all are essential. And we 
talked from the outset about how you share the cost, but I 
think we are talking more about how we can lower the cost of 
health care and one of the things I would think if you had a 
vaccine as opposed to some antimalarial drug, there probably is 
a quantifiable cost savings if you could deal with that, 
because it is preventable. You can have a net and all those 
kind of things and you can take drugs--but if you could 
actually have a vaccine, it seems like that is something that 
would be a way to save money in the big picture in terms of 
health care. Is that right? I mean, I don't know if you tried 
to quantify that.
    Admiral Nathan. Absolutely, sir. An ounce of prevention is 
worth a pound of cure.
    I would add, as you know, administratively and the 
bureaucracy of putting new medications or novel medications out 
into general use go through the wickets, often which are 
protective, but it can also be substantial. And that is where 
some of the time comes from in order to meet all of the 
requirements of testing.

                     COLLABORATIVE RESEARCH EFFORTS

    Mr. Crenshaw. Because let me follow up on that. I mean, I 
know that there are some partnerships that you all have--I 
don't know if you are all familiar with it. I met with Colonel 
Craig Shriver. He is a director of the Murtha Cancer Center at 
Walter Reed, and I think John Murtha, who we all know and love, 
his legacy lives on in cancer research. And that is one of the 
areas that I was talking to Colonel Shriver about, they have a 
partnership with what is called the Moffitt Cancer Center, and 
they are doing a lot of research, working together to deal with 
prostate cancer and lung cancer. And one of the major benefits, 
as I understand it, they were explaining to me, they can take 
the--you have got a great reservoir of populations in 
centralized medical systems, and they have got the doctors. And 
as you work together, you can figure out what cancers require 
treatment and what cancers are more benign and don't need 
treatment, and then that knowledge can reduce not only 
treatment costs, but it can improve the quality of life of the 
people involved. And so I don't know how familiar you all are 
with that partnership with the Moffitt Cancer Center.
    Maybe, Dr. Woodson, if you can talk a little bit about how 
that is bringing down the overall cost, if you are not familiar 
with, specifically, what is your view of this leveraging 
taxpayers' dollars in terms of medical research using, you 
know, outside groups like that to work with you, to ultimately 
lower the cost for everybody?
    Dr. Woodson. I couldn't agree with you more. And if you 
remember back to my opening statement, I talked about one of my 
six lines of effort is defining and investing in strategic 
partners. It is absolutely necessary. And so one of the ways we 
have gone recently is consortium, to bringing the best and the 
brightest, best talent, wherever it might be, into the picture 
to solve the problem.
    I don't know, General Horoho, do you have anything?
    General Horoho. Thank you, sir.
    There is much that is being done in the area of 
partnerships. So as we look at what is the military relevancy 
of different scientific research that needs to be done, there 
are government dollars that are put towards it, but a majority 
of the dollars really are from the partnerships that we have 
with civilian institutions.
    There is usually a civilian relevancy along with our 
military relevancy when we are looking in the area of health 
care. You could look at what is being done with regenerative 
medicine. We are now on the second consortium. Much of the 
transplant, both the hands and our face transplant, has come 
out of that consortium. There is tremendous work that is being 
done in cancer research, in autism, in neurotrauma, just across 
the board. And also with Melinda Gates, Bill Gates, their 
foundation.
    There is no way, I think, in the environment that we are 
in, that we can do the relevancy of the research that needs to 
be done without the partnership within the civilian community. 
I think it is vital.
    Mr. Crenshaw. Thank you.
    General Travis. Could I add one more comment just on the 
partnership thing? And I alluded to this in my opening 
comments, as well.
    For years, we have been doing trauma training with 
university partnerships--University of Cincinnati, St. Louis, 
Baltimore Shock Trauma right up the road. We have provided 
trauma training for folks who were just about to deploy, 
hundreds of them, so that they get the trauma experience, 
trauma exposure.
    But the side effect of that is, because we have persistent 
presence and staff in those trauma centers, there is also 
tremendous research going on with our university partners that 
could not occur just on our own budget.
    Mr. Frelinghuysen. We are assuming--and Mr. Crenshaw's time 
is up, but let me put my oar in the water here--that you are 
intimately aware of these investments from congressionally 
directed medical research programs. So we assume you are.
    Mr. Owens, thank you for your patience.

                  SHORTAGE OF MENTAL HEALTH PROVIDERS

    Mr. Owens. Thank you, Mr. Chairman.
    Thank you for coming today to testify.
    Dr. Woodson, does DoD suffer from a shortage of mental 
health professionals, whether it is psychiatrists, 
psychologists, or psychiatric social workers?
    Dr. Woodson. So, our fill rate for our psychiatrists is 
about 91 percent. Overall, for all behavioral specialists, we 
are tracking at about 102 percent, but that is because we are 
able to fill certain behavioral specialists in excess, like 
clinical psychologists at 124 percent.
    The short answer is that we do have deficiencies in certain 
areas, and these tend to be the hard professionals to recruit 
because they are in demand throughout the Nation.
    Mr. Owens. And are you recruiting primarily for civilian 
participation as opposed to servicemember participation in 
those occupations?
    Dr. Woodson. So, yeah, I think it is both. We want to make 
sure that we have the right professionals to provide services 
to our members.
    Mr. Owens. In rural areas, in which many military 
installations are located--I happen to have Fort Drum in my 
district--is that an issue that is more prevalent in those 
geographic areas than it would be in an urban or suburban 
setting?
    Dr. Woodson. Absolutely. And to try and mitigate and deal 
with this, as we talk about what should be our 21st-century 
capabilities, we are trying to invest heavily in tele-behavior-
health so that consultation can be provided even in rural or 
more austere environments.

            FORT DRUM REGIONAL HEALTH PLANNING ORGANIZATION

    Mr. Owens. Thank you.
    General Horoho, are you familiar with the Fort Drum 
Regional Health Planning Organization?
    General Horoho. Yes, sir.
    Mr. Owens. What is the Army's position relative to that 
organization?
    General Horoho. Back in 2010, I believe, the funding 
stopped for that organization. So part of--in the past, it was 
a very close relationship with the Army in looking at how to 
maximize the civilian health care around the Fort Drum 
community to meet access to care and ensure continuity of care.
    And so what we rely on right now is really looking at the 
TRICARE partners within the Fort Drum community to ensure that 
we are trying to meet those needs.
    Mr. Owens. And that is because Fort Drum does not have a 
hospital facility on the post.
    General Horoho. We don't have in-patient. We have a 
hospital facility, but we don't have in-patient care. That is a 
subspecialty.
    Mr. Owens. My ultimate question is, is there something that 
we can do to get the Army or DoD to reengage with the Health 
Planning Organization and to provide funding for it?
    General Horoho. I would have to refer over to DoD.
    Dr. Woodson. We would be happy to look at the affiliation 
and the need for services. Yeah, I mean, if there is a need, 
yeah, absolutely, we will talk.
    Mr. Owens. I think the--certainly my perception is, I think 
those folks at Fort Drum clearly think that there is a need for 
that assistance.
    And New York State is going through, and in particular in 
my region, a healthcare redesign commission. I happen to be an 
advisory member of that group. And for us, this has a regional 
impact, as well. So I would hope that we could facilitate both 
military health care and the local communities' health care.
    Thank you. I yield back.
    Mr. Frelinghuysen. Thank you.
    The ranking member of the full committee has joined us, 
Mrs. Lowey from New York. And I know she has something to say, 
and we always value what you have to say.
    Mrs. Lowey.

              MENTAL HEALTH AND SUICIDE PREVENTION EFFORTS

    Mrs. Lowey. Well, you are very, very kind.
    And I apologize that we seem to be having three or four 
hearings at the same time. And I know that your presentation 
has been invaluable, and it is my loss. I am sorry that I have 
not been able to be here for the entire hearing.
    One of my concerns, and, I know it is a concern of many of 
my colleagues, but it hasn't been discussed as yet, is, after 
13 years of war, the invisible wounds have been among the 
hardest to comprehend and to treat. I would be most 
appreciative if each of you could share your efforts to treat 
these invisible wounds over the past two wars and in a post-war 
climate.
    The committee has added funding above the request dating 
back to 2004. If you could focus on how the funding has helped 
advance treatment in the areas of psychological health, 
traumatic brain injury.
    If you could each give a brief description of your 
respective Service efforts to reduce the number of suicides. 
What program is the most effective? What would you do 
differently if you had more funding dedicated to suicide-
prevention efforts?
    And what are you doing to help your servicemembers cope 
with the anxiety of the personnel drawdowns and the anticipated 
slower tempo?
    Maybe I will stop at that. But I think this is an issue 
that we are all dealing with in our communities. And when I 
have seen families distraught from this, I can just imagine the 
personal pain that they are enduring themselves.
    So if you could each discuss that, I would be most 
appreciative.
    General Horoho. Thank you, ma'am, very much for that 
question. So if I could start first in, kind of, the strategic, 
and I will narrow it all the way down.
    So the overall culture change that we had across our Army 
has been over the last couple years, and we have really made a 
culture shift of focusing more on readiness and resiliency. And 
what we have found is, over the start of the war and 
throughout, with the robust funding, is that we had many 
programs that were developed because the funding was there, and 
these programs were developed to meet the needs. And what we 
needed to do is to look and start evaluating the effectiveness 
of the programs and get more proactive than reactive. And so 
that has been a fundamental shift.
    And we have started to synchronize Installation Command, as 
well as MEDCOM, as well as our personnel community, to look at 
policy, programs, and resources, and actually have metrics 
where we evaluate the programs. So that is the overall 
readiness and resiliency campaign plan.
    And we also looked at synchronizing, within the readiness 
and resiliency, our performance triad of looking at sleep, 
activity, nutrition, with a focus on brain health and having 
that synchronize with Comprehensive Soldier and Family Fitness, 
with ArmyFit, so that our efforts are not a medical effort but 
it really is an effort that is pushed into the line community 
to look at health and wellness. Because there is so much that 
is connected in that area, if people are having Post Traumatic 
Stress Disorder (PTSD) and are using alcohol to maybe fall 
asleep because of the nightmares and you start having all of 
those bad outcomes.
    So we are trying to be very preventive and proactive in 
that area. So we have ongoing studies at Fort Bliss, Fort 
Lewis, Fort Bragg, and also in Afghanistan, looking at health 
outcomes associated with the performance triad.
    Then we have also stood up a behavioral health service 
line, which has standardized behavioral health across every 
platform and touchpoint in which we provide behavioral health 
care. We started out with 211 programs. We narrowed them down 
to 11 enterprise-wide behavioral health programs. And then we 
rolled out a behavioral health data portal, which is the first 
time ever we are looking at health outcomes to truly evaluate 
how effective our behavioral health is. And then the Air Force 
and the Navy are actually adopting that behavioral health 
portal, as well.
    And then we have combined that with the use of tele-
behavioral health. So we provide behavioral health care using 
tele-behavioral health over 19 different time zones. That has 
allowed us to actually double the amount of behavioral health 
being provided.
    And so we are starting to see, with embedded behavioral 
health, and we have actually pushed our behavioral health 
providers into the garrison footprint, we are seeing a decrease 
in in-patient behavioral health admissions, we are seeing an 
increase in health outcomes in the area of behavioral health. 
And then we have trained all of our primary-care providers in 
behavioral health.
    So it is truly a system moving into that area.

                        ELECTRONIC HEALTH RECORD

    Mrs. Lowey. Just if I can pursue that for a moment, you are 
talking about identifying the problems while they are on active 
duty. One of our concerns--I am sure when I was gone you were 
talking about the lack of an integrated medical records system.
    Mr. Frelinghuysen. We have yet to get into it, but we are 
definitely going to get into it before we leave here, I can 
assure you. They are on alert, Ms. Lowey, I can assure you.
    Mrs. Lowey. Okay. So I will leave that for someone else.
    But on this particular area, what we have found--and 
although it seems to be getting better, but I know many of the 
problems occur after the person is transitioned, after the 
person is a veteran. And most of the problems are blamed on 
Secretary Shinseki.
    However, no matter how many times we bring it up, no matter 
how many times we talk about it--it has been months, Mr. 
Chairman. Is that correct? We still don't have----
    Mr. Frelinghuysen. It is about 7 or 8 years, actually.
    Mrs. Lowey. All right.
    Mr. Frelinghuysen. It has been too long. But we are going 
to focus on it and we are going to get some answers before they 
leave here.
    Mrs. Lowey. So what I wonder about in this particular area, 
if these problems are identified before the person leaves 
active duty, are they followed into the next phase of their 
life? Are they continuing to get this service?
    I hear ``no,'' but I would be most appreciative if you can 
tell us some good things, as would the chair.
    Mr. Frelinghuysen. We are going to extract those answers 
out of them before they leave here. Is that all right?
    Mrs. Lowey. That is fine.
    Mr. Frelinghuysen. Okay. Thank you, Ms. Lowey.
    Mr. Womack.

                      CONTAINING HEALTH CARE COSTS

    Mr. Womack. Thank you, Mr. Chairman.
    So many questions, so little time. And I want to thank the 
panel for their service to our country and what they are doing.
    Earlier in the testimony, in the Q&A, there was reference 
made to what we are doing, given the increased cost of having 
to treat those that have been so courageous, have gone 
downrange and served their country in uniform.
    A simple question: No matter what you do, no matter what 
best management practices we use, no matter what we do to 
leverage technology, do we still have a simple math problem, in 
that there are more people that have served our country in 
uniform that are going to be subject to the promised care that 
we have made to our service men and women? Do we just simply 
have a math problem right now?
    Dr. Woodson.
    Dr. Woodson. In part, it is a math problem, because people 
live longer and so they will utilize the benefit for a longer 
period of time.
    In part, it is a math problem because 5, 6, 7 years ago the 
number of eligible beneficiaries that took advantage of TRICARE 
was about 62 percent. It is now about 84 percent, and we expect 
some rise to around 90 percent.
    And then, in part, it is----
    Mr. Visclosky. Excuse me, what were the percentages of?
    Dr. Woodson. Sir?
    Mr. Visclosky. What was the whole of the percentages?
    Dr. Woodson. About 84 percent of eligible beneficiaries are 
in TRICARE.
    Mr. Visclosky. Oh.
    Dr. Woodson. So, in part, it is a math problem, but also it 
is a delivery of care strategy, as well. So, both, yeah.

                               READINESS

    Mr. Womack. This committee has had a number of briefings 
and hearings, and at the very core of our concern is our 
Nation's readiness in uniform. And so we have, in kind of 
descending from this long period of time where we have had an 
elevated state of readiness because of the multiple deployments 
of our men and women in uniform, as we start to descend from 
that operational tempo, are you a bit concerned about our 
capacity to keep our men and women in uniform ready medically, 
and specifically our Guard and Reserve folks, who have had 
unprecedented levels of medical readiness in this timeframe?
    General.
    General Travis. Sir, great question.
    I am very concerned about it. I think we all are. We talk 
about it all the time.
    I say frequently in public forums, war is a hell of a 
readiness platform. Because you stay trained, you focus on war. 
It is a great motivation to get training and be out there and 
doing the job. As we come home from this war--and it is not 
done, as the chairman alluded to--I think the opportunities to 
really have that exposure are going to be waning, diminishing.
    When I go into an MTF these days and I say, ``How many of 
you deployed?'', 70 percent of the hands go up. In 5 years, it 
is not going to be that many. And then that is why I made a 
comment in the opening that I am worried about us not being as 
ready at the next one as we are right now for this one.
    So the issue is, even as we are trying to find ways to save 
money and we are looking within our own direct care system to 
do that, frankly, we don't need to be chopping the direct care 
system that much, because we still have to have the opportunity 
to practice, not just doctors but nurses, technicians, and the 
rest.
    With regards to the Reserves, as you may know, for us, the 
air evac system, 60 percent of our air evac mission is Reserve. 
And they are performing magnificently. So how do you keep them, 
number one, clinically engaged, as this war winds down, but 
then also exposure to care in the air?
    And, of course, whatever we do in the future, because we 
have be proven now that it is not just how many beds you have 
in theater--in fact, it is not how many beds you have in 
theater; it is actually how quickly you can transit people back 
to the right level of care. We have transformed how we do 
medical care in war these days.
    So I am just, all I am doing, I guess, sir, is endorsing 
your worry. And we have all, to include the Secretary, kind of 
strapped this on and tried to think of transformational ways 
that we can keep our folks clinically engaged--and, again, our 
partners will be very important in that--but, also, you know, 
figure out how to, you know, leverage each other's strengths, 
as we are doing now more in an interoperable way than we have 
ever done.

                       SERGEANT BRENDAN MARROCCO

    Mr. Womack. Well, far too often, we consider readiness to 
be more of a move, shoot, communicate, and prosecute war, but 
so much of it is based on a platform of medical readiness from 
the get-go.
    And if I could, for just a couple of seconds. Last year, I 
consider the testimony or the example, General Horoho, that you 
gave regarding Sergeant Brendan Marrocco which is one of the 
most incredible things I have ever witnessed in life. And so 
maybe a little bit later on you could, kind of, update us on 
that young man's situation, who became, I think, the first 
soldier who had quadruple amputations, to be the recipient of 
double-arm and/or double-hand transplant surgery. And I will 
leave it there. It is an incredible, riveting story, and I 
thank you for it.
    Mr. Chairman, I yield back.
    Mr. Frelinghuysen. None of us will ever forget it, but you 
will update us a little before we leave here.
    The gentleman from Alabama, and then Mr. Ryan.
    Mr. Aderholt.

                           TRICARE FEE TIERS

    Mr. Aderholt. Thank you for all being here this afternoon.
    Dr. Woodson, in your submitted testimony, it appears that 
cost-sharing fees have been split between the ranks of E-4 and 
below and E-5 and above. The concern is an E-5 would pay the 
same cost share as an O-6, when the difference in base-pay 
salaries between the two ranks is about $7,000 per month when 
you factor in typical service-years.
    Can you elaborate to us on how the Department determined 
that the cost-share program should be split at the ranks of E-4 
and E-5 and why there are two cost-share categories, given that 
there are a total of 24 ranks in the military and the base-pay 
salaries range from $1,500 a month to $15,000, depending on the 
rank?
    Dr. Woodson. This is an excellent question. And the reason 
it is excellent, it gets to the issue of fairness and how you 
make it equitable and then how you actually administer a 
program if you have to constantly check grade, status, income, 
et cetera.
    I think that the Service chiefs and the senior enlisted 
folks, who had great input into this, looked at it--and I would 
remind you again that in last year and the year before, when we 
made proposals, we tried to break out even in greater tiers, 
looking at, sort of, ranks and the, sort of, categories you 
have indicated. The bottom line is, at some point, you come to 
a decision about what you think is fair, equitable, and doesn't 
produce an undue burden.
    So, for example, with the E-4 and below, the majority of 
those individuals, including their family members, have access 
to MTF care, which means that they could have extremely low-
cost and no-cost care. So if you look at the numbers of folks 
in that grade that use TRICARE Prime Remote, which would be an 
indicator that they are away from the MTFs, it turns out to be 
an extraordinarily low number, less than 2 percent.
    So when you look at, sort of, the distribution of folks and 
then you try and devise a program that you can administer and 
you get the input of the Service chiefs and the senior 
enlisted, this was the proposal that we came up with. But your 
point is well-taken.
    Mr. Aderholt. Thank you. That is all I have.
    Mr. Frelinghuysen. That is an excellent question. It 
concerns all of us.
    Mr. Ryan.

                          MINDFULNESS TRAINING

    Mr. Ryan. Thank you, Mr. Chairman. I apologize for being 
late. I was in the Budget markup, and, as you know, that can be 
a marathon, and not a good one, if there is such a thing----
    Mr. Frelinghuysen. You serve on the Budget Committee?
    Mr. Ryan. I do.
    Mr. Frelinghuysen. Our sympathies to you.
    Mr. Ryan. Thank you, Mr. Chairman.
    Two topics, two questions. One is regarding mindfulness-
based relapse prevention, which is an approach that the 
military is implementing.
    And I want to share with you a study that has just come out 
with regard to cognitive behavioral relapse prevention and 
mindfulness-based relapse prevention. Both techniques were 
shown to reduce substance abuse treatment. The cognitive 
behavioral relapse prevention went about 6 months and was still 
effective. The mindfulness-based relapse prevention went up to 
a year, to be found as extremely effective in reducing 
incidents and reducing drug-use days and heavy drinking.
    I think these are effective techniques. I have been 
researching them for a long time. I think they are something 
that we need to continue to promote within the military but 
also in the VA.
    And, coincidentally enough, Monday, I got a letter from a 
woman who said her husband is an E-5 in the Army, receives 
behavioral health treatments in the form of counseling, 
medication for depression, anxiety, PTSD symptoms, and sleep 
disturbances. Long story short, he couldn't get into the 
mindfulness-based relapse program, but then got into the 
program, and saw significant improvements, and a reduction in 
medication.
    And so I just want to encourage you to help push down 
throughout the bureaucracy of the military these types of 
techniques. They are working. It is not medication. It is not 
as easy to just put someone--as this--to put someone on a 
prescription to try to help them, when these other techniques 
are extremely effective in dealing with their brain chemistry, 
their nervous system, helping them become more aware of 
incidents. And it is a huge issue. And so I am asking you to 
please look into these mindfulness-based techniques.
    There is a mindfulness-based mental resiliency training 
that the Marines are doing on the front end to help build 
resiliency, which I think is as important for helping the men 
and women in our military to deal with this, but then, also, if 
they need the help, they can get this kind of treatment.
    And then, hopefully, you can work with us. We have an Armed 
Services Health Promotion Act, which is both the Defense side 
and the VA side, to push out further integrative health 
techniques. I think it is extremely important. It can save us a 
lot of money in the long run. It is not about medication.

                          OBESITY AND DIABETES

    The other issue that I am very concerned about with the 
military is the issue of obesity. Fifty-nine percent of the Air 
Force personnel are classified as overweight. Seventeen percent 
of sailors are obese, while 62 percent are overweight.
    And you know as well as I do that being overweight and 
being obese leads to diabetes. We have one in four vets that 
are diabetic today. And I have been to different facilities, 
and I see the food. A lot of this is caused by the processed 
food that our men and women are eating. I am just thinking, if 
we can find certain issues as a committee, Democrats and 
Republicans, that we can agree on--diabetes is going to cost 
our country $245 billion. That is up from $174 billion just 4 
or 5 years ago. And to think about--that is as a society, not 
in the military. But to think of a common-ground piece of 
legislation that we can work on with you.
    I know the NIH is doing a very big, comprehensive healthy 
communities initiative. I know there is a Healthy Base 
Initiative. But I think there needs to be a partnership and 
this needs to be accelerated. It is a great opportunity for us 
to come together on the front end to do prevention.
    So I know I took up a lot of time here, Mr. Chairman, and I 
don't necessarily have a question, other than, can you help us 
maybe piggyback on the NIH study and help us expand the Healthy 
Base Initiative program and, I think, drive down costs? You 
talk about the food, talk about mental health promotion, and 
all of the like.
    So take a shot at it in the minute that we have left, 
General, if you could, or----
    General Horoho. Sir, you just hit my passion. And that is 
exactly what we have been doing over the last 2 years, is 
really moving towards improving health outcomes. And so we have 
seen, with the wellness centers that we have been rolling out, 
we have seen a 4 percent decrease in body mass index in 62 
percent of those that have gone to the wellness centers.
    That is just one touchpoint as we partner with the Healthy 
Base Initiative that is occurring across the Department of 
Defense. But really looking at educating on nutrition, 
educating on the value of sleep, because that is tied to 
obesity and weight gain as well as other stress indicators, and 
then really looking at activity.
    And so our pilot programs that we have going on right now 
are also being done with the research study to evaluate not 
just health outcomes but also where we are having cost savings.
    Mr. Ryan. Well, I would like to work with you on the food 
piece, maybe on the ships and on the bases and what is even 
available.
    And then, in the wellness centers, I think these 
mindfulness-based techniques could be extremely helpful. And do 
you do that in the wellness--can you talk about that for 30 
seconds?
    General Horoho. Yes, sir. That is part of--what we have 
integrated in our wellness centers, as well as what we are 
doing with our performance triad and in our patient-centered 
medical homes that are rolled out across, is alternative 
integrative medicine. We are using mindfulness, acupressure, 
acupuncture, cognitive therapy.
    And so we are looking at multiple tools that individuals 
can choose from to kind of help them improve and decrease their 
reliance on pharmaceuticals. And we have already seen a 50 
percent decrease in our pharmaceuticals just out of our 
patient-centered medical homes that have this integrated 
approach.
    Mr. Ryan. Nice.
    Mr. Chairman, I know I mentioned to you about the armed 
forces bill----
    Mr. Frelinghuysen. Yes.
    Mr. Ryan [continuing]. That takes both Defense and the VA. 
I think this is an opportunity for us to, you know, amplify 
what you are doing and talk a little bit about how we have this 
continuous coverage into the VA and drive down costs. I think 
there is a great opportunity here, Mr. Chairman. I look forward 
to working with you to make it happen.
    Mr. Frelinghuysen. Well, thank you, Mr. Ryan.
    I was alarmed by those Air Force figures, General. Can't 
have many wings up if we have that many people that are 
overweight.
    I am going to deny you a chance to have equal time.
    General Travis. I have no comment.
    Mr. Frelinghuysen. Good.
    General Travis. Yeah.
    Mr. Frelinghuysen. But Mr. Ryan is on his game.
    And we turn to the gentleman from Texas, who probably has 
more of our fine service men and women in his congressional 
district than any other, Judge Carter.

                           ABOLISHING TRICARE

    Mr. Carter. Thank you, Mr. Chairman.
    I am going to ask you the question that I get asked 
constantly. It is the number-one question I get asked by 
privates and generals, active duty and retired. It is a tough 
question.
    As you look down the corridors of the future in medicine, 
military medicine, considering our rising debt and the rising 
cost of medical care, do you foresee a time in the future when 
TRICARE or TRICARE for Life or VA or all of the above medical 
care will be abolished or converted into such a manner that our 
active duty military and retired military and their families 
will be moved into the Affordable Care Act or Medicare or 
Medicaid or a combination of the above as a substitute or 
replacement for their current health care?
    Dr. Woodson. Thanks for that question.
    The short answer is ``no.'' The nuanced answer is that, of 
course, 65-year-and-older retirees use Medicare and TRICARE for 
Life, so they are in Medicare.
    I think that Congress and the American public want to 
always ensure that those that raise their right hand and 
promise to protect and defend get a robust benefit in terms of 
health. I do think, however, that as we go forward, 
collectively, we have to rationalize the program.
    So, right now, for a retiree, the American public pays for 
three different types of access to care. They pay for the 
TRICARE benefit, they pay for the direct care system, and they 
pay for the VA system. And so, at some point, I think we need 
to look at making sure that we ensure that they have care. Two 
of those are free now, at this time. But we are going to have 
to rationalize it a little bit to make sure that we can sustain 
it.
    But I don't see a draconian way of going to the Affordable 
Care--because, remember, that is a premium-based system anyway, 
and that is not what this benefit is all about.
    Mr. Carter. Anybody else want to answer?
    Admiral Nathan. Sir, we get that question a lot.
    One of the reasons that we have had an orbital improvement 
in combat casualty care is because of the organic, standalone 
Military Health System and the trained personnel who operate 
within it. We could never buy as many providers, nurses, 
technicians as we can train and cultivate in our own MHS 
system. And that includes the direct care system and 
partnerships with our academic--sometimes very pristine 
academic partners.
    In order to be able to maintain, train, and keep the skills 
currency to provide the kind of care that the American public 
has come to expect from the battlefield or from the sea or from 
the air, we have to continue to see and treat that patient 
population.
    Without these older patients, our training programs would 
go fallow. Many people ask, well, don't you just need combat 
trauma personnel for war? We do, but in order to provide for 
these, they must be integral to programs that have internal 
medicine, pediatrics and OB/GYN specialties.
    We run the full gamut of care in our facilities, not only 
to take care of our families and maintain family readiness, but 
also to field the kind of team that right now is, as General 
Travis mentioned, is a little bit tired, a little worn out, and 
getting ready to take a knee. These personnel are nonetheless 
the best and highest professionally, trained, quality medical 
force the country has seen. So we are greedy to hold on to that 
talent.
    Mr. Carter. And I understand those people who are currently 
serving, that I think the future is what they are worried 
about, when they are no longer currently serving in the 
military, they have retired from the military, but they feel 
like they have contracted for the future with TRICARE for Life 
and with Medicare. I do recognize Medicare----
    Admiral Nathan. If we don't take care of the retired 
population in that age group, we can't train and maintain the 
critical mass of our graduate medical education training----
    Mr. Carter. So I am waiting for the answer ``no.''
    Admiral Nathan. The answer is, from my perspective--I think 
I speak for all of us--no. We will not----
    Mr. Carter. Because that is the answer they want, and I am 
asking you to help me give it to them.
    Admiral Nathan. We are not going to disenfranchise that 
population.
    General Travis. I agree with ``no.''

                       ELECTRONIC HEALTH RECORDS

    Mr. Carter. Okay. Then I am going to tell them ``no.''
    I have one more question, Mr. Chairman.
    I have been in Congress for 12 years, and in that 12-year 
period of time we have talked about the issue Mrs. Lowey 
raised, the communication between the DoD and VA. So I want to 
ask a question.
    In the effort to allow DoD and VA medical records systems 
to communicate, DoD and VA are now developing different systems 
and attempting to develop applications that will work between 
them.
    Has the DoD and VA considered, rather than focusing on the 
system themselves, focusing on the basic operating parameters, 
a database language?
    With a standard like this, DoD, VA, and any other 
applications running on the same standard would be able to 
easily communicate. This is a model used frequently in the 
private-sector software and platform development.
    Has that been considered?
    Dr. Woodson. So let me answer that. And, again, the short 
answer is ``yes.'' And, in fact, we have done a lot within 2013 
to actually do that.
    One of the problems with electronic health records is, in 
fact, there wasn't common nomenclature and standards. And so we 
have been working with the Office of the National Coordinator 
to create and enforce those standards. So we made great 
progress in 2013 in mapping between DoD and VA the common terms 
and standards so that we can create interoperability.
    And we have deployed to nine sites where we are actively 
taking care of DoD and VA patients this new--well, this Joint 
Legacy Viewer to integrate the record. And I would be happy to 
show any of you a demo video of how this works.
    So the other thing we have done, we accomplished by the end 
of 2013, is we are no longer transferring paper--the service 
treatment record and paper to the VA, because we have an 
entirely electronic means of transferring those records.
    So it has been slow, but we made great progress in 2013. 
And in 2014 we are looking at the scaleability. So the answer 
is definitely ``yes.''
    Mr. Frelinghuysen. Will the gentleman yield?
    Mr. Carter. Yes.
    Mr. Frelinghuysen. Is currently the Department of Defense 
and the VA using separate medical databases that can neither 
translate nor communicate their data in a functional way? 
Currently?
    Dr. Woodson. So we are mapping all of the----
    Mr. Frelinghuysen. No, I understand. Are you using separate 
databases?
    Dr. Woodson. We are mapping all of the data to the health 
database. So the VA is mapping all of their data to our 
database at this time.
    Mr. Frelinghuysen. So you are, indeed, making some 
progress?
    Dr. Woodson. We are making progress.
    Mr. Frelinghuysen. We have invested so much money in this. 
I mean, the whole issue of raised expectations. One year we 
blame the VA; then the next year we blame the Department of 
Defense.
    I mean, you all, with wonderful, you know, records and 
dedication to country, must be enormously frustrated and to 
some extent embarrassed by this situation here. I mean, you 
don't have to--I can look at your responses, which are not 
recorded. But let me say we need to make some progress on this.
    Back to you, Judge Carter.

                     UNDIAGNOSED DISEASES DATABASE

    Mr. Carter. Well, if I have time for one more question, 
this is kind of personal.
    NIH maintains the database of undiagnosed diseases. And you 
talked about some today that I have never heard of. I have 
legislation that would encourage them to open that database to 
third-party physicians to increase the catalog of symptoms and 
provide resources to the medical professionals who are trying 
to identify an unknown illness.
    Does DoD have any similar database? And is there a way you 
can think of that DoD might be able to contribute to this 
effort?
    We have an awful lot of mothers who have come to me and 
said, my baby is dying, there is bound to be somebody else with 
these symptoms, I sure would like to talk to them.
    Dr. Woodson. So, again, I think you are spot-on. And across 
the Federal space and to some extent in the civilian space, in 
the research community, we are opening these databases and 
contributing to the same databases to drive more effectively to 
answers to some of these desperate problems.
    Mr. Carter. So you are saying DoD would be associated with 
NIH's database?
    Dr. Woodson. Yes. And we already are, several right now. 
So, yes, absolutely.
    Mr. Frelinghuysen. Thank you, Judge Carter.
    Epitomizing patience, Ms. Kaptur.

               MENTAL HEALTH CARE FOR GUARD AND RESERVES

    Ms. Kaptur. Thank you, Mr. Chairman, very much.
    I could say the same of you. You have to listen to all of 
us. Thank you very much for your service to our country and for 
coming today.
    As with our other colleagues, Mrs. Lowey and Congressman 
Ryan and others, Congressman Womack, I have a deep interest in 
psychological behavioral health and human performance. Over the 
past several years, the Congress has added substantial 
resources for psychological health research and traumatic brain 
injury.
    And one observation I have of all of your testimonies is 
that, understanding the incredible role that the Guard and 
Reserve have played in our warfighting over the last decade, 
the absence of significant mention by each of you in your 
testimony is troubling to me. They are an understudied, most 
vulnerable, less supported subgroup within our military.
    And the first homework I am going to suggest is that you 
take a very close look at something called the Ohio Army 
National Guard Mental Health Initiative.
    Obviously, we each come from different places. I don't have 
a big base like Fort Hood, but I have soldiers that have fought 
nobly.
    And my questions--and I would like to make some further 
clarification for the record, but my questions really are: How 
are you managing the research, diagnosis, and treatment of the 
psychological health of our warriors and veteran population?
    Dr. Horoho, on page 8 of your testimony, you reference on 
August 2013 a national research action plan that the White 
House released, and you mentioned various entities of our 
Federal Government involved in that. And then, on page 21, you 
talk about suicides, and you used the words several times 
``Active Duty,'' ``Active Duty,'' ``Active Duty.''
    I am very, very concerned about what I see happening in 
Ohio. And my concerns may be misplaced. But for a number of 
years, we have been trying to help our returning soldiers. And 
we have developed a 3,000-person-minimum database with DNA 
samples and so forth. But what has happened inside the 
Department of Defense is unbelievable.
    In trying to help our Guard and Reserve, first we started 
out in something called the Military Operational Medicine 
Research Program. And, somehow, as the research progressed--and 
I believe it to be the only longitudinal study that I have seen 
in the country of what actually happens to these individuals on 
rotation out. They have been switched to something called the 
Warfighter Account.
    And I am really perplexed and not understanding the plan of 
the U.S. military for a comprehensive approach to diagnosis and 
treatment and long-term observation of these individuals and, 
also, invention of new methodologies to help them lead a more 
normal life.
    So I am asking each of you, can you explain to me what this 
shift in placement within DOD means? Is it more helpful to the 
Guard and Reserve or less helpful? And how do we embrace the 
Guard and Reserve across this country who did not return to a 
home base? And, over time, these behavioral issues continue to 
come up.
    Dr. Woodson. Thank you for the question and pointing out 
the concern.
    And I would say for the record that I think each of us is 
deeply appreciate of the Reserve component and that we pay 
attention to the Reserve component. And, in fact, in my opening 
statement, as I talked about the medical force, it is about 
understanding the balance in the Active and the Reserve 
components and what we need to do to reform policies and 
procedures to promote, protect, and support them. And I am a 
Reservist who has been mobilized many times, so I have felt it 
in many different ways.
    Now, to get to your point about support for psychological 
health, we have a number of activities--and I am sure the 
Surgeons General will elaborate--that looks at pre-deployment, 
post-deployment, and a series of follow-up examinations to 
ensure that we are capturing those that might have 
difficulties.
    We have invested with the VA in a longitudinal integrated 
mental health strategy to provide the best clinical practice 
guidelines and a warm handoff to the VA for those individuals 
who have psychological, traumatic brain, or other mental health 
issues.
    We have invested with the VA in tele-behavioral health so 
that we can extend our capability to Reserve components and 
folks who are remotely located. And we have invested, with the 
VA and the National Guard, in State coordinators to help 
arrange for the needs of the Reserve components.
    And then there are a number of other programs, like Yellow 
Ribbon and the like.
    So I will stop there, and I will let----
    Ms. Kaptur. Dr. Woodson, could I just mention something 
here? We are having a separate fight over in the Veterans 
Committee of the House to work with our State veterans homes--
there are only two in Ohio, but many around the country--to 
allow empty wings to be used for some of these individuals. 
Guess what? The VA fights us every step of the way at the 
national level.
    The local people know it is needed. We have homeless vets 
all over the place. Can't get it together. We can't get it 
together. All of these roadblocks. And so people are under 
bridges, they are in jails, they are in all these horrendous 
conditions.
    And I am just making you aware, because maybe if you talk 
to the VA you can help them see a way forward. We are going to 
get through this, we are going to do this, we are going to 
provide decent shelter to these vets. But they need behavioral 
health care.
    General Horoho. Thank you, ma'am, for the opportunity to 
comment.
    And so, if I could go back to the first statement of not 
including or mentioning directly the Reserve and the National 
Guard, throughout my statement when I use the word ``Army'' or 
``total Army family,'' that includes the Reserve component (RC) 
and the National Guard. And so I try----
    Ms. Kaptur. When you say ``Active,'' you are including 
Guard and----
    General Horoho. No. So that is what I want to explain. So 
that is in the first part, is talking about that.
    When I talk about the Active and the specific programs in 
there, we had a phased approach as we have looked at changes 
within the behavioral health community and looked at improving 
health. We started first with the Active component to see if 
the program worked. We are now in the phase of rolling that out 
within the Reserves and National Guard.
    So I would like to take a moment to talk about that, if 
that is okay. Okay?
    So the first part of that is we are actually, within the 
Reserves and the National Guard, now rolling out our 
performance triad. We have tested it in the Active component. 
We have now had agreement with the Reserves and the National 
Guard. They have given us three units each to be able to do 
pilot testing to see how this works. And so we are in the 
middle of rolling that out.
    We have also included them in--there is a myPRIME, which is 
an online computer database, where our Reserve and our National 
Guard can actually go online when they are having difficulties 
or challenges so that they can reconnect into the community and 
we can direct them to resources and help.
    We have now actually worked with the National Guard and the 
Reserves, and they have hired psychological health promotion 
officers so that every State has one, and then the Reserve 
units are having that. So that is then one dedicated individual 
that is looking at the psychological health for our Reserves 
and our National Guard and then being able to have consistent 
programs of the same that we have been trying to roll out 
across the Active component.
    We have also partnered with Give An Hour and the National 
Guard, and I went to the kickoff for that, where Give An Hour 
is actually providing psychological help to partner with the 
National Guard to help through tele-behavioral health. And so 
that has been rolling out across the National Guard States.
    We are also working with the Reserves and the National 
Guard in resiliency training. And they are part of our 
readiness and resilient campaign plan that has been rolled out 
across our Army.
    And so we are looking at all of those touchpoints, from the 
treatment aspect but, more importantly now, to the prevention 
and the long-term aspect of really providing the psychological 
health and the support.
    Ms. Kaptur. Well, could you explain to me, what does it 
mean, then, when the Ohio Guard is shifted from the Military 
Operational Medicine Research Program to the Warfighter Fund? 
What does that mean?
    General Horoho. If I can take that one for the record, 
because I don't have the right answer for you, but if I could 
take that, I will dig into it.
    Ms. Kaptur. I thank you very much for that.
    [The information follows:]

    Above all, Ohio Army National Guard (OHARNG) Mental Health 
Initiative remains fully funded under Joint Warfighter Medical Research 
Program (JWMRP). It was originally funded as a Congressional Special 
Interest project as part of Military Operational Medicine Research 
Program (MOMRP). As the OHARNG Mental Health Initiative progressed, it 
met the requirement for full funding through the JWMRP. Congress uses 
JWMRP funds to augment and accelerate high priority Department of 
Defense and Service medical requirements and to continue prior year 
initiatives that are close to achieving their objectives and yielding a 
benefit to military medicine. The OHARNG National Guard Mental Health 
Initiative met these requirements.

                   HEALTH CARE FOR RESERVE COMPONENTS

    Ms. Kaptur. And I wanted to say also that some of the 
results of the work that has been done relate to the largest 
amount of DNA that has been collected in the country for 
individuals presenting with these conditions. That, in itself, 
is a valuable national resource.
    In addition to that, we have learned many things. We have 
learned, on enlistment, one of the top factors for those who 
ultimately develop these conditions is preexisting experience 
with violence, more than 10 episodes. And so it has an impact 
on recruitment and on trying to make soldiers resilient for 
whatever they might deal with in the future.
    There is a lot of information that has come from this. I 
don't get the sense that it necessarily bubbles up. And so I am 
appreciative of your taking a look at that.
    And I would be interested, for Air Force and Navy, if there 
is any information that you could give us today on what your 
branches are doing.
    Admiral Nathan. Yes, ma'am. One of our greatest challenges 
is trying to connect both the Reservists and the individual 
augmentee with continuity of care, especially that of 
psychological health from either traumatic brain injury (TBI) 
or post-traumatic stress (PTS).
    There are many programs out there, and many of them are 
joint. They can come from Military OneSource, and that is how 
people can find them. They often transcend the Army, the Air 
Force, the Navy programs.
    The challenge is getting the Reservist, who then leaves the 
fold, to remain engaged or understand what is available to 
them. We have a couple of mechanisms for doing that.
    One is the Returning Warrior Workshops. This is where 
Reservists come back, they deactivate, and then they are given 
per diem and transportation to go to a city where we hold 
symposiums for 2 days at no cost to them. We encourage the 
entire family to participate, or at least the spouse. They are 
given 2 days of psychological assessments, support groups, and 
mostly information on what is available to them online through 
the telephone, and through local Reserve centers, to get the 
care they need.
    It has been my experience that our biggest challenge is, 
when we go to the Reservists and they say, we are failing, our 
family is failing, we are not doing well, we are having issues. 
They don't know what help is available to them. So this is a 
mechanism, which has been highly successful and been highly 
praised by the Reservists, who said, this has armed me with 
what I need to know to follow up, even though I may be doing 
okay right now. But, as you know, one of the challenges is, 2 
years from now or 3 years from now or 4 years from now, as 
people start having issues, how do they trigger help?
    We also have a program called FOCUS (Families Overcoming 
Under Stress) for activated Reservists and families as well as 
active component personnel. FOCUS provides myriad of services 
that are run out of our family services centers. Service 
members can come in, see counselors, they can be given 
materials, they can be given referrals.
    And then, to get to the larger question, is how do we--and 
this gets to the chairman's point of a connected medical 
record--how do we provide a warm handoff from the DoD system to 
the VA system so that somebody is not lost in the process?
    We are working very hard on trying to maintain databases 
now that we share with the VA. We are using lead coordinators 
for people who can--and Federal healthcare coordinators, who 
can not only watch the care as it is being given in our DoD 
system, but then they maintain the continuity of that patient, 
of that individual, as they leave our system and go to the VA 
system so that there is somebody who is aware of their 
existence in both systems.
    Ms. Kaptur. Well, it is very interesting, one of our local 
sheriffs--and I represent several counties. He is a veteran, a 
Vietnam veteran. And he said, you know, Congresswoman, he said, 
on every given day, I have a minimum of 6 percent of my inmates 
who are veterans. He said, we have learned something 
interesting in the jail. We say to them, are you a veteran? 
They say no. But if we ask, have you ever had any military 
service?
    It is just so interesting how we work with people so that 
we are able to help them and we can unlock whatever is blocking 
sometimes their own ability to get care. I would just place 
that on the record.
    Mr. Frelinghuysen. Okay.
    Ms. Kaptur. And we have one more reply, Mr. Chairman----
    General Travis. I will keep it brief. I know we are running 
short on time.
    Mr. Frelinghuysen. We are going to be here until I get a 
few answers, so----
    General Travis. Okay. Admiral Nathan's comments, I would 
mimic those.
    But I would also tell you that, for the Air Force, and we 
are a total Air Force. You know, the Guard and the Reserves 
actually have established some of their own programs that are 
very good. There is a Wingman Toolkit the Reserve Command--I 
think it is the Reserve Command--has put out, where you text 
``WGTK'' to a number, and there is an app that will show up on 
your phone or a website that shows up on your phone. It is very 
accessible, works very well. The Guard has wingman.org.
    On the active duty side, those of us who have more assets, 
mental health assets, at our disposal, we actually have made a 
point in our lay-down of the extra uniformed mental health 
providers that we are laying in as a result of NDAA section 714 
between now and 2016--it started in 2012. We influenced our 
lay-down of our mental health providers to bases where they 
could become reach-back for what the Guard has now established 
as directors of psychological health at each of their wings.
    And so we have influenced where we put these, I wouldn't 
call them extra assets, but the assets that were mandated by 
law to make sure we were providing the reach-back support to 
Guard units which may be more remote.
    And, of course, I don't think we have quite the burden of 
PTS in our Reserve forces as does the Army, but we recognize 
that there is a gap, and we are trying to address that gap.
    Mr. Frelinghuysen. Thank you, General.
    Thank you, Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.

                        ELECTRONIC HEALTH RECORD

    Mr. Frelinghuysen. We have been, as a committee, concerned 
about connection and continuity and the warm hand since 2008. 
So I have a few questions to Dr. Woodson.
    What is the medical database that the Department of Defense 
uses now?
    Dr. Woodson. The electronic health record is AHLTA.
    Mr. Frelinghuysen. Which stands, I may add, for Armed 
Forces Health Longitudinal Technology Application. I am not 
sure what that tells us, but it is certainly a mouthful. It is 
not a acronym that I can remember.
    How does that system work?
    Dr. Woodson. It is based on a series of databases that 
archive and redistribute information. And, of course, we have a 
worldwide network, so it is about archiving and redistributing 
the information----
    Mr. Frelinghuysen. Well, tell me if I am wrong. In February 
of last year, both departments, the Department of Veterans 
Affairs and the Department of Defense, announced, instead of 
building one integrated health record, they would continue with 
their separate systems. Is that accurate?
    Dr. Woodson. No, not quite. What I think the statement was, 
instead of trying to build de novo a single record, what was 
going to happen is that the Department of Defense was going to 
do a competitive solicitation and acquisition of an updated 
electronic health record and the VA was going to modernize 
their VistA system.
    Mr. Frelinghuysen. Well, there is a feeling that there are 
two systems here, and it seems that maybe the systems are sort 
of competing to subsume the other. Am I correct?
    Dr. Woodson. I don't--it is a good question, but I don't--
--
    Mr. Frelinghuysen. It is a good question. We----
    Dr. Woodson. I don't see that that way.
    One way to look at this is that, again--I think I made this 
point some time ago--that if we were to ask everybody to hold 
up their cell phone, we would have a variety of different cell 
phones, but we could all text each other, call each other, and 
mail each other. We could work documents and then send them to 
our fellows.
    Electronic records are like those platforms, and the 
barrier to sending information and developing that 
interoperability has to do with the standardized way of 
handling the data. And so----
    Mr. Frelinghuysen. What we would call a common language, 
right? A dictionary, right?
    Dr. Woodson. Yeah, exactly.
    Mr. Frelinghuysen. Why has it taken us since 2008 to come 
up with this common thread here?
    Dr. Woodson. So, this is a national problem. It is not----
    Mr. Frelinghuysen. Well, it is not a national problem. It 
is a national tragedy that this has taken so long here. There 
is no partisan divide here.
    Dr. Woodson. Yeah. And as I mentioned before, we have gone 
a long way between the Departments of Veterans Affairs and 
Defense last year to map a lot of that data.
    But one of the things that I think the committee should 
know is that the majority of our interfaces are with the 
private sector. So 70 percent of our dollars----
    Mr. Frelinghuysen. Well, actually, the private sector might 
offer up some, you know, competition to some of the systems 
that you are employing yourself. They might have some ideas 
that might ease up the symbiosis of whatever we are talking 
about here.
    Dr. Woodson. And so I think you are exactly right, and that 
is exactly why we took the tack of looking into the commercial 
market. The issue is that, as I mentioned before, we are 
working with the Office of the National Coordinator to push 
the----
    Mr. Frelinghuysen. The office of the who?
    Dr. Woodson. National Coordinator.
    Mr. Frelinghuysen. National Coordinator of what?
    Dr. Woodson. That is through HHS. They are the ones who set 
the standards.
    Mr. Frelinghuysen. So we are going with HHS. Have we always 
used HHS?
    Dr. Woodson. HHS sets the standards relative to this.
    Mr. Frelinghuysen. So they set the standards for the 
language?
    Dr. Woodson. For meaningful use of electronic health 
records.
    Mr. Frelinghuysen. And so, we didn't tap them before this?
    Dr. Woodson. We have been working with them. The issue is 
that it has really been since 2009 that this has really become 
a national focus to develop----
    Mr. Frelinghuysen. It has been a focus of this committee, 
regardless of who runs the committee. And, you know, this is 
pretty disappointing. This has real-life consequences here.
    And since we are the Appropriations Committee, what is the 
estimated cost of your new records system? I won't ask what the 
VA is doing to update theirs, but what is the cost of your new 
system here?
    Dr. Woodson. I think to acquire and fully implement the 
record, the lifecycle cost is going to be around--and this, you 
would have to ask Mr. Kendall, because he is really in charge 
of----
    Mr. Frelinghuysen. Well, I am asking you if you have a 
ballpark figure.
    Dr. Woodson. It is about $11 billion.
    Mr. Frelinghuysen. $11 billion. This is just for you.
    Dr. Woodson. Yeah.
    Mr. Frelinghuysen. And this is the tail, like we would say, 
for aircraft, or, you know, a ship that has a tail.
    Dr. Woodson. Right. This is the lifecycle.
    Mr. Frelinghuysen. So maybe we can focus on targets. The 
target date for the initial operating capability is the first 
quarter fiscal year 2017 and the full operating capacity, 
fiscal year 2023 practical. What do you feel is the realistic 
timetable for this year?
    Dr. Woodson. So we have already put out two RFPs and so 
that process is going along very well. We intend to begin 
fielding capability last quarter of 2016.
    Mr. Frelinghuysen. So what happens if the parties you are 
dealing with here, there is a protest here?
    Dr. Woodson. Well, that is a possibility.
    Mr. Frelinghuysen. There is a possibility.
    Dr. Woodson. Yeah.
    Mr. Frelinghuysen. I just, you know, I think it is 
enormously frustrating. It makes us angry that we have made 
these investments here. I don't know who has clean hands, but 
we have an issue of expectations that we might be able to get 
across the finish line here. This is way beyond the claims 
backup that the VA has. This is pretty damn important. What 
sort of level of assurance can you give here that we can meet 
these deadlines? That is a lot of money.
    Dr. Woodson. Yeah. It is a lot of money. I feel more 
confident today than clearly even last year, that we will meet 
those deadlines because the acquisition process is going along, 
and more importantly, what we have learned from the commercial 
market about what is out there is encouraging.
    Mr. Frelinghuysen. Well, the commercial market has been out 
there for quite a long time. I know there is a tendency, and I 
am respectful, but in reality, sometimes we don't take a look 
at things that are off the shelf. We try to be inventive on 
communication systems. God only knows the amount of money we 
have invested in communicating. I won't say which Service is 
the worst, but coming with communication systems. But this is 
pretty important.
    Mr. Visclosky.

                       ELECTRONIC MEDICAL RECORDS

    Mr. Visclosky. Thank you, Mr. Chairman.
    And I do have a number of questions and I realize you may 
have additional ones and Mr. Womack. So I would ask for some 
brevity. I have got all day, but I think other people do not.
    I would associate myself, first of all, with the remarks of 
the chair. On more than one instance, as a Member of Congress, 
I have referenced World War II. We fought and won a world war 
in 4 years. We are talking about interoperability of medical 
records from 2008 to 2017, and I am appalled. And I just would 
hope that going forward there is a sense of urgency and that if 
something isn't done by Friday, that people don't have the 
attitude, we will get to it on Monday. I just can't believe 
that given the wealth of talent and knowledge we have in the 
United States of America, that it would take a minimum of 9 
years to make medical records interoperable.
    So I would just associate myself with everything the 
chairman said and hope that people going forward have a sense 
of urgency.

                              TRICARE FEES

    I would like to return to the issue of TRICARE and as I 
said in my opening statement, I realize just the demographics, 
if you would, and the math involved both on a civilian and 
military side are driving a significant budget problem. But I 
also, in my opening remarks, mentioned equity. And I understand 
that currently active duty members in TRICARE Prime or TRICARE 
Prime Remote have no copays as long as they follow Prime rules 
requiring consultation with a primary care manager, to access 
specialty care or to use the medical treatment facility 
network. It appears a new plan would treat active duty families 
as somewhat differently if they do not reside near or have 
access to a medical treatment facility or if their medical 
treatment facility does not have a capacity, for example, 
pediatrics.
    These families don't have control over their assignments. 
Will they--how will DoD address the issue of equity based on 
availability and assignment?
    Dr. Woodson. So, as the plan is rolled out, we recognize, 
again, that there will be some individuals who may pay more 
because of location. We looked at it, and as I mentioned 
before, we looked at the numbers as it affected the junior 
enlisted, and I won't repeat that. On average, their out-of-
pocket costs will rise from about 1.4 percent to 3.3 percent, 
an average of about $244 a year.
    Now, that is an average, and I understand that there may be 
some folks that need to consume more health care, and if they 
are in a remote area, it could introduce a larger burden. And 
the issue is that when you look at the, again, the numbers, 
particularly for junior enlisted, the impact appears to be 
small because most of them should be near an MTF and could get 
free care there. But let me give you an example of--so it is 
pretty clear.
    So, for example, young enlisted, they utilize less care but 
they do use, let's say, OB services. And let's say there is a 
family that is not near an MTF. The way the system would work 
is that all preventative care is free. What would happen is 
that if they needed--they were having a child on the economy, 
because the payments are bundled, they would be responsible for 
the one-time admission fee and so the difference between 
delivering in an MTF, and let's say in the--on the economy, 
would be $60 to $80 depending on the geographic area you are 
in.
    So, in short, yes, there are some families that might 
experience elevated costs. I would say, as a final comment, 
that that is why we have catastrophic caps so a family could 
utilize $1.5 million of care, and they--their only financial 
liability would be $1,500 under the proposal.

                     EFFECTIVE UTILIZATION OF MTFS

    Mr. Visclosky. There have been efforts to increase the use 
of military treatment facilities on the theory you have 
facilities you want to maximize your utilization and decrease 
care received from private providers, so that was emphasized 
last year. Is that still an emphasis in the Services, and is 
that consolidation, if you would, of services in medical 
treatment facilities continuing?
    Dr. Woodson. I will let the Surgeons General respond, but 
the answer is yes, that we do need to protect and utilize our 
military treatment facilities effectively. The financial 
arrangements under the proposal emphasize lowest cost when they 
use the military treatment facilities. So there is an incentive 
to use the military treatment facilities. But I will let the--
--
    Mr. Visclosky. If I could, I don't want to be rude but I 
really do have other questions. I am assuming from your answer 
that it is still an emphasis.
    Dr. Woodson. Absolutely.

                              AUDITABILITY

    Mr. Visclosky. Okay. And just a statement, when the 
Secretary of Defense was in, and I think it is because I 
majored in accounting, I do hope that the 2017 goal of 
auditability is reached, and apparently, that is still on 
track, and obviously, medical services have a role to play, and 
I would encourage you on that.
    Dr. Woodson. Yes.

                     FOREIGN MEDICAL PROFESSIONALS

    Mr. Visclosky. On manning of the medical force, and Mr. 
Owens had a question, and you mentioned that for some of the 
specialties and occupations, it is hard to recruit and there 
was an emphasis on those in rural areas, which, again, I think 
would probably mirror some of the problems the civilian 
population has. But the Department of Defense had a report that 
reviewed procedures for accessing non-U.S. citizens with skills 
vital to National Defense, and among them were pharmacists, 
psychologists, and nurses. There are not enough U.S. citizens 
being treated that can be encouraged to participate, do you 
know? It is not your report. It is a Department-wide report, 
but some of the skill sets they were talking about accessing 
noncitizens, were nursing, pharmacy, and psychology. Is that a 
problem for you in getting enough citizens?
    Dr. Woodson. Again, I will let the Surgeons General 
respond, but in general, we know that the American medical 
system has been augmented by foreign medical graduates, and 
that has been in place for some time.
    Mr. Visclosky. Half of the physicians in my district are 
foreign born. I understand that.
    Dr. Woodson. So that is going to be a persisting issue.
    Mr. Visclosky. Okay, I will defer for the moment, Mr. 
Chair.
    Mr. Frelinghuysen. That means he may have more questions.
    Mr. Womack.

                         MENTAL HEALTH SERVICES

    Mr. Womack. Thank you.
    I have got a couple of items in my binder that I need to 
get to, and I apologize up front if you have covered these in 
any depth at all. I know we have talked about mental health 
access for servicemembers. But particularly to kind of drill 
down on the separating servicemember, the person who has got 
some kind of mental health therapy going on but is separating 
the Service, and that potential for a disconnect between when 
they leave and when they pick up treatment once again, what are 
we doing to ensure that we don't have a break in services?
    Because I know, that if these servicemembers have even a 
short break between treatment and therapy it could manifest 
itself in a very tragic way. So help me understand what we are 
doing to ensure that we can keep them consistent in their 
treatment programs. I will flip a coin if you would like.
    General Horoho. I will start out first. Sir, part of what 
we are doing is, first is making sure that we keep our 
servicemembers going through their treatment to the point where 
they really are ready to transfer. So we are not transferring 
them out before their behavioral health therapy is done. We 
have 80 percent of those that are diagnosed with PTSD actually 
remaining on active duty. So we are talking about that 20 
percent. So those 20 percent that have a diagnosis, that go 
through the disability system, we focus on care coordination, 
to a warm handoff to the VA.
    We also coordinate with the care coordinators that they 
have nationally, where they oversee the personnel and so making 
sure that there is a warm handoff that is there, and then if 
they are going back into a Reserve unit, National Guard, or 
Reserve, then there is that warm handoff from the behavior 
health providers to the providers in those units.
    Mr. Womack. In the interest of time, Admiral Nathan, 
General Travis, is your program similar in that there would not 
be a transition until the servicemember is ready?
    Admiral Nathan. That is correct, sir. In all of our 
facilities, and any patient who has a significant issue is 
generally followed by a case manager. That assigned case 
manager also works with VA liaison personnel. The challenge, to 
be honest, and this is opening the wound the chairman was 
talking about, is that often, we can get the individual to the 
VA, but when they get there sometimes, it is not easy for the 
VA to see what has happened unless they bring their paper 
record.
    As Dr. Woodson alluded to, we are working on trying to 
increase the interoperability of the medical record so that 
there won't be that lag in clinical understanding, but that is 
still a challenge for us.
    General Travis. I have nothing to add, sir.

                          CONCUSSIVE INJURIES

    Mr. Womack. Okay. Last month, the Journal of Head Trauma 
Rehabilitation suggested that a blast, an IED blast, as an 
example, can affect a soldier, even if he doesn't have 
manifesting symptoms right away. This means that veterans may 
go quite a while before they have some kind of an issue like a 
PTSD or depression. What are we doing to reach out to these 
veterans and some of these occurred well before we got better 
at this game. So back in the early part of the new millennium, 
when the war was first starting, so are we going back and 
reconnecting and drilling down on those particular members?
    Admiral Nathan. I will take a stab. This is, I think, a 
fairly good news story. We are not ready to hang the ``mission 
accomplished'' sign up yet, but we now treat concussions and 
blast injuries in a radically different way than we did at the 
start of the war. Number one, you are entered into a concussion 
registry so that we can follow you longitudinally and maintain, 
just as we do in trauma and cancer. In addition, when you 
sustain a blast injury or any hallmarks of a concussion, you 
are pulled out of the battle. You are pulled out of the busy 
system. This is onscene in theatre Camp Leatherneck in 
Afghanistan our concussion restoration care center, treats mild 
to moderate to severe concussion, you are now pulled out and 
sent to Camp Leatherneck and given reactive tests until you are 
deemed ready to return to duty.
    This protocol has been so successful it has been 
transferred now to sports, both college and high school. So I 
think, to answer your question, sir, a patient who sustains a 
concussion today or in the recent years is going to be followed 
via a good registry. We will be able to document. The 
individual will be able to go to the VA and with documentation 
to show the affliction. Prior to the war, we weren't likely 
doing that complete a job area.
    General Horoho. And, sir, if I could just make one quick 
comment. Eighty-five percent of our concussions are actually 
attributed to garrison, either, you know, injury, car accidents 
and sports and those types of things. So we learned from the 
protocol that we had a joint protocol in theater. We have now 
standardized that across the garrison footprint, and then we 
are actually putting those individuals into the registry as 
well.
    Mr. Womack. I am sure it would be safe to say that society 
has benefitted from the tragedy of having some of those head 
trauma happening in our conflicts over the last decade plus.
    Finally, General Horoho, I mentioned in my first round, 
Brendan Marrocco.

                       SERGEANT BRENDAN MARROCCO

    General Horoho. Thank you, sir, for the opportunity to be 
able to continue to tell his story. He is actually doing well. 
He is still at Walter Reed right now. He has actually been 
fitted with two prosthetic legs. His brother, who was giving 
24/7, you know, support, now doesn't have to do that because he 
is able to do more himself. Both of his transplanted arms are 
actually functioning, and probably I think the best way to say 
how this has made an impact is that when the National Anthem 
was being sung, he himself realized in the middle of it that he 
had his hand on his heart.
    So, to me, if that doesn't strike to why it is important 
that we preserve our military healthcare capabilities, support 
research, and keep that warfighter mentality and that spirit, I 
don't know anything else that does.
    So thank you, sir.
    Mr. Womack. It is an amazing story. And I am just so very, 
very thankful for the things that we have been able to do, and 
credit goes to a lot to the leadership espoused by the people 
sitting at this table today.
    And Mr. Chairman, I truly appreciate their service.

                         DEFENSE HEALTH AGENCY

    Mr. Frelinghuysen. I echo your comments and relative to the 
issue of research, we get visited by many who support the 
congressionally directed medical research program, and they 
perform, I think, very well, some innovative things. They do 
things that are highly risky but obviously substantiated before 
they initiate them. The Services, the three of you, as Surgeons 
General, are currently responsible, and I mentioned that you 
have intimate knowledge of these investments. However, there is 
a transition, isn't there, to moving some of that 
responsibility over to the Defense Health Agency? Isn't that 
true? That occurred in October of last year.
    So tell me what the Defense Health Agency does. It is the 
policy maker for the military healthcare system, but are they 
going to substitute their judgment for your individual and 
collective judgment? What is the working relationship by the 
creation of this new agency? Or are you the three pillars of 
that agency? Or is there somebody else that is----
    Admiral Nathan. If you ask us, we are the three pillars of 
the agency.
    Mr. Frelinghuysen. I am not going to mention anybody else's 
name, although I am aware of other names.
    Admiral Nathan. As a user of the system and as a member of 
the club, Mr. Chairman, the Defense Health Agency is designed 
to shoulder some of the services that we provide, ranging from 
facilities, acquisition, logistics, pharmacy, information 
management.
    Mr. Frelinghuysen. I mean, they are involved in the, dare I 
mention it, the electronic medical records, too, or are they 
separate from that?
    Admiral Nathan. They are involved in a very big way in 
that.
    Mr. Frelinghuysen. Okay.
    Admiral Nathan. Because it is an example of something that 
should be standardized and useful across all of the Services. 
We in the Services have some very capable but yet redundant and 
sometimes working at cross purposes. We are fans of trying to 
standardize those, remove redundancies, create efficiencies, 
and allow those to be provided to us and guided to us in the 
same way the Defense Logistics Agency does for logistical 
support of the three Services.
    So we look at them, or I guess I speak for myself, and 
perhaps the others, I look at it as an organization that is 
going to support me in my requirements. I have requirements for 
information management, pharmacy and others. I have 
requirements in order to execute my mission. I look to the 
Defense Health Agency to support me in those requirements.
    Mr. Frelinghuysen. Well, I have confidence in all three of 
you, and I am not sure I need to have you all respond, but I 
just, if we look to the future, sometimes at some point in time 
after so many years of dedicated service, you may not be on the 
scene. You may be replaced by equally able men and women. There 
is a tendency sometimes for people to migrate, agencies to 
migrate and sort of subsume, you know, your traditional, your 
traditional remarkable roles, and I just sort of thought I 
would raise the question. You are giving me a level of 
assurance at least for this generation of leadership, that that 
is not going to happen.
    Anything further, Mr. Visclosky?

              INVESTING AND MAINTAINING MEDICAL PERSONNEL

    Mr. Visclosky. Chairman, two lines of question if I could. 
One, talking about having been at war for nearly 13 years, 
could you explain any investments you think we need to make 
today to ensure that the skills and knowledge that have been 
gained at a great price, are, if you would, institutionalized 
and remain in place? Do you have any current state of manning 
problems as far as some of your specialties or units? Do you 
need incentive programs or other intangibles to make sure that 
some of that medical force personnel maintains that readiness 
you have today?
    And then I have one more question. But just, how do we keep 
that energy and expertise that has been purchased at such a 
high price? How do we maintain them? Do we have a role here as 
far as any program you are concerned about?
    General Horoho. Thank you, sir, if I have the opportunity, 
and I am sure my colleagues would like to comment as well. I 
think it is, first, vital that we recognize that our military 
treatment facilities are our readiness platforms and that it is 
not the same as, say, civilian healthcare. We have got to make 
sure that we are investing in the infrastructure, the 
capabilities, and the programs that allow our graduate medical 
education programs to remain at the tip of the readiness spear 
on how we attract, I think, some of the best and brightest 
scientists across our Nation and healthcare providers. I think 
that is important.
    They are the platforms that allow us to maintain that 
combat capability and knowledge that we had on the battlefield. 
We have got to be able to take care of our retirees, which is 
the complex care that allows us to maintain some of the skill 
sustainment. I think it is important that we continue to invest 
in technology so that we can use all of the capabilities that 
are emerging out there for skill sustainment and then look at 
those partnerships within the civilian community where we need 
to.
    Mr. Visclosky. Okay.
    General Travis. I had a brief comment, sir, if you don't 
mind.
    Mr. Visclosky. Sure.
    General Travis. I would echo everything Patty said, but I 
would also add, with the budget pressures we have had in the 
last couple of years, research dollars are sometimes the first 
to go. That, and facility sustainment, restoration, 
modernization. And on the other hand, and you say, gosh, you 
know, it makes sense if we are just trying to provide good 
care. But to really take advantage of all of the data that we 
have been able to collect in this war, thanks to the trauma 
registry, and a lot of our experience, you really do now have 
to use the research dollars to mine that data, to really get 
the lessons out of that data because we have been collecting 
it.
    We continue to collect it, but that research has to 
continue for years to really understand what you have collected 
and to learn the lessons. We are doing something on Air Evac, 
saying, what is the timing of really getting people back? Can 
you move them too fast? We are going to learn a lot by mining 
the data. But I would just tell you that protecting research 
dollars is just so important. Patty mentioned it. I would echo 
it.
    Mr. Visclosky. Is there a specific line item that would be 
related to that observation as far as research? Because 
obviously, there are a lot of research dollars being spent.
    General Travis. I think we could all probably come up with 
some line items.

                            WOMEN IN COMBAT

    Mr. Visclosky. Final issue is with the increased 
participation of women in the military, and particularly more 
active combat roles, if you would, are there any medical 
developments as far as women who have been deployed in areas of 
combat that have evolved and changed? And also, are there 
positions that may have been closed to women in medical 
services that are being opened now?
    General Horoho. I can start, sir. We stood up a Women's 
Health Task Force over 2 years ago getting feedback from a 
sensing session, over 200 women from all Services in 
Afghanistan, and we took their feedback. It is now a tri-
Service and we included the VA in this task force. It has led 
to changes in body armor. It has led to educational changes in 
the predeployment, deployment, and redeployment, changes in 
behavior health, how we actually manage and provide a little 
difference in the way that we support our women versus our men 
because the experience is different. It is coming out with 
actually some tests where for urinary tract infection and other 
female types of illnesses, so that they don't have to go to a 
provider. They can actually do self test and get the medication 
in theater because that was one of the concerns. And then it 
came out with a urinary device that has already been deployed, 
based on comments that came in the field.
    So I think we have stood up a women's health service line, 
so that we standardize and really look at the care to women 
across every aspect of the provision of care. And then lastly, 
there is work going on with the Natick Labs that is looking at 
not just females, but what is the standard for men and women to 
participate in any one of our military occupational specialties 
so that we have a common standard that is there.
    Mr. Visclosky. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you.
    Let me just add another point. You know, often the focus is 
half of the people that are homeless on the street every night 
are veterans, and often the assumption is that it is men, but 
in reality, some of those are women. So I don't mean to put a 
point on this issue of electronic medical records, but in 
reality, we need this relationship to come together sooner 
rather than later.
    But on behalf of the entire committee, I want to thank you 
all for your military service and for representing the best of 
America, those men and women in uniform, and many in civilian 
capacity who have served our country as well. We are enormously 
proud. Your job is, you know, so important, and we know you do 
it well. We are proud of you. We stand adjourned.
    [Clerk's note.--Questions submitted by Mr. Cole and the 
answers thereto follow:]

                Integrated Disability Evaluation System

    Question. With the majority of the troops being soldiers, How many 
troops have proceed through IDES, what is your goal for servicemember 
to process through the system and have you improved on your goal of 295 
days for getting servicemembers through? What funding is included in 
the FY15 budget request for IDES and what will it be used for?
    Answer. From the inception of the IDES in 2007, through the end of 
February 2014, the Army has completed 46,758 cases, with 38,586 from 
the Active Force, 2,976 from the Army Reserves, and 5,196 from the Army 
National Guard. Although it took Active Component Soldiers an average 
of 402 days to complete the IDES process in February 2014, this is an 
improvement over the 433 day average in February 2013. Approximately 
20% of cases were completed within the 295 day standard.
    Significant progress has been made in the medical evaluation board 
phase over this past year. The Medical Command (MEDCOM) established the 
IDES Service Line (SL) which centrally standardized processes across 
the command by developing a comprehensive IDES Guidebook, streamlined 
case processing, increased collaboration at the Military Treatment 
Facility level, and established MEB remote operating centers to 
increase capacity and address the RC Case backlog, while creating 
scalable solutions for surges in IDES referrals. As a result, MEDCOM 
was able to reduce the number of days spent in the MEB phase from 168 
days in November 2012 to 86 days in February 2014--a reduction of over 
80 days. Currently both the Army and VA are meeting the medical 
evaluation standards of 100 days for Active Component and 140 days for 
Reserve Component Soldiers in over 80% of cases; a significant 
improvement from 40% in November, 2012. The Army continues to partner 
with VA to resolve the surplus of cases waiting for rating 
determinations, but the Army fully expects to meet the 295 day goal for 
all Active Component cases and 305 day goal for Reserve Component cases 
by 2Q of FY 2015.
    The Army's total IDES funding request for FY 15 is $144.2M. 
MEDCOM's portion is $131M and the Army Human Resource Command (AHRC) 
portion is $13.2 M. The MEDCOM budget request funds for personnel 
costs; OCONUS IDES travel for Soldiers overseas who travel to CONUS for 
the process; and supplies and equipment. The AHRC budget request funds 
personnel costs, travel of Temporarily Retired Soldiers for Temporary 
Disability Retirement List re-evaluations, IT application support, 
supplies and equipment.

                                Tricare

    Question. Only about 40 percent of civilian mental health providers 
take these patients compared with 67 percent of primary doctors and 77 
percent of specialty patients. With a decade of deployments, even in 
the best of circumstances there will be a demand for mental health 
care. With the impact deployments have had on servicemember's families 
and those that have served, how do you plan to work with providers to 
ensure the benefit is available to those that need it?
    Answer. For the Military Treatment Facility (MTF) direct care 
system, the Services have robust staffing models, including the 
Psychological Health Risk-Adjusted Model for Staffing (PHRAMS), which 
was developed as a tool for the Services to define the appropriate 
number and mix of mental health personnel to meet the needs of Service 
members, retirees, and their families. PHRAMS enables the Services to 
make adjustments in planning assumptions to meet the mental health 
demand of individual beneficiary communities. Additionally, the 
Department's staffing of behavioral health providers (psychologists, 
social workers, and psychiatric and mental health nurse practitioners) 
in the Patient Centered Medical Homes in the MTFs will allow 
beneficiaries to access mental health services in the primary care, 
where they most often go to seek care.
    In the purchased care system, TRICARE has implemented many 
initiatives to ensure psychological services meet current and 
anticipated demand for our Service members, retirees and their 
families. TRICARE, through the Managed Care Support Contractors 
(MCSCs), has established networks of civilian providers world-wide and 
has flexibility in expanding or changing the composition of the network 
in response to changes in MTF capability and capacity. Ongoing efforts 
by the MCSCs to ensure provider availability include: monitoring of 
mental health network adequacy; on-line invitation and education for 
clinicians on becoming a TRICARE provider; local initiatives to 
outreach to mental health providers to build the network when shortages 
are identified; and quality monitoring and reporting of claims 
processing times as measured against benchmarks, which demonstrate that 
TRICARE is a timely payer and therefore an attractive network to join. 
The Department also works with professional organizations to increase 
awareness of the TRICARE benefit. For example, the Department met with 
representatives from the American Psychological Association on March 
27, 2014 to discuss strategies to increase civilian psychologist 
awareness of and participation in TRICARE.
    Additionally, increasing familiarity and competence when working 
with military beneficiaries, DoD and the Department of Veterans Affairs 
have jointly developed and disseminated four online training modules on 
military culture with free continuing education credit (available at 
http://www.deploymentpsych.org/online-courses). The release of these 
modules will increase VA, TRICARE-network, and non-network provider 
knowledge about military ethos and its impact on psychological health 
and treatment.
    The Department has also developed criteria for licensed mental 
health counselors to practice as independent mental health providers 
under TR1CARE, and the anticipated publication of these criteria in the 
Federal Register will positively impact the pool of available mental 
health providers under TRICARE in the years to come.
    Finally, the Senate Armed Services Committee (SASC), via the 
National Defense Authorization Act for 2014 (Title V, Subtitle C, 
``Mental health counselors for service members, veterans, and their 
families'') Committee Report, has directed the Secretary of Defense and 
the Secretary of Veterans Affairs to provide a joint report that 
describes a coordinated, unified plan to ensure adequate mental health 
counseling resources to address the long-term needs of all members of 
the armed forces, veterans, and their families. As part of this 
request, the Department is conducting a formal review of current mental 
health staffing and resources against future demand. This report will 
be submitted to Congress in September of 2014.
    Question. How can you prevent a decrease in the number of private 
medical providers who accept TRICARE? What specialists are least likely 
to accept TRICARE and what plans are in place to fix this gap in care?
    Answer. Like most civilian health insurance plans, the Department 
of Defense has experienced limited gaps in children's subspecialists, 
certain select medical subspecialists, and certain mental health 
services (Residential Treatment Centers, Partial Hospitalization, 
etc.). When sufficient providers cannot be recruited to join the 
TRICARE network, the TRICARE contractors ensure access to these 
services by coordinating with and authorizing reimbursement to non-
network providers when necessary to ensure care is routinely available. 
TRICARE has multiple contract vehicles and tools (such as locality-
based waivers) to ensure access to both primary and specialty care.
    The Department maintains civilian provider networks in Prime 
Service Areas (PSAs) under the TRICARE Prime Program around active 
military installations and former Base Realignment and Closure sites. 
Our regional TRICARE contract partners ensure sufficient numbers of 
primary care and specialty network providers to meet the needs of the 
beneficiaries living in each PSA. The contracts include specific 
network adequacy requirements. If needed services are not available in 
the network, the Managed Care Support Contracts (MCSCs) must find a 
non-network provider to provide the required services.
    The network is developed based on population, eligible 
beneficiaries, need/demand and claims data. To ensure network remains 
adequate, the MCSC is required to monitor the network, provide 
performance reports and corrective action reports in the event there is 
an indication of any network concerns.
    In non-PSAs, Congressionally mandated civilian provider surveys 
show 8 out of every 10 civilian physicians accept new TRICARE patients 
if they are accepting any new patients. Beneficiaries who are not 
enrolled in TRICARE Prime can seek services from any TRICARE authorized 
provider. Each of the regional contractor websites' has a look-up tool 
where beneficiaries can locate non-network providers that have treated 
TRICARE beneficiaries in the past.

                             Drug Policies

    Question. What is being done to ensure that medications given and 
prescriptions written in theater are being adequately recorded in a 
servicemember's medical file?
    Answer. We have developed an interface between the Pharmacy Data 
Transaction Service (PPTS) and the Theater Medical Data store (TMDS) to 
receive ambulatory prescription information on Service members in 
theater via a weekly data feed. The DoD Pharmacy Data Transaction 
Service (PDTS) is a centralized data repository that records 
information about prescriptions filled worldwide for Department of 
Defense (DoD) beneficiaries through Medical Treatment Facilities 
(MTFs), TRICARE Retail Network Pharmacies and the TRICARE Mail Order 
Pharmacy. The PDTS integrates theater prescription data into the 
medication profile of each Service member, which also contains 
prescription information from Military Treatment Facilities, Retail 
pharmacies, the DoD Mail Order program, and VA pharmacies. On April 17, 
2012, PDTS began capturing weekly files from the TMDS for prescriptions 
that were dispensed in theater. As of April 6, 2014, PDTS has captured 
over 1.3 million theater prescriptions, which includes historical 
prescriptions dating back to April 2011. This enhanced interface 
capability, 1) enhanced patient safety by including theater 
prescription data into the PDTS Prospective Drug Utilization Review 
(i.e. Drug-Drug interaction checks) processes and, 2) improved 
visibility and reporting of medications that are dispensed in theater.
    Question. What is being done to ensure that all prescriptions, from 
both Military Treatment Facilities and private sector care physicians, 
are being tracked? What do you need in terms of authority to implement 
a Drug-Take Back program?
    Answer. The DoD Pharmacy Data Transaction Service (PDTS) is a 
centralized data repository that records information about 
prescriptions filled worldwide for Department of Defense (DoD) 
beneficiaries through Medical Treatment Facilities (MTFs), TRICARE 
Retail Network Pharmacies and the TRICARE Mail Order Pharmacy. PDTS has 
processed over 2.1 billion transactions since it was fully implemented 
in 2001. The PDTS conducts on-line, real-time prospective drug 
utilization review (clinical screening) against a patient's complete 
medication history for each new or refilled prescription before it is 
dispensed to the patient. The clinical screenings identify potential 
patient safety or quality issues such as potential adverse reaction 
between two or more prescriptions, duplicate prescriptions, therapeutic 
overlaps and other alerts which can be immediately addressed to ensure 
the patient receives safe, quality care. In addition to the over 100 
million prescriptions processed real time in FY2013 through retail, 
mail and MTF pharmacies, the PDTS also captures member submitted claims 
(paper claims) for reimbursement, claims from the VA for dual eligible 
members via information sharing processes, as well as Theater 
prescription data from weekly feeds from the theater medical data 
repository since April 2012.
    The DoD has been closely working with the Drug Enforcement Agency 
(DEA) on the Disposal of Controlled Substances rule. Recently, DEA 
informed DoD that they will update their proposed rule that will allow 
DoD hospitals/clinics with a pharmacy on site to receive ``collector'' 
status, with authorization to conduct drug take back programs. The DoD 
will establish policy and coordinate it Service-wide for implementation 
of a prescription medication take-back program after publication of the 
DEA final rule.

    [Clerk's note.--End of questions submitted by Mr. Cole. 
Questions submitted by Mr. Aderholt and the answers thereto 
follow:]

                           Cost Sharing Fees

    Question. During the hearing, a question was raised that it appears 
that the Cost Sharing fees have been split between the ranks of ``E-4 
and below'' and ``E-5 and above.'' It is concerning that an E-5 would 
pay the same cost share as an 0-6, when the difference in base-pay 
salaries between the two ranks is around $7,000 per month when you 
factor in typical service years.
    Can you elaborate on how the Department plans to rectify this 
situation?
    Answer. TRICARE currently differentiates some of its cost shares by 
this same break--E-4 and below, E-5 and above. The PB 2015 proposal 
continues that practice.

                       TRICARE Participation Fees

    Question. TRICARE Participation Fees for military retirees are 
inflated annually based on the cost of living adjustment percentage. 
Recently, there has been much discussion about ``freezing'' the COLA 
increases for military retirement pay.
    Would the department oppose ``freezing'' the TRICARE Participation 
Fee for retirees, if the COLA increases for retirement pay become 
``frozen?''
    Answer. The Department's proposed legislation ties the TRICARE 
Participation fee to the Cost of Living Adjustment (COLA) percentage 
increase. If COLA was to be ``frozen,'' the Participation fee would be 
also.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Visclosky and the answers thereto 
follow:]

                        Joint Lab Working Group

    Question. Dr. Woodson, in January 2013, TRICARE discontinued 
coverage of over 100 laboratory developed tests (LDTs) when performed 
by providers outside the Military Treatment Facility (MTF) system. This 
change in coverage came amidst efforts to reduce Defense Health Care 
costs by encouraging TRICARE beneficiaries to use MTFs. The result, 
however, was a sweeping lack of coverage for basic, non-invasive 
laboratory tests that allow early diagnosis and monitoring of acute and 
chronic illnesses, including Cystic Fibrosis and certain cancers. While 
beneficiaries retain coverage for such LDT5 at MTF5, TRICARE no longer 
covers these same tests when conducted by civilian providers. 
Obviously, this places TRICARE beneficiaries who do not live near MTFs 
at a distinct disadvantage. They must decide between the price of 
travel to the nearest MTF and the price of the routine LDT at their 
local civilian provider. Regardless of the situation, they must pay for 
their care.
    Dr. Woodson, I understand that a ``Joint Lab Working Group'' is 
considering this issue, and that some LDT5 have been reinstated for 
coverage. What further progress has the working group made with regards 
to restoring these laboratory tests to TRICARE beneficiaries?
    Answer. In January 2013, new Current Procedural Terminology (CPT) 
codes were adopted. These codes provided payers, including the DoD, 
greater transparency on specific LDTs that (1) have not been approved 
or cleared by the Food and Drug Administration, and/or (2) failed to 
meet TRICARE criteria for coverage (e.g., demand genetic testing that 
is not medically necessary and does not assist in the medical 
management of the patient). Consistent with these changes in CPT 
coding, those LDTs moved to the government's ``no-pay'' list, could not 
legally be reimbursed by TRICARE.
    It came to TRICARE Management Activity's (TMA now DHA) attention 
that some of the lab tests on the no-pay list were FDA cleared and met 
coverage criteria in certain circumstances. As a result TMA updated the 
no-pay list and removed those tests.
    For the LDT Demonstration Project, the Lab Joint Working Group 
(LJWG) met in March and reviewed a significant number of LTDs. The LJWG 
prioritized a list of LDTs and systematically evaluated them for 
safety, efficacy, and clinical indications. Many of the LDTs assessed 
are being ordered by providers at military treatment facilities. A 
significant number of the LDTs reviewed were recommended for coverage. 
Those LDTs approved will be covered under the demonstration.
    Question. If the working group determines these LDTs will 
permanently drop from TRICARE coverage, how will TRICARE compare to the 
coverage offered by other government healthcare or commercial health 
insurance plans with regards to LDTs?
    Answer. Under the demonstration project, the Lab Joint Working 
Group has reviewed a significant number of LDTs for safety, efficacy, 
and clinical indications. The Working Group will review coverage 
polices of other government healthcare and commercial health insurance 
plans for comparison purposes.
    Question. Will this working group conduct analysis on how many 
TRICARE beneficiaries will be forced to travel distances of greater 
than 50 miles in order to have these LDTs performed at the nearest MTF?
    Answer. Those LDTs approved under the demonstration will be 
available to beneficiaries and providers in the purchased care network. 
As a result, beneficiaries will not have to travel to MTFs to have LDTs 
done. Tests can be ordered by the beneficiary's physician and obtained 
through locally available resources.

    [Clerk's note.--End of questions submitted by Mr. 
Visclosky.]
                                           Thursday, April 3, 2014.

                FY 2015 NATIONAL GUARD AND ARMY RESERVE

                               WITNESSES

GENERAL FRANK J. GRASS, CHIEF, NATIONAL GUARD BUREAU
MAJOR GENERAL JUDD H. LYONS, ACTING DIRECTOR, ARMY NATIONAL GUARD
LIEUTENANT GENERAL STANLEY E. CLARKE, III, DIRECTOR AIR NATIONAL GUARD
LTG JEFFREY W. TALLEY, CHIEF OF THE U.S. ARMY RESERVE

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. The meeting will come to order.
    This afternoon the committee holds a hearing on National 
Guard and Army Reserve readiness. We will focus primarily on 
near-term readiness issues related to personnel, training, 
equipment, modernization, reset, and the effects of fiscal 
constraints on readiness.
    The committee is very concerned about the readiness of the 
National Guard and U.S. Army Reserve following over a dozen 
years of war. Your soldiers and airmen have performed 
magnificently in Iraq and continue to perform with distinction 
in Afghanistan and, may I say, have done multiple deployments, 
and we recognize that. And they have done incredible work 
throughout the world. And we also recognize the sacrifice of 
their families and, may I say, your families.
    We are pleased to welcome four distinguished general 
officers as witnesses:
    General Frank J. Grass is the chief of the National Guard 
Bureau, a permanent member of the Joint Chiefs of Staff, 
represents more than 460,000 citizen-soldiers and airmen in the 
Army and Air National Guard. General Grass has appeared before 
this subcommittee in his capacity as chief on several 
occasions.
    So special welcome to you again, General Grass.
    Lieutenant General Stanley E. ``Sid'' Clarke, III, is the 
director of the Air National Guard. This is General Clarke's 
second year to testify before the committee.
    General, we appreciate the experience and expertise that 
you bring to this hearing.
    Major General Judd Lyons is the acting director of the Army 
National Guard. This is General Lyons' first year to testify 
before the committee.
    We welcome you, General Lyons.
    And, finally, we are pleased to welcome the Chief of Staff 
of the Army Reserve, Lieutenant General Jeffrey W. Talley. He, 
too, has previously testified before the committee.
    Gentlemen, all of you are welcome. We are eager to hear 
your testimony, which will assist the committee to better 
determine the needs of Guardsmen and Reservists, whether at 
home stationed or deployed around the world. The subcommittee, 
with the benefit of your testimony, will gain a better 
understanding of the material needs of the services.
    Additionally, at the request of the Army, the Secretary of 
Defense recently approved a plan for the Army aviation 
restructure. This plan, billed as a Total Army solution, 
appears not to have considered Reserve component alternatives 
as a solution, thus leaving the Army Guard with no attack 
helicopters.
    This initiative appears to be driven by financial 
constraints on the part of the Army. We will seek further 
clarification and clarity regarding this initiative. Still, 
given limited resources, this committee will continue to do 
everything possible to ensure adequate funding for the 
equipment, modernization, and readiness for both your homeland 
and wartime missions.
    Generals, we look forward to your testimony.
    But, first, I would like to yield some time to the ranking 
member, Mr. Visclosky, for any comments he may wish to make.
    Mr. Visclosky. Chairman, I appreciate you holding the 
hearing.
    And, gentlemen, await your testimony. Thank you very much 
for your preparation and your participation.
    Mr. Frelinghuysen. General Grass, good afternoon.

                   Summary Statement of General Grass

    General Grass. Good afternoon, Chairman, Ranking Member 
Visclosky, members of the committee. It is an honor and 
privilege to be here today.
    And before I start, I would just like to ask that we all 
continue to keep in our thoughts and prayers the Fort Hood 
community, who suffered the tragic loss yesterday.
    With that, I have with me today General Clarke and General 
Lyons. They will go into more detail. I will try to stay at the 
strategic level, but they have great detail about the Army and 
Air Guard today. They are great wingmen here with me.
    The National Guard does three things very well. We fight 
our Nation's wars, defend the homeland, and build enduring 
partnerships, both overseas and at home with the Army and Air 
Force. The National Guard is accessible, ready, and capable 
and, I might add, it provides a significant value to the 
taxpayers.
    None of this is possible without the support we have 
received from this committee and our parent services. The 
investments made in the National Guard as an operational force 
have served the Nation well over the past 12-plus years. Also, 
the support we have received in the form of the National Guard 
and Reserve equipment account has been invaluable.
    Today, the uncertain fiscal environment we face is 
impacting the Guard. Congress provided some relief with the 
Bipartisan Budget Act, but the Army National Guard fiscal year 
2015 budget is projected to decrease by 7 percent from fiscal 
year 2014 levels. This reduction degrades readiness of the 
operational force, which General Lyons will address in more 
detail.
    With the return of spending limits in fiscal year 2016 and 
beyond, the Budget Control Act will further impact the National 
Guard. This will diminish Army and Air National Guard combat 
power as a result of our inability to sufficiently train, 
modernize, and recapitalize our force.
    We also face the prospect of a reduction in the Army 
National Guard end strength to 315,000 by 2019. This is below 
the minimum-level risk, and it places at risk the Defense 
Strategic Guidance.
    Also very concerned about the future of Army and Army 
National Guard rotary wing aviation. I agree with the Total 
Army that the divestiture of the TH-67 training aircraft and 
the OH-58 Scout helicopter is required to meet future funding 
levels and a viable rotary wing fleet for the future. However, 
I do not agree with the proposal to take all of the Apaches out 
of the National Guard.
    We have provided an alternative solution that would 
transfer about 40 percent of the Apaches from the Army National 
Guard to the active component while retaining sufficient 
Apaches to maintain six attack battalions in the National 
Guard.
    This provides strategic reversibility and maximizes cost-
effectiveness with our combat-tested attack aviation capability 
that exists today in the Army National Guard.
    Our alternative plan affects just the Apache, and our 
assessment is that it still achieves most of the savings needed 
under the aviation restructure initiative introduced by the 
Army.
    I would like to end by stating at the very heart of the 
National Guard is our most important resource, our people. The 
well-being of the soldiers, airmen, their families, and their 
employers remains the top priority for every leader throughout 
the Guard.
    We will continue to aggressively work to eliminate sexual 
assault and suicides across the force and maintain faith with 
our people, the very same people who have put their faith in 
us.
    In summary, our national security demands the capacity and 
capability that the National Guard provides both at home and 
overseas. At one-third the cost of active component 
servicemembers during peacetime, the National Guard is a hedge 
against uncertainty in this turbulent security and fiscal 
environment.
    Today's unprecedented National Guard readiness posture 
offers options to preserve both capability and capacity rather 
than choose between them.
    Chairman, thank you for the opportunity to appear before 
you today, and I look forward to your questions.
    Mr. Frelinghuysen. Thank you, General Grass.
    [The written statement of General Grass follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                  Summary Statement of General Clarke

    Mr. Frelinghuysen. Lieutenant General Clarke, welcome.
    General Clarke. Thank you, sir.
    Chairman, Ranking Member, Committee Members, appreciate the 
opportunity to address you. And I am honored to be a 
representative of the 106,000 Air National Guard members across 
the Nation.
    Last year when I appeared, I acted like I knew what I was 
doing as far as the director of the Air National Guard, but I 
had only been on the job for about two weeks. So I only told 
you what I thought from field experience I had and previous 
experiences.
    But in that time, over the last 12 months, I have gained a 
greater appreciation for the people we have out there. All of 
us should be really impressed with the generation that is 
coming behind us. Remarkable individuals, highly resilient, 
very passionate about wearing this uniform.
    It makes my job easy when I get out there and visit the 
units, get an opportunity to talk to them, get a sense of what 
they think about their service.
    As long as the American people keep patting them on the 
back and shaking their hands in airports and things like that, 
you are going to have a tremendous force coming forward.
    I also wanted to let you know, over the last year, as a 
part of the Total Force, working with General Welsh and 
Secretary James, what an outstanding partnership we have. 
Clearly, there is nothing that is off the table as far as 
discussions with the leadership--senior leadership of the Air 
Force.
    They have been very forthcoming, very engaging, a lot of 
collaboration, and we continue to focus on things as a total 
force and not as individual components out there. So they are 
looking for best solutions, best ideas, and it has just been a 
wonderful experience over the last year working with both of 
them.
    And, of course, Secretary James just started 3 months ago, 
but I have to tell you she hit the ground running. She is doing 
a great job.
    Mr. Frelinghuysen. She sure is. Excuse me for interrupting.
    General Clarke. Yes, sir.
    So, with that, I also want to tell you the partnership 
extends in many places, and I wanted to extend our appreciation 
for the National Guard and Reserve Equipment Account accounts 
that General Grass was talking about.
    The flexibility, the speed of which we have done some 
modifications and everything, have brought us up to a 
capability that we never had before. So I wanted to express my 
appreciation for that, with the NGREA funds that we received.
    And, also, I just wanted to conclude with we really do have 
a balanced strategy going forward with the opportunity to look 
at ourselves as a first choice for homeland operations.
    We look at ourselves as a proven choice for warfighting 
operations, and we look at ourselves as an enduring choice for 
security cooperation. It is a wonderful team to be a part of.
    Thank you for the opportunity to appear before you.
    Mr. Frelinghuysen. Thank you, General Clarke.
    [The written statement of General Clarke follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                   Summary Statement of General Lyons

    General Lyons. Chairman Frelinghuysen, Ranking Member 
Visclosky, distinguished members of the subcommittee, I am 
honored to appear before you today. I represent more than 
354,000 soldiers in the Army National Guard.
    Let me start out by echoing Secretary Hagel, General Grass, 
and many other senior leaders in saying that our thoughts and 
prayers go out to the victims and families that are affected by 
the terrible tragedy at Fort Hood yesterday. We are all one 
Army family, and we all grieve this morning at the losses we 
have suffered.
    Every member of the Army National Guard can look back over 
the last 13 years with a shared sense of pride, accomplishment, 
and sacrifice. Since September 11, 2001, we have mobilized 
soldiers more than 525,000 times.
    As part of our Total Army, Guard units have performed every 
assigned mission, from counterinsurgency operations in Iraq and 
Afghanistan, to maintaining the peace in Kosovo and the Sinai.
    Our soldiers have repeatedly heard from the most senior 
leaders in the Army that they are indistinguishable from their 
active Army counterparts.
    Furthermore, Guard soldiers have forged lasting 
relationships with 74 nations, and they have deployed alongside 
these partners to Iraq and Afghanistan nearly 90 times in the 
past decade.
    At home, our Guardsmen and -women continue to answer the 
call whenever and wherever they are needed, as the responses to 
Hurricane Sandy, the tornado in Moore, Oklahoma, the record-
setting wildfires in California, devastating floods in 
Colorado, and, most recently, the mudslides in Washington State 
all attest.
    Thanks to the firm and committed support of Congress and 
the Army over the past 13 years, our Army National Guard has 
transformed from a strategic reserve to an operational force.
    It is a force that is manned, trained, and equipped to 
serve where and when America needs us. It is a force with 
experienced leaders who are ready. Given the current global 
climate, there can be little doubt that the Guard is more 
important than ever.
    Now, I have had the distinct privilege of serving in the 
Army National Guard for over 34 years both in the enlisted and 
the officer ranks, and I have witnessed this positive shift to 
an operational force firsthand.
    I have gained perspective on the Federal and State missions 
that the Guard performs while deployed abroad and during 
emergencies here in the United States.
    So if I could summarize my testimony today, it would be 
this. We must be very careful to ensure that we preserve the 
operational force that we have built. The Army National Guard 
provides our country with flexible military capability and 
capacity that cannot be easily replaced once it is gone.
    The fiscal year 2015 budget submission required hard 
choices and has significant impact in personnel and our 
operations and maintenance funding.
    The base budget request for these two accounts is just 
under $1 billion below what was appropriated for fiscal year 
2014. So this will require the Army Guard to accept risk in 
fiscal year 2015.
    Our brigade combat teams will be limited to achieving 
individual-, crew-, and squad-level proficiency in their 
training, and their personnel will have fewer opportunities to 
attend schools and special training.
    Our depot-level overhaul of our trucks will be deferred, 
and our armories, which average 44 years in age, will lack 
funding for repairs beyond those that will ensure health and 
safety.
    However, as General Grass notes, this reduction pales in 
comparison to what will be required when Budget Control Act 
levels of funding return in fiscal year 2016.
    With committed citizen-soldiers in our formations, the Army 
National Guard presents tremendous value to our Nation and to 
the communities where we live, work, and serve.
    The last decade-plus of war has demonstrated our strength 
as a combat-tested, ready operational force, a role that, with 
your support, we will proudly continue to perform for the Army 
and for our Nation.
    I appreciate the opportunity to be here today, and I look 
forward to your questions.
    Mr. Frelinghuysen. General Lyons, thank you for your 
testimony.
    [The written statement of General Lyons follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                  Summary Statement of General Talley

    Mr. Frelinghuysen. General Talley.
    General Talley. Chairman Frelinghuysen, Ranking Member 
Visclosky, distinguished members of the subcommittee, thank you 
very much for the opportunity to appear before you today. It is 
an honor to represent America's Army Reserve, a life-saving and 
life-sustaining Federal force for the Nation.
    I would like to begin by thanking the committee for your 
steadfast support that you have provided to all the members of 
our Armed Forces and their families. Since 9/11, more than 
275,000 Army Reserve soldiers have been mobilized.
    And as you are aware, I have provided the committee a 10-
page statement that outlines the capabilities and challenges 
that the Army Reserve has and some specific ways that this 
committee and the Congress can assist in keeping us viable and 
strong in service to others.
    Therefore, I would like to use the few minutes that I have 
now to share some real stories and experiences to you about 
your Army Reserve.
    On 9 November 2013, a typhoon struck the Republic of 
Philippines. The Army Reserve has almost 4,000 soldiers 
permanently assigned to the Pacific. Most of those are 
organized under the 9th Mission Support Command, a one-star 
general officer command commanded by Brigadier General John 
Caldwell, a proud resident of the great State of Tennessee and 
a huge Tennessee Volunteer fan.
    I got a call the same day from John and General Brooks--
Vince Brooks commands U.S. Army Pacific--about the crisis and 
the need for immediate assistance relief for the Philippines.
    I authorized and supported the immediate use of one of my 
logistics support vessels, an LSV-7, stationed in Hawaii, to 
provide mission relief for an active-duty vessel and, within 48 
hours, I had 13 crew members, traditional Reservists from 11 
different units, on active duty, preparing to set sail.
    The LSV-7 sailed over 1,225 nautical miles and transported 
230 pieces of equipment. That is 1,660 long tons with four 
lifts to transport equipment and Strykers to the 25th Infantry 
Division from the big island to Oahu.
    I also called to active duty Brigadier General Gary Beard, 
an Army Reserve individual mobilization augmentee, who 
immediately left for the Philippines to assist in leading 
coordination on the ground in support of PACOM.
    We conducted many more missions, but this illustrates the 
ability of the Army Reserve to act immediately. We are the only 
component of the three components in the Army that is also a 
single command.
    I am not only the chief for the Army Reserve, I have the 
privilege of being the commanding general for the Army Reserve 
Command. I exercise that command authority every day in service 
to requirements at home and abroad.
    On 29 October 2012, Superstorm Sandy hit the East Coast, 
resulting in an immediate need for assistance in New York and 
New Jersey. I authorized to active duty the same day our 
emergency preparedness liaison officers. We call them EPLOs.
    EPLOs are embedded in the Federal Emergency Management 
Agency, FEMA, and they provide direct linkage to the Department 
of Defense for support in times of crisis.
    The Army Reserve provides the Army 100 percent of its EPLOs 
and 50 percent of all the EPLOs within the Department of 
Defense.
    Requirements for military assistance were quickly 
identified. Within 24 hours, I had alerted multiple Army 
Reserve units to be prepared to go on active duty to assist 
their fellow citizens.
    When Sandy hit New York, I had multiple units on active 
duty and en route to the East Coast. Specifically, I had three 
logistics pumps and dewatering units that eventually located at 
Breezy Point, where they executed significant dewatering and 
relief missions to the residents and others in need.
    In addition, I had two Chinook helicopter teams activated 
to provide immediate support to Joint Task Force headquarters 
that the National Guard had established.
    These are just some of the examples how the Army Reserve 
immediately reached out to assist and support our Americans in 
need during a complex catastrophe.
    As the commanding general of the Army Reserve Command, I 
have the authority to order immediate help when and where it is 
needed to assist our first responders, our police, and our 
firefighters, and our State force, our great 54 Army and Air 
National Guards.
    In the case of Sandy, I ordered troops to active duty via 
annual training for 29 days initially. And that gave us time to 
convert those orders to 12304(a) mobilizations authorized under 
the National Defense Act of 2012, with specific requirements 
being asked for by General Jacoby, the commander of NORTHCOM. 
The Army Reserve routinely provides this type of support to the 
various States within United States in their need.
    My last story is a short one about an Army Reserve family, 
the Henscheids, Don and Janet Henscheid. Like so many military 
families, they love their country and they are proud to have 
their most precious resource, which are our sons and daughters, 
serve in the military.
    But what makes Don and Janet extra special, in my personal 
opinion, is the fact that they had three boys serve in combat, 
Iraq and Afghanistan, as Army Reserve soldiers. Their names 
were Landon, Cody, and a son-in-law named Jacob.
    All three became wounded warriors. The wounds and 
experiences of war were very severe to each of these three men. 
In fact, they were so severe that they would no longer be able 
to do what they wanted most, to continue to serve as a soldier 
in America's Army.
    The many months of multiple surgeries and treatments, 
physical and mental, took a tough toll on the family, 
especially when they found out that Landon, who had finally 
recovered from his war wounds, had developed cancer. 
Eventually, Landon died.
    As Cody and Jacob continued to struggle with their own 
wounds and grieving associated with losing Landon, my wife and 
I got to know this family very well. In fact, my wife visited 
them every single week at Walter Reed during these many months.
    But this story has a happy ending. Normally, what I would 
see in similar circumstances is you end up with a family that 
hates the military and resents America. But not here.
    Don and Janet and that whole family appreciated the 
tremendous support that the Army Reserve and the whole Army 
family gave them under this most difficult situation.
    Their courage, their commitment to our Army, and to the 
Nation make my contributions and those of so many others pale 
in comparison. Don and Janet represented to me the very best of 
what it means to be Americans.
    I will certainly miss Landon, especially our talks in the 
hospital room about my Jeep J10 pickup truck and Duck Dynasty, 
which he liked a lot. But he taught me, an old soldier, a lot 
about giving and about dying.
    In closing, the Army Reserve is a community-based force of 
almost 220,000 soldiers and civilians living and operating in 
all 54 States and Territories and in 30 countries.
    As a component and a single command, we are embedded in 
every Army Service Component Command and every Combatant 
Command, and we currently have almost 20,000 soldiers serving 
around the globe, with over 6,000 still fighting in 
Afghanistan.
    We provide a unique linkage to America's industry and 
private sector, as most of our troops work in a technical 
career in the civilian sector that directly correlate to what 
they do in the Army Reserve as enablers.
    I own most of the lawyers, the doctors, the nurses, the 
full-spectrum engineering, civil affairs, logisticians for the 
Total Army. And like all of our Reserve components, we have de 
facto become part of the operating force.
    In fact, the Army Reserve has unique capabilities that are 
not found in any other service or any other component, 
especially as it relates to the opening and closing of our 
theaters.
    A life-sustaining and life-supporting force, we provide 
almost 20 percent of the Total Army Force structure for 5.8 
percent of the budget. I think that is great return on the 
investment. I ask for your continued support for all of our 
services and components as we keep America strong and 
prosperous.
    I look forward to your questions. Army Strong.
    [The written statement of General Talley follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Frelinghuysen. General Talley and gentlemen, thank you 
all for your testimony.
    On behalf of the committee, we extend our sympathy to the 
Army family. A horrific situation to think that it has been 
repeated twice at Fort Hood. We are mindful of that, and we 
hold those who have lost loved ones and were injured in that 
horrible situation--we hold them close to our hearts. And 
please extend to your brothers and sisters at Fort Hood and the 
citizens of Texas our strong feelings.
    Absent from our gathering today is Judge John Carter, who 
represents perhaps the largest mass of heroes of those who 
serve in the Army. He would be here. And I know that our 
thoughts and prayers are with him as well.
    And to all of you, the men and women who represent a 
remarkable number of deployments, we don't forget that part of 
the force is in Afghanistan today.
    And part of our committee is looking at, you know, what the 
exit strategy is. There is still people serving over there. You 
are part of that team, and you, too, want the best for that 
country.
    But we obviously need to make sure that--not only that 
their needs are served and that they are well protected, but 
that, as they come home, their needs are focused on and their 
needs are met.
    We had, coincidentally--and thank you, General Talley, for 
putting a human face on the level of sacrifice.
    We had the surgeon generals in from the Air Force, the 
Army, and Navy yesterday. And I think we emphasized to them, 
and would do to you, that we will do anything we can to make 
sure that those who have suffered physical wounds--I think the 
number was 1,600 that have suffered amputations, and well over, 
I think, 450,000 have suffered a variety of physical wounds, 
goodness knows, a lot of mental wounds, post-traumatic stress, 
TBI--that we don't forget the obligation.
    But thank you very much, all of you, for your testimony.
    And now it is my special pleasure to recognize the chairman 
of the--well, I will recognize him even if he doesn't want to 
speak at the moment, the arrival of the big chairman, Chairman 
Hal Rogers from Kentucky.
    Thank you, Mr. Chairman.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Let me yield the floor to--I get to say 
one of your own, the gentleman from Arkansas, Congressman 
Womack.

                      ARMY NATIONAL GUARD AVIATION

    Mr. Womack. Thank you, Mr. Chairman.
    And my thanks to the gentlemen for their great service to 
our country. It is noteworthy what our Guard and Reserve 
components have done in prosecuting the war on terror and for 
the great service they have extended our country long before 
our country was ever a country. So it is a great deal of 
respect that I have for these folks.
    And it will not surprise any Member, any of my colleagues 
on this panel, that I am going to go directly to attack 
aviation because it is a concern of mine, and I think it is 
shared by many of the members on this panel.
    And just a couple of really quick questions out of the box 
for General Grass.
    Before deploying, Guard aviation units are certified by 
their active-duty counterparts to be proficient at the same 
standard their active-duty counterparts have to be before 
deploying in the theater. Correct?
    General Grass. Congressman, that is correct.
    Mr. Womack. Did any National Guard units alerted for duty, 
mobilized for duty, ever not deploy?
    General Grass. We had one that was off-ramped just about a 
year ago.
    Mr. Womack. Was it a training issue? Was it a certification 
issue?
    General Grass. No, Congressman. It was a reduction in 
force.
    Mr. Womack. Reduction in force.
    Can you tell me if any of our National Guard, Apache units 
particularly, ever performed poorly in theater?
    General Grass. No, Congressman. And I was just there last 
week and I talked to some of our active-duty counterparts that 
our Apache pilots worked for, and they said they were truly up 
to the task--of any task.
    Mr. Womack. General, it is logical to conclude that the 
Guard units, Reserve component units, bring a lot of value to 
the structure of our Army in that these are not, for the most 
part, full-time soldiers.
    They are men and women who have other jobs and are able to 
manage that delicate balance between job, between family, and 
between their military duties to serve their country in a very 
honorable way.
    So is it not logical to assume that we can train, equip, 
man, and even deploy National Guard and Reserve component units 
for a fraction of the cost of what we do with our active 
component folks, trying not to necessarily divide us or become 
divisive in this discussion, but just to prove a point?
    General Grass. Congressman, as we alert a unit, there is 
additional training required, and that is because of the number 
of days that we train PREMOB. So there is always tasks to be 
accomplished. And we save about one-third the cost in 
peacetime.
    But it is all about time to deploy, time to train up and 
deploy, and, also, then what tasks you want that soldier to do. 
And they are going to do the same training and certification 
that an active unit will do before they deploy.
    Mr. Womack. So back to my original thesis that the decision 
in the aviation restructure program that the Army has advanced 
and that we drilled down on with Secretary McHugh and General 
Odierno that--I have concerns that taking all of the attack 
aviation out of the National Guard for budgetary purposes and 
putting it in the active component is--I think it is a flawed 
proposal because it robs the National Guard of any of the 
strategic depth that the Army would have in the event that all 
of its assets were committed.
    So you offered an alternative--or you talked about this in 
your opening statement, but you offered an alternative 
proposal. Can you elaborate just briefly on it.
    General Grass. Yes. Congressman, I looked across the board. 
We have 8 attack battalions today with 24 helicopters, mostly 
modernized Delta models.
    Mr. Womack. Modernized as a result of the generosity of 
this committee.
    General Grass. Yes, sir.
    Mr. Womack. Sorry to interrupt.
    General Grass. And we had mostly Alpha models, outdated and 
pre-9/11. And so we deployed those Alpha models a certain 
number of times either at the battalion or company level.
    And then there was a period about the mid-2000s where the 
policy decision was made not to send Alpha models any longer 
and convert to Delta. We converted to the Delta models, which 
we have today.
    We deployed 12 battalions in 5 company-level deployments. 
We were ready to do more. But now we have those modern aircraft 
with experienced pilots with--you know, battalion may have 
12,000 combat hours in it today.
    Our other concern and why we put this proposal together 
was, when people come off of active duty--when pilots come off 
of active duty today, we won't even be able to capture that, 
you know, over $800,000 to get a pilot into the cockpit--so we 
feel that that is a great opportunity in the future--and 
retain, as you said, sir, you know, that strategic hedge there, 
that strategic capability, that is not easily replaced.
    Mr. Womack. I will come back when I have my next round of 
questions. I know I am out of time right now.
    But, again, my thanks to the panel for being here today and 
their great service to our country.
    Mr. Chairman, I yield back.
    Mr. Frelinghuysen. Chairman Rogers.

                       Remarks of Chairman Rogers

    Mr. Rogers. Thank you, Mr. Chairman. Thank you very much. I 
apologize for being late, but we were marking up another bill 
just now.
    Gentlemen, thank you for being with us today. Thank you for 
your service to your country.
    In this fast-changing world in which we live, there is no 
question that those who serve under the flag are doing so in a 
very critical period of our history.
    As we have seen a nation's sovereign power come under siege 
in Ukraine over the past several weeks, tragedy, unfortunately, 
once again hitting at Fort Hood, Texas, we are constantly 
reminded that our country, our freedom, and our way of life are 
not to be taken for granted. There must be vigilance, and you 
are providing that.
    I, therefore, want to associate my remarks with those of my 
colleagues in recognition of the fine service, dedication, 
sacrifice of the men and women that you represent here today, 
including yourselves.
    The soldiers and airmen of the Guard and Reserve have time 
and again answered the call to serve in some of the most 
difficult conditions domestically and abroad.
    And as this subcommittee has done in the past, we stand 
ready to try to provide you with the tools, the training, the 
equipment, and whatever support is necessary to carry out your 
vital security mission.
    There is going to be some changes to the structure of the 
force as we transition in this new post-war time. The question 
we hope to answer in this committee is: Is the Department of 
Defense being strategic, efficient, and properly aligning 
funding to mission requirements and results? That is the 
question.
    Undoubtedly, DoD is still reeling from the impacts of 
sequestration. And the choices that we must make to fund our 
military within the Murray-Ryan budget caps are difficult.
    For this reason, I am eager to hear your plans as you 
strike the delicate balance between readiness, force structure, 
and modernization during these difficult budgetary times.
    Mr. Chairman, if I may ask a couple of questions, 
especially--are you having trouble hearing me?
    Mr. Frelinghuysen. A little bit. You have two mikes now to 
double the trouble.

                          COUNTER-DRUG PROGRAM

    Mr. Rogers. You are probably better off not hearing me.
    In my home State of Kentucky, we have an incredible drug 
problem, as I guess most of the country does. And since 1998, 
the Kentucky National Guard has been an instrumental partner to 
our State and local law enforcement units in the fight against 
illicit drugs and transnational threats.
    Its joint support operations task force has eradicated 13 
million marijuana plants and seized over 76 bulk pounds of 
marijuana, 4,500 illegal weapons, to the tune of $25 billion.
    I fear that, as certain people in this country continue to 
spew falsities about the dangers of marijuana, demand is only 
going to increase. That is why the National Guard's counter-
drug program and its military-unique support is now, I think, 
more important than ever.
    General Grass, the fiscal year 2015 budget request was 
greatly reduced from the fiscal year 2014 level from $200 
million down to $89.5 million.
    What is being done to ensure that this program continues to 
be adequately funded?
    I have flown on some of those raids in the choppers, and it 
is an amazing heroic act that these Guardsmen are doing, 
rappelling down in terrain that can't be accessed any other 
way, cutting the marijuana, and being lifted back up with a big 
net sack back into the chopper and dangling as they fly across 
country to a place where it can be disposed of. This is hard 
work. It is great training. But I need to know where you are 
coming from.
    General Grass. Chairman Rogers, I will ask General Clarke 
and General Lyons to talk about the resources versus how we are 
going to prioritize against readiness and modernization here in 
a few minutes.
    Let me talk about--and I will answer your question on the 
counter-drugs, sir. One of the problems we have experienced, 
close to 50 percent of our counter-drug money has disappeared 
in the last 3 years. And thanks to the Congress, money is added 
back in each year.
    The problem that the States are dealing with is trying to 
build a long-term program in hiring, you know, the Guardsmen 
and -women that do this mission across the States, trying to 
get some stability, so that, you know, we can give them a 
career path for this work they are doing for us.
    But when you only get a portion of your budget each year to 
start the year, it makes it very difficult, that we end up 
having to basically lay off people and hire them back later in 
the year. So it has created huge disruptions.
    Not only that, we now are under instructions for next year 
to close down our five counter-drug schools, which have been so 
productive across the map. But, you know, tough choices are 
being made in those accounts.
    And I know that every State has talked to me. The adjutants 
general and the governors are very concerned about this, but 
Department of Defense, with their budget coming down, had to 
make some tough choices.
    Mr. Rogers. Well, to reduce that account from $200 million 
to $89.5 million in one year doesn't match the ratio of other 
spending cuts in other parts of the budget.
    This one took a disproportionate hit. How come?
    General Grass. Sir, the other issue that we are dealing 
with--and it deals with the southwest border mission. That 
mission, which the Guard's been involved with for probably 3, 4 
years now, every year there is money set aside for those four 
States, and we are running close to 200 soldiers and airmen 
that support that mission.
    But that money has to come out of defense's hide every 
year. And we have been working to try to pass that mission back 
to Department of Homeland Security. So that money has to come 
out of our defense budget as well.
    Mr. Rogers. I am not sure I followed you on that.
    General Grass. The four States was an add-on mission about 
3 years ago, sir, and it just tapped. It came on top of a 
budget that was already declining. The intent was for us to 
help train up agents along the border and then step back from 
the mission.
    Mr. Rogers. In Kentucky, as the Guard transitions from the 
OH-58 helicopter to the UH-72, I understand that the cost per 
flight hour will increase by over 100 percent. That will reduce 
flight hours for marijuana-spotting by 40 percent, even with 
good luck in getting the budget back.
    What can we do to mitigate that dramatic reduction in 
surveillance and eradication of marijuana?
    General Lyons. Chairman Rogers, as you mentioned about the 
change in the platform from the OH-58 Delta, which would be 
removed under the aviation restructure initiative to the UH-72, 
I would like to take for the record the cost per flight hour, 
sir, because I want to give you an accurate response on that.
    The airframe itself, the UH-72 helicopter, is suited for 
domestic missions. It is configured for those missions. The 
cost per flight hour is greater.
    But I want to get you the answer on what that Delta is. So 
if that is okay, I would like to take that for the record.
    [The information follows:]

    For the UH-72, the reimbursable rate cost per flight hour is 
$2,527.
    For the OH-58A/C, the reimbursable rate cost per flight hour is 
$1,165.
    Note: The intra-Army cost factor rate does not include Contractor 
Logistical Support, which is a major cost driver for the UH-72. For 
this reason, we are using the Department of Defense reimbursable rate 
instead.

    But that is a fact of the aviation restructure initiative, 
which will remove all of the OH-58 Deltas, Charlies, and Alphas 
from the Army National Guard. We agree with that aspect of the 
ARI.
    There are cost avoidances that come with that plan in 
reducing the number of airframes, but that does have the effect 
of placing that particular mission that you are talking about 
into a new platform.

                           CLOSE AIR SUPPORT

    Mr. Rogers. General Grass, will these five regional 
training centers just be simply closed and locked and that 
mission done away with?
    General Grass. Chairman, that is the plan right now, that 
we have been directed to close them.
    Mr. Rogers. Has there been discussion about transferring it 
maybe to another agency to operate?
    General Grass. Not that I am aware of yet, but I am sure 
that will come up.
    Mr. Rogers. You don't sound very upset about this.
    General Grass. Chairman, I visit them. They are outstanding 
facilities. In fact, there is many of our local jurisdictions, 
whether it is hometown America or a county police force, that 
will not receive training without those facilities. We provide, 
basically, the logistics and the administration of a facility, 
and then local law enforcement and--they come in and train 
there.
    Mr. Rogers. How much money would it take to keep them 
going?
    General Grass. Chairman, if I could take that for the 
record, I will bring it back for you. I will get the breakdown 
for you.
    [The information follows:]

    The Counterdrug Training Centers (TC) have historically been funded 
at $25M ($5M per TC) through the Deputy Assistant Secretary of Defense 
for Counternarcotics and Global Threats' Central Transfer Account. The 
$4.9M appropriated in FY 14 was intended as funding to close the TCs.

    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Moran.

                     IMPACT OF PHASING OUT THE A-10

    Mr. Moran. Thanks very much, Mr. Chairman.
    I have two areas of inquiry. The first is probably best 
addressed to Lieutenant General Clarke. But it involves the 
Warthog and its retirement in this budget.
    It used to be the primary close air support aircraft, but 
we find that the Air Force has determined that it is not 
survivable in current or future conflicts. And then, in fact, 
80 percent of close air support in the Afghan war was provided 
by other platforms.
    So of the 343, the intent is to retire 283 of them over--
virtually the vast majority of them over the next 5 years. That 
is going to save--$4.2 billion is, again, the estimate in the 
budget.
    What happens to the personnel that have been assigned to 
the A-10? Are they separated from service? Do they go to other 
missions? What happens to them, General?
    General Clarke. Sir, I can speak on behalf of the Air 
National Guard, and then I will give you my suspicion of what 
will happen with the regular Air Force airmen.
    For the Air National Guard, wherever we were losing an A-10 
mission, we were picking up a different mission that the Air 
Force had assigned to four different locations where we had the 
airplane.
    For the regular Air Force airmen, I would think, in their 
ability to retrain and put people against other requirements 
that they have, which they have plenty, they will find another 
job somewhere in the Air Force.
    Mr. Moran. Well, okay. But the Air National Guard has been 
using them. I mean, it is a relevant question, is it not, to 
the Air National Guard?
    General Clarke. With regard to where the airmen are going?
    Mr. Moran. The impact of phasing out the A-10.
    General Clarke. Yes, sir.

                    REDUCTION IN CIVILIAN PERSONNEL

    Mr. Moran. Yes.
    Let me ask the question here, Mr. Chairman.
    And this goes to the civilian workforce. And the reason I 
am asking is because it turns out that a great many Reservists 
also serve their country as civilian employees at the 
Department of Defense.
    Now, in last year's defense authorization, there was a cut 
of 5 percent. In other words, the civilian workforce has to be 
cut by the same amount as the uniform workforce. It was dubbed 
the McCain cut thing.
    In addition, now, we have got a suggestion. And, in fact, 
our very good friends, Mr. Calvert and Ms. Granger, have 
suggested that we cut the civilian workforce by another 10 
percent. So it is basically a 15 percent cut.
    Now, what I want to know is: What would be the impact on 
Reservists? And do you think that is going to have to be picked 
up by more contract personnel?
    Because that is actually where the most significant 
increase in personnel has come, is the contract workforce, more 
than uniform and civilian.
    But what would be the impact on the Guard and Reserve, 
particularly the Reserve, if we were to have a requirement of 
as much as a 15 percent reduction in civilian personnel over 
the next 5 years?
    General Clarke. Congressman, the personnel that you are 
talking about, what they call dual-status technicians, that 
serve the Air National Guard----
    Mr. Moran. They are dual status. Exactly.
    General Clarke. I get your point. Because if you brought in 
airmen who are dual-status technician AGR traditional 
Guardsmen, you wouldn't be able to tell the difference in who 
they are. In fact, if you stood a regular Air Force airman next 
to them, you wouldn't be able to tell the difference between 
them.
    So these full-time technicians have an important duty. 
Mostly, their concerns are ensuring that the part-time force is 
well trained and able to do their job when they are tasked 
either at home or overseas.
    So if we were to lose a good portion of those in our force 
structure, it would be devastating to the Guard, because they 
provide such an important function of training and 
administrating the part-time force, which is the real strength 
of the Air National Guard.
    Mr. Moran. So it is interdependent, you are telling us, 
this civilian workforce?
    General Clarke. Yes, sir. We are very keenly aware of the 
issue if we weren't able to retain our dual-status technicians.
    And last year's furloughs significantly impacted us because 
we were unable to conduct our normal training, which we took a 
little deficit in training because they were furloughed and 
during the government shutdown.
    So our interest is in keeping them actively employed all 
the time, because the way the Air Force works, the way the 
Total Force works for the Air Force, we have to have those 
individuals doing their jobs throughout the week to ensure that 
our weekend training and other training opportunities go 
without a hitch.
    Mr. Moran. I see. Well, that is important to understand. I 
appreciate that testimony, General.
    Does anybody else want to comment on the civilian workforce 
reduction?
    General Lyons. Congressman, I would add our full-time 
manning, specifically our dual-status technicians, really are 
the foundation of our formations. They account for our 
property. They maintain material. They provide administrative 
support. So they generate readiness in our formations. So they 
are absolutely vital to what we do.
    I would also offer that reductions in those dual-status 
technicians are accompanied by reductions in force structure, 
because the two are tied together. So there would be a 
corresponding effect there, also, in further reductions as 
well.
    Mr. Moran. General.
    General Talley. Sir, thanks for the question. It is 
particularly relevant.
    In the Army Reserve, we are a traditional force. So without 
our full-time manning, whether it is 12,700 military 
technicians or almost 3,000 Department of Army civilians or our 
AGRs, we might as well just shut down the Army Reserve and go 
home.
    And the reason being is they keep everything running. A lot 
of folks don't realize that you want to process pay to get your 
soldiers paid, just like a private company would. That has to 
be done by those full-time manning after the battle assembly is 
over.
    We have an all-volunteer force. We have to make sure that 
the training is planned well and ready to execute so, when they 
come in for battle assemblies and collective training events, 
we are not wasting their time. Otherwise, they won't stay in 
our all-volunteer force.
    The biggest way that you can generally save money is to cut 
your full-time manning. The Army Reserve is only authorized 
13.1 percent full-time manning, the lowest of any service or 
component. The average for the Reserve component for the DoD is 
19.4 percent. And, yet, I am the largest three-star command in 
the DoD and the second largest command in the Army.
    So as we start talking about budget cuts and how to pay 
certain bills and there is discussion of reducing full-time 
manning, it will have an incredibly negative impact on the Army 
Reserve. I would de facto no longer be able to operate a 
functional unit or functional capability if they significantly 
reduce my full-time manning.
    Mr. Moran. Okay. Thank you. That is very helpful to get on 
the record.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Moran.
    Ms. Granger.

                                 C-130

    Ms. Granger. Thank you.
    Thank you all for your service and for being here today. We 
appreciate it very much.
    General Talley, thank you for sharing that story about the 
family. I know everyone here has had the same experience. I 
have lost 37 from my district in these two wars, and I always 
go out and visit the families.
    And with not a single exception, without a single 
exception, the families tell me how proud their son or brother 
was in serving. And so that says a lot about what you are 
doing.
    I am concerned about the future of the Air National Guard 
C-130 fleet. At this time I understand there are only two units 
that are currently operating the new J model aircraft while 15 
other States are operating the legacy H models.
    And, as I understand the crew size, the training 
requirements are different with the H and the J with 
considerable difference in operating costs, also. So perhaps 
most troubling is the possibility that all the legacy C-130s 
will be grounded by 2020.
    General Clarke, it seems to me like we are running out of 
time to fix this issue. So what recommendations do you have to 
continue to keep the very relevant C-130s going forward?
    General Clarke. Congresswoman, the C-130s right now--they 
are still in production. The C-130Js are coming off the line.
    The Air Force is recapitalizing with the C-130Js. That is 
one pathway, is to go after recapitalization with new airplanes 
to replace the older H model airplanes.
    But, in the meantime, as you pointed out, the time to do 
that is short. And, yet, we also have other concerns with being 
able to operate the aircraft in airspace that is going to 
require some modifications.
    So there are desires to have modernization to the H model 
C-130s, which would be the second pathway, in order to ensure 
that we can get to the recapitalization.
    The current plan is, from my perspective, best if we find 
what minimum modernization dollars are required to ensure 
safety, reliability, and compatibility of those aircraft to 
comply with combatant commander requirements, which requires 
flying through international airspace and our own domestic 
airspace.
    If we can meet those with the dollars required to do that, 
we can then move on to the recapitalization with newer C-130s. 
That would be my true path of how we would make this a healthy 
fleet.
    Ms. Granger. Good. Would you keep us informed how that is 
going forward?
    General Clarke. Yes, ma'am.
    Ms. Granger. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Owens.
    Mr. Owens. Thank you, Mr. Chairman.
    Thank you, gentlemen, for coming in to testify.
    General Lyons, good to see you again.
    General Lyons. Good to see you, sir.

                               EQUIPMENT

    Mr. Owens. We just had a nice recent visit.
    In the testimony, you indicate that at the current time 
your equipment readiness looks to me to be in the range of 
about 90 percent, on average.
    Is that, in fact, a true reading of where you are? And what 
is the projection going out 5 years, particularly if we go back 
into a sequester mode in fiscal year 2016?
    General Lyons. Thank you, Congressman.
    So there is two pieces to this. There is the equipment on 
hand and then equipment readiness, and both of those are at 
their highest levels that they have ever been.
    And much of that is directly related to the work of the 
committee in providing funds for us to modernize our equipment 
and improve our equipment on hand through NGREA. So we are at 
historic highs right now both in equipment on hand percentage 
and equipment readiness.
    So you asked about projecting out 5 years. My concern is, 
as we look at--taking, for example, fiscal year 2015 and the 
reduction in O&M dollars specifically that allows us to 
maintain that equipment and creates an additional backlog on 
maintenance and repair specifically, that readiness level that 
we are at is going to degrade over time as a result of 
reductions in those funding levels.
    So it is difficult to project out 5 years. I do think it is 
safe to say, though, that, at reduced funding levels in our O&M 
accounts, that those readiness levels that you mentioned are 
going to come down proportionately.

                    MENTAL HEALTH AND REINTEGRATION

    Mr. Owens. Thank you.
    As you have seen units deploy and return, are you being 
adequately--or are the troops being adequately provided mental 
health services in the communities in which they live as they 
return from deployments?
    General Lyons. Congressman, we are focused very hard on 
that, about the effects of deployments, about the reintegration 
of our men and women into our formations.
    We try and approach this over the deployment cycle, what we 
call it, so maintaining touch points with our men and women as 
they are getting ready to deploy, staying in touch with their 
families and the soldiers while they are deployed, and then, 
when they return home at the 45-, 60-, and 90-day window, 
having the opportunity to get face to face with those men and 
women and do an assessment.
    So we have dedicated full-time resources to that in the 
form of directors of psychological health in the 54 States, 
Territories, and the District. We have 78 of those hired today.
    With thanks to the Congress and this committee, we have an 
additional $10 million that has been made available to us. We 
anticipate that that is going to allow us to double the number 
of behavioral health providers in our formations. These are 
master's-level, credentialed behavior health providers.
    So we remain focused on it, Congressman, and we use every 
opportunity that we have to interact with our men and women in 
a geographically dispersed force during drill weekends, annual 
training, and when they return home.
    Mr. Owens. Are you having any difficulty recruiting 
providers?
    General Lyons. Not that I am aware of, sir.
    Mr. Owens. The reason I ask that question is we had the 
surgeons general in the other day for testimony, and certainly, 
in rural areas, that issue of lack of providers is found both 
in the civilian and the military population.
    General Lyons. Yes, sir. And that is probably a fair 
observation.
    You know, as I mentioned, the directors of psychological 
health that we have right now are in our Joint Force 
Headquarters, which is the State headquarters.
    It does stand to reason that, as you get out into more 
remote communities, that that pool to draw on may, in fact, be 
reduced.
    But what I will do, sir, is I will take that for the record 
and I will come back to you on the population that we are 
drawing on to hire those personnel and get an answer on that.
    [The information follows:]

    The Army National Guard (ARNG) Psychological Health Program has 54 
contracted Directors of Psychological Health (DPHs) and 24 additional 
DPHs for identified high risk states. The DPHs are located at ARNG 
Joint Force Headquarters, Offices of State Surgeons and other areas 
deemed necessary by the respective state's adjutant general. This 
program's approach is to leverage community capacity and access to care 
in every state and territory to include rural areas. Because the ARNG 
has only 78 DPHs to cover the entire nation, they must rely on local 
community support agencies to assist and serve our ARNG population.
    Access to qualified psychological health providers can be an issue 
in rural areas not just for Army Guard Soldiers, but for the general 
population as well. The ARNG's priority has been to focus our limited 
hires in densely populated areas so that DPHs may be embedded as part 
of multidisciplinary teams. Travel funds are provided so that they can 
visit or serve our geographically dispersed population as needed.
    Aside from face-to-face and telephonic support, the DPHs provide 
crisis intervention, prevention, education and case management as part 
of a larger multidisciplinary team. The contractor takes provisions to 
ensure that the requirement is fulfilled to the quality standards set 
forth by the contract and that services are provided on time and within 
funding limits.
    The ARNG is also in the early stages of building an information 
technology infrastructure, to include a tele-behavioral health network, 
to improve service to more rural areas.

    Mr. Owens. And where they are geographically dispersed 
would also be helpful.
    General Lyons. Yes, sir.
    Mr. Owens. Thank you.
    I yield back.
    Mr. Frelinghuysen. Thank you, Mr. Owens.
    Mr. Crenshaw.

                         DOMESTIC REQUIREMENTS

    Mr. Crenshaw. Thank you, Mr. Chairman.
    And thank you all for being here and for your service.
    I want to ask about the size of the National Guard.
    General Grass, I am sure you are aware that, when you talk 
about restructuring and reducing the size not only of the 
active services, but the Guard and the Reserve, that causes a 
certain amount of consternation back in the States.
    And I can tell you, in a State like Florida where you have 
an unusually active Guard not only in terms of defending us 
abroad, but, also, meeting some of the needs--there was a time 
when we had four hurricanes in a three-week period.
    And so you couple that with the fact that, in a State like 
Florida, it actually has the lowest ratio of Guardsmen to 
population. I think we are number 54 out of 54.
    And so my question is: When you meet with the Army to 
decide about this restructuring and reduction, do you take into 
consideration the different needs, the different States, the 
different sizes, in terms of ratio to population? Questions of 
readiness? Some States are more ready to go than other States. 
Talk about the factors that went into those decisions.
    General Grass. Congressman, two things that occur here when 
we go through the analysis. And both my partners here could go 
into great detail.
    But the first one is, when we have to make a reduction 
across the board, we work with the adjutants general. And we 
have developed a model that we plug the numbers in on what the 
reduction is, and it takes in the recent deployments, it takes 
in the readiness accounts, it takes in the demographics.
    But we always realize there has to be a baseline of command 
and control units in place, because just having soldiers and 
airmen in there doesn't accomplish the mission when it is time 
to respond to a hurricane or any type of a disaster.
    The second part, though, in addition to the model, that we 
are taking a serious look at right now--and my plans chief has 
been working on this for a year and a half with FEMA and with 
NORTHCOM--is we have never been able to model for the States 
what we call the worst night in America, you know, something 
well beyond a Hurricane Katrina.
    One of the exercises we are getting ready to run right now 
is on the West Coast of the United States and California, an 
8.2 earthquake, you know, in downtown Los Angeles or on the New 
Madrid. So now we are modeling it.
    We brought in the State plans, which are synchronized 
between the National Guard and the local responders, and we are 
looking at where the gaps and seams are in that. And that 
should generate for the future the plans that we will build to. 
And Administrator Fugate has been great supporting us on this, 
giving us the ideas of the response time.
    And we have 10 essential functions that we look at that we 
use in just about every disaster. So we will be looking at how 
those are positioned across the country. So a lot of work to do 
to get to that.
    Right now what we are working at is with the current round 
of cuts and the number I mentioned under the Budget Control Act 
and sequestration, of going down to 315,000 from--you know, by 
the end of 2015, we are going to be down to 350,200 Army Guard 
and about 105,000 Air Guard.
    When we drop that low, I am very concerned about the 
response times. We will still have people, soldiers and airmen, 
that can move. We will have reduced command and control. And 
the response times to get in and help is going to be longer.

                          COUNTER DRUG PROGRAM

    Mr. Crenshaw. Quick follow-up maybe to what Chairman 
Rogers----
    Mr. Frelinghuysen. Absolutely. Would you yield to me after 
you are through the course of your questions, I have another 
few questions.
    Mr. Crenshaw. Absolutely.
    Chairman Rogers talked about the counter-drug program, and 
what is interesting is, I think we all agree it is a great 
program, and while you don't always ask for the money, Congress 
always puts money in. But the last couple years has been like a 
hundred million dollars that expires, because it wasn't spent 
and it wasn't transferred to another account.
    Can you explain that?
    General Grass. Congressman, one of the problems we deal in, 
and most of that money comes in, in pay-in allowances, so like 
last year we got the money in June. Our fiscal year ends at the 
end of September, so we had to cut back at the start of the 
year because we didn't have the money to keep people on duty. 
Then when we got the money, now you are looking at trying to 
hire people to come in, and you got to get them trained up, and 
we ended up running out time to spend the money. It was hard 
to--it was about 130 million I think last year that we had to 
try to use, and we didn't want to waste it in any way. We 
wanted to make sure it was used effectively out in the 
communities with each state.
    But it is that up and down that makes it very difficult.
    Mr. Frelinghuysen. Would you yield to me? I just want--my 
predecessor told me once, and tell me, General Clarke, does the 
Air Force Guard have any C-130s in Florida?
    General Clarke. I'm sorry sir, does the Air Guard have?
    Mr. Frelinghuysen. Any C-130s in Florida.
    General Clarke. No, sir.
    Mr. Frelinghuysen. That is pretty amazing. I don't want to 
add on to your anxiety, but that workhorse would be, I think, 
pretty valuable in a state that has faced you know so many 
incredible crises.
    Ms. McCollum.

                              DUAL STATUS

    Ms. McCollum. First off, on the dual status I am really 
glad Mr. Moran asked the question. It is something that has 
been on my mind to kind of get out on the table because I am 
intimately familiar even as a young child what dual status 
meant, to a family, what it means to our military, and what it 
means to our Department of Defense. And I bring that up because 
right after 9/11, there was a lot of confusion as people were 
getting called up in the Guard, you know, with dual status. 
Which health care plan is my family on? Which health care plan 
am I on? And it was a real mess, and a lot of people when we 
called up and picked up the phone and started talking to 
people, even in the Pentagon, didn't know what we were talking 
about, so I hope that that protocol or whatever got put in 
place that has finally been working for those dual status 
people, remains in place and remains refreshed and kept up to 
date.
    Because if they are called up again, I would hate for us to 
have to go back and have those families go through the struggle 
that they were and have that service man or woman being 
deployed wondering whether or not when they were leaving if 
their family had health insurance or if they were going to be 
in an insurance gap which many of them were afraid they were 
going to be.

                               READINESS

    And, Mr. Chair, I hear the committee loud and clear; and to 
kind of sum up I think what we are going to be working on is, 
as my grandmother said, when you borrow or use something, you 
return it in good condition, maybe even better condition; and 
so I think we want to make sure that our guards are at that 
point and then to make sure that our guards are equipped.
    I know when Minnesota's National Guard wasn't any different 
than any of the other National Guards when they didn't have 
enough equipment, when they didn't have enough body armor, when 
they were being deployed and our men and women tend to have 
either white for snow training or green for forest training, so 
they weren't the right camouflage color when they were leaving 
and so those kinds of things I hope that this committee working 
with you will keep up on.

                             SEXUAL ASSAULT

    What I would like to ask the National Guard about is 
military sexual assault because the Guard has a very, very 
unique role as well as the Reserves do with the people who are 
involved in your units. The Pentagon has reported about 5,400 
instances of sexual assault or unwanted sexual contacts were 
reported in the military last year, which was a 60 percent rise 
from 2012. This is a disturbingly high number, and there is 
ongoing investigations and new revelations of misconduct and 
sexual assault within the ranks, and that is the very issue 
that this committee takes very seriously and wants to see 
addressed.
    The Guard, because in many ways the way people enroll; it 
is families, it is friends, it is cousins, it is neighbors, it 
is people you went to high school with, people you work with, I 
mean, these really are family, community-based units.
    So one of the questions I had asked Mr. Lyons is kind of 
like how does the Guard address this, and has this been a 
problem in the Guard? Speaking to Guards women who have been 
activated and one reservist, the attack that was perpetrated on 
him was not by a fellow guards person or a reservist. It was a 
person in quote-unquote ``traditional active duty.''
    So could you tell me what kind of programs you are looking 
at. What do you think you need to do to better to address 
sexual assault, but foremost, I would like you to answer a 
question. How do you treat sexual assault? Because you don't do 
things within the command and within the ranks, do you not? Do 
you not turn them over usually to outside prosecutors?
    Who would ever like to go first?
    General Grass. Congresswoman, let me start by saying that 
this is a serious problem that we all take extremely, extremely 
seriously. And I would tell you that as a member of the Joint 
Chiefs, we spent quite a bit of time on this topic, and one of 
the things we have done within the National Guard is I have 
made it clear to my counterparts on the Joint Chiefs that we do 
have some issues that are different, and we have to address 
them differently.
    So if we have someone on a drill status on a weekend and a 
sexual assault occurs and the state does not have a uniform 
code of military justice, their only tool may be to turn to a 
local prosecutor, and we find that unless there is strong 
evidence, if alcohol is involved, they will normally not take 
the case. So what we want to do is provide a better legal 
framework for that, so we stood up about two years ago and 
started training, and it is our Office of Complex 
Investigations. They are trained legal members from the Guard, 
and they are from other states. We are up to 92 now that have 
been trained at Ft. Leonardwood. All it takes is a call from 
the state, and we will send them in.
    The nice thing about our team is that they can come from 
another state. They can walk in. The victim doesn't have to 
know the person, where inside the state the victim may know the 
legal framework there, the legal representatives.
    So, we are very, very committed to doing this, the 92. We 
sent the teams out to states, we write the report. Some states 
do have a Uniform Code of Military Justice under the governor 
and under the adjutant general, and they are taking action as 
these cases come forward.
    Soon, within probably two weeks, I will be able to sign off 
on a special victims council program that the Army is going to 
be giving us approval for. I know the Air Force has already 
given the Air Guard, so you have a special council for the 
victim in hometown America. So, we have a lot of actions 
underway, and we need to continue to hammer this home.
    What we are seeing right now is possibly an increase in the 
number of reporting, but what we are also seeing is some of 
those reports were two, three years ago, or even before the 
person got in the military. So we think we are making a 
progress toward people being comfortable to report so we can 
get after the problem.
    Ms. McCollum. Would you say in those states where you turn 
it over to the state, it is outside of the quote-unquote that 
what being is discussed here, the ``traditional chain of 
command'', has that influenced or weakened the Guard in any 
way?
    General Grass. Ma'am, I would have to go back and look at 
the statistics on it.
    Ms. McCollum. Mr. Lyons.
    General Lyons. Ma'am, I might offer that in those 
circumstances where you are talking to is, the commander of the 
unit will still take action based on the results of the 
civilian prosecution. So a unit commander, if a perpetrator is 
convicted in civilian court, the unit commander is going to 
take action on the military side as a result of that 
conviction, so there still is involvement.
    You know, we have applied full-time resources towards this 
issue. We have 95 special--I am sorry, sexual assault response 
coordinators and full-time victim advocates in the states, 
territories and the District. We have also trained 2,400 
collateral duty victim advocates to push down advocacy for 
victims to the lowest level that we can across our formations. 
So, you know, it is kind of the three lines of effort here that 
General Grass talked to which is prevention, making sure that 
we are ensuring that we have a culture of dignity and respect 
in our formations where our men and women feel safe and secure 
and can participate to their fullest potential.
    We use the Office of Complex Investigation, we partner with 
local law enforcement, and then we hold accountable through the 
mechanisms that General Grass talked about.
    Ms. McCollum. So to sum up, would it be fair to say in 
areas where you know, these acts are committed within the 
United States, within a state, turning it over as a criminal 
matter, to the state, in doing the dual track, and still doing 
the discipline within the military, that that has not affected, 
weakened, or diminished your chain of command?
    General Grass. Ma'am, I can tell you that, again, going 
back to the Joint Chiefs, we have had many conversations about 
this.
    Ms. McCollum. I am not asking the Joint Chiefs. I am asking 
you folks. I am asking the Guard, and I am asking the Reserve. 
I have heard from the Joint Chiefs.
    General Grass. Yes, ma'am, and taking the commander out of 
the loop is the wrong thing to do. We need to hold them 
accountable for this and give them the tools.
    Ms. McCollum. Sir, I didn't say to take the commander out 
of the loop. I still said that the military can go forward and 
do its thing. I asked if prosecuting this in a criminal court 
in any way, I mean, that is what you are doing now in most 
cases, so are you saying your chain of command has been 
weakened over these past years in the way that you have 
conducted your sexual investigations and turned things over?
    General Grass. No, ma'am.
    Ms. McCollum. Okay.
    General Grass. We have not.
    Ms. McCollum. Thank you.

                             SEXUAL ASSAULT

    Mr. Frelinghuysen. Just for the record if you will yield, 
we put $25 million in there, not only for the regular military, 
but for the Guard and Reserve, and we assume that part of that 
money is being used towards making sure these situations do not 
continue.
    Let me associate myself with Ms. McCollum. I think all of 
us do. We are not going to tolerate this kind of behavior.
    Ms. McCollum. Mr. Chair, I mean, my point simply was, is 
that right now the Guard, if there is a crime committed, they 
prosecute it when they can in the regular, traditional criminal 
court system, and then they still have their ability to punish 
and to discipline within the military system; and so that is a 
system that has worked well for women all across this country 
and for men who have been assaulted as well.
    Thank you, Mr. Chair.
    Mr. Frelinghuysen. Thank you, Ms. McCollum.
    Mr. Cole.

                   STRATEGIC U.S. OPERATIONAL RESERVE

    Mr. Cole. Thank you Mr. Chairman.
    Thank you gentlemen for your service.
    And I apologize for arriving late, but as we all know, the 
committee schedule is pretty hefty right now.
    You may have covered some of this in your testimony. I want 
to direct my question to General Grass and also General Talley 
at least initially.
    When I first came to Congress, it was in January of 2003 
and before Iraq but just before, and I was really incredibly 
impressed with the Guard and the Reserve and the manner in 
which they responded. The assumption at that time was very much 
that the Guard and Reserve were just that, a strategic Reserve; 
but to watch them transform themselves into an operational 
force as quickly as they did and over the amount of time that 
they have is pretty amazing.
    And it is clearly, you know, an extraordinarily important 
part of when we go to war now as to whether or not the Guard 
and Reserve are capable of doing that with that kind of speed.
    What concerns, if any, do you have if we were to revert to 
the sort of 2001, 2002 strategic Reserve model as opposed to 
being what I think you are today, which is an exceptionally 
capable operational force?
    General Grass. Congressman, it would be very unfortunate 
for the United States of America and the governors of the 
states. I have had a chance in the year and a half on the job 
to visit 27 states, 7 countries, where our men and women were 
serving. Last week I was in Afghanistan.
    This force in the National Guard, both at home and 
overseas, is something I have never seen in my 44 years in the 
Guard, and I would tell you that my biggest concern is as we 
draw down and we draw down the resources, these men and women 
will look for something else to do, and we will lose that 
strength, that capability.
    Last week a town hall, in Camp Leatherneck, talking to 
guardsmen that were right there on the point of the spear, 
helping to tear down the facilities, and I asked them, are you 
being deployed too much? They looked at me and said no, 
predictability is good but, no, we want to be a part of 
something bigger. If we know that the numbers are going to come 
down, when you get us back home, you better give us dynamic 
training. You better keep our weekend drills dedicated to 
taking our time and giving us the skills we need because we 
know based on what is happening to our military, if something 
happens in the world, we are going to have to go quicker, so we 
want to be ready quicker.
    General Lyons. Sir, and if I can add. Oh, I'm sorry, 
General Talley. Go ahead.
    General Talley. You know, as we look at this post 9/11 
generation, you know, 87 percent of our Army guardsmen have 
joined since 9/11, so they have grown up in this operational 
tempo, this operational Reserve that we are all accustomed to. 
I use my own family as an example. My spouse is in the Guard. 
My stepson is in the Guard. My middle son is in the Guard. So 
four deployments between us.
    Mr. Cole. Are they all married?
    General Lyons. What is that?
    Mr. Cole. Are they all married?
    General Lyons. One is, sir.
    Mr. Cole. Very understanding spouse.
    Mr. Frelinghuysen. Make sure that gets in the record.
    General Lyons. Nearly 50 percent of our Army guardsmen and 
women are veterans, and so as General Grass highlighted, the 
challenge is we have to keep them engaged. We have to provide 
them the operational opportunities that are out there either in 
training or in operational missions, things like combat 
training center rotations which are the culminating training 
events that we have, the opportunity to serve overseas, 
continue with their state partnership program, remain engaged 
because as he so rightly said, if we don't offer those 
opportunities to develop our leaders of the future, my fear is 
as the acting director, is that they will decide they have 
something better to do with their time.
    They feel value, they feel contribution in what they have 
done over the last 13 years, and they are eager to do more. 
That is the sense that I get from our men and women that serve.
    Mr. Cole. General Talley.
    General Talley. Congressman, thank you for the question.
    Like General Odierno and Secretary McHugh, my biggest 
concern is if we ever ask a soldier to go do a mission and they 
are not properly trained, resourced and led. And I think if 
they are properly trained, resourced and led, it doesn't matter 
what component they are from.
    But for the Army Reserve, as the Army has morphed and 
changed over the years, and we have become de facto, almost all 
of the enablers for the Total Army because most of our regular 
Army is the tooth, and the Army National Guards are in many 
ways a miniature version of big Army, but almost all of those 
enabling skills that we need to support those combat missions 
are in the Army Reserve. So our demand signal stays the same in 
the Army Reserve, whether we are no longer executing named 
operations, combat operations, or when we are switching to 
contingency operations.
    So we have got to be ready. Well, those contingent missions 
may not require us, afford us the flexibility of going to a MOB 
site. You may have to go right away, and so for, us it is all 
about readiness. It is making sure that as the resourcing goes 
down, we have got to have enough OPTEMPO, money and resourcing 
to keep those enablers ready because we provide that support 
not only to the Army but to the total force.
    Thanks for the question, sir.

                             BUDGET PROCESS

    Mr. Cole. Oh, no. Thank you.
    One other quick question, and the answer may not be too 
quick, but obviously we have heard a good deal of debate and 
discussion about the differences of opinion over air assets and 
what is happening given what we are all going through a very 
difficult downsizing and readjustment.
    Are there other areas that particularly concerned you 
beyond that, in terms of the decisions that are being made 
right now, and are you comfortable that in the decision-making 
process you have had the opportunities to state your case and 
work back and forth with the regular Army and regular Air 
Force, what have you, to, you know, just to work through this 
together and come to common solutions to joint problems.
    General Clarke. I can go first because I have got the easy 
part of this discussion.
    Yes, sir, absolutely. Working with the Air Force senior 
leadership unquestionable, the outstanding collaboration we 
have with the senior leadership is their--I mean, they pull us 
into every decision. They want to ensure that we have an 
opportunity to voice our opinions.
    Remarkably this year, this past year, was the first time 
that the Air Force asked adjutants general to be a part of the 
programming decisions, to sit there and give their voices and 
let their voice be heard. They were representing all of the 
adjutants generals out there for the broad issues, but they had 
an opportunity to inject their opinion. And it was quite 
helpful, I think, I think General Welsh really appreciated them 
being there for the discussions.
    So for us it is working very well, and I think in the 
future, particularly under Secretary James and General Welsh we 
can look forward to more of that.
    Mr. Cole. All right.
    General Lyons. Sir, I am concerned about the impact of 
budget reduction specifically into fiscal year 2015. We compete 
in the same Army processes for budget decisions, so where I see 
the risk that we are going to assume here is specifically in 
the readiness of our formations.
    As we look ahead to fiscal year 2015, in terms of 
operations tempo, our ability to resource combat training 
center rotations will not be there. The rotations may be 
scheduled, but the funding both in pay and allowance and 
Operations and Maintenance to support that is not there. We 
will see impact in our base operations support, which is 
support for everything we do across our armories across the 
Nation there. We will see risk in our sustainment, restoration, 
and modernization accounts. So as I talked in my opening 
statement about the average age of our facilities being about 
44 years, and there is variances in that across the Nation, as 
things break, our ability to repair them, we will continue to 
defer that maintenance over time here, and so when you have an 
old facility and you are deferring maintenance it just 
exacerbates the issue and that reduces our readiness. We will 
see impacts in our depot maintenance as well.
    But, what I am very concerned about is our ability to, 
again, engage our men and women and sustain the leaders that we 
have that have been honed over 13 years of hard fought and hard 
won experience, but also build that next generation of leaders 
and so our pay and in allowance and our O&M accounts directly 
contribute to our ability to do that, and so that is an area of 
concern.

                       FORCE STRUCTURE DECISIONS

    Mr. Frelinghuysen. Very briefly, because I want to give Mr. 
Aderholt a chance to put his marker down here since he is been 
very patient. Maybe you don't have any.
    Yes. General Talley.
    General Talley. Sir, quick response.
    I have direct access to Secretary McHugh and General 
Odierno daily. I can get to see them any time I want and I 
have, particularly as you might guess on the issue of end 
strength and the force structure. What I ask the boss is, it is 
really how do we properly balance our Army, light, medium, 
heavy forces, Active Guard and Reserve, and how do we assume 
risk and provide the cost savings that we have to provide to 
the Secretary of Defense? The only thing I have asked the boss 
to do is allow me to make those recommendations to you as to 
how we might downsize the Army Reserve and how I can provide 
the cost savings to you. The boss has allowed me to do that. 
There has been a loss of discussion, a lot of give and take. At 
the end of the day, though, I pitch my case to the boss, he 
makes the decision, and then makes that recommendation to 
Congress. He has allowed me to do that.
    General Grass. Congressman, if I could, one of the toughest 
issues that we have to deal with in the Department of Defense, 
is finding the right mix between our active component and our 
Reserve component, and of course we just went through that with 
the Air Guard, and I think we have come up with a very good 
analytical way ahead. The way we have formed a team of task 
force continuation, stood up by General Welsh, is really 
helping to inform the metrics that go into that so we get it 
right for the Nation. I think we have to do the same thing 
inside the Army.
    Mr. Cole. Thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Cole.
    Mr. Aderholt.

                                HUMVEES

    Mr. Aderholt. Thank you. I will be brief here.
    The National Guard has consistently included modernized 
Humvees among their top priority funding priorities, and 
funding was included fiscal year 2013 and fiscal year 2014 to 
establish a multi-year program to modernize the rapidly aging 
fleet. I am aware that the partnership between the Army 
National Guard Bureau and industry has yielded an effective 
public/private partnership to rapidly fill like-new vehicles to 
Guard units nationwide as part of this program.
    The question would be what kind of impact will these 
upgrades have on the Guard's ability to perform its mission?
    General Lyons. Thank you, Congressman.
    It has direct impact, and I want to thank the committee for 
their generous support in fiscal year 2013 and fiscal year 2014 
for providing those dollars that does exactly what you just 
talked about, which is modernized legacy fleets of our wheeled 
vehicles. We have a vital of variance of Humvees in particular, 
and so those dollars are going to continue to allow us to 
modernize those vehicles, and so that has a direct impact on 
our readiness both for overseas missions and our domestic 
missions at home.
    Mr. Aderholt. Let me just follow up.
    As we are looking for fiscal year 2015 funding, what impact 
would additional funding have in respect to the Guards' 
initiative to upgrade the Humvees?
    General Lyons. Thanks, Congressman.
    We still continue to have legacy variants of our Humvee 
fleets, so we would look to continue to modernize.
    General Talley. Sir, thanks for the question.
    Like the National Guard, we have an aging Humvee fleet, and 
one of the areas that we would like to see if it is potentially 
possible to get additional resourcing would be how do we 
modernize those Humvees, particularly as it relates to ground 
ambulances? I own approximately 59 percent of the doctors and 
nurses for the Total Army, the Guard was able to get some 
additional funding last year where they can convert some of 
their Humvees into ground ambulances, great initiative, we 
would like to do exactly the same thing because there is no 
program or record fix for that.
    Thank you, sir.
    Mr. Aderholt. Thank you.
    Ms. Granger [presiding]. Mr. Visclosky.

                MOVING FROM ACTIVE SERVICE TO THE GUARD

    Mr. Visclosky. Thank you very much, Madam Chairman.
    General Lyons, you had mentioned that about 50 percent of 
the Guard members are veterans. To what extent do you think 
there are still, and General Talley, you may want to address 
this as well.
    Bureaucratic barriers for soldiers moving from active 
service to the Guard as well as the Reserve, that we could 
expedite this because obviously you do have that training, you 
have got that expertise, desire to serve. Are there things that 
can improve that flow of talent?
    General Lyons. Thank you, Congressman.
    We do want to capitalize on the opportunity to have serving 
active component soldiers, transition seamlessly into the Army 
National Guard. As we speak we are engaged in a pilot program 
called AC to RC, Active Component to Reserve Component. So I 
have career counselors at Ft. Hood Texas that engage early on, 
and so as an active component soldier is making a decision to 
come off of active service, typically that engagement would 
occur anywhere from three to six months from that decision to 
leave.
    What the AC to RC program will allow us to do is to extend 
that window out to about a year where that active component 
soldier gets exposed to the opportunities both in Army National 
Guard and the Army Reserve early on in the process, and then 
the second goal of that program is if that service in the Army 
National Guard requires a change of their military occupational 
specialty, that they make that change while they are on active 
duty, so the end result is the active component delivers a 
trained soldier into the paragraph and line number in the Army 
Guard formation, and so we have readiness that is maintained.
    Mr. Visclosky. With the skill that is needed?
    General Lyons. Yes, exactly sir.
    Mr. Visclosky. Yeah.
    General Talley. Sir, just to piggyback on that, what we 
need to do is, the regular Army has got to draw down in it is 
force structure and obviously the decision has been made to 
draw them down at a greater rate than that of COMPO 2 of the 
National Guard and COMPO 3 of the Army Reserve. We have got to 
emphasize soldier for life here. Soldier for life is not 
leaving the regular Army and becoming a civilian. It is serving 
in the regular Army, one of our great Army national guards or 
in the Army Reserve.
    So to promote that, we have to actually extend our AC to RC 
program which is a regular Army program, even more. We have got 
to go more than a year out. We need to say how do we take 
soldiers that are quality soldiers, combat men and women, 
veterans, allow them to leave the active Army early and then 
finish their commitment in the Army Reserve or Army National 
Guard as we pull, not push them from our force, the regular 
Army force, and then train them in a career using in our case 
the Army Reserves and Employers Partnership Program, which was 
the initial program that eventually became Heroes to Hire for 
OSD.
    Thanks, sir.
    Mr. Visclosky. Is that, if you would, a pilot as well in a 
sense?
    General Talley. The pilot program that is being implemented 
right now, that we are testing at Ft. Hood, was really a 
discussion between the active Army, the Army Reserve, and the 
Army National Guard at Ft. Hood. It is allowing us to go in 
using Army Reserve and Army National Guard resources to pull 
folks, or to get with them a year in advance. My argument is I 
still don't think that is far enough. We got to go more than a 
year in advance because by the time they get to the transition 
point, they have already kind of made their mind up, and what 
we want to do is be able get them earlier and to allow them to 
understand that there may be a way that they can start training 
into a different MOS, occupational specialty, that would allow 
them a more viable civilian career transition.
    General Odierno has got a cash flow issue. He has got to 
get cash flows quicker. He is going to have to draw down 
quicker than perhaps he might like. We could take advantage of 
that and help the rest of the Army by a more aggressive AC to 
RC program.
    Mr. Visclosky. You mentioned the pilot program as well as 
what you are doing in Reserve. We are going to hold a hearing 
about a year from now. Will the pilot program be completed? 
Will you have a better assessment as to whether this will 
facilitate and ease that movement of talent?
    General Talley. Short answer is yes, sir. The Army G1 
Howard Romberg, we are anticipating we should be able to get 
some sort of metrics in terms of whether or not it is going to 
work or not, we hope by mid to late summer, and then the idea 
is if we do we want to then expand that across all of the major 
military installations to capture the AC to RC.
    And a point that I made earlier this morning is we also 
need to break down the barriers for the other services. In 
other words, if you serve in another service and you want to 
come into the Army, right now often we make you repeat basic 
training. I don't know why we do that, but we are trying to get 
that policy changed.
    Mr. Visclosky. Okay. And the pilot program, when will that 
end, General Lyons?
    General Lyons. Sir, I would like to take that for the 
record because I am not sure on that, and I want to give you an 
accurate answer.
    [The information follows:]

    The AC2RC 365 Pilot Program at Ft. Hood is a one-year program. The 
program has yet to be implemented, but is expected to be implemented by 
the Active Duty within the next few weeks.

              NATIONAL GUARD AND RESERVE EQUIPMENT ACCOUNT

    Mr. Visclosky. If I could, I would like to draw your 
attention to two accounts, one from my perspective very 
ephemeral, the opportunity, growth and security initiative 
account, that I am assuming will be plussed up fully once we do 
changes to entitlement programs and pass tax legislation this 
year.
    Do you have requests for your various services in that 
account as a proposal, and just generally, yes or no? I am not 
interested in specifics at this point.
    General Grass. Congressman, we did submit unfinanced 
requirements be included with the Department of Defense.
    Mr. Visclosky. Let me ask then in conjunction with that 
question about another account, and that is the National Guard 
and Reserve equipment account that apparently somebody in the 
administration forgot to put any money in for a request for 
2015. If, in 2015 that account receives funding, would there be 
items of particular interest to your services to be included in 
that, and would any of those be also represented in that 
opportunity, growth and security initiative request?
    General Lyons. Congressman, first to the NGREA, again I 
want to thank the committee for their continued support in 
NGREA funding for the National Guard. It allows us flexibility 
to procure items that you are getting at that we don't have in 
the base budget.
    Specifically in the Guard I just wanted to highlight the 
ability to purchase critical dual use items of equipment, those 
items of equipment that are good for the war fight as well as 
our domestic missions, and thanks to the committee's support, I 
am happy to report that we were at 83 percent in fiscal year 
2010 in critical dual use equipment, and we are up to 93 
percent in fiscal year 2014, and so that is directly related to 
the committee's work. I want to thank you for that.
    As you look ahead, we still have requirements. We have 
heavy truck fleet requirements, purchase of the chemical, 
biological, radiological, and nuclear. The CBRNE enterprise 
equipment, general engineering vehicles, simulators to train 
our force. So these are all examples that we would look to use 
NGREA funding for in the future, sir; in addition to the Humvee 
modernization that I talked about earlier with the additional 
funds the committee has provided in 2013 and 2014.
    General Clarke. Sir, yeah, my appreciation for the NGREA 
funds. From an aviation perspective, again we found uses in the 
dual use as well. But from a war fighting perspective, the 
opportunities, we still use the targeting pods that we 
received. It brought us up to the first string capability.
    You know, in the National Guard we didn't have that 
capability, but we were literally put on the first string when 
we acquired that capability through NGREA funding.
    The latest that I have seen is a modification to F-16s 
where we have a center display unit. The difference in that is 
trying to view something on a laptop over here, versus having a 
60-inch TV right here for a pilot. That is a big deal because 
your ability to discriminate where the enemy is and 
particularly where the perimeters might be, it is just a game 
changer. We also have helmet mounted sights now. Remarkably 
good equipment that allows you to, and from my experiences in 
Iraq, if I look at something I can designate it with my sight 
off of my helmet. One push of the button, all my weapons and my 
sensors immediately go to that point on the ground. That is a 
game changer.
    So the NGREA has just been fantastic. But to answer your 
question, sir, wherever there is a combatant commander 
requirement that needs to be met, if NGREA helps with it, that 
is very helpful, and we have a very good process--type process 
through weapons and tactics conference to identify which 
requirements are out there, and then we have a good process for 
prioritizing which ones we are going to try to fund with NGREA.
    General Talley. Short answer, sir. Yes on the UFR list. It 
is already in. On NGREA, tremendous ability to help the Army 
Reserve. We are going to reinforce success. We are focused on 
simulation equipment and making the most of home station 
training particularly as we have to come down in OPTEMPO as it 
relates to travel money for example; and since most of our 
force is enablers, we are focusing pre-marksmanship 
instruction, familiarization of weapons systems, how to 
basically execute trucks and convoy; and then when we do get on 
the real machines itself and the real equipment, it makes it 
quicker to train, it makes it safer. Tremendous value, sir.
    Mr. Visclosky. Okay. Gentlemen, thank you very much.
    Thanks, Mr. Chairman.

                            UPGRADED APACHES

    Mr. Frelinghuysen [presiding]. Gentleman, you are on your 
game. We do put money in this committee on the NGREA account, 
so it is good to hear that it is being properly utilized.
    I have been trying to find out from staff, but since I know 
General Grass has had 44 years service, and let me say is it 12 
as an enlisted man, you may have this answer.
    How many Apaches do we have in the Army; would you guess?
    General Grass. We have in the Army Guard about----
    Mr. Frelinghuysen. I know the Army Guard. I just wondered 
if you knew what the big Army has.
    General Grass. 732 about.
    General Lyons. Yes, sir, it is 732 with an acquisition 
objective of I believe, 690.
    Mr. Frelinghuysen. So following up with Mr. Womack, who was 
headed down this path here about the upgraded Apaches.
    In the interests of full disclosure, this committee put 
in--tell me if this is accurate General Grass, this committee 
put in nearly a billion dollars to upgrade those Apaches for 
the National Guard?
    General Grass. Chairman, I would have to go back and check 
that. We were talking to our lawyers today to try to find those 
documents because they are critical.
    Mr. Frelinghuysen. I think this committee put the money in 
there specifically for the National Guard. You don't have to 
talk to your lawyers. I think we can help validate that.
    General Grass. Yes, sir.

                            CYBER ACTIVITIES

    Mr. Frelinghuysen. Though, I think this puts a point on our 
discussion here.
    Just sort of shifting gears a little bit here, if you look 
at the overall defense budget, there are a few areas that have 
sort of been plussed up, and God only knows we give credit to 
our special operators for what they do. We may not know where 
they all are at any given time, but I am sure some of you, 
certainly the air component and others have been responsible 
for their safekeeping and their air travel and other means of 
getting here and about.
    There is a greater investment in cyber activities. Has it 
been determined, more importantly, have you shown your interest 
with the powers that be of being part of that overall endeavor? 
Guess that goes to you, General Grass. This is what we call a 
softball.
    General Grass. Chairman, first let me tell you, we have 
spent a lot of time with General Alexander before he retired. 
We do an exercise with him every year. We are going to do one 
this year down at Quantico, Virginia, where we bring in 
Guardsmen and women from across the state with cyber skills. We 
have worked with the Army and the Air, and these gentlemen can 
give you more detail on what specific units. But we are looking 
and we are postured and ready to buy into structure as the Army 
and Air National Guard have it offered to them by the Army and 
Air Force. We just stood up our first computer protection team, 
or cyber protection team. It is a 39-person team. We brought it 
on full-time. They are going through their train-up and 
certification. We brought those Guardsmen and women from across 
the country. Tried to draw them from different states.
    They will eventually go to Ft. Gordon, Georgia. The intent 
would be as they get up to speed, we would actually eventually 
send them back to their states. We are hoping to draw an 
opportunity to fill future cyber protection teams and possibly 
put one per FEMA region in the future. We are working very 
closely with R cyber and F cyber.
    Mr. Frelinghuysen. Well, don't hide your treasure under a 
basket. I think you have got a lot of amazing men and women in 
all of your Guard and Reserve that can bring their brains and 
education to the cyber issue, so I think you ought to promote 
yourselves more.
    I have, not a parochial issue, but I am interested in the 
air wing at Atlantic City. They do some incredible stuff. There 
is concern about the F-16 fleet. They cover a pretty broad 
territory, so it is more than just a Garden State. They go up 
and down the coast.
    Where are we going, General Clarke, what is your priority 
in your budget quest, and how do we keep the fleet in that 
location and others around the country modern and relevant?
    General Clarke. Thank you, sir.
    The airmen at the 177th Wing, New Jersey, perform two 
missions. One is a homeland defense mission, 24 hours a day. 
They are on call to pick up any tasking that North American 
Aerospace Defense Command (NORAD) would give them. But 
additionally they trained to the air expeditionary force as 
well. So one day they could be tasked with a mission to support 
the homeland, and the next day they could be out the door going 
to support an overseas contingency.
    And they have done this multiple times, and they do it very 
well mostly because they do it with experienced airmen. For the 
airplanes themselves, the basic airplane, the Block 30 F-16s 
that they are flying are in pretty good shape. We think that 
because of the earlier Falcon STAR program and then the 
equivalent Flying Hour program, how they are flown has extended 
the life on these airplanes out for a good number of years. So 
the basic airplane is good.
    Unfortunately the budget difficulties, some of the 
capabilities upgrades will be not forthcoming; but again with 
NGREA and things like that, we are able to meet the combatant 
commander requirements with the airplane once it does deploy 
overseas. So I would tell you that one day we would like to see 
new airplanes here, but in the meantime we are going to do the 
best we can with great Airmen first of all, and then airplanes 
that we have already put some significant funds into to make 
sure they are good out through another 10, 15 years.
    Mr. Frelinghuysen. Thank you.
    Mr. Womack.

                           MEDICAL READINESS

    Mr. Womack. Thank you, Mr. Chairman.
    I want to go back to, you know, we have talked a lot about 
equipment, and that is all well and good, but we are still a 
very people-intensive organization as all of our services are. 
So I have just got a random list of some topics that I would 
like some kind of brief answers on.
    You know, when I was serving, one of my biggest complaints 
was the fact that I was always stuck with, for lack of a better 
term, people that were non deployable. They were protected by 
certain things, systemic things in the organization, and it was 
the common complaint of my soldiers, is that they didn't seem 
to have or were concerned about what I call upward mobility 
through the ranks because a lot of people senior to them just 
never seemed to kind of go away, and a lot of people that have 
served a long, long time and this is no reflection on General 
Grass, who has already been mentioned as having served a long, 
long time. It is not that upward mobility that I am talking 
about.
    So, if we are going to see a reduction in end strength, 
which it appears that we are, it would seem to me that the 
pressure on the service to be able to create upward mobility is 
going to continue to be if not a bigger--a challenge but a 
bigger challenge, going forward. So when I look at things like 
medical fitness, whether somebody is deployable or non-
deployable, MOSQ, NOVAL, those kinds of issues that scan the 
surface of our personnel management system, what are you doing, 
General Grass, and General Lyons, and I am sure it is something 
that is important to the Army Reserve, too, what are you doing, 
what is your vision for how we continue to create the 
opportunity for the young people joining our force to be able 
to achieve greater rank, and positions of responsibility 
against a lower end strength?
    General Grass. Congressman, first of all, great, great 
support from this committee on medical readiness dollars and 
our ability to run every year all of our men and women, both 
Air and Army, through a soldier readiness process has paid us 
huge events.
    The Army and Air Guard today are running in the low 80s, I 
think up to 85 percent.
    General Lyons. Yes, sir, about 83.1 percent. We are the 
highest of all three components today.
    General Grass. Medical readiness, which was unheard of as 
you know, before the war. We didn't have the resources. And the 
dental readiness, back then a lot of folks didn't have dental, 
and we had to wait until they mobilized and then we had to get 
them fixed to go and that delayed time.
    So what we are concerned about now though as the dollars 
shrink, the medical and dental readiness are going to be the 
first two we have got to watch close.
    So if someone can't make that and can't meet that and the 
resources are available, but they are going to have so slowly 
shift to taking it out of their pocket and go to TRICARE Select 
for Reserve, we are going to have to hold the line there 
because we are going to have somebody like you said standing 
right there ready to step in their place if they can't meet the 
medical readiness.

                            COMBAT TRAINING

    Mr. Womack. Combat training center rotations, it was 
mentioned earlier. It is a capstone mission for or capstone 
event for the Reserve components. I am deeply concerned, both 
from the AC and the RC side, that we are not going to be able 
to get our soldiers through these capstone events that are 
basically the crowning achievement to assess their readiness to 
deploy down range.
    General Lyons. Congressman, I absolutely agree with you. 
Our posture, the net effect as I said earlier, will be at 
individual crew and squad level proficiency.
    Combat training center rotations allow us to either come 
out of the combat training center rotation at platoon or 
company level proficiency which is where we need to be, so that 
takes funding both in Pay and Allowance (P&A) and in O&M. We 
can schedule the rotations which we have two scheduled for 
fiscal year 2015 currently, but again, not the dollars to 
resource those rotations so without that we are going to 
continue to maintain a force at individual crew and squad level 
training.

                    MILITARY OCCUPATIONAL SPECIALTY

    Mr. Womack. Are we having any problem finding school slots 
for those that are trying to become qualified in their military 
occupational specialty?
    General Lyons. I think I would answer it this way, 
Congressman. We will take risk in our MOS qualification 
opportunities and our special training opportunities, both of 
which come out of O&M accounts and some P&A, so we will seize 
every single opportunity we have, every single seat, to an MOS 
qualified soldier. My fear is we may not have the money to 
occupy that seat.
    Mr. Womack. General Talley.
    General Talley. Sir, on the seat requests, we are not able 
to get enough seats to meet the requirements that we have. That 
is not the real issue, the real issue is how do you fund, it 
gets to General Lyon's point, how do you fund the per diem, the 
travel, the salary, to get them to go to that event, 
particularly as you have a decrease in training funds. A 
challenge that I highlight frequently both within forces 
command, the Army and also to the Congress is----
    Mr. Frelinghuysen. Could we just hold the testimony for a 
moment.
    There is a moment of silence up on the floor, and if we 
would take a moment to recognize the loss of life.
    Thank you.
    Mr. Womack and then Mr. Aderholt.
    Mr. Womack. And I know exactly where General Talley was 
going with his comments, so let me just say this and then I 
will finish. I sense a perfect storm happening for our Reserve 
components. We are seeing the effects of not having the funds, 
perhaps not having the funds to ensure medical readiness, to 
get the appropriate people in the right slots, to get them 
through the combat center rotations. We are seeing issues with 
regard to the platforms on which they would train and become 
proficient and serve as an operational force down range, and we 
already know that we are not doing some of the missions that 
heretofore we were doing that were ideally suited, MFO as Sinai 
as an example.
    And so I just caution our country about putting our Reserve 
components in a position where they are going to almost by 
force to be not ready to do what this country is going to ask 
of them at some point down the road, and I will get off my soap 
box on it, but it is a great concern of mine. We are going to 
continue to talk about it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Frelinghuysen. We share your concern, Mr. Womack.
    Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman. Just a couple quick 
points.
    One, I truly support the Guards' counter drug program. I 
think it is very worthwhile and we certainly have seen very 
positive results in my congressional district. For General 
Grass and Lyons, just so that my impression is either correct 
or incorrect, it is my understanding and we have had a 
discussion about Humvees. So, will remain a part of the fleet, 
if you would, until about 2030. Is my impression correct.
    General Lyons. I believe that is accurate, sir.
    Mr. Visclosky. Okay, and finally, Mr. Chairman, I would 
point out while General Clarke has been in your position for 2 
weeks, as I understand it?
    General Clarke. One week.
    Mr. Visclosky. You did a heck of a job, but I also 
understand that General Lyons, during his long career, has been 
able, up until today, to avoid having to testify before a 
congressional committee. I think you did a superlative job. You 
keep at this, you are going to get good.
    Mr. Frelinghuysen. He is doing pretty well now.
    Mr. Visclosky. He is doing terrific.
    Gentlemen, thank you.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. On all of our behalf and to the men and 
women you represent, the best of America, wherever they may be, 
God bless you and thank you.
    And the meeting stands adjourned.
    [Clerk's note.--Two questions submitted by Mr. Cole and the 
answers thereto follows:]

                  Training and Simulation-Lease v. Buy

    Question. What is the effect of sequestration on the Army National 
Guards ability to maintain optimum levels of readiness?
    Answer. Assuming Budget Control Act (BCA) funding levels return in 
fiscal year 2016 and beyond, there will be significant impacts on Army 
Guard readiness with far-reaching implications for overseas missions 
and no-notice emergencies here at home. Our readiness to conduct 
wartime missions enables the ARNG to execute domestic operations with 
skill and efficiency. The ARNG will always respond domestically, but 
due to lower levels of readiness in equipment, personnel and training, 
and a greater dispersion of the force across 2,600 communities across 
the nation, the response may be slowed.
    In the near term especially the Chief of Staff of the Army has 
previously stated that readiness levels will drop to ``unacceptable 
risk'' under the BCA. BCA-level funding will require significant 
additional cuts to force structure and end strength. The ARNG has been 
instructed to plan to cut its force structure to 315,000. These funding 
restrictions will impose reductions to facilities and full-time manning 
across the nation. The Guard will also have to rebalance forces among 
the states to maintain essential capabilities for governors' domestic 
missions, a requirement which will produce further turbulence beyond 
just the troops whose units are eliminated.
    Future impacts of BCA can be foreseen from the impacts we saw 
during fiscal year 2013. When BCA-mandated funding levels return in FY 
16, the Army will again suspend Guard training and other operational 
employments, leading to a loss of leader development opportunities. 
Military Technicians may again be furloughed. OPTEMPO funding will 
drop; CTC rotations will likely be cancelled. We can also expect an 
impact on equipping, as any reduction in procurement by the Army will 
be felt in the ARNG as well. BCA may also impact Depot-level overhaul 
of equipment, limiting the availability of thousands of items of 
equipment and creating a maintenance backlog which will take time and 
money to address in the future.
    Question. Though nothing substitutes for live training, can 
simulators assist maintaining readiness levels? How do they reduce the 
costs of live-fire training?
    Answer. The Army National Guard (ARNG) continues to develop its 
ability to integrate live, virtual, constructive and gaming training 
aids, devices, simulations and simulators (TADSS) programs with the 
ARNG Training Strategy. Simulators assist the ARNG in meeting 
established aim points of our training strategy. TADSS play an 
essential role in collective training exercises on our installations. 
They support our role as an operational reserve and in meeting our goal 
of providing units at the appropriate level of readiness in their 
available year. Just as critical, TADSS also support our individual 
Soldier training at home station, local training areas, and 
institutions. The ARNG synchronizes the use of TADSS with Army Force 
Generation (ARFORGEN) to improve unit training proficiency and ensure 
combatant commanders receive trained units and proficient battle staffs 
in the time available.
    As an example, the ARNG achieves the training requirements of M1A1 
Abrams and M2A2 Bradley equipped Brigade Combat Teams (BCT's) by using 
the Conduct of Fire Trainer-Situation Awareness (COFT-SA) and the 
Mobile-Conduct of Fire Trainer Situation Awareness (M-COFT-SA). The 
ARNG's geographical dispersion of units led to the development of the 
M-COFT-SA trainer as a mobile solution to meet training requirements.
    The savings in utilizing these simulations is significant. The 
estimated cost to operate an actual tank is $75 per mile. The estimated 
cost to operate a Tank Driver Trainer simulator is $2.50 per mile. 
According to the National Training and Simulations Association study 
the Army saved $2.5M training 2,200 Armor Soldiers. That is a savings 
of $1,136 per Soldier which equates to about 15 hours of training per 
tanker. Further, in tank gunnery, the introduction of the Conduct of 
Fire Trainer reduced the annual expenditure of ammunition from 134 to 
100 rounds per tank while improving marksmanship. This resulted in an 
annual cost avoidance of approximately $29M. A range of other studies 
show that simulators are cost-effective for training and are a good 
investment. The cost of their procurement can be amortized in periods 
of one to four years.
    Question. What kinds of simulation training does the Guard have? 
What additional type of training could help maintain and sustain 
readiness?
    Answer. The Army National Guard (ARNG) uses virtual, constructive 
and gaming simulations to train everything from the individual Soldier 
tasks (such as weapons proficiency training, including day and night 
fire) to collective unit tasks (such as command post exercises or 
convoy trainers). The ARNG has a variety of simulations training that 
we use to enhance unit readiness. An increased fielding of Training 
Devices, Simulations and Simulators (TADSS) at home-station or company 
level will increase proficiency and sustain unit readiness by reducing 
travel time and increasing training time.
    Question: The Army has several simulation programs of record, 
including CCTT. Since this system entered the inventory, the Army has 
spent nearly $2.3B fielding it. How many of these simulators does the 
National Guard have in its inventory?
    Answer: The Army National Guard (ARNG) variant of the Close Combat 
Tactical Trainer (CCTT) is the Mobile CCTT. The ARNG has 12 M-CCTT sets 
consisting of six Bradley Fighting Vehicles and six Abrams tank 
configurations. One of the key challenges of funding the program is 
concurrency, which is the ability to upgrade simulators to match the 
specific capabilities of ARNG equipment. Funding is currently 
insufficient to maintain 100 percent concurrency across the ARNG and 
therefore program managers are required to prioritize sites for 
resourcing.
    Question. Knowing that Guard forces have a unique environment--high 
geographic dispersion and a fraction of the annual training days--Is it 
more cost-effective for you to buy Army POR or COTS systems? How does 
the training experience compare?
    Answer. The Army Program of Record (POR) offers a cost-effective 
solution through the use of the Joint Capabilities Integration and 
Development System (JCID) process. Since the entire lifecycle is 
integrated into the POR it can require a longer fielding time from 
initial development. The Commercial Off-The-Shelf (COTS) system 
provides a rapid-fielding capability. However, a COTS may require 
higher costs to sustain, elevates the risk of lack of interoperability 
with existing systems, and may increase total lifecycle management 
costs. Both procurement options offer the same training experience if 
the training requirement is identical, but COTS is usually reserved for 
a short term strategy to bridge to a program of record.

    [Clerk's note.--End of questions submitted by Mr. Cole. 
Questions submitted by Mr. Aderholt and the answers thereto 
follows:]

                        Operational Requirements

    Question. We are fortunate in the US to have a military structure 
that allows us to maintain an active duty force along with a National 
Guard provided by the states and territories. One aspect of the 
National Guard structure is that we are able to have operational 
capabilities without the burden of active duty pay and benefits during 
a time of constrained budgets. There seems to be a point where we could 
negatively take advantage of the Guard by placing too many operational 
requirements on the Guard without providing the proper compensation.
    How do we strike the right balance between the military 
capabilities needed to achieve an active, ready status while also 
properly utilizing the Guard?
    Answer. In my conversations with Soldiers, Airmen and senior 
leaders across the National Guard, I have consistently been told that 
they are eager to continue to be employed in service to their country 
and to their states. More than 80% of the Army National Guardsmen in 
the force today have joined since 9/11. They joined with the 
expectation of active employment, and as the conflicts in Iraq and 
Afghanistan conclude, they continue to expect that they will receive 
opportunities to deploy, conduct exercises with our allies and our 
sister services, build partnerships with foreign nations, and challenge 
themselves and their units at the Army's premier combat training 
centers. Recruiting and retention in the force have been excellent, and 
we have no indication that our Soldiers feel that they are being taken 
advantage of by having operational requirements placed upon the Guard. 
Rather, they seek to continue to be employed.
    A proper balance of active and reserve capabilities will ensure 
that the Army National Guard remains operational through sustained 
manning, equipping and training, and is provided adequate resources to 
achieve the required training levels. This balance also provides 
operational and training opportunities for leader development, such as 
for the peacekeeping missions in the Sinai and Kosovo, to the Horn of 
Africa or as part of the air defenses of our national capital, to joint 
and multinational exercises or as rotations to Combat Training Centers.
    For our contingency missions, the Air Force strikes the appropriate 
balance between active, ready military capabilities and the proper 
utilization of the Air National Guard through our already in place 1:5 
rotational structure and unit mobilization procedures. As a service, we 
are moving more towards unit mobilization as this ensures the proper 
compensation takes place. Involuntary mobilization also triggers our 
deploy-to-dwell tracking program, ensuring units and individuals do not 
arbitrarily exceed the 1:5 rotational construct we have put in place. 
The 187 FW in Montgomery, AL provides a great example of utilizing the 
involuntary mobilization construct in order to provide the proper 
compensation to the Air National Guard when filling critical Air Force 
operational requirements.
    As we continue to explore the idea of placing more operational 
capability in the Reserve Component, we should explore the barriers 
which limit the daily use of Air National Guard personnel and 
equipment. These barriers currently force the Air Force to operate 
within a paradigm that requires the use of full-time active duty 
manpower to cover missions and capabilities that could be accomplished 
more efficiently with a proper mix of full and part-time Airmen from 
the Air National Guard.
    The ANG state mobilization construct also creates efficiencies with 
our dual-use personnel and equipment making them available to Governors 
and other Civil Authorities when not already tasked to federal 
missions.
    Moving force structure and manpower from the active component to 
the reserve component provides an opportunity to meet demand with more 
capacity due to the cost effective nature of the reserve component. 
Combat forces within the Air National Guard are as ready and capable as 
its active duty counterparts, but at a fraction of the cost. As an 
example, a recent OSD CAPE report to Congress identified that an active 
component F16 unit costs $81.9M per year as compared to an ANG F16 unit 
at $56M per year.

                            Civil Air Patrol

    Question. The President's FY15 budget request for the Civil Air 
Patrol is well below the levels enacted in the FY14 omnibus. How do the 
potential large cuts in the aircraft procurement account affect CAP's 
future ability to perform key functions, such as disaster relief or 
counterdrug and homeland security missions?
    Answer. The differences between the fiscal year 2014 omnibus and 
the fiscal year 2015 President's Budget request are the result of a 
congressional mark for Civil Air Patrol (CAP) in fiscal year 2014. The 
Air Force's portion of the fiscal year 2015 President's Budget request 
was the baseline extension from fiscal year 2014 with no reduction in 
the programmed request. The fiscal year 2014 markup enabled CAP to 
purchase additional aircraft, supplementing their procurement for that 
year, and placing newer aircraft in the fleet. The Air Force position 
is that in this fiscally constrained environment, the fiscal year 2015 
President's Budget request sufficiently supports CAP's future ability 
to perform key functions, including disaster relief, counterdrug, and 
homeland security missions.
    The fiscal year 2014 National Defense Authorization Act requires 
the Secretary of the Air Force, in coordination with CAP, to produce a 
report on the optimum size, scope, and utilization of the CAP aircraft 
fleet. Our agencies are currently engaged, in concert with our 
stakeholders, on defining these requirements, which will further inform 
our interagency strategy for future use of the CAP. The Air Force 
understands and appreciates the value of our volunteer auxiliary, and 
we will continue to work as partners in meeting the requirements of 
federal, state and local officials for disaster relief, counterdrug, 
and homeland security support.
    Question. The Civil Air Patrol provides aircraft with high-tech 
sensors, which greatly reduce the per flight hour costs. To what degree 
do these savings, combined with utilizing CAP volunteers and other 
assets, result in significant savings to the government? Are there any 
disadvantages to utilizing these assets even more as compared to 
government aircraft?
    Answer. We know that utilizing the Civil Air Patrol (CAP) in its 
official Air Force Auxiliary capacity is fiscally responsible at a cost 
of approximately $200 per flying hour. Civil Air Patrol's status as a 
volunteer organization provides additional manpower savings to the 
government. The Air Force is currently drafting a report required by 
the fiscal year 2014 National Defense Authorization Act to evaluate the 
degree of potential savings that could be realized with an optimum 
size, scope, and utilization of the CAP aircraft fleet. As the official 
Air Force Auxiliary, we believe there is no disadvantage to utilizing 
CAP's personnel and equipment for appropriate missions (e.g., disaster 
relief, search and rescue, etc.), to support civil authorities when 
CAP's capabilities are an appropriate substitute for military assets.

    [Clerk's note.--End of questions submitted by Mr. Aderholt. 
Questions submitted by Mr. Carter and the answers thereto 
follows:]

                                 TACPOD

    Question. Discussion: In fiscal year 2011, Congress 
reprogrammed approximately $168MM to fund the Beyond Line of 
Sight Command and Control (BLOS C2) initiative for a DoD 
mission that was a Quick Reaction Capability (QRC) and Joint 
Emerging Operational Need (JEON). A portion of that BLOS C2 
effort was TACPOD. TACPOD is an agile communications bridge in 
the sky designed to fly on MQ-9 Reapers and is designed to meet 
the need to optimize the real-time distribution of Full Motion 
Video (FMV) with a specific war-fighter requirement in mind. 
TACPOD meets that warfighter need by bridging video beyond line 
of sight from operators on the ground to decision makers 
hundreds of miles away and back again. TACPOD successfully 
completed full testing to a TRL Level 8 in July 2013, and was 
due to deploy to theater, but a lack of MQ-9 assets has 
prevented TACPOD from deploying despite in-theater requests for 
the capabilities. The U.S. Air Force funded and tested TACPOD, 
but with no assets available to fly the pods, the TACPODs are 
in storage at Hanscom AFB in Massachusetts. Both the 147th 
Reconnaissance Wing in Houston, TX and the 174th Attack Wing in 
Syracuse, NY are flying, or soon will fly, MQ-9 Reaper UAVs. 
Integrating TACPOD on to their MQ-9s will allow them to meet 
their demanding BLOS C2 requirements.
    Given that TACPOD meets both the need for BLOS C2 and 
extended range requirements both in overseas and domestic 
operations; how do you plan to implement TACPOD in your MQ-9 
operations?
    Answer. Air National Guard (ANG) MQ-9 Reapers have a robust 
BLOS C2 capability in their current configuration.
    If the Air Force develops a Concept of Operations (CONOPs) 
for employment, the ANG will work to operationalize this 
capability. Until such time, the ANG has no plans to implement 
TACPOD in our MQ-9 operations.
    Question. Do you plan on including TACPODS on your NGREA 
list and putting them to use in FY15?
    Answer. The Air National Guard (ANG) spends National Guard 
and Reserve Account (NGREA) funds on validated Air Force and 
Combatant Commander requirements vetted through a forum of 
Reserve Component and Active Duty warfighters at our annual 
Weapons and Tactics conference. If our MQ-9 warfighters 
determine the TACPOD is critical to mission accomplishment in 
the upcoming 2014 WEPTAC in October, and it meets validated 
requirements, then TACPOD would be considered for FY15 NGREA if 
Congress appropriates NGREA.

    [Clerk's note.--End of questions submitted by Mr. Carter. 
Question submitted by Mr. Frelinghuysen and the answers thereto 
follow:]

                         Authority of the Chief

    Question. The Chief of the National Guard Bureau is nominated for 
appointment by the President, this officer has met the requirements as 
determined by defense secretary and the chairman of the Joint Chiefs of 
Staff, under the advice and/or recommendation from their respective 
state governors and their service secretary. The nominee is confirmed 
by a majority vote of the Senate, and is appointed a member of the 
Joint Chiefs of Staff.
    Currently, the Chief of Staff of the Army recommends the nominee to 
be the Director of the Army National Guard. The Chief of Staff of the 
Air Force recommends the nominee to be the Director of the Air Guard. 
General Grass, if you and the Chiefs of Staff of the Army and the Air 
Force hold equal positions on the Joint Chiefs, then why do you not 
make the nominee recommendation for the Director positions? Are there 
other inequities that you, as a new member of the Joint Chiefs do not 
equally share?
    Answer. Under current law, the Secretaries of the Army and Air 
Force select the Directors and Deputy Directors of the Army and Air 
National Guard respectively.
    The National Guard Bureau has been working closely with the 
Department of Defense to ensure the position of the Chief of the 
National Guard Bureau is afforded equal treatment in all aspects with 
members of the Joint Chiefs of Staff.

                         U.S. Northern Command

    Question. United States Northern Command (USNORTHCOM) is a Unified 
Combatant Command of the U.S. military tasked with providing military 
support for civil authorities in the U.S., and protecting the territory 
and national interests of the United States within the contiguous 
United States, Alaska, Canada, Mexico. USNORTHCOM was created following 
the September 11 attacks. In case of national emergency, natural or 
man-made, NORTHCOM's Emergency Preparedness Directorate will take 
charge of the situation or event.
    General Grass, given your previous position as the Deputy Commander 
of U.S. Northern Command, you are uniquely qualified to address this 
commands role. Aren't the functions previously mentioned tasks that the 
Guard does on a daily basis?
    Answer. NORAD and USNORTHCOM have two primary missions--Homeland 
Defense and Defense Support of Civil Authorities. Homeland Defense 
missions such as Air Combat Alert, and Missile Defense are best planned 
and executed by NORAD and USNORTHCOM under presidential control. To my 
knowledge there is no Emergency Preparedness Directorate at USNORTHCOM.
    The National Guard is primarily a part-time workforce under 
Governor control. Long-standing relationships with civic leaders 
throughout 3,000 communities nationwide enable the National Guard to 
quickly respond to domestic emergencies in support of civil 
authorities. The vast majority of the National Guard's domestic 
response is done in state status and that makes the National Guard the 
military first responder for the nation--which is a little different 
than NORTHCOM's focus.
    Question. Whether the functions are identical to the Guard's 
homeland mission or not, would it not be beneficial for a Guard general 
officer to be nominated for the Commander position at USNORTHCOM?
    Answer. The USNORTHCOM Commander should be the best qualified 
individual general officer based on experience, leadership and 
judgment. 10 U.S.C. 164(e)(4) requires ``at least one deputy commander 
of the combatant command the geographic area of responsibility of which 
includes the United States shall be a qualified officer of the National 
Guard who is eligible for promotion to the grade of 0-9, unless a 
National Guard officer is serving as commander of that combatant 
command.'' This provision ensures that, at a minimum, the Deputy 
Commander of USNORTHCOM will have extensive experience serving in the 
National Guard, providing the possibility of a National Guard general 
officer to serve as the Combatant Commander.
    An Army or Air National Guard nominee for the command of USNORTHCOM 
would possess a deep understanding of the interaction of federal, 
state, local and non-governmental agencies during a range of emergency 
responses, an understanding forged over a career of working under both 
federal and state command. Most senior Guard officers are veterans of 
multiple state call ups, and those who have served as adjutants general 
have served as cabinet-level officials in their states, many 
responsible for managing emergency services. These experiences would 
give a Guard general officer serving as the USNORTHCOM commander 
valuable understanding and credibility when dealing with the Governors 
with whom he or she must regularly work.
    The bulk of forces which USNORTHCOM works with on a daily basis, as 
well as those forces designated for USNORTHCOM alignment in major 
contingencies, are drawn from the Army and Air National Guard. Together 
the Army and Air Guard make up more than 50% of the reserve structure 
in the Department of Defense. While exceptionally capable officers, 
none of the commanders assigned to USNORTHCOM since its inception in 
2002 have spent a significant portion of their career working with 
National Guard forces or responded to a domestic emergency as part of a 
state force.
    Finally, assignment of a National Guard officer to this position 
would be a further indication of the Department of Defense's commitment 
to the Total Force policy, demonstrating that even the most senior 
levels of command are open to officers regardless of component.

                Commission on the Structure of the Army

    Question. Mr. Wilson of South Carolina, Mr. Cole (of this 
Subcommittee) and others introduced a bill which was referred to the 
Committee on Armed Services to establish a commission on the Structure 
of the Army. This bill limits funding available to the Army in fiscal 
year 2015 that would be used to divest, retire, or transfer any 
aircraft or personnel (at levels below 350,000) assigned to the Army 
National Guard. The Commission, appointed by the President, and the 
Committees on Armed Services ``shall undertake a comprehensive study of 
the structure of the Army to determine the proper force mixture of the 
active component and reserve component, and how the structure should be 
modified to best fulfill current and anticipated mission requirements 
for the Army in a manner consistent with available resources and 
estimated future resources.'' The Commission is to submit its report by 
February 2016.
    General Grass, what is your opinion on the results of the 
previously commissioned Structure of the Air Force Commission and do 
you believe that this was a worthwhile endeavor?
    Answer. The Commission on the Structure of the Air Force has been 
an unqualified success in providing an external evaluation and 
perspective on the mix of active and reserve forces in the US Air 
Force. It has provided a valuable roadmap forward for how the Air Force 
should approach future force structure decisions.
    We believe there is a great deal of symmetry between many of the 
recommendations from the Commission on the Structure of the Air Force 
and what our Air Force proposes for its way ahead. We are currently 
working with the Air Force and the Air Force Reserve through the Total 
Force Continuum Office to look at implementation strategies for the 
NCSAF's recommendations. The efforts of the National Commission on the 
Structure of the Air Force were tremendous and provide a solid 
foundation for helping the Total Air Force grow together and become 
more efficient and effective in the future.
    Question. The Committee understands that funding constraints will 
mean that the Army will have to make significant changes to the end 
strength and force structure across all three of its components. As 
we've seen in the press, and have been briefed, there are varied 
opinions about what those changes should ultimately entail. Most likely 
you are taking all of this feedback into account as you ponder the 
various options before you. However, I would specifically like to know 
what you are hearing from the nation's governors, who serve as the 
commanders-in-chief of the National Guards of their states and 
territories on a day-to-day basis. What are Governors telling you, and 
how is their input effecting the decisions you are making about the 
future of the Army and the Army Guard?
    Answer. The concerns of the nation's governors, as they have been 
related to me personally and through the adjutants general, are 
consistent with those expressed in the February 28, 2014, letter from 
the National Governors Association to President Obama. The governors 
recognize the need to reduce spending to meet budget obligations. 
Governors are concerned, however, by the current proposed cuts to Army 
Guard personnel and air combat capability. The governors have stated 
that they want to see the operational capability of the Army National 
Guard preserved, and expressed a desire to maintain the Army National 
Guard at its pre-war end strength of 350,000--a level it is programmed 
to reach at the end of fiscal year 2015. The governors also endorsed 
the results of the recently concluded National Commission on the 
Structure of the Air Force and advocated for a similar review of the 
Army's force structure and active/reserve mix.
    Question. Generals, the Air Force has really endorsed much of the 
findings of the Commission on the Air Force, especially the plan to 
shift more capabilities and missions into the National Guard. Wouldn't 
a similar Commission benefit the Army as we begin to restructure the 
size of the Army?
    Answer. If directed, we should not fear a critical examination of 
our enterprise. Any Commission though should be prepared for a review 
of the Total Army--not just one single component. We should look for 
opportunities to review not just force structure and end strength, but 
other significant issues such as mobilization processes as part of the 
Army's Total Force Policy. We should be forward looking and incorporate 
new global security threats as well as emerging vulnerabilities in the 
homeland. The Budget Control Act (BCA) is still the law and we must 
anticipate executing our missions within BCA funding levels. Therefore, 
we should be prepared to answer any questions related to whether these 
reductions contribute to; the erosion of combat capabilities; the 
degradation of skill qualification; an increase in strategic risk to 
our ability to execute Operational Plans; an acceleration in equipment 
degradation; or, further degradation of an already aging 
infrastructure.
    From an Air Guard perspective, we believe our Air Force is going to 
rely more, not less, on our National Guard and Reserves. This makes 
sense from not only a mission standpoint, but from an economic 
standpoint. We believe there is a great deal of symmetry between many 
of the recommendations from the Commission on the Structure of the Air 
Force and what our Air Force proposes for its way ahead.
    The Air Force is actively reviewing the 42 recommendations and the 
Air Force's Total Force Continuum staff is already working to implement 
19 of them. Staffing action plans are being developed for the remaining 
recommendations.
    While the issues facing the Army and the Air Force differ to a 
degree, the Air Force commission demonstrated the value of an outside 
look at how a military service evaluates its strategy and force 
structure to balance its components. To be of true value, any proposed 
commission on the structure of the Army should, like the Air Force 
commission, be a holistic review of all three components. In addition, 
it should review the Total Army's ability to execute its requirements 
under Budget Control Act funding levels.
    Question. Generals, the Air Force has really endorsed much of the 
findings of the Commission on the Air Force, especially the plan to 
shift more capabilities and missions into the National Guard. Wouldn't 
a similar Commission benefit the Army as we begin to restructure the 
size of the Army?
    Answer. The Army Reserve believes that a Commission like the one 
used for the Air Force is unnecessary.
    The Army has already carefully weighed force mix decisions, 
including all three components of the Total Army. The Army has 
presented a plan which includes input from the Combatant Commanders and 
the Joint Staff, and has been reviewed by the Secretary of the Army and 
Secretary of Defense. I have collaborated with Army Staff and our 
position regarding force mix decisions is consistent. The Army Reserve 
has been a full partner in the analysis of strategic requirements and 
the development of budgets that balance the contributions of all 
components. While the Air Force required a special commission to 
identify what is best for that service and its components, a similar 
commission for the Army is costly, unwarranted and unnecessary. The 
Army has arrived at conclusions based on careful analysis that provides 
the best security and value to the nation.

                     HMMWV Modernization Initiative

    Question. This Committee strongly supports the National Guard and 
relies on the expertise of our Adjutants General to help understand 
their needs and challenges in meeting their mission. The Committee has 
sought to provide units returning from Iraq and Afghanistan with the 
proper equipment for training and responding to domestic emergencies. 
One example of this effort is the HMMWV Modernization Initiative funded 
by the Committee in both fiscal years 2013 and 2014. I want to commend 
you and the Army for establishing an innovative public-private 
partnership between industry and Red River Army Depot that will result 
in state-of-the-art vehicles for Guard units across the country. These 
like-new HIMIMWVs will produce significant enhancements in vehicle 
capability at the lowest possible cost, while utilizing the expertise 
of our partners in the defense industrial base. As this program has 
taken shape, it is my understanding that the Bureau has identified an 
even wider array of older HIVIMWVs that require modernization through 
this process in order to fill near and longer term capability gaps in 
Guard units.
    Generals Grass and Lyons, given that the HIVIMWV will remain an 
integral part of your vehicle fleet until at least 2030, can you talk 
about how this program will help achieve greater levels of readiness 
and mission success both here at home and in future contingencies 
overseas?
    Answer. Once approved, the Public Private Partnership (PPP) for 
High Mobility Multipurpose Wheeled Vehicles (HMMWV) modernization will 
take approximately 900 of the Army National Guard's (ARNG) armored 
HMIMWVs and update them to incorporate the newest modification 
improvements. The program also replaces HMIMWV chassis, reestablishing 
them as new vehicles, and extending their life. In effect, it takes a 
portion of the ARNGs I-IMMWVs and increases capabilities. This has the 
effect of improving the readiness of this segment of the HMMWV fleet 
for both domestic and overseas missions.
    The ARNG is working closely with the Army to further modernize the 
fleet and address the most urgent capability gaps.

                     Review of Reserve Mobilization

    Question. Gen. Martin E. Dempsey, the chairman of the Joint Chiefs 
of Staff, has suggested the military review the ability of the reserve 
component to mobilize quickly when needed. His comments are linked to 
the possibility that active-component Army forces fall to 420,000 as a 
cost-saving measure. His comments note that ``U.S. military response to 
aggression most often begins in the air or maritime domains,'' but 
usually concludes with a commitment of land forces. ``Therefore, our 
QDR land forces will need to be even better organized, trained and 
equipped for the full spectrum of 21st century challenges,'' he wrote. 
``Moreover, since time is a defining factor in the commitment of land 
forces, I strongly recommend a comprehensive review of the nation's 
ability to mobilize its existing reserves as well as its preparedness 
for the potential of national mobilization.'' One could interpret 
Dempsey's comments as saying, ``a way must be found to access and train 
the National Guard and Reserve more quickly than in the past.''
    Generals, These comments would suggest that the National Guard 
cannot perform at the same level as the Active Component and won't be 
able to counter complex threats without a period of preparation prior 
to deployment. In 2005 the National Guard made up about 43 percent of 
the forces in Iraq and 55 percent in Afghanistan--and more than 50,000 
Guardsmen responded to Hurricane Katrina. Could you please give me your 
thoughts on those statements.
    Answer. More than a decade of conflict in Iraq and Afghanistan has 
amply demonstrated the National Guard's ability to perform every 
mission it was given. We are not aware of any metric maintained within 
the Department of Defense that demonstrates Army National Guard units 
performed at a lower level than units of the other Army components. In 
fact, one of the most frequent comments made about our units and 
Soldiers was that, once in the field, they were indistinguishable from 
their active component and Army Reserve counterparts. We firmly believe 
that this is true, and that it demonstrates the profound success of the 
Total Army concept that the United States Army has worked hard to 
achieve for decades.
    Army National Guard units do require some period of preparation 
prior to deployment, due to lower readiness expectations which compound 
their cost effectiveness when not mobilized. The length of pre-
deployment preparation varies depending on pre-mobilization readiness, 
the type of unit and its mission. Once validated, Guard units deploy at 
the same level of readiness as their active component counterparts. The 
Army has significantly reduced post-mobilization training time for its 
reserve component units as additional investments were made in pre-
deployment readiness and post-mobilization training has been 
streamlined. As a result, the number of post-mobilization training days 
declined by 60 percent between fiscal years 2006-2012, and all but the 
largest units assigned the most tactically difficult missions averaged 
less than 45 days of post-mobilization training prior to deployment. 
The Army National Guard will be as ready as it is resourced.
    Due to the Army and Air Guard's dispersion across more than 3,000 
communities, our experience working with local emergency responders and 
the accessibility of the Guard by the governors for employment as a 
state asset, the Army National Guard remains the military force of 
choice for domestic response. Through Emergency Management Assistance 
Compacts, governors can call on additional assets from neighboring 
states to respond to complex catastrophes at home. The Army Guard can 
do this even in the midst of a war because of the depth of domestic 
response capability and capacity resident in its units. As your 
question indicates, at no time was this capacity more evident than in 
September 2005 when some 50,000 Army Guardsmen deployed to Gulf Coast 
states in the space of a week, even though another 80,000 were deployed 
overseas.
    The Air National Guard is trained, equipped and resourced to the 
same level of readiness as the Active Component. We are an essential 
partner in the daily operations of the Total Air Force in all five core 
missions: air & space superiority; intelligence, surveillance, & 
reconnaissance; rapid global mobility; global strike, and command & 
control. Last year, over 39,895 Air National Guard men and women 
deployed to 48 countries as part of the Total Air Force defense of U.S. 
national security interests. Additionally, Guard Airmen defended the 
skies over our homeland and supported their deployed brethren through 
U.S.-based ``reach-back'' capabilities including remotely piloted 
aircraft operations and intelligence analysis.
    Question. Gen. Martin E. Dempsey, the chairman of the Joint Chiefs 
of Staff, has suggested the military review the ability of the reserve 
component to mobilize quickly when needed. His comments are linked to 
the possibility that active-component Army forces fall to 420,000 as a 
cost-saving measure. His comments note that ``U.S. military response to 
aggression most often begins in the air or maritime domains,'' but 
usually concludes with a commitment of land forces. ``Therefore, our 
QDR land forces will need to be even better organized, trained and 
equipped for the frill spectrum of 21st century challenges,'' he wrote. 
``Moreover, since time is a defining factor in the commitment of land 
forces, I strongly recommend a comprehensive review of the nation's 
ability to mobilize its existing reserves as well as its preparedness 
for the potential of national mobilization.'' One could interpret 
Dempsey's comments as saying, ``a way must be found to access and train 
the National Guard and Reserve more quickly than in the past.''
    Generals, These comments would suggest that the National Guard 
cannot perform at the same level as the Active Component and won't be 
able to counter complex threats without a period of preparation prior 
to deployment. In 2005 the National Guard made up about 43 percent of 
the forces in Iraq and 55 percent in Afghanistan--and more than 50,000 
Guardsmen responded to Hurricane Katrina. Could you please give me your 
thoughts on those statements.
    Answer. As the Chief of the Army Reserve, I cannot speak for the 
ARNG but would only say that we are both a critical and vital component 
of the nation's overall defense strategy.
    As for the Army Reserves ability to respond--GEN Dempsey's comments 
are spot on. The ability of America's Armed forces, Active Guard and 
Reserve to respond to a domestic or global crisis is crucial to the 
nation's credibility as a global power. To ensure that the Army Reserve 
will always be relevant and ready, almost 10 years ago we embarked on a 
strategy that sought to bring Army Reserve Forces to a higher state of 
readiness prior to mobilization. This strategy working in coordination 
with the Army's Force Generation (ARFORGEN) process now enables us 
bring a significant portion of our force to a higher state of readiness 
for a one year rotational period thus allowing the Army Reserve to 
respond globally more rapidly than ever before.
    <bullet> During the past decade the Army Reserve has reduced post-
mobilization training time by 40%. As a result units have been 
deploying much more rapidly. Fewer days at mobilization stations means 
less days of mobilization and reduced expenditures for the Nation.
    <bullet> Army Reserve units now spend, on average, 41 days at 
mobilization stations conducting post-mobilization training before 
deployment. While some of our units spend as few as 7 days at 
mobilization stations performing post-mobilization training before 
deployment, others spend up to 62 days at mobilization stations 
performing post-mobilization training before deployment. Training is 
tailored based on theater requirements.
    The Bottom-Line is--now more than ever we can and do ready and 
deploy Army Reserve Forces more rapidly than ever before in the history 
of our force.
    Question. Generals could you please explain the federal role of the 
Reserve Components. Would you say that the Army is trying to change the 
fundamental structure of the Reserve Components by beginning to bring 
combat arms out of the reserves and into the active component?
    Answer. The federal role for the Reserve Components is articulated 
in two places in the US Code. Title 10, US Code, Section 10102, states 
the purpose of Reserve Components is ``. . . to provide trained units 
and qualified persons available for active duty in the armed forces, in 
time of war or national emergency, and at such other times as the 
national security may require, to fill the needs of the armed forces 
whenever more units and persons are needed than are in the regular 
components.'' Congress further defined the purpose of the National 
Guard in Title 32, US Code, Section 102: General Policy: ``In 
accordance with the traditional military policy of the United States, 
it is essential that the strength and organization of the Army National 
Guard and the Air National Guard as an integral part of the first line 
defenses of the United States be maintained and assured at all times.''
    While modern combat has blurred the concept of ``front'' versus 
``rear'' area troops, the traditional conception of the battlefield 
Congress evoked viewed the first line defenses as those which are 
directly engaged in combat. The Army National Guard proudly embraces 
its long history of combat service from colonial times through the most 
recent conflicts in Iraq and Afghanistan. Our troops have always been 
in the first line defenses of this nation, and shall remain SO.
    The Army has stated that the rationale behind the Aviation 
Restructure Initiative is to meet the modernization needs for the Armed 
Reconnaissance Helicopter. Additional reasons include higher 
availability of active component forces for short notice missions.
    Question. Generals could you please explain the federal role of the 
Reserve Components. Would you say that the Army is trying to change the 
fundamental structure of the Reserve Components by beginning to bring 
combat arms out of the reserves and into the active component?
    Answer. Title 10, US Code: the purpose of each reserve component is 
to provide trained units and qualified persons available for active 
duty in the armed forces, in time of war or national emergency, and at 
such other times as the national security may require, to fill the 
needs of the armed forces whenever, during and after the period needed 
to procure and train additional units and qualified persons to achieve 
the planned mobilization, more units and persons are needed than are in 
the regular components.
    The federal role of the Army Reserve is to provide trained, 
equipped, ready and accessible Soldiers, leaders, and units to the Army 
in support of Unified Land Operations, Combatant Commands, and the 
Nation. Further the Army Reserve provides unique capabilities to the 
Army and the Joint Force not present in the National Guard or Active 
Component.
    I cannot speak to what force structure changes the ARNG and the 
larger Army are jointly contemplating nor can I say that the Army is 
trying to change the fundamental structure of the Reserve Components 
regarding combat arms. We have only a very small contingent of combat 
arms. We have one light infantry battalion stationed in the pacific and 
we are fully cooperating with the Army's plan to convert our 2 Attack 
Helicopters to Assault Helicopter battalions. We are not divesting our 
one infantry/combat arms battalion and the Army's Aviation Restructure 
Initiative is in fact helping complement the Army Reserves core 
competencies of combat support and combat service support.
    I will say we are proud to be a part of the total force and would 
point out our role in providing a significant portion of the Army's CS 
and CSS forces.

------------------------------------------------------------------------
   Support & sustainment capabilities      USAR %     ARNG %      AC %
------------------------------------------------------------------------
JAG....................................         94          6          0
Chaplain...............................         80         20          0
Civil Affairs..........................         77          0         23
Military History.......................         75         22          3
Quartermaster..........................         66         16         18
Mil Info Spt Ops.......................         61          0         39
Postal & Personnel.....................         61          0         39
Medical................................         59         16         25
Information Ops........................         48         43          9
Chemical...............................         43         35         22
Transportation.........................         43         39         18
Public Affairs.........................         41         45         14
Engineers..............................         30         47         23
Military Intelligence..................         26         20         54
Military Police........................         24         45         31
------------------------------------------------------------------------

    We are also proud to be the nation's most economical force. We 
Provide 19% of the Army Force for 6% of the Army budget.
    The Bottom-Line for the Army Reserve is that we are proud of our 
role in providing critical and key enablers to the total force and we 
continue to thrive in our role as the major provider of unique 
capabilities for the Total Army and Joint Forces.

                Proportionate Cuts Versus Strategic Cuts

    Question. The Department of Defense is making hard decisions about 
programs and cuts throughout DOD, however the Committee is concerned 
that these decisions are often being made based on fairness and 
proportionality rather than strategy and cost.
    Generals, would you address whether the services can retain more 
capability in the reserve components than in the active component at a 
lesser cost?
    Answer. Numerous studies both internal and external to the 
Department of Defense have consistently found that reserve component 
forces provide both military capability and capacity for the nation at 
a substantial savings. In its December 2013 report to Congress, ``Unit 
Cost and Readiness for the Active and Reserve Components,'' the Office 
of the Secretary of Defense established that an Army National Guard 
Brigade Combat Team costs about 24% of an active component BCT when in 
dwell (that is, when not mobilized). The same OSD report establishes 
that, even when mobilized to full-time active duty for a year, a 
reserve component service member costs 85-90% of his or her active 
component counterpart, due to differences in benefit availability and 
utilization as well as retirement compensation. The Reserve Forces 
Policy Board calculated the fully burdened cost of a reserve component 
member to be about 31% of an active component member. Further, Combat 
forces within the Air National Guard are as ready and capable as its 
active duty counterparts, but at a fraction of the cost. As an example, 
a recent OSD CAPE report to congress identified that an active 
component F-16 unit costs $81.9M per year as compared to an Air 
National Guard F-16 unit at $56M per year.
    There are differences in capability between reserve component and 
active component units. The most cited is the amount of time it takes 
to bring a reserve component unit to full readiness after mobilization, 
due to lower readiness expectations which compound their cost 
effectiveness when not mobilized. The length of pre-deployment 
preparation varies depending on pre-mobilization readiness, the type of 
unit and its mission. Once validated, Guard units deploy at the same 
level of readiness as their active component counterparts. The Army has 
significantly reduced post-mobilization training time for its reserve 
component units as additional investments were made in pre-deployment 
readiness and post-mobilization training has been streamlined. As a 
result, the number of post-mobilization training days declined by 60 
percent between fiscal years 2006-2012, and all but the largest units 
assigned the most tactically difficult missions averaged less than 45 
days of post-mobilization training prior to deployment.
    Question. Generals, would you address whether the services can 
retain more capability in the reserve components than in the active 
component at a lesser cost?
    Answer. The Army Reserve provides a tremendous value to the nation. 
The recent ``Active and Reserve Component Units of the Armed Forces 
Report to Congress'' highlights specific cost analysis demonstrating 
the value of the Reserve Component to the nation. The Army Reserve 
provides 20 percent of the Army's force structure for only 5.8 percent 
of the Army budget In fact most of the Total Army's support and 
sustainment capabilities, such as our legal support, chaplains, civil 
affairs, logistics, public affairs, and medical expertise are in the 
Army Reserve. We are embedded in every Army Service Component Command 
and Combatant Command. The Army's proposal adequately balances the 
importance of costs, readiness, responsiveness, and requirements while 
providing the most effective and efficient force for the budget 
allocated.
    The ``Active and Reserve Component Units of the Armed Forces Report 
to Congress'' demonstrates the efficiency and cost effectiveness of the 
Army Reserve as an enabling force. Army Reserve personnel costs are 
minimal when the force is not mobilized. The efficient use of the Army 
Reserve yields significant cost savings to the nation while mitigating 
strategic risk.
    Question. Is this capability as reliable as that provided by active 
forces--or is there a mix?
    Answer. Absolutely. In the past dozen years of conflict, the Army 
National Guard (ARNG) has never failed at a mission. These missions 
include the most complex tasks performed by the Army's largest combat 
formations, with the sole exception of the initial invasion of Iraq, 
which was conducted by six active Army maneuver brigades. Since 2003, 
the ARNG has deployed Brigade Combat Teams to Iraq or Afghanistan 47 
times for missions that spanned the full spectrum of operations, from 
host nation training, advising and assisting through security force 
missions to counter-insurgency operations. ARNG Apache attack-
reconnaissance battalions deployed 12 times to Iraq or Afghanistan, 
performing the same demanding missions their active component 
counterparts performed.
    Once pre-deployment training is completed, Army National Guard 
units are validated using the same metrics applied to active component 
units. Numerous senior leaders have told our Guardsmen that their 
performance in the field cannot be distinguished from that of their 
active component counterparts.
    History struggles to show any time where capability was required 
from the Reserve Component and it was not provided in time to meet the 
demand. The readiness of the Air National Guard is unique in the fact 
that the Air National Guard trains to the same state of readiness as 
the Active Component, is inspected to the same standards, and has a 
proven track record of performance on equal with our Active Components 
counterparts.
    In fact, recent history illustrates where the Reserve Component 
responded because the Active Component could not. Operation Odyssey 
Dawn beginning in March of 2011 demonstrated the speed and agility by 
which the Air National Guard answered the Nation's call to help protect 
Libyan civilians from their government regime's violence. Within 48 
hours of a phone call from then AMC Commander, Gen Ray Johns, Brig Gen 
Roy Uptegraff was in-country leading ANG tanker efforts for the 406th 
AEW's mission. The ARC is every bit as reliable and capable as active 
forces.
    Question. Is this capability as reliable as that provided by active 
forces--or is there a mix?
    Answer. The Army Reserve provides complementary capabilities to the 
Active Component, including the majority of combat support and 
sustainment units. Annually, we can provide a sustained rate of 27k 
trained and ready Soldiers. When used in an operational capacity, we 
are as capable as the other components.
    Over the last ten years the Army Reserve has evolved in its 
training and readiness preparation. We are now a fully integrated, 
operational force that supports the Total Army. Our units are 
integrated into many Combatant Command contingency plans and the Army 
Reserve participates in training exercises around the world. Citizen-
Soldiers proudly stand ready to respond with the same professionalism 
and readiness we have learned to expect of our Total Army, regardless 
of component.
    Question. As we look at the threats faced today and may face in the 
future, a strong and vibrant force with more capability and capacity to 
surge makes sense. Can that be done with a large Reserve Component? Can 
you explain the rationale of active and reserve forces balance offered 
in this budget request considering our challenges?
    Answer. An appropriately sized larger Reserve Component can provide 
a stronger and more vibrant force with greater capability and capacity 
to surge in today's fiscally-constrained environment than a more robust 
Active Component force. Throughout the past 13 years of combat, the 
National Guard has demonstrated that can provide the capability needed 
to support our military requirements and is ideally suited to rapidly 
provide the Services with additional capacity when needed. For example, 
in Iraq, Army National Guard brigades took on a heavy share of the 
combat in 2005 while the active Army was in the process of transforming 
its brigades to the new modular Brigade Combat Team structure following 
the first year of war. During the Spring of 2005, the Army National 
Guard provided 8 of 15 combat brigades in Iraq. The immense capacity 
resident in the Army National Guard--which contains 39 percent of the 
Army's deployable units--is a vital national asset, a hedge against an 
uncertain future where active component forces alone are unlikely to 
prove sufficient to conduct a sustained land war. The Air Force, the 
Air National Guard, and the Air Force Reserve are working closely 
through the Total Force Continuum to understand and implement the 
necessary changes that are required to provide the appropriate balance. 
The challenge we face today, is getting us to the right balance of 
active and reserve component force structure without creating undue 
risk to the Total Air Force or our great Nation as a whole.
    Question. As we look at the threats faced today and may face in the 
future, a strong and vibrant force with more capability and capacity to 
surge makes sense. Can that be done with a large Reserve Component? Can 
you explain the rationale of active and reserve forces balance offered 
in this budget request considering our challenges?
    Answer. The current budget request sustains the training and 
readiness of Army Reserve structure, providing the Total Army with the 
unique enabling capacity to meet the defense needs of the nation. 
Throughout Operations Iraqi Freedom and Enduring Freedom the Army 
Reserve has demonstrated its ability to meet to the Army's surge 
requirements. Additionally, the Army Reserve is closely integrated in 
the Total Army Training Validation (TATV) process. Whenever and 
wherever it's needed, the Army Reserve can be relied upon to perform 
its assigned missions effectively and professionally.

    [Clerk's note.--End of questions submitted by Mr. 
Frelinghuysen.]
                                             Friday, April 4, 2014.

                    TESTIMONY OF MEMBERS OF CONGRESS

                               WITNESSES

HON. ANN WAGNER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSOURI
HON. PAUL COOK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. MARTHA ROBY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ALABAMA
HON. DENNY HECK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
HON. BRADLEY BYRNE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ALABAMA
HON. STEVEN PALAZZO, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MISSISSIPPI
HON. REID RIBBLE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WISCONSIN
HON. DAVID JOLLY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. DEVIN NUNES, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    CALIFORNIA
HON. RON BARBER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF ARIZONA
HON. RICHARD HUDSON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NORTH CAROLINA
HON. RON DESANTIS, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA
HON. COLLEEN HANABUSA, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    HAWAII

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. Good morning. The committee will come to 
order.
    This morning, the committee holds an open hearing during 
which Members of the House of Representatives are invited to 
bring their concerns and issues regarding the future posture 
and force structure for the Department of Defense directly to 
our attention.
    My ranking member and I are here today to take testimony 
from our colleagues in an effort to provide maximum Member 
participation as we work to draft the Department of Defense 
appropriations bill for fiscal year 2015.
    At this time, I would like to yield to the ranking member 
for any statement or comments he may wish to make.

                   Opening Statement of Mr. Visclosky

    Mr. Visclosky. I do. Thank you very much, Mr. Chairman.
    One, I very, very much appreciate that you are holding a 
hearing to hear the views of our colleagues. I appreciate that 
very much. I also appreciate the fact that our colleagues have 
taken the time and the trouble to appear today.
    The Appropriations Committee is charged with a very 
important responsibility, and that is to make decisions over 
about $1 trillion worth of funding to operate, as effectively 
and as efficiently, the greatest government on the planet 
Earth.
    Your testimony today will be very helpful to the members of 
this subcommittee, as far as the appropriations of money for 
the Department of Defense, to make those decisions as wisely as 
possible. So I really appreciate the input of the Members.
    And I deeply thank the chairman for taking the time to 
invite our colleagues, to hear their views, as far as the 
budget within our purview.
    Thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. Well, thank you.
    Mr. Frelinghuysen. Our first colleague, Ms. Wagner, from 
Missouri, thank you for being with us, starting us off this 
morning. The floor is yours.

               Summary Statement of Congresswoman Wagner

    Mrs. Wagner. Thank you very much, Mr. Chairman. And I thank 
the ranking member for also taking the time and the courtesy 
today to hear about all these important defense priorities. And 
I would like to talk about one, in particular, for the United 
States Navy, our Nation, which is the EA-18G Growler.
    The 2014 Quadrennial Defense Review notes, and I quote, 
``In the coming years, countries such as China will continue 
seeking to counter U.S. strength using anti-access and area-
denial approaches.''
    Now, full-spectrum airborne electronic attack has been 
identified by the Navy and the Department of Defense as a 
critical and required capability for our forces to effectively 
and successfully operate in these challenging environments. As 
the Chief of Naval Operations, Admiral Jonathan Greenert, has 
stated, control of the electromagnetic spectrum is critical to 
the warfighting mission today and in the future.
    As you know, the Growler is the Nation's only full-spectrum 
airborne electronic attack aircraft. It provides this unique 
capability off of Navy aircraft carriers and provides support 
for Joint Force land bases. It is truly the tip of the spear as 
our forces enter into contested air environments.
    Recognizing that there is a warfighting need, the CNO 
submitted an unfunded priority for 22 additional Growlers for 
congressional consideration of the fiscal year 2015 defense 
appropriations. The stakes are quite high, and the time to act, 
I hope, is now.
    Without additional Growlers to meet the Navy's unfunded 
priority, it is likely that the F-18 manufacturing line will 
shutter. To avoid this very predicament, last year Congress 
added $75 million in advance procurement funds for the F-18 in 
the fiscal year 2014 defense appropriations act, enough for 22 
aircraft.
    Another critical consideration is the Nation's defense 
industrial base for tactical aviation. Today, there are 
multiple providers for tactical aviation, sophisticated 
tactical radars, and Strike Fighter engines. With the end of 
the F/A-18 production, however, DOD will be left with only a 
single manufacturer in each one of these areas.
    This scenario limits warfighting surge capacity, it 
eliminates competition that drives innovation and cost control, 
and imperils future development programs. Moreover, the F-18 
program supports American manufacturing, including 60,000 jobs, 
800 different suppliers and vendors, and provides $3 billion in 
annual economic impact.
    For these reasons, I have authored a House letter to your 
subcommittee asking for consideration of the Navy's unfunded 
priority of additional Growlers. I hope it demonstrates to you 
that there is a broad support for this request across Congress 
to support both the warfighter and the defense industrial base.
    I look forward to working with the subcommittee and 
supporting the appropriations process as it moves through the 
House of Representatives. And I thank you.
    Mr. Frelinghuysen. Thank you, Ms. Wagner. And your letter 
and your presence testify to the importance of this program. We 
really appreciate your taking the time.
    Mrs. Wagner. I have a son on those front lines, who is a 
West Point graduate, who serves in the 101st Airborne. And our 
military readiness is of the utmost importance to me, not just 
as an American and a Member of Congress but as a mom too.
    Mr. Frelinghuysen. Both of us, we are proud of your son's 
service----
    Mrs. Wagner. Thank you.
    Mr. Frelinghuysen [continuing]. And so many remarkable 
young men and women. Thank you so much for being with us.
    Mr. Visclosky. Thank you very much.
    [The written statement of Congresswoman Wagner follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. Representative Paul Cook. Marines never 
retire, but welcome.
    Mr. Cook. That is affirmative, sir.
    Mr. Frelinghuysen. The floor is yours.

                 Summary Statement of Congressman Cook

    Mr. Cook. Good morning, Mr. Chair, Ranking Member 
Visclosky. I do have to--the ranking member's comments about 
appropriations and everything else, I hope I can get a copy of 
this so I can give to my wife so she will appropriate more 
money for my budget every month. We have--but that is another 
story.
    Mapping and geographic data are critical elements in 
planning and conducting combat missions and ensuring our troops 
are aware of their surroundings. Today, this data is provided 
to our military by the National Geospatial-Intelligence Agency, 
or NGA. NGA's products give the most complete data, allowing 
each service to access the information across a variety of 
handheld and mobile platforms.
    In remote environments, such as the mountains of 
Afghanistan, an accurate map can be the difference between life 
and death. Following the attacks of the September 11th, 2001, 
the intelligence community struggled to distribute information 
in a timely manner to those responsible for our safety.
    The challenge of providing high-quality, accessible mapping 
data in support of DOD operations was resolved by turning to 
the private sector for advanced mapping software. Today, cell 
phones place virtually unlimited information at our fingertips.
    In fiscal year 2002, this committee provided $15 million 
for the Commercial Joint Mapping Toolkit, which was 
competitively sourced and provided this information in a cost-
efficient manner. The goal was to provide connectivity and 
interoperability between the users and providers of mapping 
data while minimizing costs for DOD.
    Twelve years later, this goal has been achieved. Today, the 
Commercial Joint Mapping Toolkit is used in 56 DOD programs of 
record. Recognizing its value, the NGA is currently extending 
the program through December 31st, 2015.
    After that, the future is unclear. I understand the NGA has 
not yet announced a plan for follow-up to Congress or DOD, and 
the committee needs to know what is being planned. I have 
serious concerns it is changing its approach to the mission of 
providing this key data.
    The agency is building an online map of the world, which 
centralizes all intelligence data analysis, and it is touted as 
tailored for DOD and intel sectors. That is the core of my 
concern. The agency is not saying ``tailored for warfighters.'' 
While decision-makers far from the front lines have a need for 
information, it is never as severe as the need on the 
battlefield.
    Today, this program is a success because mapping data and 
toolkit software are accessible to DOD at no charge. Obviously, 
budget constraints have made this--who knows what is going to 
go on. If NGA stops providing this data at no cost, the 
committee will almost certainly receive larger appropriation 
requests, as the DOD attempts to build its own capability. And, 
obviously, this could have an overall impact on the troops that 
go into harm's way.
    I am asking this committee to again take the lead on this 
important issue.
    And, just personally, you know, many years ago, I joined 
the Marine Corps. I was an infantry officer. And people asked 
what I did, and I said I was the most dangerous weapon in the 
world. And that was, I was a second lieutenant with a map and a 
compass. And, unfortunately, there is a lot of truth in that, 
in that if you are out there in a strange environment and you 
don't know where you are, those troops and everything else, 
calling in artillery, air, it is very, very dangerous.
    So I am very, very concerned about that for those people 
that go in harm's way. This is a program not as expensive as 
some of the others, but, you know, some are just very, very 
important.
    I would just like to add, as a historian--I know that we 
have a number of historians. If you look back at the Battle of 
Shiloh, April 1862, when the famous general--well, he wasn't 
famous after the battle. Lew Wallace was supposed to arrive at 
the Battle of Shiloh; he got lost. And a lot had to do with the 
maps, the terrain, and everything like that. And, of course, 
the North almost lost that pivotal battle and could have 
conceivably lost the war. So the consequences are tremendous.
    And I appreciate the committee allowing me to speak.
    Mr. Frelinghuysen. Mr. Visclosky.
    Mr. Visclosky. Mr. Chairman, if I could, I appreciate that 
the Member is not necessarily asking for money for NGA but for 
appropriate funding for, as you say in your testimony, the 
soldiers and Marines who are in the field.
    So I do appreciate that is your primary concern. I must 
tell you, though, you were doing terrific until you mentioned 
Lew Wallace getting lost. As an Indiana resident, I don't know 
who prepared that statement.
    Mr. Cook. Well, I knew you were going to ask that, sir. 
And, of course, we all know that Lew Wallace was instrumental 
at the Battle of Monocacy, where he was placed in obscurity, 
and, quite frankly, he saved the Union at that famous battle. 
And I am sure you have all gone out to the battlefield to learn 
more.
    Mr. Visclosky. Thank you so much.
    Mr. Frelinghuysen. Yeah, thank you, Paul, for being here. 
And thank you for your service in Vietnam----
    Mr. Cook. Thank you very much.
    Mr. Frelinghuysen [continuing]. And bringing these concerns 
to our attention.
    Mr. Cook. Thank you very much.
    Mr. Frelinghuysen. Thank you so much.
    [The written statement of Congressman Cook follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. Martha Roby, welcome. A member of our 
committee, part of our leadership.
    Mrs. Roby. Well, good----
    Mr. Frelinghuysen. Good morning. Thank you for being with 
us this morning, taking time out of your schedule to share your 
concerns, things you want to bring to our committee's attention 
as we put this budget together. Thanks.

                Summary Statement of Congresswoman Roby

    Mrs. Roby. Thanks so much. And I appreciate the difficult 
work that you have on this subcommittee.
    Rightly or wrongly, Congress has imposed on our military 
certain budget constraints that will require our commanders to 
make very tough decisions. Congress has asked them to do more 
with less and to maintain a delicate balance of readiness, end 
strength, and modernization. I believe that the United States 
Army is endeavoring to do just that, and I want to recognize 
Army leaders for their efforts.
    As you know, Army aviation provides critical capabilities 
to our commanders in the field. Army helicopters directly 
engage the enemy with devastating force. They move critical 
cargo and troops to the front lines. And when every second 
counts, they offer lifesaving transportation for our wounded 
warriors.
    In response to budget cuts, the Army set out to review its 
aviation strategy in order to exploit efficiencies without 
compromising operational capability. The starting point was the 
reality that, in the time of smaller budgets, the number of 
combat air brigades must decrease. The end result is the 
Aviation Restructure Initiative, or the ARI.
    I have closely monitored the development of ARI since last 
fall, and I believe it is the right solution for Army aviation, 
given the current fiscal constraints. ARI ensures the Army is 
able to maintain its most modern, capable, and survivable 
aircraft, while divesting legacy helicopters that are 
increasingly more expensive to operate and maintain.
    With the growth of unmanned aircraft capabilities, ARI also 
allows the Army to capitalize on new technology and harness the 
potential of teaming manned helicopters with unmanned systems. 
This partnership will play a growing role in the future of Army 
aviation.
    ARI reduces the aviation fleet by almost 800 aircraft, with 
approximately 86 percent of those coming from the Active Duty 
component. Furthermore, by reducing the Army aviation fleet 
from seven to four types of aircraft, ARI will save money that 
can be redirected to modernizing our best utility, attack, and 
cargo helicopters. Importantly, ARI also enables the Army to 
continue the development of aviation programs such as the 
Future Vertical Lift.
    These are, however, benefits beyond simple cost savings. As 
the Army Aviation Center for Excellence, Fort Rucker trains 
hundreds of new Army aviators on an annual basis. These pilots, 
the best in the world, are the most important assets the Army 
aviation brigade takes into battle.
    Today, new students at Fort Rucker begin their training on 
old civilian-style helicopters that have been flying since 
Richard Nixon was President. Today, under ARI, students at 
Rucker will immediately begin training in modern aircraft, 
complete with glass cockpits and dual turboshaft engines. These 
aircraft operate much more similarly to the Apaches, Black 
Hawks, and Chinooks that Army aviators fly in operational 
units. The result is better training and likely a reduction in 
overall training time.
    Given the reality of the situation, I believe that ARI is a 
logical answer to a difficult situation. It will provide Army 
aviation with the most capability while mitigating sustainment 
costs. It also ensures that the Army has the most flexible 
aviation force to accomplish the mission when our Nation calls.
    So, again, I appreciate you letting me share my thoughts 
with you today. And, again, I also understand that you have 
many difficult decisions to make in the days to come.
    Mr. Frelinghuysen. We appreciate it. And I suspect we will 
be making them together, since you serve on the Appropriations 
Committee with us. But thank you for your testimony and being a 
strong advocate for our military. Thank you so much.
    Mrs. Roby. Thank you so much.
    Mr. Visclosky. Thank you very much.
    [The written statement of Congresswoman Roby follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. Denny Heck, representing the great State 
of Washington, thank you for being with us.
    I put Ms. Roby before you a little bit. I think you came in 
together, but as a member of the committee, we figured we would 
give her the nod.
    Welcome. Thanks for being with us.

                 Summary Statement of Congressman Heck

    Mr. Heck. Thank you, sir.
    Mr. Chairman and members of the subcommittee, I am deeply 
grateful for the opportunity to appear before you today.
    I know every one of us has seen those incredibly 
heartwarming video clips when soldiers return home from theater 
and surprise their family members. Sometimes a kid is at 
school, and in walks mom or dad. My favorite, actually, is 
where, in this case, it happened to be a father was in the big 
cardboard box and burst out.
    And all of these end the same way, right? There is this 
look of shock and amazement on that child's face, and then they 
burst into a sprint and leap into mom or dad's arms for that 
embrace. They are precious moments. And I can tell you with all 
sincerity, I have--I couldn't watch them too many times and 
fail to have it bring a tear to my eye. And the reason is 
pretty obvious: Because sometimes mom and dad don't come home. 
They are incredibly moving.
    As you know, military bases become the home of ambitious, 
promising students whose parents dedicate their lives to 
serving our great country. There are, in fact, about 80,000 
students who attend public schools on military installations. 
Ninety-four percent of these students are the children of 
servicemembers.
    I think we can all agree that when servicemembers visit 
these schools, they should walk into state-of-the-art, secure 
institutions where their child is thriving. While important 
progress in this area has been made, some schools remain in 
great need of safety, capacity, and technology upgrades.
    Unfortunately, a 2011 analysis by the DOD's Office of 
Economic Adjustment found that there were 33 public schools on 
military installations across the country that were classified 
as being in poor and very poor condition. Some of these schools 
had crumbling walls, chipped floors, cracked ceilings. Some 
were too small, some with makeshift classrooms literally in 
hallways and supply closets. There were faulty ventilation 
units, corroded pipes, and the list goes on and on and on.
    This committee generously stepped in--generously stepped 
in--and provided funding to replace the schools on this list. 
These schools now have welcomed back students to new and 
improved learning centers, while others are still in the 
process of being replaced. This was all thanks to the hard work 
of this subcommittee and your former colleague, Congressman 
Norm Dicks.
    But now, due to sequestration cuts, the funding that the 
subcommittee provided will now cover just 28 of the 33 
identified schools.
    I happen to represent the congressional district--I have 
the privilege to represent the congressional district that 
includes Joint Base Lewis-McChord, often called JBLM, one of 
the largest military installations in America. Unfortunately, 
Evergreen Elementary on JBLM is one of the schools that will 
now go without funding.
    Evergreen happens to be a school recognized in the military 
community for its attention to students with special needs in 
education. In fact, the truth of the matter is that soldier 
after soldier makes a request for a compassionate assignment to 
JBLM so that their child with special needs can attend 
Evergreen.
    As the husband of a devoted educator, now retired, I know 
teachers and staff work day-in and day-out so that the students 
making strides in the environment they have can go as far as 
they can. And I know that if the teachers and staff could 
physically build their own new school buildings, they would, 
because they are that dedicated.
    Mr. Chairman, this subcommittee was instrumental in making 
a difference to thousands of other public school students on 
military installations across the country by implementing this 
project. What I am specifically asking for today is that you 
complete what was begun in 2011 and fix the remaining school 
buildings originally identified as being in poor or very poor 
condition and no longer sustainable.
    Specifically, I request that the Defense Appropriations 
Subcommittee include the language from Section 8108 of the 
fiscal year 2013 defense appropriations bill. Section 8108 
calls on the DOD to construct, renovate, repair, or expand the 
public schools on military installations that remain in need of 
updates, including our very own Evergreen Elementary.
    I love seeing the smiles on those kids' faces when their 
parents return safely home and surprise them. And now I want to 
see the smiles on the faces of mom and dad when they enter a 
building that they know is suitable to their child's learning 
needs. This is the kind of investment that DOD can and should 
make in our servicemembers' families.
    I thank you so very much for the privilege of being here, 
sir.
    Mr. Frelinghuysen. Well, thank you, Denny, for pointing out 
something which I think all the committee members feel very 
strongly about. There is more work to be done. We appreciate 
your highlighting something which is important to all of us.
    Mr. Heck. Thank you, sir.
    Mr. Visclosky. I would simply also thank you for 
recognizing the contribution of Mr. Dicks. And when I was 
visiting Fort Campbell, met with some of the high school 
students and kicked everybody except the students out. And 
still remember one of the young men saying, you know, ``I have 
lived at Fort Campbell longer than my father has.''
    And so, if nothing else, we ought to make sure they have 
the right facilities and tools as they get on with their lives, 
as well.
    Thank you very much.
    Mr. Frelinghuysen. Well said. Thank you very much.
    Mr. Moran. Mr. Chairman? If I could----
    Mr. Frelinghuysen. Mr. Moran.
    Mr. Moran. Again, thank you, as well, Mr. Heck, for 
bringing an important issue to us.
    Having served on the Military Construction Subcommittee, we 
all know there are issues there that should be funded but that 
seem a somewhat lower priority than funding schools.
    I am just curious, why does the Defense Approps 
Subcommittee fund the schools and not Military Construction? I 
am just curious. I know----
    Mr. Frelinghuysen. You will have to pose that as a 
rhetorical question, because, quite honestly, I don't know, but 
it has always been, I think, part of our bill.
    Mr. Moran. Well, maybe because Norm was such a fine 
advocate for it. It is curious.
    Mr. Frelinghuysen. When I have gone somewhere, I have been 
appalled, actually, at the condition of some of the schools.
    Mr. Moran. Yeah.
    Mr. Frelinghuysen. I don't know, but we will find out. And 
I guess a public question deserves a public answer at some 
point in time.
    Mr. Moran. Thank you, Mr. Chairman.
    Mr. Visclosky. And, Mr. Chairman, I may have been given 
advice from our staff, and that is because these are not 
government-owned facilities, these are schools in the private 
school districts.
    Mr. Moran. That is the answer. Thank you.
    Mr. Frelinghuysen. Okay. Well, thank you. The process of 
education goes on here. Thank you very much.
    [The written statement of Congressman Heck follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. Pleased to recognize Congressman Bradley 
Byrne--thank you very much--from the great State of Alabama. 
Thank you for taking time out of your busy schedule to be with 
us this morning.

                 Summary Statement of Congressman Byrne

    Mr. Byrne. Thank you, Mr. Chairman and Ranking Minority 
Member Visclosky and the distinguished members of the 
committee. It is my honor and pleasure to appear before you 
today to testify on two issues important to our national 
security: the Department of Defense's changes to the Littoral 
Combat Ship program and the continuation of the Joint High 
Speed Vessel program.
    I am sure that you know the Independence variant of the 
Littoral Combat Ship and the Joint High Speed Vessel are both 
made in my district, in Mobile, Alabama. While I am committed 
to the people of my great State, I come to you today more with 
a concern for the future of the United States Navy, our great 
Navy.
    The Littoral Combat Ship is essential to the missions in 
the world's littorals, the shallow seas of the world. It is 
being built in a manner that is both affordable and efficient, 
and it is critical if the Navy is to support the 
administration's pivot towards the Asia-Pacific region. I think 
you will agree that the fastest route to a hollow force is to 
increase requirements on our forces without providing the 
assets to complete the mission.
    The Secretary of Defense has directed the Navy to look at a 
different ship option for the last 20 ships of the 52-ship 
Littoral Combat Ship program. The specifications are due from 
the Navy this summer. And it is my belief that a modified 
version of the LCS will be the best value for the taxpayer, 
while meeting the Navy's requirements of a capable and lethal 
surface combatant.
    The LCS is designed with modularity in mind and can accept 
different mission sets and weapon systems with ease. If the 
Secretary of Defense wants a more lethal, small surface 
combatant, he need not look any further. There is plenty of 
space and power available for a vertical launch missile system 
and a 76-millimeter gun, giving the LCS the knockdown power of 
a destroyer. This vessel is truly a plug-and-play system.
    We should be extremely concerned about the slowing of the 
purchase of the Littoral Combat Ships in the fiscal year 2015 
budget. Reducing the ships in the LCS program in fiscal year 
2015 through fiscal year 2017 is simply a bad idea. This 
introduces instability in the LCS program, as the shipbuilders 
in Alabama and Wisconsin and their suppliers price the ship on 
a four-ship block buy. And this instability will be felt by 
suppliers nationwide.
    As you know, the Navy has continued to state its 
requirement for a 52 Littoral Combat Ship program. It is my 
belief that the LCS remains essential to the Navy's ability to 
project power, particularly to missions that don't require a 
destroyer or an aircraft carrier. The LCS is a fast, versatile, 
fuel-efficient, and highly capable ship. I liken it to Mohammed 
Ali, who said, ``I float like a butterfly and sting like a 
bee.''
    The LCS is extremely important to the Navy because it 
addresses three critical mission areas: anti-surface warfare, 
particularly against fast inshore attack craft; anti-submarine 
warfare, most notably against a proliferating diesel electric 
submarine threat; and mine warfare.
    The Navy has often stated that LCS will deliver 
capabilities in these mission areas that far exceed those 
capabilities in the fleet today. For minesweeping, we actually 
send our sailors directly into minefields with vessels, and, 
under this new program, we would send remotely operated craft 
that come from the Littoral Combat Ships, so it is also better 
for the safety of our sailors.
    During the recently completed LCS war game, the Navy has 
once again expressed their support and need for this program. 
The LCS program is currently realizing significant efficiencies 
and savings. Moving to an entirely new ship will introduce 
tremendous cost increases and time delays to the Navy--two 
factors our Navy cannot afford.
    Failing to produce all 52 Littoral Combat Ships would 
significantly reduce the size of our fleet, set back the Navy's 
shipbuilding program for decades, and damage America's national 
security. Without all 52 ships, the Navy will be forced to 
cover the same geographic area with significantly fewer assets.
    The LCS is the rare military program that has seen cost 
decrease instead of increase over time. The LCS has adhered to 
stringent contractual and budgetary constraints and has locked 
into fixed-price contracts and a congressionally mandated cost 
cap. The Littoral Combat Ships are being built today at an 
average cost of $350 million per hull, well under the cost cap, 
and at half the cost of the first ships of this class. 
According to the Navy, the LCS is the most affordable ship in 
the fleet.
    The Navy was directed by the Department of Defense to 
reduce the LCS buy for fiscal year 2015 from four ships to 
three ships. This action introduces instability into the 
current program, as the builders and suppliers of LCS price the 
ship on a four-ship buy, and will also greatly impact the 
shipyards in Alabama and Wisconsin and the broader shipbuilding 
industrial base. There are tens of thousands of hardworking 
Americans whose jobs depend on the continued construction of 
these valuable ships.
    Because of these considerations, I ask that the committee 
restore the funds necessary to add a fourth ship back into this 
year's budget.
    The Joint High Speed Vessel is also produced in my 
district. The Joint High Speed Vessel is a shallow-draft, all-
aluminum, commercially based catamaran capable of intra-theater 
personnel and cargo lift, providing combatant commanders high-
speed sealift mobility with inherent cargo handling capability 
and agility to achieve positional advantage over operational 
distances.
    Joint High Speed transports personnel, equipment, and 
supplies over operational distances with access to littoral 
offload points, including austere, minor, and degraded ports, 
in support of military operations and humanitarian efforts. In 
automotive terms, the vessel has been compared to a pickup 
truck or a utility vehicle.
    The Department of Defense places a premium on the ability 
of U.S. military forces to deploy quickly to a full spectrum of 
engagements. In addition, the Department values the ability of 
U.S. forces to debark and embark in a wide range of port 
environments, from modern to austere. The Joint High Speed 
Vessel, crewed by Military Sealift Command sailors, has 
demonstrated the ability to transport military forces, as well 
as humanitarian relief personnel and material, in a manner that 
is responsive, deployable, agile, versatile, and sustainable.
    The USNS Spearhead, which is the Joint High Speed Vessel 1, 
is currently employed to the Sixth Fleet area of 
responsibility. The Joint High Speed Vessel is designed to 
transport 600 short tons of military cargo 1,200 nautical miles 
at an average speed of 35 knots in sea state 3--35 knots. The 
Joint High Speed Vessel supports the Navy Expeditionary 
Combatant Command and riverine forces, theater cooperating 
missions, Seabees, Marine Corps, and Army transportation.
    The original procurement objective, set in October 2008, 
was for 18 ships. This procurement number was lowered to 10 
Joint High Speed Vessels as part of the fiscal year 2013 budget 
request.
    Recently, before the Armed Services Committee, CNO Greenert 
mentioned the Navy's desire to modify the capabilities of the 
Joint High Speed Vessel by testing the railgun on the vessel. 
The versatility of the Joint High Speed Vessel is undeniable 
when you think about its mission capability with such a unique 
offensive weapon in its service. The Navy has desperately been 
searching for a vessel to test this weapon on, and they have 
clearly chosen the Joint High Speed Vessel for a reason.
    Based on the ability of the Joint High Speed Vessel to 
support all branches of the military services, provide high-
speed intra-theater sealift, operate in littoral environments, 
operate in austere port environments, and support humanitarian 
disaster relief activities, and because the ship's construction 
line is still operational, I believe the Department of Navy 
should continue to procure Joint High Speed Vessels.
    Procuring additional Joint High Speed Vessels will enable 
the Navy to realize the hard-earned efficiencies and cost 
reductions achieved by the shipyard in constructing Joint High 
Speed Vessel 1 through 10. An additional $50 million in long-
ahead advance procurement funding will enable the Navy to begin 
the process of procuring additional Joint High Speed Vessels in 
line with the original 18-ship requirement.
    Like the LCS, the Joint High Speed Vessel program provides 
the Navy with a very affordable and capable ship. At roughly 
$160 million per ship, the Joint High Speed Vessel costs a 
fraction of what other shipbuilding programs cost. And with 
production steaming along, we are rolling new Joint High Speed 
Vessels off the line every 6 months. The program has clearly 
matured in what can only be considered efficient, serial 
production. We shouldn't let that go to waste.
    Thank you very much for your time today. I appreciate the 
opportunity to share my thoughts on these two very valuable 
ships with the committee.
    Mr. Frelinghuysen. We thank the gentleman for his 
testimony.
    Mr. Visclosky. Thank the gentleman, as well.
    And recognizing that your predecessors were members of this 
committee--Mr. Callahan was my chairman; Mr. Bonner served on 
this subcommittee, our good friend--I assume your constituents' 
expectations will be very high. I am confident you will be able 
to meet those.
    But I do appreciate your concern about the shipbuilding 
program.
    Mr. Byrne. Thank you, sir. I have very big shoes to fill, 
and I work very hard today to fill them. Appreciate your time.
    Mr. Frelinghuysen. Thank you.
    [The written statement of Congressman Byrne follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. Mr. Palazzo, I do apologize. I know you 
got here on time. Accept my sincere apologies.
    Mr. Palazzo. Mr. Chairman, as a former Marine and somebody 
in the Army National Guard----
    Mr. Frelinghuysen. Yeah, let me thank you for your gulf war 
service, as well, too.
    Mr. Palazzo. Thank you, sir.
    Mr. Frelinghuysen. Very special for all of us. The time is 
yours.

                Summary Statement of Congressman Palazzo

    Mr. Palazzo. Thank you, Mr. Chairman and Ranking Member of 
the committee, for the opportunity to appear before the 
subcommittee on my priorities for your fiscal year 2015 defense 
appropriations bill.
    As a member of the House Armed Services Committee, I want 
you to know that I have a healthy respect for the work of your 
subcommittee and the essential role you play in providing for 
our soldiers, sailors, airmen, and Marines who wear the uniform 
of the United States in service to our Nation. I also share 
your commitment to providing for a Navy and Marine Corps that 
is capable of projecting American power abroad with forward-
deployed naval forces.
    As some of you know, I represent the Fourth Congressional 
District of Mississippi, down on the Gulf Coast, and it is no 
surprise that my district depends heavily on industries like 
military shipbuilding, which is both a national and strategic 
industry that contributes to our national economy and our 
national defense, with an impact that goes well beyond the 
borders of my district. And so I come here today to discuss a 
national and strategic issue that I believe is critical to the 
future of our Navy and Marine Corps.
    The San Antonio class of LPD is a 684-foot-long amphibious 
assault ship. This class of ships functionally replaces four 
previous amphibious ship classes and provides greater mission 
capability and enhanced command and control than her legacy 
amphibs. The San Antonio-class LPD also features a longer 
expected service life, improved quality of life for the sailors 
and Marines aboard her, and reduced total ownership costs, 
something I know is of critical importance to us on the House 
Armed Services Committee and a desire that I know you share, as 
well, Mr. Chairman.
    The LPD is a warship that embarks, transports, and lands 
elements of the landing force for a variety of expeditionary 
warfare missions. When fully loaded, these warships can carry 
landing craft air cushions, or LCACs, Amphibious Assault 
Vehicles, and a wide variety of Marine Corps aviation assets, 
from the MV-22 Osprey to every helicopter in the Marine Corps 
inventory. Simply put, this ship enables the Marine Corps to go 
to war when necessary, but she is built to handle a wide range 
of missions, including humanitarian assistance and disaster 
relief.
    Most importantly, the LPD is a survivable amphibious 
warship that is capable of going into harm's way. The ship is 
built to protect the almost 1,000 sailors and Marines who sail 
aboard her. And she relies on the critical contributions of 
over 1,000 companies in over 40 States from across our Nation.
    So I come before you today because I strongly support a 
proposal to build a 12th LPD in fiscal year 2015.
    It is no secret that the budget of the Department of 
Defense has been under a lot of pressure recently, and the 
Navy's budget is experiencing similar strain. However, I do not 
believe that current budget pressures should unduly influence 
our long-term strategic thinking on the needs of the future of 
our Navy and Marine Corps team.
    We are building the last two ships of the San Antonio class 
today in Mississippi, and given the needs of the Navy and 
Marine Corps, the hot production line, the stable design of the 
ship, the maturity of the supply base, and the proven fleet 
performance of these ships, I firmly believe we need to build 
an additional 12th ship of the San Antonio class. I ask for 
your support of this proposal in your fiscal year 2015 defense 
appropriations bill.
    And, in closing, shipbuilding is one of the most strategic 
activities undertaken by our defense industrial base. It takes 
years to build the finest ships for the finest Navy and Marine 
Corps in the world. And I am proud to represent one of the 
largest last great centers of American manufacturing, right at 
home in south Mississippi.
    But don't take my word for it. During a recent forum, 
General James Amos, the Commandant of the Marine Corps and a 
member of the Joint Chiefs of Staff, stated, I quote, ``We have 
an LPD hull right now which is one of the most successful hulls 
we have. There are years and years of time and effort that have 
gone into that LPD. That is as fine an amphibious warship as 
has ever sailed the seas. The LPD, from my perspective, just 
makes sense.'' I couldn't agree more with General Amos.
    And I thank you gentlemen for your time.
    Mr. Frelinghuysen. Well, thank you, invoking his name. And, 
again, thank you for your own military service, for your work 
on the House Armed Services Committee. And our committees are 
bound to work together, since at a time of less resources we 
need to make sure that every dollar counts, and I look forward 
to working with you and your colleagues.
    Mr. Palazzo. Same here, Mr. Chairman.
    Mr. Visclosky. Thank you very much.
    Mr. Palazzo. Thank you, gentlemen.
    Mr. Frelinghuysen. Appreciate it. Thank you.
    Reid Ribble, the gentleman from Wisconsin. How are you?
    Mr. Ribble. I am doing great. Mr. Chairman, Mr. Ranking 
Member, thanks for----
    Mr. Frelinghuysen. And I look forward to meeting you. We 
have an office visit, I think, in the offing, too.
    Mr. Ribble. Yes.
    Mr. Frelinghuysen. Thank you. Thank you for being with us 
this morning.

                Summary Statement of Congressman Ribble

    Mr. Ribble. I am happy to be here.
    And I am not going to go through my testimony word for 
word; you have written copies. I am going to also try to help 
you get back on schedule here a little bit.
    I wanted to talk to you about LCS, not from the position of 
whether this is the right ship for the Navy or isn't the right 
ship for the Navy. I think the Department of Defense, the 
Department of the Navy, and House Armed Services on both the 
House and Senate will make determinations on the 
appropriateness of this vessel.
    What I want to talk about specifically is the fiscal year 
2015 block-buy acquisition strategy. If the strategy was 
correct then--and I believe it is, because we saw a ship that 
originally cost nearly $700 million be driven down in cost to 
around $350 million, nearly half of the original price--if the 
block-buy strategy is broken for fiscal year 2015, we have the 
likelihood that the Navy, therefore the taxpayer, will pay 
significantly more for the remaining ships under the contract.
    And that, therein, is the rub, is that if we are going to, 
in times of tough fiscal decision-making, it seems to me that 
the best decision is to not break a contract and go from 4 
ships, which is the current contract, to 3, thus raising the 
cost of the remaining 10 or 12, doesn't seem to me to be a very 
practical economic strategy.
    And so I am here today requesting that the Appropriations 
Committee consider relieving that four-ship block in fiscal 
year 2015 so that the contract itself isn't broken.
    Secondarily to that, Mr. Chairman, it goes to a broader 
discussion about American shipbuilding capabilities. My 
shipyard in Marinette, Wisconsin, as well as other shipyards 
that do military contracting, often invest tens of millions, if 
not hundreds of millions, of dollars of private investment to 
prepare for contracts based on promises given by the Federal 
Government to these localities. And, in this case, my shipyard 
spent nearly $100 million of their own private investment.
    If contracts get broken--and I understand changes in 
defense strategy and changes in terms of agreements as the 
Nation shifts and moves and we learn things, but we still must 
be very careful about private future investment. If we 
discourage or disincent private future investment into this 
Nation's shipbuilding capacity, we, in essence, strike a blow 
into the Nation's defense.
    And so, therefore, I think we need to move very cautiously 
any time that we are going to actually break a contract. I get 
having contracts end, and I get making changes, but I am very 
concerned about this Nation's shipbuilding capacity.
    We have an extraordinarily gifted group of workers at 
Marinette Marine in Marinette, Wisconsin, who are building the 
Littoral Combat Ship. And this was a ship that, quite frankly, 
Secretary Gates, Secretary Panetta--Secretary Panetta was just 
up at the shipyard a few months ago--Secretary Mabus have all 
spoken glowingly of. And, in recent war games, the Navy itself 
spoke glowingly of the ship itself.
    So it is a ship that apparently they wanted. It is a ship 
that we should continue to build for the time being as long as 
it meets the national defense strategy. And it is certainly, 
from an economic standpoint, a ship that we shouldn't break a 
contract with in fiscal year 2015, where we reverse the trend 
of cost savings and make the ship that they are going to buy 
anyway more expensive.
    And so, as you guys weigh and measure all these things--and 
I can tell you, it is during this time of year I am glad I am 
not an appropriator--but I want to encourage you to consider 
what that block buy and strategic buy program means to our 
shipbuilding capacity and meeting the promises that we have 
given, but also make sure that we are buying these ships at the 
best possible costs for the time that we buy them.
    And, with that, I yield back.
    Mr. Frelinghuysen. Well, thank you for being here and 
articulating so well what is so important here. We don't want 
to lose that industrial base and incredibly qualified people, 
no matter where they are, but certainly recognize the historic 
role of Wisconsin.
    Mr. Visclosky. I appreciate you summarizing your testimony. 
I appreciate that you use steel to build those ships in 
Wisconsin. And your concern about the industrial base, 
particularly shipbuilding, I think the chairman, all of us on 
the committee are very concerned about it.
    The one question I have is, Vilas County, is that in Mr. 
Duffy's district?
    Mr. Ribble. Yes, it is. It used to be in my district.
    Mr. Visclosky. Because my mother is from Eagle River. I was 
just curious.
    Mr. Ribble. Yeah. A beautiful place.
    Mr. Visclosky. It is a great State, Wisconsin.
    Mr. Ribble. Thank you very much.
    Mr. Visclosky. Thank you for your concern.
    Mr. Ribble. Yeah. It is good to be here, and thank you for 
your time.
    Mr. Frelinghuysen. Thank you, Reid.
    [The written statement of Congressman Ribble follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. David Jolly, welcome. The gentleman from 
Florida.

               The Summary Statement of Congressman Jolly

    Mr. Jolly. Thank you, Mr. Chairman and Mr. Ranking Member.
    For those of you in the room, including professional staff, 
this is a unique opportunity for me. And I will keep my remarks 
brief and contribute to Mr. Ribble's effort to get you back on 
schedule. I have submitted for the record my testimony.
    I have a unique situation, as the newest Member of Congress 
but, more importantly for this subcommittee, one who has the 
responsibility to carry on a legacy of a man that you all 
worked so closely with, and contributed not just to the 
security of our country but you know what he did for the 
district that now I have the privilege to represent. And so, to 
the extent that I am able to, I am trying to maintain the level 
of effort and contribution he made to our district but also to 
our region and the regional assets that support our national 
security.
    We have a district that, as you know, contributes to many 
national programs, programs of record. We contribute to the JSF 
canopies, the GPS III, SOCOM GMV recent award, cooperative 
engagement capability for naval warships--all of these 
competitively awarded programs of record. I have submitted 
Member requests in support of many of those and would ask for 
your consideration.
    But more importantly--I shouldn't say ``more 
importantly''--just as importantly, the assets at both the 
Guard and Reserve center in my district, as well as MacDill Air 
Force Base. We have the Reserve Medical Command there. We have 
a readiness center, a joint readiness center that is now named 
for my predecessor. And then at MacDill, you know the assets 
that we have at MacDill and the operations of both CENTCOM and 
SOCOM.
    And the only ask I would have for you there--I know this 
committee last cycle worked with the command on decisions of 
staffing and resources and whether those would be retained at 
MacDill or whether there were resources better applied in other 
areas. Certainly not trying to speak for the command or for 
this committee, but I would simply ask that, in an era of 
fiscal constraint, that we consider the investment that has 
been made at MacDill, the success of having SOCOM at MacDill, 
at its current staffing and resource level, and make sure that 
we balance any decisions related to that with the investment we 
have already made and the command's priorities.
    I have submitted that statement for the record, but, 
gentlemen, I appreciate the opportunity to be here today.
    Mr. Frelinghuysen. We appreciate it. And we recognize, 
obviously, the legacy you follow. And, obviously, our committee 
is mindful of the number of important installations and 
purposes for which your district has historically been focused. 
So we appreciate your being here.
    Mr. Visclosky. And as a former staffer, I wish you well in 
your career. We both were blessed with wonderful mentors.
    Mr. Jolly. Thank you very much. I appreciate it.
    [The written statement of Congressman Jolly follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. Mr. Farr across the threshold first. Of 
course, Mr. Nunes is in the warmup spot. I apologize.
    Our colleague from the committee, Sam Farr.

                 Summary Statement of Congressman Farr

    Mr. Farr. Well, thank you very much, Mr. Chairman, Mr. 
Visclosky, fellow members of the Appropriations Committee. I 
want to thank you for the honor of allowing me to testify but 
mostly for your continuous support for servicemembers and the 
DOD civilians who are committed to our national security.
    I bring to you an ask in the wake of yet another tragic 
shooting at a military installation and solemnly come before 
you today to ask for your support in helping prevent such 
catastrophic events from occurring by fully funding the ACES 
continuous evaluation program.
    Because of the Washington Navy shooting, the intelligence 
leaks at NSA with contractor Edward Snowden, and the 2009 Fort 
Hood shootings, President Obama ordered a review of the 
security clearances by the Department of Defense and the Office 
of Management and Budget and the Department of Navy and an 
independent review.
    The consistent theme across all four reviews was the need 
for a continuous evaluation program, which means reviewing the 
background of an individual who is determined to be eligible 
for access to classified information on an ongoing basis to 
confirm that the individual continues at all times to meet the 
requirements for eligibility for access to classified 
information.
    In my district, the Defense Department has an organization 
called Defense Personnel Security Research Center, known as 
PERSEREC, and it has developed the Automated Continuous 
Evaluation System, known as ACES. The program has been in 
effect for about 9 years. It can provide continuous evaluation 
of individuals 24/7, 365 days a year, instead of the only 
periodic reinvestigations which occur every 5, 10, or 15 years.
    Currently, ACES is capable of checking over 40 government 
and commercial databases in areas relevant to personal security 
and can identify those individuals who may present a potential 
security risk. ACES is the only continuous evaluation program 
that complies with the legal and regulatory privacy provisions 
and permissible uses of government and commercial data.
    ACES conducted a pilot test with a sample of 3,370 Army 
servicemembers, civilian employees, and contractor personnel. 
ACES was able to identify over 730 individuals with previously 
unreported derogatory information. Based on the results of this 
ACES pilot, the Army revoked the clearances of 55 individuals 
and suspended the access of 44 more who had derogatory 
information like financial issues, domestic abuse, or drug 
abuse.
    In its report on suitability and security process review, 
OMB has recommended the following timeline to fully implement 
the continuous evaluation: October of 2014, the ACES pilot 
program is to expand to 100,000 personnel. By 2015, capability 
of 225,000 personnel. By 2016, 500,000 personnel. And by 2017, 
capability to have continuous review on a million personnel.
    We agree with this time plan and really recommend that its 
funding be made--I think it is $53 million that can be made 
available for that.
    So I ask this committee to fund PERSEREC's ACES program as 
an enterprise for continuous evaluation solutions for our 
government's ongoing need to keep our security personnel 
continuously monitored as to their capability of maintaining 
that category.
    So I would be glad to answer any questions you might have.
    Mr. Frelinghuysen. Well, thank you for raising this as 
something which deserves more attention in our committee.
    Mr. Farr. Well, thank you very much, and thank you for your 
attention.
    Mr. Visclosky. Mr. Farr, thank you very much.
    Mr. Frelinghuysen. Thank you very much.
    [The written statement of Congressman Farr follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. Another gentleman from California, Mr. 
Nunes. Welcome.

                 Summary Statement of Congressman Nunes

    Mr. Nunes. Well, thank you, Mr. Chairman and Ranking 
Member. It is great to be here. And I have a statement that I 
will just submit for the record, if you would accept that.
    You probably don't get this very often, but I am actually 
here to thank both of you for your strong support of Lajes Air 
Base, which is out in the middle of the Atlantic Ocean. A lot 
of people forget about it. And I am concerned and remain 
concerned that, in fact, our Defense Department is forgetting 
about it and forgetting about our allies and the importance, I 
think more now than ever, with this recent invasion of Crimea 
by the Russians.
    There is, I think, some assumption by some folks within DOD 
that we were assuming that subs would never be back in the 
Atlantic, and I just think that was shortsighted. And I think 
we are starting to see that now, as we look at one of the most 
explosive places today on the globe and hotspots is in, not 
only North Africa, but also West and Central Africa. And that 
is an area that is continuing to explode. The best spot we have 
to both police the Atlantic Ocean and to get assets into Africa 
is the Lajes Air Base.
    And one of the issues that I want the committee to be aware 
of is that, you know, we have spent $150 million there over the 
last decade. And I think both of you probably have had a chance 
over the years to be on this air base, but it is really a Taj 
Mahal of air bases. I mean, it is practically all brand-new.
    And for our Defense Department, when we are sitting on 
roughly 30 bases in Europe, to put this one on the chopping 
block is--I think that if the American taxpayer really knew 
about this and really knew what existed in Europe, I think they 
would have a big problem with it.
    And that is why I am here to--I think this committee 
recognizes that, and I know that you have been supportive in 
the past. And we are looking and trying to work as closely as 
we can with the Defense Department to try to fix this long-term 
so that we don't lose a strategic asset or waste hard-earned 
taxpayer dollars.
    And I will answer any questions.
    Mr. Frelinghuysen. Well, thank you. And your statement will 
be in the record.
    You know, I echo your sentiments. It is an incredibly 
important asset and gives us an ability to turn around and do 
some things in parts of the world, especially on the African 
continent, that otherwise we might not be able to do from 
another location.
    Mr. Visclosky. I would simply say I think you do make a 
compelling case, and I do appreciate your persistence on the 
issue very much and your time today.
    Mr. Frelinghuysen. Thank you very much.
    Mr. Nunes. Well, thank you for allowing me to speak.
    Mr. Frelinghuysen. Thank you.
    [The written statement of Congressman Nunes follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. Mr. Ron Barber from Arizona. Thank you 
for being with us. Thanks for your patience.

                Summary Statement of Congressman Barber

    Mr. Barber. Thank you, Mr. Chairman. I appreciate the 
opportunity to be with you this morning.
    I think we all know that the Department of Defense's budget 
proposals, while trying to deal with a budget problem of 
serious impact, will, I think, if they are all adopted, the 
proposals will seriously compromise our national security. And 
I appreciate the opportunity to talk with you today about one 
specific proposal which I think is deeply troubling.
    I am going to talk about the proposal in the Department of 
Defense budget that has to deal with the divestment of the A-10 
Thunderbolt. This is an aircraft that flies in Afghanistan. It 
is available in South Korea. It is one of the most effective 
close air support fighters that we have.
    As you know, the President's budget calls for the 
divestment of the entire A-10 fleet, beginning in fiscal year 
2015. And if this proposal is adopted, I believe it will create 
a serious gap in close air support and the A-10's other support 
missions, important missions that provide highly effective 
support to our ground troops.
    I was in Afghanistan just 2 weeks ago talking with our 
troops, and they say they love it when the Warthog is overhead 
because they know their day is going to get a bit better.
    It may be ugly, as some have said, but regardless of its 
look, it is a solid and reliable airframe that is easily 
sustained at a very low cost. And I think that is an important 
point.
    At its core, the A-10 represents a proven aircraft of 
unmatched survivability, maneuverability, and lethal armaments 
that is only surpassed by the deeply ingrained close air 
support culture and expertise of those pilots who fly it. There 
is no other fixed-wing aircraft, Mr. Chairman, that provides as 
proficient a service as the A-10 in conducting visual support 
operations below a 1,000-foot ceiling, while being able to 
effectively target the enemy. As I mentioned, our experience in 
Iraq and Afghanistan clearly demonstrates the A-10's well-
documented capability to operate in rugged environments.
    The Air Force has argued that other platforms in its 
inventory can replace the close air support capabilities of the 
A-10, and I would respectfully disagree. While the F-15, the F-
16 and B-1 and the B-52 are very effective aircraft that are 
important components of our inventory, none of these platforms 
can fully replace the capabilities of the A-10.
    The A-10 flies low; it flies slow. Its armored hull allows 
it to be engaged on a battlefield faster and lighter than 
higher-altitude flying fighters. Closer communication with 
ground forces makes the A-10 close air support more accurate 
and lethal.
    On Wednesday, General Scaparrotti, the Commander of U.S. 
forces in Korea, testified in the Armed Services Committee 
that, as an infantryman, he has benefited from the close air 
support the A-10 provides in combat and believes it is 
important in the Korean Peninsula.
    Additionally, General John Campbell, Vice Chief of Staff of 
the Army, testified in the Senate Armed Services Committee, 
saying, commanding the 101st in Afghanistan, ``We had an A-10 
capability come in and provide close air support to our 
soldiers. It was a game-changer.''
    In recent years, the Congress has approved over a billion 
dollars in upgrades for the A-10--new wings, new electronic 
packages, new helmets--that make it a very modern aircraft with 
at least 15 to 20 years more of service. It would be, I think, 
a waste of taxpayer money to divest after such a strong 
investment.
    I urge you, Mr. Chairman and Ranking Member, to consider 
funding the A-10's mission so that we can most effectively 
protect our troops in combat and avoid the capability gap. 
Until that gap is closed, we simply cannot adequately support 
our troops on the ground.
    Now, people say we are getting out of Afghanistan, we are 
not going to have a ground war, but this is a troubled world; 
Crimea, South Korea, all across the globe we are facing 
enemies, and we may end up having to protect our troops on the 
ground. The A-10 is the best fighter that we have available to 
do so, and I appreciate your opportunity to speak about it 
today. Thank you Mr. Chairman.
    Mr. Frelinghuysen. I appreciate your being here, and you 
have highlighted some things that are important, I think, to 
all of us.
    Mr. Barber. Appreciate it. Thank you very much.
    Mr. Frelinghuysen. Thank you.
    [The written statement of Congressman Barber follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. Mr. Hudson, from the great State of 
North Carolina, thank you for being with us. Thanks for your 
patience. I know you have been here for a while, but we are 
trying to stay on schedule and give Members an opportunity to 
talk about what is important to them.
    Thank you, all of you, for taking the time to be here.

                Summary Statement of Congressman Hudson

    Mr. Hudson. Thank you, Mr. Chairman and Mr. Ranking Member, 
for providing this opportunity. And I want to thank you and the 
subcommittee for all the hard work you do protecting our 
warfighters and providing the funding and tools that they need 
to do the job. I applaud the bravery and sacrifice of our men 
and women in military.
    As I travel around the communities in North Carolina, Fort 
Bragg is on the edge of my district. People consistently tell 
me their number one priority is to fiscal responsibility, 
restraining spending, forcing Washington to live within its 
means; and accordingly, I am committed to cutting spending, to 
reducing the size of government, promoting economic growth, 
putting our budget back in balance, and sometimes that means 
holding departments and agencies accountable, and that is why I 
chose to appear before you today to talk about one particular 
issue.
    As the Army embarks on a new plan to replace the M113 
armored personnel carrier, a series of vehicles that have been 
in service for over 50 years. I believe it is important for 
this committee to ensure proper oversight given the series of 
setbacks in recent years to combat vehicle programs.
    As you know, the Army's newest approach is called the 
Armored Multipurpose Vehicle, or AMPV. There have been active 
studies ongoing for some time on determining the appropriate 
replacement. In 2008, the Army came to the conclusion that a 
mixed fleet of modified Bradleys and Strykers would be the 
ideal replacement for the M113. As opposed to a one-size-fits-
all approach, a mixed fleet makes the most economic sense as it 
leverages existing programs and allows the vehicle best suited 
to a particular mission to be utilized.
    Strykers provide speed, stealth and protection in a variety 
of roles, while tracked vehicles like the Bradleys can address 
the small amount of terrain that is too extreme for a wheeled 
vehicle to operate in.
    The AMPV program was out of the spotlight for a while 
because of the Army's focus on the Future Combat Systems, the 
Ground Combat Vehicle. Both the FCS, cancelled in the 2009, the 
Ground Combat Vehicle, recently terminated after billions of 
dollars were invested in the programs, in both cases the Army 
recommended a two-manufacturer approach to development and 
production. This allows a greater variety of designs and 
encourages competition, which we all know drives prices down. 
Furthermore, it ensures our troops deploy with the best 
equipment for the job.
    With the AMPV as the only Armored Combat Vehicle program 
remaining, I would hope the Army will continue to utilize the 
multimanufacturer approach. Unfortunately, the most recent RFP 
by the Army for the MPV runs counter to this practice and makes 
clear that a tracked vehicle such as the Bradley is the only 
solution it intends to accept. Any competitor that would offer 
an opposing design will find the Army has not provided 
sufficient data or time for other companies to compete for a 
tracked vehicle.
    I believe Congress should not fund a noncompetitive 
solution for AMPV and should require the Army to develop an 
acquisition plan in order to leverage the advantages of a mixed 
fleet. A mix of vehicles, such as the Stryker and the Bradley, 
is likely to be a more cost-effective solution, and that can be 
fielded actually more rapidly.
    Strykers are currently the largest combat vehicle fleet in 
the Army and have found broad support for mix of speed, low 
operational cost per mile, and resistance to improvised 
explosive devices. Bradleys, meanwhile, continue to offer 
complete off-road ability and additional protection for direct 
engagement, but a mix of these two vehicles would continue to 
be evaluated, in my opinion, and considered by the Army as it 
leverages the best of both types of vehicles in their quest to 
replace the Vietnam-era M113s.
    I hope the subcommittee will encourage the Army to fully 
evaluate and consider both situations at hand instead of 
viewing the competing contracts as mutually exclusive. I hope 
the committee will consider a plan that places the best 
equipment for the job on the field. If the military can 
demonstrate to the subcommittee they are on the right path, 
then they can and should move forward with their current plan, 
but I believe a fair analysis that acknowledges the 
cancellation of the Ground Combat Vehicle and the role it was 
to play will recognize the benefits of pursuing a mixed fleet 
solution.
    I thank the Members for their time and consideration in 
this request and, again, appreciate your commitment to hearing 
from Members.
    Mr. Frelinghuysen. We thank you for your time, and I can 
assure you our committee is taking a very close look at the 
progress on this program.
    Mr. Hudson. Great. Thank you.
    Mr. Visclosky. Appreciate your emphasis on competition.
    Mr. Hudson. Yes, sir.
    Mr. Frelinghuysen. Thank you.
    [The written statement of Congressman Hudson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. Gentleman from Florida Mr. DeSantis. 
Thanks so much for being here. Thank you, also, for your Navy 
service.

               Summary Statement of Congressman DeSantis

    Mr. DeSantis. Well, thank you, Mr. Chairman, Ranking 
Member. I know you guys are very busy, so I really appreciate 
you having me and giving me some time.
    I am here to talk about the E-2D Advanced Hawkeye, which, 
as you know, is the Navy's carrier-based Airborne Early Warning 
and Battle Management and Control System. As the fiscal year 
2015 budget request is considered, I ask that you support the 
E-2D program as well as and additional fifth E-2D Advanced 
Hawkeye aircraft.
    The E-2D is equipped with new cutting-edge communications 
capabilities and radar systems. These advancements enable the 
E-2D to synthesize information from multiple onboard and 
offboard sensors to provide increased missile protection to our 
carrier defense groups, while also improving the aircraft's 
offensive capabilities, which are key to supporting our 
combatant commands.
    The addition of the fifth E-2D aircraft in fiscal year 2015 
is necessary for providing carrier strike groups with the E-
2D's advanced Integrated Air and Missile Defense capabilities 
to pace the rapidly-evolving Pacific threat. Without this fifth 
aircraft, a carrier will be forced to deploy with the less-
advanced E-2Cs, preventing carriers from having the additional 
and considerable capability that E-2Ds bring against multiple 
threats. Furthermore, additional funding would be needed to 
keep multiple variants of the Hawkeye in service longer.
    This program is critical for our Navy and our military. One 
of our colleagues, Congressman Jim Bridenstine from Oklahoma, 
is himself an E-2 pilot, and he puts it this way, quote, "Given 
the threat to strike groups, multiyear procurement of E-2D is 
absolutely necessary. The only question is are we purchasing 
enough E-2Ds and missile interceptors to counter the high 
volumes of incoming missiles that our soldiers and sailors 
could face," end quote.
    The program has met every major milestone on schedule since 
the program's inception in 2003. As the program moves forward, 
full funding for the E-2D as well as funding for a fifth 
aircraft ensures that carrier air wings will fully realize the 
capability provided by the state-of-the-art early warning and 
battle management command and control weapons system.
    The role technology plays in modern warfare is extremely 
important, and the technological advances of the E-2D will 
ensure that our military maintains its critical edge. Your 
support for the Navy's E-2D Advanced Hawkeye program in the 
fiscal year 2015 budget and an additional fifth aircraft is 
essential to maintaining the safety of our carriers in a 
changing environment where we are facing new threats.
    As an appendix to my submitted written testimony, I have 
attached an April 2 letter from myself, Representative 
Bridenstine, Representative Brown, Representative Brownley, 
Representative Carson, Representative Posey and Representative 
King in support of the E-2D program.
    Thank you again for having me today, and I appreciate the 
support that this committee provides to our war fighters.
    Mr. Frelinghuysen. Thank you. And thank you for your 
service. That letter will be part of the record, as well. Thank 
you very much for your time this morning.
    [The written statement of Congressman DeSantis follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. Representative Hanabusa from the Aloha 
State, welcome. How nice of you to be with us. You may be 
batting cleanup, I don't know.
    Ms. Hanabusa. But then I hope I say the most important 
thing.
    Mr. Frelinghuysen. We will be listening carefully. Thank 
you.

              Summary Statement of Congresswoman Hanabusa

    Ms. Hanabusa. Mr. Chairman, Mr. Ranking Member and anyone 
else who is listening, thank you for the opportunity to testify 
about the defense programs that are very important to my home 
State of Hawaii.
    I have been always a fierce advocate of the Obama 
administration's rebalance to the Asia-Pacific. I believe it is 
vital to the future policy and priorities of the United States 
that we remain committed to this pivot, or rebalance, or 
recalibration, however you want to call it. And there are many 
critical programs in this shift that I would like to take a 
moment to highlight.
    First of all, I would like to say that I do support the 
request for the steady 2-year production of the Virginia Class 
submarines. Sustaining a 2-year build rate is not only vital to 
mitigating the shortfall of our attack submarine force in the 
next decade, but also will continue to leverage critical 
savings and efficiencies in building these advanced platforms.
    I do want to share a story with you. As many people may 
know, Senator Inouye was a great friend and mentor of mine. He 
would always tell me, you know, he says, after World War II, he 
says, the United States ruled the seven seas. He said if we are 
20 percent of it now, that is saying a lot. He said, but, he 
says, remember always, the United States will always rule the 
deep blue sea, and no one will ever come near us on that.
    And this program is one that continues that, and truly, as 
you look at the pivot to Asia-Pacific and what is going on, it 
is very clear that the one area that no one will ever touch us 
in is in our deep blue sea technology. In that vein, the 
undersea capabilities that play a critical role, I would like 
to encourage the funding of defense research that would 
basically allow us to bury undersea cables beneath the seabed, 
and that really helps in the significant increase in our 
mission effectiveness and cost savings to the Navy in the long 
run for that information.
    I also believe, when you think about how large the Pacific 
is, 53 percent of the Earth's surface is PACOM AOR, but someone 
explained it to me like this, and I had never thought of this: 
If you were to take all the land masses, PACOM's AOR land 
masses, only 17 percent of that 53 percent. But if you were to 
take the Pacific, and you put every land mass on this world in 
the Pacific, there would still be room for another Africa and 
another North America. That is how large that sea is or that 
ocean is that comprises the PACOM AOR.
    So the shipbuilding budget, of course, is also critical and 
must be fully resourced. And I do appreciate the inclusion of 
funding for the basically buying of two destroyers as one 
additional Afloat Staging Base. That is going to be the method 
that we are in the Pacific, by the afloat type and the 
rotational-base structure that we are using. We are not going 
to base in a traditional sense ever again, I believe, in the 
Pacific, notwithstanding the rotational structures that is 
found in Darwin, Singapore, is going to be the way of the 
future, and I think the float staging is a critical component 
of that.
    The ships, of course, are necessary to maintain our 
presence. I would like to say that in testimony recently 
received by Admiral Locklear after the budget dropped, he said 
that he is completely undersourced in the Pacific, and in that 
vein, I do not believe that we should support the, quote, 
"modernization," which really is mothballing of the 11 
cruisers.
    As my discussions with Admiral Walsh in one of his 
testimonies before us was, he is very clear, especially the 
South China Sea, it is an LCS-related entity. That is how they 
are going to be there. We have a clear reduction in that number 
from 52 to 32; however, what is necessary to make that 
effective is the cruisers, because LCSs are shore, but we do 
need the fleet out in the ocean, and therefore we should not 
cut our--really our readiness posture by retiring or 
mothballing or however you want to call it, but those 11s are 
intended for that.
    Both Secretary Hagel as well as Martin Dempsey, the Chief 
of the Army chiefs, have talked about the increased risk that 
we have taken on. And, of course, they have said that in the 
budget structure that we are in and the budget that they 
propose, it is not the military that they want, and it is not a 
military that they really believe is going to be ready.
    I would also like to ask the consideration that we not cut 
assets like the Maui Space Surveillance Complex and the High 
Performance Computing Center. Those are really necessary for 
our cyber defense as well, in particular.
    And I would like the committee to consider including the 
26.1 billion in defense funding that is proposed in the 
Opportunity, Growth and Security Initiative, the OGSI, and if 
there is a way to fund that, we can really then create the 
necessary readiness posture and force structure that we need in 
the Asia-Pacific.
    Asia-Pacific is where, I believe, the 21st century will be 
defined by. It is very important, of course, to my home State, 
because as then-Secretary of State Hillary Clinton said, Asia-
Pacific is going to be what defines the 21st century, but, of 
course, Hawaii is the gateway to the 21st century.
    And I would also like to plug the fact that we are probably 
the best thing that the United States ever did was when we 
became the 50th State. So I would like to ask all of your 
continued support in keeping us viable, the most forward and 
the most critical for this country as we pivot to Asia-Pacific 
and our role in the Pacific arena.
    Thank you very much, and if there is any questions--
    Mr. Frelinghuysen. We thank you for your very eloquent 
testimony and for the good geography lesson which, from your 
perspective, you know particularly well. The Asia-Pacific and 
PACOM, a huge amount of territory to cover. Thank you so much 
on all of our behalf.
    [The written statement of Congresswoman Hanabusa follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Visclosky. Thank you very much.
    Mr. Frelinghuysen. I believe this does conclude our open 
hearing for Members, and appreciate all the staff assistance. 
And whatever we need to put in the record that is submitted, we 
will do that within the allotted time. And we stand adjourned 
until April 8. Is that right? April 8. Thank you.
    Mr. Visclosky. Thank you, Mr. Chairman.
                                         Wednesday, March 26, 2014.

                 U.S. PACIFIC COMMAND/U.S. FORCES KOREA

                               WITNESSES

ADMIRAL SAMUEL J. LOCKLEAR III, USN, COMMANDER, UNITED STATES PACIFIC 
    COMMAND
GENERAL CURTIS M. SCAPARROTTI, COMMANDER, UNITED NATIONS COMMAND, 
    COMMANDER, UNITED STATES-REPUBLIC OF KOREA COMBINED FORCES COMMAND, 
    AND COMMANDER, UNITED STATES FORCES KOREA

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. The meeting will come to order. I would 
like to recognize the ranking member for a motion.
    Mr. Visclosky. Mr. Chairman, I move that those portions of 
the hearing today which involve classified material be held in 
executive session because of the classification of the material 
to be discussed.
    Mr. Frelinghuysen. So ordered. Thank you, Mr. Visclosky.
    This afternoon, the committee will hold a hearing, a closed 
hearing, I may add, just for the record, on the status of the 
United States Pacific Command, United States Forces Korea, we 
are pleased to welcome Admiral Samuel J. Locklear, U.S. Navy 
Commander, United States Pacific Command; and General Curtis M. 
Scaparrotti, Commander, United Nations Command; Commander, 
United States-Republic of Korea Combined Forces Command, and 
Commander, United States Forces Korea
    Admiral, welcome back, and thank you for your service. You 
have been in command for over 2 years and you bring a wealth of 
knowledge to this hearing. We look forward to your views on a 
broad variety of topics in the Pacific area.
    General Scaparrotti, welcome to the Committee on Defense. 
Thank you for your service. We look forward to your candid 
assessment of what is going on in the Korean Peninsula. As 
everyone is aware, last year General James D. Thurman was our 
commander on the peninsula and he was asked by President Obama 
to stay close to home in Korea until the situation calmed down. 
General, we are happy that the situation today permits you to 
be here with us. However, we are reminded that we can never be 
completely sure what happens next in Korea, or for that matter, 
in Taiwan, or in the Taiwan Straits or in Indonesia.
    As our forces in Afghanistan return home, and services 
downsize to a peace-time structure, we are aware that China is 
modernizing its armed forces, and will have more ships that are 
significantly improved over earlier versions, including 
submarines and an aircraft carrier.
    Long-standing disputes over territory could bubble to the 
surface with little or no warning as we have seen. The recent 
Russian annexation of Crimea may encourage similar actions in 
the Pacific AOR. The pivot to the Pacific, some might say 
rebalance in the Pacific, will involve shifting as much as 10 
percent of our Navy's warships in the Pacific AOR; however, 
some of the Army's increases in military assets rotate forward 
into the Pacific to train, but will actually be based in the 
Continental United States.
    While discussing readiness, the committee is not convinced 
by catchy slogans. A force that is smaller but more agile is 
still smaller. Whether or not the force is adequate and how 
much risk is being taken requires a judgment of experts, which 
is why we have asked you to be here today to help sort all of 
this out as distinguished field commanders.
    One more topic we must discuss, and about which we want you 
to understand our position. Sexual assault will not be 
tolerated. It must be addressed in training and policy, and 
disciplinary action. Leaders of all ranks must lead by an 
example, and improper conduct may be dealt with swiftly with 
punishment that fits the crime.
    Gentlemen, before we get to your opening statements in a 
minute, but before we do, Admiral, perhaps you could update us 
very briefly on your involvement and those under your command 
for the missing jetliner?
    Mr. Visclosky. Mr. Chairman?
    Mr. Frelinghuysen. Yes, Mr. Visclosky.
    Mr. Visclosky. Before the Admiral starts, I just was remiss 
in my motion not to remind members that the map that has been 
provided to us is classified. But secondly, if I could just add 
to the chairman's statements. This is a closed hearing, 
gentlemen, and I think it would be very helpful to us as far as 
our future considerations is if you could be as candid as 
possible, and as frank as possible, because it is a closed 
hearing, not a public hearing.
    Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky. Admiral, 
welcome.
    [The written statement of Admiral Locklear follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [The statement of General Scaparrotti follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Clerk's note.--The complete transcript of the hearing 
could not be printed due to the classification of the material 
discussed.]
                                           Thursday, April 3, 2014.

                         MISSILE DEFENSE AGENCY

                                WITNESS

VICE ADMIRAL J.D. SYRING, USN, DIRECTOR, MISSILE DEFENSE AGENCY

                Chairman Frelinghuysen Opening Statement

    Mr. Frelinghuysen. The meeting will come to order. I would 
like to recognize Ranking Member Visclosky for a motion.
    Mr. Visclosky. Mr. Chairman, I move that the hearing, which 
involves classified materials, be held in executive session 
because there is classified material to be discussed.
    Mr. Frelinghuysen. So ordered. Thank you, Mr. Visclosky.
    This morning, our subcommittee holds a closed hearing on 
the fiscal year 2015 budget for the Missile Defense Agency. We 
would like to welcome Vice Admiral J.D. Syring, director of the 
Missile Defense Agency, to your first time appearing before our 
subcommittee. We welcome you and look forward to your testimony 
this morning.
    As the hostility continues to escalate on the Korean 
peninsula, the battery exchanges, the North Korean fire and 
directing a test of another nuclear device, we are increasingly 
concerned with the safety of our allies in the Pacific areas of 
operations and our own homeland defense against missile 
threats, realizing that our ground-based, mid-course defense 
has been plagued by test data in recent years, we're anxious to 
learn of any improvements to the system to increase its 
reliability. The threat is increasing. We have to figure out a 
way to make the program reliable to protect America and our 
allies. Pointing out some of this are several articles the 
members have in front of them from today's newspapers. Of 
course, North Korea's not the only threat we face. Iran 
continues to work on its own missile capabilities. And those 
two countries have been in collusion for quite a long time, I 
may add. We need to make sure that we are addressing the threat 
Iran poses, both to our allies and Israel and to other parties 
in the region, Europe, and to us here at home.
    We also need to hear your views on the capabilities of our 
missile defense, if indeed they are better than our adversaries 
China and Russia, and what other countries are doing that have 
missile capability, or even a less capable missile capability 
that could represent a threat in the hands of people who might 
want to use a missile.
    So welcome. We look forward to your testimony and an 
informative question and answer period. Before we invite your 
testimony, I'd like to turn to my ranking member, Mr. 
Visclosky, for any comments he may wish to make.
    Mr. Visclosky. Chairman, thank you for calling the hearing 
today.
    Mr. Frelinghuysen. And Admiral Syring is before us here. 
Your formal comments will be put into the record, but we 
welcome any comments you may wish to give.

                     VADM Syring Opening Statement

    Admiral Syring. Thank you, sir. Good morning, Mr. Chairman, 
Ranking Member Visclosky, distinguished members of the 
subcommittee.
    Out of our total request of $7.46 billion for the fiscal 
year 2015 missile defense program, we are requesting $1.3 
billion approximately, plus Air Force Early Warning Radar 
upgrades, for homeland defense. My highest priority remains the 
successful intercept flight test of the CE-II Exo-Atmospheric 
Kill Vehicle. In January 2013, we conducted a highly successful 
non-intercept test of the CE-II kill vehicle. Its performance 
exceeded our expectations and confirmed we are on the right 
track to return the GMD system to flight testing intercept. I 
am confident we have fixed the problem and look forward to 
conducting the intercept test this summer. It will be in June. 
Best test date right now is June 22nd.
    I'm also optimistic that we have identified the root cause 
of the intercept failure involving our first generation EKV 
last July when the CE-I kill vehicle failed to separate from 
the booster's third stage. We have accounted for the issue for 
the upcoming flight test and are working towards a correction 
to the entire fleet before the end of the year, underscoring 
the importance of testing.
                                ------                                

    The GMD system fielded in 2004/2005 was designed to counter 
a very simple threat from North Korea, a bare RV with no 
countermeasures. The intelligence and flight test data today is 
very clear that they have moved well past simple 
countermeasures and attitude control system development.
    Threat missile launches today contain RV's and non-RV's, 
which can include tanks, boosters, decoys and other 
countermeasures. The BMDS must decide which objects are lethal 
and which are not. We cannot shoot at every object seen by the 
sensors. If the enemy uses several decoys or releases junk to 
fly alongside the lethal target, the multiplication of objects 
in the target scene can quickly exceed the available inventory 
of interceptors. We must make better use of each interceptor 
and only shoot what is required to achieve confidence we have 
killed the lethal RV. We cannot afford to shoot our way out of 
this problem.
    This year's budget request will start the development work 
for a redesigned EKV, a long-range discriminating radar, and 
other discrimination upgrades needed across the BMD system to 
address the very problem I described. I am confident that our 
homeland defense capability will be greatly improved and ahead 
of the threat by 2020 with this added capability. The new EKV 
will address longstanding reliability concerns and the new 
radar will provide the needed sensor tracking and 
discrimination capability against a threat with complex decoys.
    We will continue to monitor Iran's development of longer 
range systems as the requirement for a CONUS Interceptor Site 
is considered to add battle space and capacity for the 
warfighter and to consider a permanent long range radar for the 
east coast as well. By 2020, when the Alaska discrimination 
radar is complete, our plan will be to move the Sea-based X-
band radar to the east coast for equivalent discrimination 
coverage against the Iranian threat.
    Mr. Chairman, you will find our plans for the procurement 
of additional ground-based interceptors, standard missile 3-
block IB's, and THAAD interceptors, as well as other planned 
improvements to the BMDS as part of my written statement. I ask 
that it be submitted to the record and----
    Mr. Frelinghuvsen. Consider it done.
    Admiral Syring [continuing]. And I look forward to your 
questions.
    [The statement of Vice Admiral Syring follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                       RECENT GAO REPORT FINDINGS

    Mr. Frelinghuysen. Thank you for your testimony. I spoke 
with you briefly. Will you comment on the GAO report? I know 
these things appear to be timed to cause a fair amount of agony 
and anxiety, but I know that you're prepared to address some of 
the issues in there. When you read the title of the report, 
``Mixed Progress in Achieving Acquisition Goals and Improving 
Accountability,'' that doesn't give us a full load of 
confidence. We have confidence in you, but in the overall 
program. And I may say, speaking personally, when I talk with 
my colleagues about our missile defense program, the comment I 
get is that people are skeptical about it, skeptical about its 
reliability. So I think one of the things we'd like to achieve 
here this morning, and we perhaps will have a full complement 
here, certainly those that are here are keenly interested and 
others will come, we'd certainly like to--I'd like your initial 
reaction to the GAO report, because they are, in some quarters, 
viewed as an honest broker and have pointed out some things 
that have quite a lot to do with how we put our bill together--
--
    Admiral Syring. Yes, sir.
    Mr. Frelinghuysen [continuing]. And how we fund you. Thank 
you.
    Admiral Syring. Let me cover the program parts of the GAO 
report first and then I'll talk more about EPAA, European 
phased adaptive approach, in more detail. The GAO has, and 
rightfully so, pointed out issues in the past with the Missile 
Defense Agency on concurrency and the way that we acquire 
systems, and developing overly optimistic concurrent 
acquisition strategies, and there are examples of that in the 
past, but I can tell you since I've been the director, we've 
actually stepped back, and in some cases, redone the 
acquisition strategies, for example, the way that we're testing 
and readying for tests and new interceptors for the GBI. That 
was on the path to test in early 2013. It was a highly 
concurrent development path and testing path. It was going to 
be, in my view, rushed to test as opposed to completing the 
necessary ground and workup tests for the intercept test, so we 
went back to that schedule in particular and redid it. There 
are other program examples in MDA before we examined it with a 
view as more fully concurrent schedules. And coming from 
outside the Agency into this job, you know, we looked at it in 
great detail, and have actually taken a turn to go back to all 
of the development schedules with MDA to ensure that we 
properly manage and account for concurrency: and in some cases, 
you know, made changes.
    The way forward is going to be very important in this area, 
because of the redesigned EKV now starting--the new radar now 
starting, the development of those acquisition strategies in a 
less concurrent way is going to be equally important to ensure 
their success.
    So we--I actually concurred with the GAO that concurrency 
had been a problem. It was actually cited in the last two 
reports, and I think we've made great progress in that area.
    Mr. Frelinghuysen. We're obviously, you know, looking at 
some pretty substantial investments towards 2018. We want to 
make sure those investments are founded on, you know, some 
strong assurances from you.
    Admiral Syring. Yes, sir.
    Mr. Frelinghuysen. Mr. Visclosky.

                    GROUND-BASED MID-COURSE DEFENSE

    Mr. Visclosky. Thank you. Admiral, let me ask you a 
question. We have 30 missiles deployed today, and it's 
anticipated that will grow to 44 by 2017----
    Admiral Syring. Yes, sir.
    Mr. Visclosky [continuing]. As far as deployment. If we 
were attacked today and we have a launch, would those work? Do 
you have confidence that we could shoot down a coming missile?
    Admiral Syring. Yes, sir.
    Mr. Frelinghuysen. You do.
    Admiral Syring. I do.
    Mr. Visclosky. What test results lead you to believe that?
    Admiral Syring. The prior test results in terms of actual 
intercept testing of the older interceptors were very 
successful. The CE-I, which I referred to in my testimony, had 
been successfully tested three different times up to the last 
failure and the first failure last summer. So it was 3 for 4 
with those, 0 for 2 with the--CE-II.
    Mr. Visclosky. If I could ask, just so I know, of the 30 
missiles that are underground today, do your remarks cover all 
30 of those?
    Admiral Syring. Yes, sir. 20 plus 10.
    Mr. Visclosky. And you're saying those would work today?
    Admiral Syring. Yes, sir. The reliability calculations are 
factored into the shot doctrine of the warfighter. They will 
shoot more than one against a threat missile depending on the 
extent of the scene, meaning when they see a threat RV, there's 
other stuff that's around it, and depending on how wide that 
scene is will determine whether they shoot four, five, six or 
seven against that threat missile.
    Mr. Visclosky. What about the other 10 that are deployed?
    Admiral Syring. They are the newer version and they are 
through shot management in a status that the warfighter will 
only shoot those if required.
    Mr. Visclosky. Okay. Accepting--and I'm not suggesting 
you're not being forthright, accepting that the first 20 
deployed would work today if we needed, the 10 are newer 
versions. I assume the next 14 to be deployed between 13 now 
and 2017 would be of the newer version?
    Admiral Syring. Correct.
    Mr. Visclosky. Why should we deploy any more until you have 
the same confidence that you could sit here and say those last 
10 would work like the first 20?
    Admiral Syring. You shouldn't. We shouldn't. And that's the 
reason that we're going to do an intercept test this summer, 
and it will guide our decision with the warfighter to install 
the next few that are ready to be completely integrated into 
the ground. And then there's an annual flight test between now 
and 2017 that will precede every batch of interceptors before 
they go into the ground through 44.
    Mr. Visclosky. So if I understand the sequence, and I hope 
the tests work, I can't imagine the system that it works, the 
10 in the ground would be essentially modernized. For lack of a 
better term. Are you telling us you wouldn't have the 31st 
deployed until you are certain it works?
    Admiral Syring. We wouldn't have the 31st deployed until we 
successfully pass the intercept test this summer.
    Mr. Visclosky. Is the 31st one under construction today?
    Admiral Syring. It was--it's at an intermediate stage, 
because when we had the failure back in December of 2010, we 
stopped integration and taking delivery of the GBI's for that 
very reason, and it would be a matter of restarting the final 
integration and delivery of those systems under contract.
    Mr. Visclosky. And if I could, just so I have a clear 
understanding, as I understand it, this is very pedestrian, we 
do have the sensors to know if somebody launches? We can track 
the missile? We can see if the booster works? And from what you 
are saying on the first 20, they were also--what you are saying 
is for those additional missiles that are under construction, 
they would not be under construction to the point that they 
would have to be retrofitted or modernized per the pressures 
cells as far as that last sequence, if you would, the end ping 
that's involved.
    Admiral Syring. The one--the interceptors that will fly 
this summer has the correction for the failure that we , saw in 
2010, which is an isolated inertial measurement unit (IMU), 
which is basically the navigation guidance section for the 
missile. And what had happened, for everybody's background, was 
there was excessive vibration induced into that measurement 
unit caused by the combustion of the divert attitude control 
system. So when it got into space, it will fire thrusters as it 
sees the threat to get to the threat, and in some cases, that 
would go into a very rough regime in terms of lots of shaking 
if it needed to go fast, and it shook the IMU. And the 
correction is now to isolate the IMU, shock absorbers, if you 
will, to account for that problem with combustion if it were to 
have to go very quickly to the threat. That correction will be 
fed back into the next--to your point, to the 31st interceptor 
before it is fielded, and we will test that obviously this 
summer.
    Mr. Frelinghuysen. Would the gentlemen yield?
    Mr. Visclosky. Absolutely.
    Mr. Frelinghuysen. If the threat involves a lot of decoys, 
what happens?
    Admiral Syring. Today, we would--the warfighter would shoot 
more to be certain of the outcome.
    Mr. Frelinghuysen. And those that we shoot more of are of 
the same reliability----
    Admiral Syring. They would----
    Mr. Frelinghuysen [continuing]. Group as the one that you 
have enhanced?
    Admiral Syring. They would first come from the older 
versions that have been successfully flight-tested and then 
they would go to the newer versions if required.
    Mr. Frelinghuysen. I thank the gentleman for yielding.
    Mr. Visclosky. I have used enough time. I am not a fan of 
concurrency and going back and modernizing, retrofitting just 
to get it right and then proceed. That is my concern going 
forward, and I am pleased that there is not going to be before 
final completion test until they get ready, and I hope 
generally.
    Admiral Syring. Sure.
    Mr. Visclosky. Thank you.
    Mr. Frelinghuysen. We are on your side. We want you to know 
there is a big--some questions need to be answered.
    Ms. Granger. Thank you, Mr. Visclosky.

                         THREAT OF NORTH KOREA

    Ms. Granger. Thank you. In front of us is a Washington 
Times article Wednesday about North Korea that poses some 
questions about how ready we are and how--what I would like to 
know is what is the assessment, how often do we do an 
assessment, how accurate are we, how do we get information from 
a country we don't have a lot of conversation with? And last 
week when North Korea launched those intermediate range 
ballistic missiles, we had no warning. So what is our system of 
warning? How soon did you know about that?
    Admiral Syring. There is intelligence that we've relied 
upon to give you both public and private testimony, and there 
is actually a very detailed briefing that is prepared by the 
intelligence community every morning that we read, myself, the 
chairman, the vice chairman and Secretary of Defense, so the 
very latest developments, and sometimes they are hourly 
developments, so we have very, very up-to-date information on 
what they are doing.
                                ------                                

    Ms. Granger. Is that the way the North Koreans have acted 
for some time, or with the change at the top? Is there a 
difference?
    Admiral Syring. They've acted this way during this sort of 
calendar year period of provocation, they did it last year, 
they are doing it again this year, they've done it previously 
in the spring. They typically knock it off about May, because 
that's when the rainy season happens, but we don't--we can't 
rely on that, but it has been on an annual basis when they've 
paraded these things around. In particular, my view, if they 
are doing this in response to the South Korean exercise that is 
going on, the United States would know it and you know they are 
shooting rockets as well into South Korea.
    Ms. Granger. Right. Thank you.
    Mr. Frelinghuysen. Thank you, Ms. Granger. Mr. Owens.

                         GMD CONTRACTING COSTS

    Mr. Owens. Thank you, Mr. Chairman. Admiral, nice to see 
you again.
    Admiral Syring. Yes, sir.
    Mr. Owens. A couple questions. Mr. Visclosky had queried 
you about the testing in 2010. You responded that you are 
making modifications as a result of that failure. Who is 
bearing the cost of that?
    Admiral Syring. We--the contract that we signed with Boeing 
has us bearing the cost of that.
    Mr. Owens. Now, is that because it was a design flaw?
    Admiral Syring. It was a design flaw, but it was--it was 
from the design that was rushed into the ground in 2004 and 
2005.
    Mr. Owens. Is that something that you are looking at in 
future contracting to make sure that those kinds of failures 
are borne by the contractor?
    Admiral Syring. Yes, sir. And the new kill vehicle 
acquisition strategy will include a contracting strategy that 
will put the latent defect design responsibility on the 
contractor.

                  MISSILE THREATS TO THE UNITED STATES

    Mr. Owens. The countries that you have listed in your 
testimony, India, Pakistan, China, Russia, Iran, what is the 
likely trajectory of a launch by them into the United States?
    Admiral Syring. There are two countries right now that 
possess the long--and I'll just talk about the rogue nations in 
particular, with North Korea and potentially Iran down the 
road. The estimate is that Iran could test launch an ICBM by 
2015, and I would assess that North Korea could launch an ICBM 
at any point.
    Mr. Owens. And what would--where would the trajectory be? 
Would it be a polar trajectory?
    Admiral Syring. Both would come from the north over the 
pole. The Iranians would come close to there, but would come 
more to the pole than the North Koreans.
    Mr. Owens. In the event of a launch, how many rockets would 
you expect them to shoot at the United States? The reason I ask 
the question is you said that in response to a target coming 
in, you might launch as many as five or six missiles to 
intercept. If I do my math correctly, that would leave you with 
a limited number of additional missiles to launch against 
another target.
    Admiral Syring. Yes, sir.
    Mr. Owens. So do you have an understanding of what their 
strategy might be if they were to engage in a launch?
                                ------                                --
----

    Mr. Owens. So you have a reasonably high level of 
confidence, then, that they would only be able to launch a 
number of rockets that you would have the capacity to 
intercept?
    Admiral Syring. Today, sir. And that is why it is so 
critical to get to 44 by 2017. And that is why it is so 
critical to have these discrimination capabilities, to get the 
shot doctrine down to where we might only shoot two and then 
assess through this radar we are talking about, and then shoot 
more if we have to, but hopefully not.
    Mr. Owens. Thank you very much. I yield back.
    Mr. Frelinghuysen. Thank you, Mr. Owens. Mr. Kingston.

                    ISRAELI MISSILE DEFENSE SYSTEMS

    Mr. Kingston. Thank you, Mr. Chairman. Admiral.
    Admiral Syring. Good morning, sir.
    Mr. Kingston. Thank you for being here. I want to ask you 
if we are going to finish up the funding for the Iron Dome this 
year. And the $176 million, is that completed?
    Admiral Syring. Right now we don't have--we don't have an 
agreement with them beyond that.
    Mr. Kingston. But will it be finished? I mean, is there any 
reason to believe that they need more time or more money?
    Admiral Syring. I think it is safe to say they will come in 
and ask for more money.
    Mr. Kingston. How much more? If you had to say, you know, 
is it 90 percent complete, is it 80 percent? What--how would 
you classify?
    Admiral Syring. Their requirement is, frankly, not well 
known as well as I can tell you what the U.S. requirement is 
and such. The funding that we requested will add two more 
batteries and a series of interceptors to their inventory, but 
what is not accounted for is how many are they expending 
through these uprisings and conflicts that happen. And I 
wouldn't say no, sir; I would say it has just not happened yet 
in terms of them asking for more funding, for more interceptors 
in particular.
    Mr. Kingston. Is Iron Dome still the primary? I mean, you 
know they need David's Sling and Arrow 3 development, but is 
Iron Dome the number one that is put--if you have a dollar, 
that is where you guys spend it?
    Admiral Syring. They are most concerned about that, having 
the proper inventory if there were to be another large scale 
conflict.
    Mr. Kingston. And what about the joint agreement clause 
about U.S. providers not being able to provide more than 5 
percent? Does that just artificially make it awkward and run up 
costs? And, you know, it seems like a lot of money we are 
giving them to hold us at 5 percent. Not only is it a little 
bit small, but there should be a lot of flexibility in that.
    Admiral Syring. We actually signed a co-production 
agreement with them 2 weeks ago that will give 30 percent of 
the FY 14 Iron Dome amounts to U.S. production capacity, and FY 
15 is 55 percent of what they provide to the United States.
    Mr. Kingston. And that is not part of the run-up costs 
doing that? It is not an option?
    Admiral Syring. Their position is that it has increased 
costs somewhat. Our data is different, that you all 
appropriated last year $15 million for non-recurring costs 
associated with co-production. Raytheon, who works very closely 
with us, is in contract negotiations with the Israeli Rafael 
Missile Company, and they indicated to us that it is no more 
than $11 million in non-recurring for their standup costs. In 
addition, there is a detailed contract negotiation going on 
with Raytheon and Rafael that has an agreement clause in it 
that it is not--that if the costs of components provided by 
Raytheon exceed 5 percent, that Rafael can go to a different 
source. So Raytheon has a strong motivation to provide 
affordable costs.
    Mr. Kingston. And then tell me where Arrow 2 and Arrow 3 
are, because there was a successful flight this January, right?
    Admiral Syring. Yes, sir.
    Mr. Kingston. And so that does mean that we are there when 
Arrow 3 and Arrow 2 starts getting ramped down?
    Admiral Syring. Arrow 2 has still not been through an 
intercept test. We've done a fly out test. We are testing the 
longer range target with them as well, and so is Arrow. I 
wouldn't say Arrow 3 is there until we get through two or three 
intercept tests. Arrow 2 is obviously fielded, but that is a 
lower tier system.
    Mr. Kingston. How many do they have? How many do they need 
apiece?
    Admiral Syring. Arrow 2?
    Mr. Kingston. Uh-huh.
    Admiral Syring. There is a series of radars and batteries. 
I don't know the exact number, I will get it to you for the 
record, but it has certainly provided a lower tier defense for 
them today.
    Mr. Kingston. Whatever is unclassified in that kind of 
discussion would be very helpful to me, the number that they 
need, the number that they have in Arrow 2, 3, and what their 
capacity is on Iron Dome.
    Admiral Syring. I will take that for the record. I am not 
sure it is unclassified based on how they hold their 
information, but I will get the information.
    [Clerk's note.--The answer was classified.]
    Mr. Frelinghuysen. We can talk about it here. It is just a 
question of whether you have the information.
    Admiral Syring. I think I will have to take it for the 
record, sir, to get you the exact number.
    Ms. Granger. Can I ask a question?
    Mr. Frelinghuysen. Jump in. We have a small number here.
    Let me add that you have brought General Greaves and Ms. 
Schlacter. Normally there is a huge group that comes with many 
of our witnesses, so we want to commend you for showing 
austerity.
    Mr. Kingston. If the chairman will yield, I want to say 
he's not just speaking for this committee, but for other 
committees. I think all of us are--and it perturbs us sometimes 
when witnesses come and they have an entourage with them, and 
you wonder, well, who is running the shop, so----
    Admiral Syring. I would drive myself if I had a parking 
space over here. I can't seem to find parking, so----
    Mr. Frelinghuysen. I think Ms. Granger wanted some of your 
time.
    Ms. Granger. If I could.
    Admiral Syring. Yes, ma'am.
    Ms. Granger. Because the information that I have is that we 
have entered the phase of Iron Dome where that part of 
production would move to the United States, and when that 
happens, it comes out of the money, so there won't be enough 
funding for the interceptors that were planned for, and that is 
why the President's plan has less--has a fewer number than they 
need. Is that not right? Thank you.
    Mr. Frelinghuysen. Do you reclaim your time, or go to Mr. 
Ryan?
    Mr. Kingston. I yield.
    Mr. Frelinghuysen. Mr. Ryan.
    Mr. Ryan. You are a gentleman, Mr. Kingston. Thank you. 
When you are a senator, you will have an entourage following 
you around, and we will call you out on it, too.
    Mr. Frelinghuysen. Maybe we should strike some of this from 
the record.
    Mr. Kingston. I was wondering what it will be like when I 
write a book. Will I get a big entourage, too?

                       POTENTIAL EAST COAST SITE

    Mr. Ryan. No. And no advance in the House of 
Representatives.
    Sorry you had to partake in all this. The discussion of the 
third ground-based mid-course defense system, and Ravenna, one 
of the four sites, is in my congressional district, and I just 
wanted to talk to you a little bit about timeline. You said it 
is going to be about 24 months for the environmental studies to 
be done. Is that still the case? Is it still something you 
think, in your estimation, is appropriate for us to move 
forward with? Obviously there are a lot of budget challenges 
and competing interests here. Can you talk a little bit about 
that?
    Admiral Syring. Yes, sir. The status is that we are done. 
And you know this well, sir, but for everyone else, we are down 
to four sites that we are looking at as part of the 
environmental study, and all four will be evaluated and we 
started that process. We are also on tap to develop a 
contingency plan, meaning don't discuss the environmental study 
for 2 years and then visit this again. This is like a 
development plan on how you would do it when the requirement 
came.
    So each of the sites will have a part to the contingency 
plan in terms of the specific issues that we have at each site 
in terms of how we would actually do it. It won't be the 
detailed, you know, design work until we actually select a 
site, but there is a lot of work that we can do at each site in 
terms of planning, requirements and acquisition, cost 
estimating that we will do as part of this contingency plan. It 
will be very comprehensive. We actually already have a very 
comprehensive requirements document written for a CONUS 
Interceptor site, meaning how would you take the requirement 
for A fielding 20 interceptors and then start to put it into 
specific language that I need this much power and this much 
geographic space, I need--you know, I need power at this 
capacity of this quality. That is just one example, but it is 
approximately a 300-page document, and we have worked on that 
over the last 6 months.
    All of that will progress, and our schedule is 24 months. 
And that is, frankly, aggressive for an Environmental Impact 
Study. The DOD average is, I would say, 3 years, almost 4 years 
in the past, but we have people from a global deployment 
standpoint that have done this worldwide that know how to do 
it. We did it in Alaska in that same period of time, so I am 
confident if we had to go do this, we could. So that is point 
one.
    Step two is your question on what is the requirement, what 
is the need, are we going to--you know, are we going to proceed 
with this. And I always answer that with the east coast CONUS 
interceptor site. We actually call it CONUS because east is a 
great value for battle space and capacity, meaning there is 
time to shoot later and there is time for the warfighter to 
assess whether we hit and killed the lethal object, or the re-
entry object. That is what the east coast site is.
    The priorities in terms of budget are as I laid out: Let's 
get to 44 interceptors by 2017; let's continue to improve the 
reliability of those interceptors so the warfighter has 
confidence; let's test those interceptors; let's focus on the 
discrimination and sensor capability to the west for North 
Korea first; and then as Iran continues development, monitor 
that. Frankly, my view is Iran is behind North Korea in ICBM 
development in technology, but that doesn't mean they won't 
catch up. And I think what you will see in the 2016 budget is 
Admiral Haney and General Jacoby will debate this requirement 
vigorously, and they would testify to you that they have seen 
the same benefit, but it is down to, you know, what is the near 
midterm priority given the budget situation I am under. And I 
think I have recommended to you the prioritization of that 
budget to more focus on North Korea first and then do the 
preparatory work for an interceptor site.
    Mr. Ryan. Where would--so obviously if you are talking 
about New York, Ohio, Michigan, it is a matter of seconds, I 
mean, the difference between----
    Admiral Syring. Yes, sir.
    Mr. Ryan. So where would this interceptor--if one was 
coming to the east coast, where would the collision be? Where 
would they meet?
    Admiral Syring. It would hopefully be up towards the 
northern part of Canada, north of--between the pole and Canada 
for a first shot, and then further on down if we hadn't hit it 
by then, but in all likelihood, you know, we have factored in, 
you know, where the booster would drop. That is actually the 
biggest concern in terms of when you shoot, where the booster 
drops, the first and second stage booster, and we would work to 
mitigate that through the flight control software to make sure 
it was developed.
    Mr. Ryan. Thank you, Mr. Chairman.
    Admiral Syring. And if I could just add, sir, the intercept 
in all likelihood, you know, it is in space, and the 
possibility, I mean, as the debris comes down, it will burn up 
on re-entry.
    Mr. Ryan. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Ryan. Mr. Womack.

                         THREAT OF NORTH KOREA

    Mr. Womack. Thank you, Mr. Chairman.
    We continue to see some alarming activity from North Korea, 
most notably from last year's launch. And I'd like to know what 
we have learned from those activities either about their 
capabilities or our own, and have any of these lessons 
surprised you?
                                ------                                

    Mr. Womack. What is your take-away from that?
    Admiral Syring. That they are becoming more provocative and 
less caring about the international reaction.
    Mr. Womack. So we know they have the capability. Does that 
change the--and we have known they have that capability, so it 
doesn't weigh in at all to any of our pre-planning into what, 
if any, response we would have for any provocative action on 
their part?
    Admiral Syring. Yes, it does. And when I talk defense, I am 
only one part of the equation, but this is the offense-defense 
strategy that Admiral Haney can talk to you more about and 
Admiral Winnefeld. In terms of when we do something 
preemptively, you know, that would be their decision, whether 
it is something that would trigger that level. I wouldn't say 
that the tests of an SCUD, you know--you know, advanced SCUD 
would trigger that sort of reaction.
                                ------                                

    Mr. Womack. Thank you. I will have more questions later. 
Thank you.
    Mr. Frelinghuysen. Mr. Cole, are you ready?
    Mr. Cole. I will pass this round. And thank you, Mr. 
Chairman.

                     MISSILE DEFENSE TEST FAILURES

    Mr. Frelinghuysen. I guess I have some time. What is 
considered to be a--what constitutes a failure? I certainly get 
the impression that sometimes when things fail, there is some 
positive spin to it. I sort of detect that. Is that something 
that I am misinterpreting?
    Admiral Syring. In terms of our failures?
    Mr. Frelinghuysen. Yes.
    Admiral Syring. No, sir. A failure is a failure, and until 
we successfully achieve an intercept with the new version of 
the GBI, it is unproven.

                    DISCRIMINATION AND SHOT DOCTRINE

    Mr. Frelinghuysen. Talk to the committee a little bit about 
what is called, and I refer to it along with Mr. Visclosky, 
that the decoy, the whole issue of discrimination here. People 
are going to be launching something, and you are suggesting 
that North Korea perhaps will be. And I think at times we are 
dismissive of North Korea's capabilities. I am not suggesting 
you feel that way, but I think sometimes people think it is 
sort of a Rube Goldberg and that things got shot over Japan and 
plopped into the sea, and in reality, they have ginned up their 
game, they have got a lot of people that have committed to this 
missile technology. Tell us about how we discriminate and how 
difficult that is in terms of the overall--maybe just refer to 
what we call the shot doctrine.
                                ------                                

    Mr. Frelinghuysen. So how are we ``doing''?
    Admiral Syring. Today we do not have the homeland defense 
discrimination capability. So today you look up and you see a 
cluster of objects. And certainly there is discrimination 
capability on the kill vehicle itself, but that is leaving it 
to chance. What you--what the warfighter will do is, based on 
how wide that cluster of objects is, they will shoot four, 
five, six interceptors into the cluster. This cluster can be 
seven kilometers wide. So what will happen is the kill vehicles 
as they come into the scene, will go for what they determine to 
be the most lethal object. That could be the re-entry vehicle, 
that could be the tank, that could be a decoy. The idea is 
based on the extent of the cluster and the number of lethal 
objects in that scene, we will put the proper number of 
interceptors up there to ensure that we kill the re-entry 
vehicle.
    Mr. Frelinghuysen. So they could shoot one, we could shoot 
four or six?
    Admiral Syring. Yes, sir.
    Mr. Frelinghuysen. It really depends.
    Admiral Syring. It does, on the extent of the cluster.

                       SEA-BASED MISSILE DEFENSE

    Mr. Frelinghuysen. Okay. Just educate me a little bit here. 
We have got sea-based.
    Admiral Syring. Yes, sir.
    Mr. Frelinghuysen. Is there a greater degree of reliability 
with the sea-based? Evidently there is.
    Admiral Syring. Sir, the sea-based intercept tests last 10, 
12 years, 28 for 34 successful intercepts. A much longer track 
record. The spy radar in the newer version of the Aegis weapon 
system computer program, it is called version 4.0, and the new 
missile, which has been developed and tested, which is the SM-3 
missile, this is a follow-on to the capability of the 1A, has a 
two-color seeker in the kill vehicle, which enables it to not 
only just discriminate from a Radio Frequency standpoint, but 
be able to now discriminate in two colors in terms of picking 
the decoy out of a potential infrared decoy scene. So lots of 
capability on the SM-3 interceptor. Not probably the same 
capability on the kill vehicle, but certainly the kill vehicle 
we designed that we requested is going to have that capability, 
the onboard discrimination capability as well. The spy radar is 
very good at the later versions in terms of discriminating a 
decoy scene. We have tested it against decoys. Last flight 
test, actually, had decoys up in the scene, and it picked up 
the lethal object and put a standard missile on the target.

                    COSTS OF MISSILE DEFENSE SYSTEMS

    Mr. Frelinghuysen. So put some numbers on the cost of what 
you are doing here and how much we have gotten for the amount 
of money we have invested?
    Admiral Syring. Yes, sir. The ground based mid-course 
defense system has--since 2001, we have spent just over $22 
billion. By 2019, with the request you have in front of you, it 
will be $30 billion. The two improvements that I have asked 
for, pleaded for, is to get on with the kill vehicle redesign 
to get out of the prototype nature of the versions that were 
fielded very rapidly and to provide the varied discrimination 
capability I spoke about.
    The kill vehicle redesign is just over $700 million over a 
period of years and the radar is just over $900 million. So we 
are talking about an additional development in that range for 
what I view as a rapid set increase in capability.

                         RELIABILITY CHALLENGES

    Mr. Frelinghuysen. This is just a personal observation. 
Your soft underbelly, sort of what I referred to earlier, is 
just the skepticism about, you know, that this type of 
investment, and you are not in the public relations business, 
but in reality, these tests that are recorded, maybe they are 
not recorded the way that you would like them to be recorded, 
but there is a sort of essence here that we are making these 
substantial investments, our committee, I think, has been right 
there with you, that things are not working out. You are 
assuring us with a great degree that they are, could work out 
within the time span. We often have a history of pushing things 
to the right here.
    Admiral Syring. Sir, I have been the director now for 16 
months.
    Mr. Frelinghuysen. I know your involvement is incredibly 
important. Maybe program source, you know.
    Admiral Syring. And we have been very successful with that 
program and the Aegis program in terms of the systems that are 
delivered can intercept any time we shoot. So it is not a 
matter of hit-to-kill technology being flawed. It is a matter 
of restoring or putting that discipline into this development 
for the mid-course defense program.
    You know--the fielding direction the President gave in 
2001, early 2002 was to put these into the ground and provide 
some defense against the rising North Korean threat. The design 
cycle was cut short, the system engineering-cycle was cut short 
and the prototypes were fielded, and, you know, we said we 
would come back and improve it. And what I am saying as the new 
director is now it is that time.
    Mr. Frelinghuysen. Mr. Visclosky.

                    MULTIPLE KILL VEHICLE TECHNOLOGY

    Mr. Visclosky. Thank you, Mr. Chairman.
                                ------                                --
----

    Mr. Visclosky. For an individual booster that is in the 
ground today, are there more than, if you would, one kill 
vehicle on top of that booster?
    Admiral Syring. No, sir.
    Mr. Visclosky. So when in response to the chairman's 
question, our launch capability, you are saying two, three, 
four depending on the decision-maker, those would be the whole 
booster, everything?
    Admiral Syring. One would be one, yes, sir.
    Mr. Visclosky. If you had 30 in the ground today, we launch 
four, we have got 26 left?
    Admiral Syring. That is correct.

        DISCRIMINATION CAPABILITIES OF GROUND-BASED INTERCEPTORS

    Mr. Visclosky. As you are doing the research, and I 
assume--and, again, there is just implicitly the difference 
between the 20 that you have confidence in and the new version 
is that ability to discriminate as to where that re-entry 
vehicle is what you want to destroy, to improve that ability?
    Admiral Syring. I would say it somewhat--I would say it 
differently, sir, if I could. That the discrimination 
capability of the CE-I, the older version, and the CE-II is not 
different.
    Mr. Visclosky. Okay.
    Admiral Syring. What we are talking about in terms of the 
difference in those versions was that the CE-II, and it is hard 
to say, because it hasn't intercepted yet, was done to improve 
some of the reliability concerns with the prototype nature of 
the CE-I's.
    Mr. Visclosky. And we are talking about a degree of 
probability. As you proceed with research and development, is 
the goal in the end, and there is no certainty in life, is that 
you increase certainty at a launch as opposed to probability? 
Is that what you are looking towards as far as your shot 
doctrine?
    Admiral Syring. We want to--certainty of launch is part of 
the overall what I call reliability of each interceptor, 
meaning what confidence do we have that it will launch, it will 
boost, it will separate and it will kill. And there are 
probabilities assigned to each of those. And the warfighter has 
to be nearly 100 percent confident, so his shot doctrine 
accounts for the reliability. So if it is--say, it is 70 
percent, he knows that it will statistically provide 99 
percent, 99.9 percent assurance to the American people that we 
are going to kill the re-entry vehicle, he's going to shoot 
more.
    Mr. Visclosky. We talk a lot about the North Korean's and 
Iranian's, the question I have is capability, assume in a sense 
because, if you would, I am an old person, I remember mutually 
assured destruction, that is essentially the deterrent.
    Admiral Syring. Yes, sir.
    Mr. Visclosky. Thank you very much, Mr. Chairman.
    Mr. Frelinghuysen. Thank you, Mr. Visclosky. Mr. Cole.
    Mr. Cole. Thank you, Mr. Chairman. And I apologize for 
getting here late, but I was working for Mr. Calvert on another 
subcommittee.
    Mr. Frelinghuysen. Our sympathy.
    Mr. Cole. But my heart was always with you, Mr. Chairman.
    Mr. Frelinghuysen. Oh.

                CANCELLED EUROPEAN MISSILE DEFENSE SITE

    Mr. Cole. Looking at some of the range of possibilities, I 
know we have made some decisions that are both diplomatic and 
military in recent years, one of which was to cancel the 
deployment of anti-missile defense systems in Poland and the 
Czech Republic. Given what we have seen with the Iranians, and 
it wasn't designed to deal with the Russians, although I think 
it probably diplomatically had an impact on their thinking, 
certainly they reacted to it, would it be wise for us to 
revisit, based on your capacity, looking at those things, first 
from the Iranian perspective, but also there is clearly an 
ancillary diplomatic advantage for us? I won't ask you to 
comment unless you choose to.
    Admiral Syring. I have been asked this question before. The 
third site, not to relive history, but I have done a lot of 
research on it in terms of the challenges that they faced, it 
wasn't an easy thing to go do. There was obviously some benefit 
in terms of homeland protection against the Iranian threat, but 
the more near-term problem was the vast expansion of the 
Iranian regional threat to our allies and deployed forces. And 
the decision to go back and say let's focus on the region was 
made, and there are people on either side of that decision, but 
it was made for good reason.
    And, you know, I have gone back and looked at what did the 
actual--what would a two-stage GBI in the Czech Republic really 
provide? And it would encumber the same issues that I have 
spoken to the chairman and the ranking member about in terms of 
reliability. We'd be in the same place we are with having to 
shoot a bunch of interceptors at one threat.
    So the better decision at this point--and then there was 
uncertainty on the radar in terms of the Czech Republic that 
caused us to put the radar there, as I understand. The better 
discussion is that it will provide the most defense to the 
United States would be to first do what we are doing, which is 
discrimination, and then second, to do work with the 
interceptor site to prepare for that. And it would provide the 
added interceptor capability. And it would just not be east 
coast interceptor capability. You can do it today with the 30 
going to the 44 to protect the east coast against the Iranian 
threat. I had concerns, personally, about the trajectories from 
Iran and our ability to cover all of that from a third site in 
Poland.

                           THREATS FROM IRAN

    Mr. Cole. Thank you. That is very helpful, because it 
wasn't so hard--let me ask you another question concerning the 
Iranians. Obviously as you are developing our defensive 
capability--we are watching the defense capability. You have 
been doing it for a considerable period of time. Give me some 
assessment of how they are progressing in terms of their 
offensive capability. Are they doing it about as we 
anticipated? Are they having problems that maybe set them back 
or are they ahead of the trend?
    Admiral Syring. I'm sorry, sir. You said Iran or North 
Korea?
    Mr. Cole. Iran.
                                ------                                

    Mr. Cole. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you. Just remind members that this 
is a classified hearing, so what you are hearing could not be 
repeated in some other form outside the room.
    Mr. Moran.

                            SM-3 IB TESTING

    Mr. Moran. Thanks very much, Mr. Chairman. I apologize for 
being late, but we had a terribly important hearing under 
Chairman Calvert, so you can understand.
    You talked about the GAO report. And I did want to clarify, 
though, Admiral, they suggested that you delay Raytheon's 3--
SM-3 Block 1B missile until further more successful testing was 
achieved. Have you done that? Have you carried through that 
part of the recommendation?
    Admiral Syring. No, sir. Let me tell you why. The----
    Mr. Moran. Has this been asked before?
    Mr. Frelinghuysen. It has. And I apologize. The coffee 
machine has a way of regurgitating when we want to hear you. 
Please speak up.
    Admiral Syring. The SM-3 1B went through and successfully 
intercepted five of six times. And the SM-3 was built off--the 
SM-3 1B was built off the SM-3 1A, and we have actually 
intercepted successfully with both of those 20 of 22 times. The 
testing that we did in the 1B intercept program, that coupled 
with the ground testing that was done, the reliability 
calculation for the missile, meaning how reliable was it 
against this requirement, right now it is exceeding its 
reliability requirement with margin.
    Mr. Moran. So you said the GAO report was outdated, then, 
in terms of its conclusions with regard to that?
    Admiral Syring. I didn't agree with their conclusion on the 
SM-3 1B program.

                         THREATS FROM PAKISTAN

    Mr. Moran. Okay. Thank you. Admiral, it is understandable 
we talk a lot about North Korea when we talk about missile 
defense and Iran, so on, but I continue to have nagging 
concerns over Pakistan. If the worst was to happen and 
Pakistan's government imploded, what preparations do you have 
with regard to Pakistan and its nuclear capability?
    Admiral Syring. Sir, with all due respect, I would be out 
of my league answering that question.
    Mr. Moran. Yeah. Okay.
    Admiral Syring. And better suited for Admiral Haney or----
    Mr. Moran. Sure. Okay.
    Admiral Syring [continuing]. Or Admiral Winfield.
    Mr. Moran. All right.
    Admiral Syring. It would be speculation and personal 
opinion, which is not helpful to you.

                       MISSILE DEFENSE PRIORITIES

    Mr. Moran. Yeah. Okay. If you were asked to cut the missile 
defense program substantially and you had to pick two out of 
three, for example, what would you choose would be the most 
expendable in terms of our missile defense system? Of course, 
you are Navy. Why am I asking?
    Admiral Syring. The pressure and the requirements that I 
get from all of our combatant commanders is to actually be 
doing more than we are. Honestly--I should be doing more and 
providing more, I should be providing more navy ships, we 
should be providing more missiles, I should be providing more 
GBI's, I should be advancing the capability faster, I should be 
doing more with directing energy. There are a lot of things 
that we are doing that are okay given the budget situation and 
that they understand you can't always do everything, but there 
is not one program right now that I would put a bullet in.
    Mr. Moran. And I am sure the Air Force is going to say the 
same thing, I suspect, on that.
    General Greaves. Yes, sir. I support the Admiral.
    Admiral Syring. But I have got to say, sir, I don't know if 
you track this, but we were pursuing the PTSS satellite program 
and the SM-3 2B missile program, and both of those in last 
year's budget were killed. And I came in as the new director, 
was asked to assess both, and I agreed with both of those 
decisions. Technical immaturity, concurrent acquisition, 
overselling the actual capability of what those could provide, 
frankly, the cost, billions of dollars to get to field either 
one.
    Mr. Moran. How much did we save when we killed those 
programs?
    Admiral Syring. My estimate on the 2B development was 5- to 
$6 billion development program. PTSS was in the $10 billion 
range, probably.
    Mr. Moran. Mr. Chairman, thank you.
    Mr. Frelinghuysen. Thank you. Mr. Calvert.

                    GROUND-BASED MID-COURSE DEFENSE

    Mr. Calvert. Yes, Mr. Chairman. I apologize also, with all 
these hearings going on, but I appreciate your indulgence.
    So if a question has already been asked, please let me 
know, but as you know, the Pentagon announced a tactical shift 
in the ballistic missile defense strategy, changing the focus 
from the overseas to more of the domestic protection of the 
homeland. And part of that action, as I am sure has been talked 
about, is increasing the number of ground-based interceptors 
from 30 to 44. However, as I understand it, some of the mid-
course defense tests have failed, and I am not sure if that is 
the same standard missile testing you were talking about or if 
that is another missile also, and so that has been raising some 
questions of reliability and performance. So on these Missile 
Defense Agency, these ground-based mid-course defense systems, 
how do you see the recent test failures, and if it is the same 
failures, I am not sure if they are or not, how that is going 
to impact the purchase of additional ground-based systems?
    Admiral Syring. The last two tests of the new GBI have 
failed, and we have been in extensive rework period of the two 
issues that we saw during that flight test. They have been 
tested in a non-intercept flight test back in January of last 
year. We will test that again this summer, sir, in an intercept 
test, and we are confident through the testing we have done in 
the non-intercept flight testing, we are ready.
    The question is, what does it mean, the 44, which is a good 
question. And what I have said previously to the ranking member 
was in the budget request before you, we have asked for an 
intercept every year between now, and, frankly, it is every 
year between now and fiscal year 2018 before we field the next 
batch of interceptors. So there is an intercept test this 
summer that will inform our decision to field the next eight, 
which puts us on a wave, on a path to 44. So the intercept test 
in fiscal year 2015, that forms the next batch to fiscal year 
2017, so we have confidence.
    Mr. Calvert. So that is going to affect the timeline for 
the installation and deployment of these ground units?
    Admiral Syring. If there were a failure on the intercept 
test, yes, sir.
    Mr. Calvert. What initiatives is the Missile Defense Agency 
taking to improve the overall performance of the entire 
ballistic missile defense system in the near and long-term?
    Admiral Syring. Primarily in the area of discrimination.
    Mr. Calvert. Does that mean decoys?
    Admiral Syring. Yes, sir.
    Mr. Calvert. When you discriminate----
    Mr. Frelinghuysen. Mr. Calvert, we have covered some of 
this ground, but a little bit.
    Admiral Syring. Yes, sir. Decoys, the ability to pick out a 
re-entry vehicle from the decoy scene.
    Mr. Calvert. Thank you.
    Mr. Frelinghuysen. Mr. Crenshaw.

                MISSILE DEFENSE CAPABILITY ON NAVY SHIPS

    Mr. Crenshaw. Thank you, Mr. Chairman. And I apologize for 
being late. I had to chair another subcommittee. I know we are 
all busy. But welcome, Admiral. And thank the chairman.
    This is, I know, the first time we have had a briefing like 
this, and I think to your credit, sir, and I am glad you are 
here before the subcommittee. I imagine you have talked a lot 
about all the issues that surround ballistic missiles, missile 
defense. It is the one thing that I wanted to bring up, because 
we talk a lot in this subcommittee about numbers matter, and I 
know if we don't have the land-based missile defense that I am 
sure you have talked about already, the fact that a lot of that 
will now be designated for ships, cruisers and destroyers, and 
we have heard testimony in this subcommittee often that we 
don't have all the ships that we need, and when we have less 
ships, then we have less capability. So could you just comment 
on that, on that piece? For instance, one of the things we 
heard from the Secretary of the Navy, there is a plan to lay up 
11 cruisers, take them out of service, not decommission them, 
but it will take up to 9 years to modernize them, so they will 
be docked somewhere. So when we have less ships, it seems to me 
we have less capability. Can you comment on that as it impacts 
your ability to do the things you need to do?
    Admiral Syring. We have today 30 ballistic missile defense 
ships in the Navy, and those are in extraordinarily high demand 
by the combatant commanders, and in some cases, and all cases 
we are not meeting the full requirement as is. They take risks. 
They understand that. Because you need to consider ship 
stations and deployment, times and maintenance times, you 
really begin to--up to 10 of the 30 are available at any one 
point in time. About a third is a good metric. We are going to 
have 43 ships by 2019, which is going to be vitally important 
to them.
    The other part of both the modernization plan and the new 
construction plan going forward is that when we build a 
destroyer or we modernize a destroyer, or cruiser for that 
matter, it will come with a computer program and missiles to be 
multi-mission, meaning it will have all the mission capability 
it has today plus ballistic missile defense, which I think is 
going to give the combatant commanders great flexibility in the 
future where you don't have to think about the BMD destroyer, 
you think about a destroyer, and it is inherent that the BMD 
capability----
    Mr. Crenshaw. But just until we get to that point, I guess 
we are assuming, like any situation, more risk and we have got 
to balance that.
    Admiral Syring. Yes, sir.
    Mr. Crenshaw. Thank you. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Thank you. Mr. Kingston.

                             STEM EDUCATION

    Mr. Kingston. Thank you very much, Mr. Chairman. Admiral, 
we hear a lot that we are falling behind on STEM and STEM 
education in the years, and I am never really sure how much of 
that is politically popular rhetoric versus how much is 
reality. But, you know, just incredible to understand that, you 
know, your mission's been described as hitting a golf ball in 
outer space 200 miles away, and it takes a lot of smart kids to 
do that. So I was just wondering, you know, is it really--are 
we really dangerously behind on STEM? Are we getting there?
    Admiral Syring. We----
    Mr. Kingston. And I am not asking for expert testimony and 
all that, but just a general question.
    Admiral Syring. We at the Agency, we have a very active 
STEM program to go and not just deal with the college folks 
graduating, but to get in at the high school level as well with 
the importance of science technology. And I will give you an 
anecdotal metric, if it is useful to you.
    When we have an opening for a rocket scientist, because 
that is what we have, you know, people with--the smartest 
people, and I have said this, probably the smartest people in 
the world working at the Missile Defense Agency. We haven't yet 
seen a problem with qualified applicants in terms of getting 
the right people to come work on a very exciting mission. I 
have many more applicants than what we have space for. So 
people want to work there, people understand the importance.
    That said, I do--I agree with your premise that there is a 
wider problem in the United States of growing those type of 
people. The STEM metric that I see and internalize is that 
between China and India, there are 2.4 billion people, and 
society says about 10 percent of those will be exceptional, 
high performing people, so their gene pool every year is 240 
million exceptional, high performing people. Our population is 
320 million, so we are picking from 32 million people every 
year, if you will. So we are up against those sort of volume 
and metrics, and, frankly, I am concerned about it.
    Mr. Kingston. When you are looking at those applicants, 
which universities are you typically seeing that, you know, are 
really turning them out? And I don't necessarily mean that they 
are the best and the brightest, but that their interest level 
is pushing them in your direction?
    Admiral Syring. The United States Naval Academy. That is a 
guaranteed job.
    Mr. Kingston. That was a setup. I know, this is a very 
important question. As you know, I went to Georgia Tech, but I 
wanted to throw some bones to some of the people.
    Admiral Syring. Not Notre Dame.
    Mr. Frelinghuysen. Your time is expired. Notre Dame is 
recognized, Mr. Visclosky.
    Admiral Syring. Yeah. We are seeing--we see a lot of 
candidates from MIT, from Virginia Tech, frankly, from the 
University of Alabama in Auburn, down in the Huntsville area, 
and there is no shortage of qualified engineers coming out of 
those schools that want to work on missile defense.
    Mr. Frelinghuysen. Mr. Visclosky, equal time.
    Mr. Visclosky. You get some gold stars there.
    Mr. Frelinghuysen. He did his homework, didn't he?

             TRANSITION OF MISSILE DEFENSE TO THE SERVICES

    Mr. Visclosky. He did his homework.
    On the transition of missile defense, a couple of 
questions. What is the plan as far as the transition of 
elements of your ownership to the military services for 
operations?
    Admiral Syring. Yes, sir. That the system is being 
transferred in terms of the THAAD batteries that have been 
fielded and transferred to the Army. We are going to in total 
field seven THAAD batteries, and as they are completed in 
production, they will transition to the Army. The Aegis 
systems, as they field and are tested, transition to the Navy 
for operation. Certainly we continue to participate in terms of 
the operation and support of the BMD's specific missions, which 
is a part of what they do just so that the Navy is not funding 
that all on their own, so there is an operation and support 
tail for us for that system. We also help the Army.
    There is a small cell that helps the army with the THAAD 
system as well to continue the engineering support, software 
support that they need from us, but those two systems transfer 
to the Navy and the Army. The GMD system has resided and I 
think will reside with me for, you know, the foreseeable 
future. It is operated by the Army National Guard up in Alaska 
and under the control of the northern command and the strategic 
command, but given the low procurement quantities and, frankly, 
the issues that we are working through, that is still my 
responsibility in terms of development in the field.
    Mr. Visclosky. Of the $7.5 billion request, are there 
iterations of those expenditures in the services in the 
existing budget or is there a transition as far as what the 
military will be picking up out of that amount? Of the various 
services, I should say.
    Admiral Syring. There are agreements that reside with each 
of the services on what the plan is for transition and their 
responsibilities.
    Mr. Visclosky. And I assume that they are continuing to 
grow, then, to some point as you continue to transition.
    Admiral Syring. Yes, sir. We will assume more of the THAADs 
and the issues responsibilities, just like the Army has 
completely taken over the Patriot, for example.
    Mr. Visclosky. Thank you, Mr. Chairman.

                    ISRAELI MISSILE DEFENSE PROGRAMS

    Mr. Frelinghuysen. Just reclaiming, thank you, Mr. 
Visclosky, my time. Just a few comments on the relationship, 
our relationship with the state of Israel. I do think that the 
investments our committee has made certainly if your nation's 
survival depends on technology to some extent, that is what we 
are--we have--I think we have provided them with a degree of 
survivability. And I would think in some ways they are a sort 
of test bed for technology and expertise. And I am sure you 
would assure us that you are following very closely everything 
they are doing?
    Admiral Syring. Yes, sir, we are; on the development 
programs, very, very close.
    Mr. Frelinghuysen. This committee's been involved, I think, 
for maybe 15 years. God only knows whether it was on Arrow for 
a long time.
    Admiral Syring. We are co-developing them with Arrow. And I 
have a program manager who is, frankly, in Israel today working 
with them.
    Mr. Frelinghuysen. Oh, it is a commendable situation, and I 
think we benefit from that.
    Admiral Syring. We rely on them and their expertise. 
Without them, we couldn't do it.

                    RUSSIAN AND CHINESE CAPABILITIES

    Mr. Frelinghuysen. Just could you briefly comment--
sometimes we take our eye off the ball. How will you briefly 
describe where the Russians are, where the Chinese are? 
Oftentimes we use these expressions, you know, this nation is 
more robust than the other and then some perhaps not up to 
speed. How would you classify your counterparts in Russia and 
China in a brief summation?
    Admiral Syring. Yes, sir. Their ballistic missile defense 
capability in both nations is increasing numbers and 
capability, and we know that. And we know that we will never 
be----
    Mr. Frelinghuysen. Land-based, space-based?
                                ------                                

    Mr. Crenshaw. Will the gentleman yield on that point?
    Mr. Frelinghuysen. Yes. Mr. Crenshaw.
    Mr. Crenshaw. I read that we are having talks--when we 
cancelled the missile defense in the Czech Republic, Poland, 
that we had conversations with Russians about missile defense 
and then, of course, after the Ukraine, we halted those. Is 
that going on, that we are sharing information?
    Admiral Syring. No, sir.
    Mr. Crenshaw. Not true?
    Admiral Syring. Not since I have been the director----
    Mr. Crenshaw. Thank you.
    Admiral Syring [continuing]. For 16 months.
    Mr. Frelinghuysen.
                                ------                                

    Admiral Syring. On Russia information. Sure.
    Mr. Frelinghuysen. Well, Russia and China's capabilities.
    Admiral Syring. Yes, sir. We'd be happy to provide that.
    Mr. Frelinghuysen. Some of this I am familiar with, some of 
it I am not that familiar with, but I am sure everybody--part 
of their education appreciate that opportunity.
    Admiral Syring. The other thing, Mr. Chairman, if I can.
    Mr. Frelinghuysen. Please.
    Admiral Syring. The advance--you have all heard about the 
CSS Five, the 2-1 ballistic threat from China, and they have 
tested that several times and they have a few dozen in their 
inventory, is the ability of a ballistic missile at 1,600 
kilometers to target our sea base, and we are--in this budget 
have proposed a sea-based terminal defense program to field on 
the Aegis class ships with the SM-6 missile to defeat that 
threat.
    Mr. Frelinghuysen. Well, we will set something up.
    Ms. Granger.
    Ms. Granger. Thank you. Mr. Chairman, I would want to make 
note of the fact that I also had a subcommittee meeting, 
however, I was on time. I was on time. I just thought I would 
mention that.
    Mr. Frelinghuysen. We could not have a meeting without you.
    Ms. Granger. Thank you very much.
    Mr. Frelinghuysen. You are vice chairman.

              SHARING OF INFORMATION AMONG THREAT NATIONS

    Ms. Granger. That is right. Thank you.
    I was in Saudi Arabia, and the Saudis were talking about 
what was going on with Iran and how vital it was that we stop 
them from having a nuclear weapon. And the person I was talking 
to drew lines from that situation, if they had nuclear weapons, 
to the countries that would share and ensure their nuclear 
weapons all over the world, frankly. So I think it would be 
good also, what you are talking about and where Russia and 
China is, but also who's sharing and what their capabilities 
are. And I just ask you today, what is the likelihood that 
North Korea would sell their technology to Iran, or are they 
already sharing it?
    Admiral Syring. High. Yes, ma'am.
    Mr. Frelinghuysen. Would the gentlewoman yield?
    Are you saying that they, what, 17 years ago gave, you 
know, launch, missile launch stuff to Iran?
    Admiral Syring.
                                ------                                


                    ISRAELI MISSILE DEFENSE PROGRAMS

    Ms. Granger. One other short question, and I have 
information right now, but if we were to fill in the gap on the 
interceptors that Israel has said that they agree upon a number 
that is lower right now, what is the cost of that to fill in 
that gap?
    Admiral Syring. I was just telling the other distinguished 
member that we don't--we have asked, and to get their true 
requirement is very difficult for us. And they hold that very, 
very close.
                                ------                                

    Ms. Granger. Thank you.
    Mr. Frelinghuysen. Mr. Calvert or Mr. Cole. Mr. Aderholt 
gets 3 minutes.

                           RAILGUN TECHNOLOGY

    Mr. Calvert. Thank you, Mr. Chairman.
    Just a quick question. And maybe this is more theater 
defense versus ballistic defense, but this new Railgun 
technology coming online, I have read about the potential as a 
deterrent, especially for theater-type systems but do you see 
any future in that?
    Admiral Syring. I do. And we are working closely with the 
Railgun office on what it actually might provide. Certainly it 
is on the right side of the cost equation in terms of the 
cheaper projectile, but there are several technical challenges 
in terms of the gun barrel, the projectile that have to be 
worked through, but we are very interested in that technology.

                  INDEPENDENT ASSESSMENTS OF PROGRAMS

    Mr. Calvert. One other quick question. I would imagine in 
your world, assessment of the systems have to be absolutely 
right on. So how important is independent assessment of these 
type of systems to make sure that there is no prejudice 
involved?
    Admiral Syring. Critical. I actually--my test plan is 
actually co-signed with Dr. Gilmore in DOT&E, so he approved my 
test plan. And I couldn't have any more--I couldn't have a 
stronger partnership for that very reason.
    Mr. Frelinghuysen. Mr. Cole.
    Mr. Cole. Just quickly for the record, if those guys from 
Alabama were that smart, they wouldn't have underestimated 
Oklahoma in the Sugar Bowl. A Texan would never make that 
mistake.
    Mr. Frelinghuysen. That will be part of the record.

                    MISSILE DEFENSE PARTNER NATIONS

    Mr. Cole. I am still living in the afterglow of the moment.
    We talked a lot in this committee about the cooperation, 
the cooperative relationship we have with Israel in this 
particular area. Can you discuss, if any, the cooperative 
relationships we have with our European allies, other countries 
that we are working with jointly on this and the degree of help 
that is to our program?
    Admiral Syring. Yes. First I will talk NATO, then I will 
talk other examples of countries. Cooperation we have through 
NATO, we actually feel in 2011 the command and control 
capability, and their command and control in Europe is actually 
connected to our command and control as well to share 
information, share situational information from their 
standpoint. So there is actual interconnectivity between the 
United States and NATO on that.
    The partnerships that we have geographically are with 
Poland, Romania, the ability to send destroyers to Spain. This 
is more classified than we talked about today, work going on 
with the United Kingdom in a couple of very key areas. We are 
in discussions with the Netherlands on how they can provide 
sensing capability with their ships when they are at sea to 
provide the coverage as part of the network. And I would say 
that there are two or three other countries that we are working 
with to provide at least a situational awareness, certain 
tracking capability from their sources. The Netherlands and 
Germany were very forthright in terms of putting Patriot 
batteries into Turkey with the Syria uprising, and we are 
thankful for that. And I think there are technology 
opportunities in overhead sensing satellite capability that we 
continue to pursue a different classification of.

                             CYBERSECURITY

    Mr. Cole. One additional question, quickly, if I may, Mr. 
Chairman.
    You must be, from a foreign intelligence perspective, about 
the most tempting target in the United States in terms of 
technology, in terms of the things you deal with. Could you 
give us some description of, number one, your confidence that 
you are able to fend that off, and the kind of threats that you 
see coming--particularly, obviously, as it is related to cyber 
security, but any other just security concern you might have, 
that the technology that you have, which is very pressing and 
very important, you know, is ever at risk of being stolen or 
compromised.
    Admiral Syring. We have actually a 24/7 cyber security cell 
at MDA, meaning a fully manned, 24-hour watch team of 
individuals--I won't tell you the number, it would fill this 
room--that monitor the network trafficking and intrusion that 
happen every day, the people that are trying. And they are 
trying. And I have stood up, and this was stood up before me, 
but there is an active defense at MDA to counter that very 
specific threat.
    Mr. Cole. Okay. Thank you. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Excellent question.
    Mr. Aderholt, gentleman from Alabama.

                    NEW EXO-ATMOSPHERIC KILL VEHICLE

    Mr. Aderholt. Thank you, Mr. Chairman. I apologize for 
being late. As you know, our full committee chairman has a busy 
schedule of hearings, and I just came from my chairing an 
Agriculture hearing. So thank you for letting me come in a bit 
late this morning.
    I want to ask about the EKV. I was wondering if you could 
provide the committee what kind of profile and what kind of 
freedom of procedures you would need in order to test and 
deploy a new EKV by fiscal year 2018, and any comments that you 
could make about that?
    Admiral Syring. Yes, sir. The reason for the request is 
well known in terms of factoring it to more manufacturing, 
testing of the EKV. We requested because we are trying to get 
out of the design that was fielded back in the early 2000s of a 
prototype. And, frankly, to the chairman's point, we have had 
issues with that design, and the need to get this to a very 
high .99 reliability is critical for the long-range defense of 
the Nation. We requested $729 million in this year's budget, 
which includes the adequate funding for flight testing that EKV 
in 2018. We will actually do a non-intercept flight test and a 
flight test in 2018 to test that. And if those are successful, 
that will serve as the basis for us to begin manufacturing of 
those kill vehicles to go to the new interceptors, but maybe 
more importantly, to go back to the interceptors that are in 
the ground, where we can form fit replacement and take out the 
current EKV and put the new EKV in. That would be the plan 
long-term starting in 2020.
    Mr. Aderholt. If I don't know where you have it, but could 
you provide us with a list of how many interceptors each of our 
regional combatant commanders have requested broken down by 
base command?
    Admiral Syring. Yes, sir, for the record.
    [The information follows:]

    The fiscal year (FY) 2015 President's Budget funds an increase of 
the Ground-Based Interceptor (GBI) force from 30 to 44 by the end of FY 
2017. Currently there are 26 GBIs emplaced at Fort Greely, Alaska with 
4 remaining at Vandenberg Air Force Base, California. Location for the 
additional GBIs will be at Fort Greely or as directed.
    With regard to regional ballistic missile defense systems, the 
combatant commanders submit their requirements to the Joint Staff (J-3) 
for validation, prioritization, and apportionment by the Joint Staffs 
global force management process. The Missile Defense Agency defers to 
the Joint Staff for the specifics on how the interceptors are 
apportioned.

                              AEGIS ASHORE

    Mr. Aderholt. Okay. And I wanted to ask about your comments 
on the progress of working with our allies on Aegis ashore 
developments.
    Admiral Syring. Yes. The Romania development is doing very, 
very well. Mr. Chairman, to your point and others that have 
read the EPAA, the GAO EPAA report, I would take issue with the 
characterization of that, because we are on track. We actually 
fielded the command and control capability for EPAA phase 2 in 
late 2011, and that will be the capability that will be 
required for 2015 fielded in Romania. So that will bring with 
it the ability to, and we have it today, the ability of each 
ship to conduct launch operations, meaning able to fire from 
the ship without having a track on the radar. And we 
demonstrated that with two flight tests in the past 2 years. So 
that launch on remote capability is what gives you the coverage 
in Europe, so that we are going to have ships stationed there. 
And in order to get the wide defended area along with the Aegis 
ashore site in Romania gives us the first increment of European 
coverage, with the second increment provided by Poland in 2018. 
All of that is on schedule, on track. I took a briefing this 
morning on it, as a matter of fact.

                         TWO-STAGE INTERCEPTOR

    Mr. Aderholt. And just briefly, the two-stage version of 
the GMD interceptor and how it compares at coverage with the 
Aegis ashore deployment of our largest SM-3 missile, including 
development, would it be a strategic advantage to have those?
    Admiral Syring. We have a plan for a two-stage test in this 
year's budget. We have always had a plan it is going to be 
tested out in the 2019 time frame. There is some development 
work that has to go out and finish the testing to follow up on 
the testing that was done several years ago, but our plan still 
remains to field a two-stage interceptor, both at Vandenberg 
and Fort Greely. It provides us the flexibility with the three-
stage to handle problems with interceptors in terms of, say, we 
are not successful at two-stage, has a much shorter range, so 
if you needed to, you fire one of those in the end game just to 
make sure you have got it. So we view it as very complementary 
capability and required capability.
    As far as commenting about the two-stage, I went over this 
previously, the two-stage in Poland back in--it was cancelled 
back in 2009, it would have been the subject of the same shot 
doctrine limitations I have today with the current GBIs, so the 
ability to defeat, you know, more than one or two threats is 
probably what the tender provided. And in my estimation, it is 
best for us to focus on making use of the interceptors that we 
have with discrimination capability to get the shot doctrine 
down to protect the whole United States with less interceptors. 
We can do that today, but the shot doctrine is not where we 
want to be long-term, and it is up to me to provide the tools 
to make that decision.
    Mr. Aderholt. Thank you.

                             LASER SYSTEMS

    Mr. Frelinghuysen. Thank you. Just a couple of questions. 
When I first got on the committee, Jones & Bartlett kept 
pounding me on the magnetic pulse. I am not sure where the 
momentum--where that is these days, but I do have concerns. I 
know we have some investments in laser systems. I think we 
cancelled one, but this is--I come from the school, let's 
expect the unexpected. What are we doing, and perhaps more 
importantly, what are, let's say, the Russians and Chinese 
doing in this area? I hate to think we would be making all 
these substantial investments, but I assume as we do that, we 
are taking a look at ways that they could be disabled, crippled 
or, for that matter, vaporized.
    Admiral Syring.
                                ------                                

    Mr. Frelinghuysen. Well, I am talking about that, but I 
will be willing to talk about what you were talking about. I 
was just wondering where we are relative perhaps to--are the 
Russians and Chinese working on something and behind the scenes 
in their various stovepipes? I assume they must be doing 
something.
                                ------                                

    Mr. Frelinghuysen. Any further questions, Mr. Calvert? And 
now Mr. Womack has a question as well.
    Mr. Calvert. Just on your question on EMP. Are systems hard 
enough to withstand any attack?
    Admiral Syring. Yes, sir.
    Mr. Frelinghuysen. Mr. Womack.

                             LEVELS OF RISK

    Mr. Womack. Since Mr. Kingston asked the question about 
STEM, as a proud graduate of Arkansas Tech and not hearing my 
school in the response, I somehow don't feel qualified to ask 
any more questions.
    Actually, I do have one, and I have asked this of others. 
You mentioned earlier in your testimony all of the requests 
that you get from the combatant commanders for stuff, for your 
capability, and I know you try to get to yes on every request 
because you want to, but I also know that you can't get to yes, 
because you are in a resource-constrained environment. So what 
is the acceptable level of risk that you are--that we have to 
be willing to take as a country when we are not in a position 
to respond to the combatant commanders with exactly what they 
would prefer to have in their AOR?
    Admiral Syring. The process that we use is through the 
strategic command and their prioritized capability list. They 
come up, and General Haney comes up with a list of requirements 
for across all of their combatant commanders, so they feed him 
what their missile requirements are. He says, this is my 
priority, prioritized capability list. I then send back what is 
called an ACL, which is an achieve capability list, meaning 
here are your priorities and here is what I am doing to meet 
them. And I would say in large part they are met.
    Now, there are limitations to the number of Aegis ships 
that are driven by the Navy, right, in terms of I just can't--I 
can't build a ship. I modernize the ship with BMD capability 
based on the Navy's, so there is limitation in that way, but I 
think we have done an excellent job in terms of structuring our 
program to meet the combatant commanders' requirements with 
very few exceptions.

                               CONCLUSION

    Mr. Frelinghuysen. Thank you.
    As we conclude, I would just remind members we discussed 
some sensitive information which we should not--you know, not 
only us, but we are taking a look at perhaps some of our 
potential adversaries, we don't want to give anybody 
information that would be inappropriate. So please be careful 
about what you say.
    And, Admiral, thank you on behalf of the committee for the 
work that you do. Appreciate it.
    Admiral Syring. Thank you.
    Mr. Frelinghuysen. We stand adjourned.
    [Clerk's note. Questions submitted by Mr. Frelinghuysen and 
the answers thereto follow:]

              AEGIS System and SM-3 IB Missile Production

    Question. The fiscal year 2015 budget request procures three 
upgrades and five new installations of the Aegis system on ships, as 
well as 30 SM-3 Block IB missiles ($398 million), and advance 
procurement for future missiles ($69 million). There are concerns with 
the production ramp--up to 52 missiles were appropriated in fiscal year 
2014, and last year's budget request assumed procurement of 72 missiles 
in fiscal year 2015. However, instead of 72 missiles in fiscal year 
2015, the request only provides for 30 missiles and plans for 48 
missiles in fiscal year 2016. This profile will likely cause 
instability in the contractor's production line and will increase unit 
costs.
    Admiral Syring, the request for the SM-3 Block IB missiles has been 
cut by 42 missiles, and is 22 fewer missiles than what was appropriated 
in fiscal year 2014. What effect does this have on the production line 
and the unit cost of each interceptor? Is this a smart path for 
procurement?
    Answer. The Missile Defense Agency (MDA) has procured a total of 77 
Standard Missile-3 (SM-3) Block IB missiles within the last 10 months 
(29 missiles placed on contract in June 2013, 4 missiles placed on 
contract in August 2013, 8 missiles placed on contract in January 2014, 
and 36 missiles placed on contract in March 2014). We will place an 
additional 4 to 8 SM-3 Block IB missiles on contract by June 2014 for a 
potential total of 85 since June 2013. We anticipate awarding the 30 
SM-3 Block IB missiles planned in the President's Budget (PB) 2015 by 
February 2015. With a total of 115 SM-3 Block IB missiles in a 21-month 
period, the production line has sufficient quantities to remain stable.
    The missile quantity reduction requested in PB 2015 is due partly 
to advance procurement funding of missile components with lead times 
that exceed the current 24-month SM-3 Block IB planned production 
schedule. This production schedule was established by the acquisition 
strategy during production of SM-3 Block IA missiles and initial 
production of SM-3 Block IB missiles. Some SM-3 Block IB components 
have lead times that exceed the 24-month production contract. These 
lead times range from 26 to 35 months from contract date to first all-
up round delivery. The cost increase of $2M per round is due to a 
reduction in the size of order purchases and a reduction in production 
efficiencies within the SM-3 Block IB facilities.
    We are confident that our acquisition strategy is sound. We are 
reviewing the opportunity to enter into and execute a multi-year 
procurement contract for full rate production of SM-3 Block IB guided 
missiles starting in fiscal year 2016. A multi-year procurement 
strategy for the SM-3 Block IB missile will provide additional 
production line stability resulting in lower unit costs.

    Question. The budget request also includes advance procurement 
finding for SM-3 Block IBs with the goal to request authorization for 
multi-year production in next year's request. What cost savings do you 
hope to achieve with this plan?
    Answer: The Missile Defense Agency is compiling cost and pricing 
data to support an independent cost estimate by the Office of the 
Secretary of Defense, Cost Assessment and Program Evaluation for a 
fixed-price multi-year contract. We expect to complete this analysis to 
support the President's Budget 2016 submission. SM-3 Block IB multi-
year procurement authority is being evaluated for cost savings and 
programmatic stability across a four-year period (fiscal years (FY) 
2016 through FY 2019) for a range of 182-197 missiles. We expect a 10-
15 percent reduction in SM-3 Block IB unit cost through:
          <bullet> Savings from economic order quantity buy
          <bullet> Mitigation to missile components experiencing 
        obsolescence, such as electronic components (circuit cards)
          <bullet> Production efficiencies through better use of 
        facilities and predicted work force requirements for the 
        activities scheduled over the four-year period

                SM-3 BLOCK IIA Co-Production with Japan

    Question. The fiscal year 2015 budget request procures up to 17 SM-
3 Block IIA development missiles prior to beginning full production in 
the future. However, recent cost estimates from Japan suggest that the 
components they are supplying are higher than anticipated and 
unaffordable in the future. The SM-3 IIA is already estimated to cost 
almost $28 million per round.
    Admiral Syring, cost estimates for Japanese components of the SM-3 
IIA missile are coming in higher than anticipated. What is the plan to 
keep the missile at an affordable price? If Japanese industry is unable 
to lower their costs, what is the plan to procure those components and 
how would that affect the procurement schedule?
    Answer. The SM-3 Block IIA research, development, test, and 
evaluation (RDT&E) contract for 17 missiles to support integration and 
test is not awarded yet. The independent government estimate for the 17 
RDT&E missiles is $28.0 million per missile. The Missile Defense Agency 
(MDA) is working with the prime contractor (Raytheon Missile Systems) 
and the Government of Japan to refine the unit cost and start 
affordability measures before contract negotiations.
    An action item from the February 2014 United States--Japan 
Executive Steering Committee set a requirement for the Japan Ministry 
of Defense and the MDA to define SM-3 Block IIA production cost targets 
at section and missile assembly level. Further, they were to identify 
design options to achieve cost targets, develop an update cycle to 
implement design options, and define production insertion points. This 
effort will help the Japanese manufacturer identify design options 
achieving cost targets, identify cost reduction initiatives, and find 
opportunities to implement identified cost initiatives into the SM-3 
Block IIA design.
    In another action item, the U.S. prime contractor (Raytheon Missile 
Systems) was tasked to analyze U.S. capabilities for addressing 
Japanese component affordability. This analysis will give us the chance 
to insert identified cost initiatives into the design.
    We are awaiting results of the above action items before 
determining affordability measures to take for production of the SM-3 
Block IIA.

    Question: What is the acquisition objective for SM-3 IIA missiles, 
and how does that compare to the number that Japan is planning to 
procure?
    Answer: MDA is working with the Navy and Combatant Commanders to 
define a long-term SM-3 Block IIA procurement objective. Per the 
President's Budget 2015, 17 research, development, test and evaluation 
missiles and 44 production missiles will be procured between fiscal 
year (FY) 2017 and FY 2019. Japanese total procurement is planned for 
16-32 missiles.

    Question: What is the procurement schedule for the SM-3 IIA 
missile, how will it be deployed, and what role does it have in the 
larger BMD system architecture?
    Answer: The SM-3 Block IIA research, development, test and 
evaluation contract for 17 missiles to support integration and testing 
is not awarded yet. To accommodate scheduled flight tests, these 
missiles will be delivered starting in the fourth quarter of fiscal 
year (FY) 2017 through the third quarter of FY 2019. Current test 
events defined by the Integrated Master Test Plan (IMTP) 14.1 require 
firing eight SM-3 Block IIA missiles. Spare SM-3 missiles will be 
available for each flight test. Spares will roll to the next test event 
if not used.
    SM-3 Block IIA rounds not used in flight tests will support the 
validation of contractor manufacturing readiness (MR). They will prove-
out manufacturing processes, provide information on reliability, 
maintainability and supportability, and refine cost estimates. This MR 
data, along with the flight test data, is necessary to support the 
initial production decision (second quarter of FY 2017) and the final 
production decision (second quarter of FY 2019). We will evaluate all 
unexpended rounds for deployment to support European Phased Adaptive 
Approach Phase III (December 2018).
    The SM-3 Block IIA program is on track for deployment in December 
2018 to enhance the Ballistic Missile Defense System intermediate range 
ballistic missile defense capability. The SM-3 Block IIA will include 
increased raid engagement capabilities and capability to defeat a 
larger, more sophisticated threat set. With the Aegis BMD 5.1 weapon 
system, the engage on remote capability will permit engaging targets at 
extended ranges based on track data from remote BMDS sensors.

             European Phased Adaptive Approach/AEGIS Ashore

    Question. However, last week Secretary of Defense Hagel and British 
Defense Minister Hammond agreed on the need to bolster missile defense 
systems in Eastern Europe. It was reported that they want to speed up 
the timeline for the placement of missile defense systems in Poland, 
which are scheduled to be operational in 2018 as part of Phase 3.
    Admiral Syring, are the EPAA and Aegis Ashore programs on schedule 
to meet the 2015 and 2018 timelines?
    Answer: Yes, the Aegis Ashore program is on schedule to meet the 
2015 and 2018 timelines for EPAA Phase II and Phase III, respectively.

    Question: If the Aegis Ashore installation in Poland could be 
completed earlier, would it be outfitted with SM-3 IB missiles instead 
of SM-3 IIA missiles since the timeline for deploying the SM-3 IIA 
missiles is not until 2018? How would that affect the SM-3IIA program?
    Answer: The Aegis Ashore system will be able to launch SM-3 Block 
IA, IB and IIA missile variants. Should the decision be made to deploy 
Aegis Ashore Poland earlier than the current 2018 date, initial 
deployment of the system would not include capabilities in the Aegis 
BMD 5.1 weapon system (required to launch the IIA missile) or SM-3 
Block IIA missile. This decision would not affect the SM-3 Block IIA 
program of record.
    Note: The Missile Defense Agency delivers all SM-3 missiles to Navy 
Fleet Forces Command (FFC) for allocation to combatant commanders. FFC 
determines the mix of variants deployed to ships and ashore based on 
ballistic missile defense requirements through the Global Force 
Management process.

    [Clerk's note.--End of questions submitted by Mr. 
Frelinghuysen.]
                                            Tuesday, April 8, 2014.

                          U.S. AFRICA COMMAND

                                WITNESS

GENERAL DAVID M. RODRIGUEZ, USA, COMMANDER, U.S. AFRICA COMMAND

              Opening Statement of Chairman Frelinghuysen

    Mr. Frelinghuysen. I would like to recognize the ranking 
member Mr. Visclosky for a motion.
    Mr. Visclosky. Mr. Chairman, I move that the hearing today, 
which involves classified material, be held in executive 
session because of the classification of the material to be 
discussed.
    Mr. Frelinghuysen. So ordered.
    Thank you, Mr. Visclosky.
    Again, Members, what is discussed in here stays in this 
room.
    The United States Africa Command is one of six of the U.S. 
Department of Defense geographic combatant commands and is 
responsible to the Secretary of Defense for military relations 
with more than 53 African nations in its area of 
responsibility, the African Union and the African Regional 
Security Organization. While still based in Stuttgart, Germany, 
AFRICOM is responsible for all of the Department of Defense 
operations, exercises and security cooperation on the African 
Continent, its island nations and surrounding waters.
    AFRICOM began its initial operations in October of 2007 and 
officially became an independent command 1 year later. Although 
AFRICOM is relatively new, the command is very relevant, 
primarily due to the growing presence of al-Qa'ida and other 
terrorist organizations spreading across the continent. Much 
like Afghanistan prior to 2001, the African Continent has 
become the new haven for extremism. It has always been dealing 
with issues that relate to ethnic and religious hatred, and it 
is faced each and every day with incredible poverty among many 
of its people. With 6 of the world's 10 fastest-growing 
economies and a population of 1 billion that will double by 
2050, Africa's importance to U.S. national interests will only 
increase.
    We are pleased to welcome General David Rodriguez, the 
Commander of AFRICOM. He has commanded at every level and most 
recently led the U.S. Army Forces Command, the Army's largest 
organization.
    Thank you, General, for testifying before the subcommittee 
today. May I also add that you are a distinguished graduate of 
West Point, and, most importantly, your wife comes from Red 
Bank, New Jersey.
    As we have discussed, the committee is concerned that 
certain African countries over ready-made havens for terrorist 
training and recruitment activity during a time in which our 
way of life, and may I say their way of life, has been 
threatened by those with radical beliefs. The area within your 
command, because of its vastness and unmonitored country 
borders, is a prime target for extremist activity.
    We are particularly alarmed about the proliferation of more 
sophisticated IEDs, which I am sure you will tell us more 
about, and which you are intimately familiar because of your 
many years in the Middle East.
    And may I say I have a personal interest, and I am sure 
Members of Congress do, about the growing role of China and 
Russia, not only China's economic role, but the whole issue of 
foreign military sales. I think that sort of is something--an 
area where we may concentrate this morning.
    We look forward to your testimony, and I would like to 
yield to my ranking member Mr. Visclosky for any comments he 
may wish to make.
    Mr. Visclosky. Mr. Chairman, thank you for holding this 
hearing.
    General, I appreciate your service and your testimony 
today, and I do look forward to it. Thank you very much.
    Mr. Frelinghuysen. Thank you.
    General Rodriguez, the floor is yours. Your formal 
statement will be put in the record, and I appreciate your 
being here.
    [Clerk's note.--The complete transcript of the hearing 
could not be printed due to the classification of the material 
discussed.]
    [The written statement of General Rodriguez follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                            Tuesday, July 15, 2014.

                OVERSEAS CONTINGENCY OPERATIONS FUNDING

                               WITNESSES

HON. ROBERT O. WORK, DEPUTY SECRETARY OF DEFENSE
ADMIRAL JAMES A. WINNEFELD, VICE CHAIRMAN, JOINT CHIEFS OF STAFF
HON. MIKE McCORD, UNDER SECRETARY OF DEFENSE (COMPTROLLER)
    Mr. Frelinghuysen. Hearing will come to order. I would like 
to recognize Mr. Visclosky for a motion.
    Mr. Visclosky. Mr. Chairman, I move that those portions of 
the hearing today which fall as classified material be held in 
executive session because of the classification of the material 
to be discussed.
    Mr. Frelinghuysen. So ordered. Thank you, Mr. Visclosky.
    This morning the committee will hold a hearing on the 
recently announced overseas contingency operations budget 
request. I do have a statement, which, by unanimous consent, I 
would like to put on the record.
    [The information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Frelinghuysen. We are doing that so we can have enough 
time to focus on the many questions that we should be directing 
to our witnesses.
    This morning I am very pleased to welcome Secretary Robert 
Work, who is the new Deputy Secretary of Defense, having been 
in his position for a bit over 2 months.
    So, also, Admiral James A. Winnefeld, Jr., the Vice 
Chairman of the Joint Chiefs of Staff. Admiral, thank you for 
being here.
    And Secretary Mike McCord succeeds our friend Bob Hale, who 
is an old hand here on the Hill, having had its roots in 
authorization, but with good relationships with appropriators.
    So we are very pleased to have all of you. I think it is 
the first time any of you have appeared before our committee. 
We welcome you here at this early hour. And may I thank all the 
Members for being here so promptly, especially chief ranking 
member Nita Lowey of New York.
    Secretary Work, I understand you will sort of be testifying 
for the group, if that would be all right.
    Mr. Work. Yes, sir.
    Mr. Frelinghuysen. But I am sure we will be hearing from 
all of you during the course of the morning. So if you would 
proceed, your formal statement would be put in the record.
    [The written statement of Secretary Work and Admiral 
Winnefeld follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Clerk's note.--The complete transcript of the hearing 
could not be printed due to the classification of the material 
discussed.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
